<html>
<title> - YEAR 2000 CONVERSION EFFORTS AND IMPLICATIONS FOR BENEFICIARIES AND TAXPAYERS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
  YEAR 2000 CONVERSION EFFORTS AND IMPLICATIONS FOR BENEFICIARIES AND 
                               TAXPAYERS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 1999

                               __________

                             Serial 106-91

                               __________

         Printed for the use of the Committee on Ways and Means



                     U.S. GOVERNMENT PRINTING OFFICE
66-850 CC                    WASHINGTON : 2001
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                                                                   Page

Advisories of announcing the hearing.............................     2

                               WITNESSES

Social Security Administration, Hon. Kenneth S. Apfel, 
  Commissioner of Social Security................................     7
Financial Management Service, Richard L. Gregg, Commissioner.....    11
U.S. General Accounting Office, Joel C. Willemssen, Director, 
  Civil Agencies Information Systems, Accounting and Information 
  Management Division...........................................24, 84,
                                                                    187
U.S. Department of the Treasury, Dennis S. Schindel, Assistant 
  Inspector General for Audit, Office of Inspector General.......    28
President's Council on Year 2000 Conversion, Hon. John A. 
  Koskinen, Chairman.............................................    55
U.S. Department of Health and Human Services, Hon. Olivia Golden, 
  Assistant Secretary for Children and Families..................    69
Internal Revenue Service:
    Hon. Charles O. Rossotti, Commissioner.......................    92
    Paul Cosgrave, Chief Information Officer.....................   111
U.S. General Accounting Office, James R. White, Director, Tax 
  Policy and Administration Issues, General Government Division..   101
Bureau of Alcohol, Tobacco, and Firearms:
    John W. Magaw, Director......................................   126
    Patrick Schambach, Assistant Director, Science and 
      Technology, Chief Information Officer, and Year 2000 Senior 
      Executive..................................................   128
U.S. Customs Service, S.W. Hall, Jr., Assistant Commissioner and 
  Chief Information Officer......................................   134
U.S. Coast Guard, Rear Admiral George N. Naccara, Director, 
  Information and Technology.....................................   137
U.S. Department of the Treasury, Dennis S. Schindel, Assistant 
  Inspector General for Audit, Office of the Inspector General...   145
U.S. General Accounting Office, Randolph C. Hite, Associate 
  Director, Governmentwide and Defense Information Systems, 
  Accounting and Information Management Division.................   147
Health Care Financing Administration, Nancy-Ann Min DeParle, 
  Administrator..................................................   153

                                 ______

American Bankers Association, and Zions First National Bank, A. 
  Scott Anderson.................................................    15
American Hospital Association, and BJC Health Systems, Fred Brown   164
American Medical Association, and National Patient Safety 
  Foundation, Donald J. Palmisano................................   169
Blue Cross and Blue Shield Association, and Blue Cross and Blue 
  Shield Association of Florida, Curtis Lord.....................   177
H&R Block, Inc., Mark A. Ernst...................................   103
Joint Industry Group, James B. Clawson...........................   140
Medicare Rights Center, Diane Archer.............................   184
National Federation of Independent Business, William J. Dennis, 
  Jr.............................................................   106
National Governors' Association, Connecticut Department of Social 
  Services, and HCFA Systems Technical Advisory Groupon Y2K, 
  Julie Pollard..................................................    80

                       SUBMISSIONS FOR THE RECORD

U.S. Department of State, Arms Control and Disarmament Agency, 
  and U.S. Information Agency, Jacquelyn L. Williams-Bridgers, 
  Inspector General, statement...................................   197
U.S. Department of Health and Human Services, Thomas D. 
  Roslewicz, Deputy Inspector General for Audit Services, Office 
  of Inspector, statement........................................   200

                                 ______

White House Conference on Small Business, statement..............   203


  YEAR 2000 CONVERSION EFFORTS AND IMPLICATIONS FOR BENEFICIARIES AND 
                               TAXPAYERS

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 1999

                          House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:06 a.m., in 
room 1100, Longworth House Office Building, Hon. Bill Archer 
(Chairman of the Committee) presiding.
    [The advisories announcing the hearing follow:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE

January 21, 1999

No. FC-3

               Archer Announces Hearing on the Year 2000

                Conversion Efforts and Implications for

                      Beneficiaries and Taxpayers

    Congressman Bill Archer (R-TX), Chairman of the Committee on Ways 
and Means, today announced that the Committee will hold a hearing on 
the Year 2000 or ``Y2K'' computer conversion efforts, remaining 
challenges, and implications for beneficiaries and taxpayers. The 
hearing will take place on Wednesday, February 24, 1999, in the main 
Committee hearing room, 1100 Longworth House Office Building, beginning 
at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include officials of the President's Council on Year 
2000 Conversion; the Health Care Financing Administration; the 
Administration of Children and Families; the Social Security 
Administration (SSA); the Internal Revenue Service (IRS); the Financial 
Management Service (FMS); the U.S. Customs Service; and the Bureau of 
Alcohol, Tobacco, and Firearms. Witnesses will also include private 
sector organizations who represent program beneficiaries or taxpayers, 
as well as the U.S. General Accounting Office (GAO) and various 
Inspector Generals Offices. However, any individual or organization not 
scheduled for an oral appearance may submit a written statement for 
consideration by the Committee and for inclusion in the printed record 
of the hearing.
      

BACKGROUND:

      
    The United States, with almost half the world's computer capacity 
and 60 percent of the world's Internet assets, is the most advanced, 
and the most dependent, producer and user of information technologies. 
Most computers, computer systems, and telecommunications networks in 
use in the Federal Government are currently undergoing modifications so 
that they will be able to continue to function properly in the year 
2000 and beyond.
      
    Most computers in use in the Federal Government have stored 
information for each year in a two-digit format, which makes the year 
2000 indistinguishable from the year 1900. Unless they are changed, 
computer systems and telecommunications networks that are dependent on 
this two-digit year format can malfunction and cause costly problems 
for both commerce and government. Modifications have been underway for 
some time. Federal agencies, for the most part, are currently testing 
the renovated systems to make sure they will process transactions 
properly and produce accurate information. The agencies are also 
developing and testing contingency plans in the event of any failures.
      
    Of particular concern for this hearing are the Federal programs 
within the jurisdiction of the Committee on Ways and Means, including 
those administered by the U.S. Departments of Treasury, and Health and 
Human Services, plus SSA. Among the major programs affected are tax and 
trade administration, Medicare, and Social Security. The computers 
serving the programs within the Committee's jurisdiction affect more 
than 260 million Americans. The revenue programs affect every 
individual and business taxpayer, and the benefit programs impact the 
health and well-being of millions. These Americans rely on the vital 
services they receive and cannot afford to have them disrupted by 
computer failures, nor can they afford to have the computers produce 
erroneous penalty assessments or notices, or refund or benefit checks.
      
    In response to Chairman Archer's request in the 105th Congress, the 
Subcommittee on Oversight held two hearings and issued a report to the 
Full Committee on August 19, 1998, on the implications of potential Y2K 
problems on program beneficiaries and taxpayers (WMCP: 105-10). The 
Subcommittee report concluded that, with the possible exception of SSA, 
which was found to be in a good position, services to taxpayers and 
beneficiaries may be disrupted or otherwise jeopardized by computer 
systems or telecommunications networks failures unless certain actions 
are taken by the Administration, Congress, and the private sector. The 
report made several recommendations to preclude Y2K-related failures, 
including comprehensive systems testing and contingency planning. Since 
the report's issuance, the Subcommittee has continued to monitor the 
agencies' Y2K progress, with the assistance of the GAO and Inspectors 
General Offices, and has seen considerable progress in the agencies' 
Y2K conversion efforts.
      
    In announcing the hearing, Chairman Archer stated: ``With more than 
260 million Americans relying on vital services, we cannot afford to 
have disruptions because Y2K problems were not dealt with properly or 
expeditiously. The stakes are too high. We must get the job done, and 
done right.''
      

FOCUS OF THE HEARING:

      
    The hearing will explore the current status of Y2K renovation 
efforts, and the remaining challenges that agencies must overcome to 
ensure continuation of vital services provided through programs within 
the jurisdiction of the Committee on Ways and Means.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Wednesday, 
March 10, 1999, to A.L. Singleton, Chief of Staff, Committee on Ways 
and Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Committee office, room 1102 Longworth House Office 
Building, by close of business the day before the hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-diskette in WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.

      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``HTTP://WWW.HOUSE.GOV/WAYS__MEANS/''.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>


                         NOTICE--CHANGE IN TIME

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE

January 28, 1999

No. FC-3-Revised

               Time Change for Full Committee Hearing on

                     Wednesday, February 24, 1999,

                on the Year 2000 Conversion Efforts and

              Implications for Beneficiaries and Taxpayers

    Congressman Bill Archer (R-TX), Chairman of the Committee on Ways 
and Means, today announced that the full Committee hearing on the Year 
2000 computer conversion efforts, remaining challenges, and 
implications for beneficiaries and taxpayers, previously scheduled for 
Wednesday, February 24, 1999, at 10:00 a.m., in the main Committee 
hearing room, 1100 Longworth House Office Building, will begin instead 
at 9:00 a.m.
      
    All other details for the hearing remain the same. (See full 
Committee press release No. FC-3, dated January 21, 1999.)
      

                                <F-dash>


    Chairman Archer. The Committee will come to order. Good 
morning. Is January 1, 2000, going to trigger a global economic 
recession as economist Edward Yardeni has predicted? Or is it 
much ado about nothing? Are the survivalists right in preparing 
for a major catastrophe? Or is the administration's John 
Koskinen right that we should just prepare as we normally would 
for a long holiday weekend?
    We're here today for a public hearing on the year 2000 
computer problem, commonly known as Y2K. I hope that we'll get 
information to help us to answer these critical questions on 
how to prepare for the new millennium.
    Today's hearing will help us all better understand Y2K and 
how it can impact our lives, and what we can do to protect our 
own interests. We'll discuss Y2K implications for beneficiaries 
and taxpayers if the problem is not fixed in time by Federal 
agencies and those who are involved in the delivery of vital 
program services.
    After all, while Social Security authorizes retirement 
benefits for the elderly, Treasury actually makes the payments. 
The authorized payments are either delivered electronically 
through the Federal Reserve and into beneficiaries' commercial 
bank accounts or mailed through the Postal Service to 
beneficiaries' residences. For the elderly to continue to get 
their benefits in the year 2000 without disruption, the 
computer systems for the Social Security Administration, 
Treasury Department, Federal Reserve System, and commercial 
banks must all be Y2K-compliant and compatible with each other.
    With only 310 days to complete the renovation efforts, we 
expect the agencies have already renovated their systems. We 
want to understand how they are progressing in the testing of 
the renovated systems. To do so may involve the actual trading 
of data or processing of transactions with other organizations 
like healthcare providers submission of Medicare claims to 
Health Care Financing Administration intermediaries for 
processing and payment.
    Consequently, we are interested in what outreach efforts 
have been made by the agencies and what initiative has been 
taken by the trading partner to ensure Y2K compliance.
    We also want to learn what the agencies are planning to do 
to prevent disruptions to those processes in the event of Y2K-
related failures. The contingency plans should consider 
alternatives for doing business in the event key systems 
networks or infrastructures are not functioning or not 
operating property.
    With many agencies receiving an increasing amount of 
information from beneficiaries, providers, taxpayers, or 
importers electronically, each agency and its corresponding 
data trading partner will need to have alternative ways to 
transmit the data in the event of the Y2K-related failure. The 
alternatives, like reverting to paper processing, need to be 
properly planned. Resources need to be considered and fully 
tested to be sure they will serve their intended purpose.
    To ascertain how well the government is doing to prepare 
for Y2K, we have with us today a host of experts. Many work for 
the administration, many are nonpartisan authorities, and 
several come from the private sector. The Administration has 
received all the funding it has requested for Y2K. But I must 
say, if necessary additional funding is required, it's up to 
the agencies to inform the Congress so that we can adequately 
provide those resources.
    We will do so, where they are justifiably needed, but we 
must be told. I look forward to learning how well our 
government is doing in meeting this challenge. With so little 
time remaining and so much at stake for 260 million Americans, 
we must work together to rise to the Y2K challenge and make 
sure that vital services are not disrupted.
    Our first panel of witnesses today includes a gentleman who 
is no stranger to us after yesterday, Mr. Kenneth Apfel, 
Commissioner of the Social Security Administration; Hon. 
Richard L. Gregg, Commissioner for Financial Management 
Service; Scott Anderson, President and chief executive officer 
of Zions National Bank, Salt Lake City; Joel Willemssen, 
Director of Civil Agencies Information Systems, Accounting and 
Information Management for the U.S. General Accounting Office; 
Dennis Schindel, Assistant Inspector General for Audit, Office 
of Inspector General, U.S. Department of the Treasury.
    And if you would all please come to the witness table, we 
will be pleased to get the information which you can give us 
this morning.
    Mr. Rangel. Mr. Chairman.
    Chairman Archer. Yes, Mr. Rangel.
    Mr. Rangel. I just know how easy it is not to recognize me, 
but I just thought I would join in welcoming this panel and 
to----
    Chairman Archer. It's almost impossible not to recognize 
you, Mr. Rangel.
    Mr. Rangel. Well, you know----
    Chairman Archer. We missed you yesterday.
    Mr. Rangel. Yes, I was hoping you would. [Laughter.]
    But I wanted to congratulate you for having the foresight 
to have these type of hearings, especially in focusing on the 
departments and agencies in which we have jurisdiction. I think 
that through this type of leadership, with all of the 
Committee, Chairmen and Ranking Members, together working with 
the private sector that we might allay some of the fears that 
we have in this country, indeed throughout the world.
    I'm pleased that the Social Security Administration did 
lead in correcting the Y2K problems which they would have had 
in this area. And it's my understanding that some of the other 
agencies that had initial problems, the Health Care Finance 
Administration, have made dramatic progress since mid-1998. And 
so I merely wanted to be recognized to compliment you on your 
foresight, your vision, and your leadership.
    Chairman Archer. Thank you. Thank you, Mr. Rangel. I would 
add also that we have attempted to get representatives from all 
of the various departments and agencies over which we have 
jurisdiction before us today. I hope we have not missed any.
    [The opening statement of Mr. Ramstad follows:]

Opening Statement of Hon. Jim Ramstad, a Representative in Congress 
from the State of Minnesota

    Mr. Chairman, thank you for convening this important 
hearing on the Year 2000 (Y2K) Problem.
    The possible malfunction of the government's computer 
systems is a critical issue for all Americans. The magnitude of 
this potential problem is illustrated by the number of 
representatives we have here today. All of our constituents 
have a vested interest in how the different aspects of their 
government are working to avoid a potential disaster.
    Some progress on solving the Year 2000 problem has been 
made. But with only 310 days until January 1, 2000 it is up to 
Congress to ensure that we are doing our part to help solve 
this problem. We need to ensure that the people we represent 
are not left without the health care and financial services 
upon which they depend.
    I am pleased that this hearing will allow us to examine 
what the different agencies under our jurisdiction are doing to 
be prepared for the year 2000 and how they are coordinating 
their efforts with the organizations in the private sector with 
which they work.
    Again, Mr. Chairman, thank you for your own leadership in 
looking into the Year 2000 computer problem by holding this 
critical hearing.

                                <F-dash>


    Mr. Apfel, would you be good enough to lead off? We'll be 
pleased to receive your testimony.

  STATEMENT OF HON. KENNETH S. APFEL, COMMISSIONER OF SOCIAL 
                            SECURITY

    Mr. Apfel. Thank you, Mr. Chairman.
    It's an honor to be back before this Committee, just 15 
hours after leaving from my testimony yesterday, and to start 
off where I finished up last night.
    Mr. Chairman, Social Security will be there in 2055. Social 
Security will be there in 2033. Social Security will be there 
in 2013. And the Social Security benefit payment will be there 
in January of the year 2000.
    Chairman Archer. That is good to hear. [Laughter.]
    Mr. Apfel. Thank you, Mr. Chairman.
    My agency recognized early on the potential effects of the 
year 2000 problem and the critical importance of ensuring that 
our operations are unaffected. The Social Security 
Administration relies on a vast computer network to keep track 
of earnings for the 145 million workers, to pay monthly 
benefits to more than 50 million individuals, and to process 6 
million new benefit applications each year.
    Because so many Americans depend on our systems operations, 
we began to take remedial action on the year 2000 problem as 
soon as we recognized it. For the past several years, we've had 
some of our top people at work on this issue.
    I should point out Dean Mesterharm, 10 years ago, 
recognized this. He's now our Deputy Commissioner for Systems. 
Kathy Adams, Dean's Deputy, sitting behind me, has been heavily 
involved with the endeavors over the years, and has done a 
remarkable job.
    The magnitude of the task that we face cannot be 
overstated. We had to review systems supported by more than 35 
millionlines of in-house computer code as well as vendor 
products. We had to coordinate all of our efforts with other 
Federal and State agencies, and with third-party organizations.
    But the work has borne results. Today, SSA's benefit system 
is 100 percent year 2000 compliant. Of course, ensuring 
delivery of benefit payments in January 2000 and beyond also 
means that our agency has had to work closely with our 
partners, who help produce and deliver benefit payments: the 
Treasury Department, the Federal Reserve, and the U.S. Postal 
Service.
    And since last October, all Social Security and SSI 
payments have been made through year 2000 compliant systems at 
both SSA and the Treasury Department. The Federal Reserve is 
testing payment operations with banking institutions throughout 
the country, and Social Security transactions have been 
included in the materials tested.
    We have also made strong progress in making non-benefit 
payment systems Y2K compliant. For example, all 50 State 
Disability Determination Service systems operations, which 
support the DDS process, are now Y2K compliant.
    More than 99 percent of our data exchanges have been made 
Y2K compliant. We've begun testing our facilities 
infrastructure for Y2K compliance.
    Let me now turn briefly to the issues of Y2K contingency 
planning in our program of ongoing monitoring for continued 
systems compliance. Our business continuity and contingency 
plan addresses a wide range of eventualities. If a benefit-
payment-system problem should occur in January 2000, SSA field 
offices would provide emergency payment services to 
beneficiaries with critical needs. And the Treasury Department 
will issue a replacement check.
    It is also important to note that every one of the 1,300 
field offices across the country, as well as each State DDS 
unit, has its own contingency plan for continued business 
operations, if there are any service disruptions.
    The agency's contingency plan also addresses such needs as 
telecommunications, building operations, and human resources. 
This plan conforms with the GAO guidelines and, in fact, has 
been used as the model by both other Government agencies and 
private-sector organizations.
    I would like to cite one other key element of this plan, 
which we call our day-one strategy. It goes into effect during 
the rollover weekend of December 31 through January 3 and 
provides a timeline for tracking critical benefit-related 
events and ensures that key staff will be available throughout 
the rollover period.
    Now that all of our mission-critical systems are year-2000 
compliant, we have taken steps to make sure that we do nothing 
to introduce possible date defects into these systems. Since we 
must continue to modify these systems to accommodate 
regulations, recent legislation, and other required changes, 
such as the COLA announcement and the actual COLA increase, we 
have set up an ongoing recertification process.
    In addition, as a further safeguard, a moratorium for 
discretionary changes to our software will be put in place in 
September 1999. And that moratorium will remain in effect 
through March 2000.
    In conclusion, let me say that I'm proud of the fact that 
my agency has been at the forefront of Government and private-
sector organizations addressing year-2000 issues. I'm confident 
our systems are ready for this new challenge of the new 
millennium.
    When our offices open on January 3, 2000, we will be 
prepared to provide full service to the American public with 
the accuracy and reliability that they have come to expect from 
the Social Security Administration.
    Thank you, Mr. Chairman.
    [The prepared statement follows:]

Statement of Hon. Kenneth S. Apfel, Commissioner of Social Security

    Mr. Chairman and Members of the Committee: Thank you for 
inviting me to be here today to discuss the Social Security 
Administration's (SSA) Year 2000 conversion efforts and the 
implications for beneficiaries and taxpayers. SSA recognized 
very early the potential effect on beneficiaries and workers 
created by the Year 2000 problem. I am pleased to be here today 
to report on our progress and plans for the future.
                        Impact on SSA Operations
    SSA relies on a vast computer network to keep track of 
earnings for 145 million workers, take six million applications 
for benefits a year, and pay monthly benefits to over 50 
million beneficiaries. Because so many people depend on SSA's 
systems, we began to work on the Year 2000 problem as soon as 
it was identified in 1989. The magnitude of this project cannot 
be overstated: we had to review systems supported by more than 
35 million lines of in-house computer code, as well as vendor 
products, while coordinating efforts with State and Federal 
agencies and third parties.
    SSA's ability to provide world class service to 
beneficiaries, workers and their families depend on a complex 
infrastructure that is crucial to our ongoing operations. 
Power, data, and voice telecommunications, along with the 
Agency's computer operations hardware and software, are 
essential to ensuring that SSA's business processes are able to 
continue uninterrupted. Our automated systems are the means by 
which SSA is able to provide service on demand to the public.
    SSA has five core business processes through which we 
maintain the accuracy of beneficiary records and process and 
adjudicate claims:

    1. Enumeration, the process through which SSA assigns 
Social Security numbers;
    2. Earnings, the process which establishes and maintains a 
record of an individual's earnings;
    3. Claims, the process comprising actions taken by SSA to 
determine an individual's eligibility for benefits;
    4. Postentitlement, the process involving actions that SSA 
takes after an individual becomes entitled to benefits; and
    5. Informing the Public, the process by which we 
disseminate information about the programs we administer.

    I am confident that our systems will function on and after 
the Year 2000 to ensure that our core business processes 
proceed smoothly and without disruption as we move into the 
21st century. When we open our offices for business on January 
3, 2000, we expect to be prepared to provide our full 
complement of services to the American public with the accuracy 
and reliability that they have come to expect from SSA.
                     January 2000 Benefit Payments
    We are happy to report that our benefit payment system is 
100 percent Year 2000 compliant. SSA has worked very closely 
with the Treasury Department, Federal Reserve and the Post 
Office to ensure that Social Security and Supplemental Security 
Income checks and direct deposit payments for January 2000 will 
be paid on time. Since October 1998, payments for both Social 
Security and Supplemental Security Income programs have been 
made with Year 2000 compliant systems at both SSA and Treasury.
    SSA is working closely with the Treasury Department and the 
Federal Reserve to identify any Year 2000 problem that might 
affect direct deposit payments. If a problem should occur in 
January 2000, the Treasury Department will quickly issue a 
replacement check after recertification by SSA, and SSA offices 
will provide emergency payment services to beneficiaries with 
critical needs.
    I do not consider Social Security's job to be done until 
timely and correct benefits are in the hands of all of our 
beneficiaries.
            Status of SSA's Year 2000 Implementation Efforts
    I would like to discuss the status of SSA's progress in our 
Year 2000 implementation efforts.
    All of our mission critical systems have been made Year 
2000 compliant. These are the systems that support the core 
business processes I described earlier.
    Because they are so vital to our disability claims process, 
SSA is overseeing and managing the effort of assuring Year 2000 
compliance of State Disability Determination Service (DDS) 
systems. Fifty State DDSs have automated systems to support the 
disability determination process. As of January 31, 1999, all 
50 DDS automated systems are Year 2000 compliant and are being 
used to process disability claims.
    We recognize that it is not enough for our agency to be 
Year 2000 compliant if all our trading partners are not ready. 
Therefore SSA has worked with all of our trading partners, and 
I am pleased to say that 99 percent of our data exchanges are 
Year 2000 complaint. We are working with our partners to test 
the remaining 1 percent and get them implemented as quickly as 
possible.
    SSA has inventoried all of our telecommunications systems 
and we have a plan and schedule for all fixes and upgrades. 
Numerous acquisitions have been made that will result in the 
installation of telecommunications software and hardware 
upgrades. SSA is also working with the General Services 
Administration (GSA) in this effort, particularly with regard 
to testing vendor fixes. SSA's goal is to have all 
telecommunications compliant by the end of March 1999.
    SSA continues to work with GSA in addressing the Year 2000 
problem in the areas of our facilities infrastructure. We have 
inventoried our building systems and testing contracts have 
been awarded. Testing has commenced in some buildings, with all 
sites progressing as scheduled.
    Our independent verification and validation contractor, 
Lockheed Martin, completed a comprehensive review of SSA's Year 
2000 program and submitted their finding in October 1998. Their 
report covered all aspects of Year 2000 preparedness activities 
and found our Year 2000 methodology to be sound and feasible.
                      Focus of Activities in 1999
    Now that all of our mission critical systems are Year 2000 
compliant, we have taken steps to make sure we do nothing to 
introduce possible date defects into these systems. Since we 
must continue to modify these systems to accommodate 
regulations, recent legislation, and other required changes, we 
have instituted a re-certification process that uses a 
commercial computer software tool. In addition we have 
instituted a moratorium beginning in July 1999 on the 
installation of commercial off-the-shelf software and mainframe 
products. A similar moratorium is in place for discretionary 
changes to our software beginning in September 1999. The 
moratoriums will remain in effect through March 2000.
                Business Continuity and Contingency Plan
    Obviously, we all hope that there will be no need for 
backup or contingency plans. However, SSA recognizes that our 
systems are dependent on infrastructure services, such as the 
power grid of the telecommunications industry and third 
parties, which are beyond our control. Therefore, SSA has 
developed a Business Continuity and Contingency Plan. The plan 
was first issued March 31, 1998 and it is updated quarterly. 
The plan is consistent with Government Accounting Office 
guidelines and is being used as a model by other agencies and 
private sector organizations.
    The plan identifies potential risks to business processes, 
ways to mitigate each risk and strategies for ensuring 
continuity of operations if systems fail to operate as 
intended. The SSA Business Continuity and Contingency Plan 
addresses all core processes, including disability claims 
processing functions supported by the DDSs.
    As part of our Business Continuity and Contingency Plan, we 
have in place local plans for each of our field offices, 
teleservice centers, and processing centers, hearing offices 
and state DDSs. We have also developed contingency plans for 
benefit payment and delivery, building operations, human 
resources, and communications. Our benefit payment and delivery 
plan was developed in conjunction with the Treasury Department 
and the Federal Reserve.
                               Conclusion
    I would like to conclude by repeating that SSA was at the 
forefront of Government and private organizations in addressing 
Year 2000 issues. We are proud of our long-standing reputation 
as a leader when it comes to providing customer service, and we 
are confident that we will be prepared to continue that 
tradition when the new millennium arrives.
    I will be happy to answer any questions you may have.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Apfel, and thank you, also, 
for precisely complying with the 5-minute time suggestion. And 
I would alert all other witnesses that we hope you can get your 
verbal comments to us within 5 minutes and your entire printed 
statement, without objection, will be inserted in the record. 
And any Member of the Committee who wished to insert a written 
statement into the record, without objection, may do so.
    Our next witness is Mr. Richard Gregg, Commissioner of 
Financial Management Service. Mr. Gregg.

    STATEMENT OF RICHARD L. GREGG, COMMISSIONER, FINANCIAL 
                       MANAGEMENT SERVICE

    Mr. Gregg. Thank you, Mr. Chairman, Representative Rangel, 
Members of the Committee. Thank you for the opportunity to 
appear today to discuss the Financial Management Services year 
2000 program.
    FMS makes payments to well over 100 million Americans each 
year. We provide facilities and systems for the collection of 
taxes and other receipts, and provides governmentwide 
accounting and reporting and debt-collection services for the 
entire Federal Government.
    To provide these services, FMS depends on automated 
systems. And like most Federal agencies, FMS faces the 
challenges of adapting its systems to account for the date 
change to the year 2000. Correcting this problem has been and 
will continue to be our highest priority.
    FMS has made significant progress in addressing the year-
2000 problem. The systems that issue over 740-million 
Government payments, 86 percent of FMS's total payments, are 
year-2000 ready. The system that collected $1.1 trillion in 
Federal revenues in Fiscal 1998, is also Y2K ready. And 
compliance of all remaining FMS critical systems is on schedule 
for completion by or before March 1999.
    I want to assure you that FMS will continue to perform its 
critical functions in making payments and collecting revenues 
for the government on January 1, in 2000 and thereafter.
    I'd like to now provide a brief update of the current 
status of our largest and most critical systems. The vast 
majority of payments made by FMS are Old-Age and Survivors 
benefits and Supplemental Security Income payments issued on 
behalf of Social Security. These payments account for over 600-
million payments annually, which comprise 70 percent of FMS's 
payment volume. Our average monthly payment volume is 42-
million SSA payments and 6.5-million SSI payments, with a total 
value of approximately $30 billion.
    Since October 1998, SSA and SSI payments have been issued 
through year-2000 compliant systems.
    The FMS systems used to issue 27 million annual EFT 
payments on behalf of VA, for Veterans Compensation and 
Pension, and 10 million annual payments on behalf of the 
Railroad Retirement Board were implemented in December 1998. 
And the systems that issue the remaining 13 million VA payments 
will be implemented in or before March 1999.
    IRS payments account for over 10 percent of FMS's overall 
payment volume, with approximately 90 million tax-refund 
payments each year. Implementation of these systems was 
completed in July 1998 and all tax-refund payments since that 
time have been issued through Y2K-ready systems.
    The FMS systems used to issue 50 million annual EFT Federal 
agency salary and travel and vendor payments began 
implementation in January with customers serviced by our Kansas 
City Regional Finance Center. These same systems are now being 
implemented for customers serviced by our four other payment 
centers.
    And finally, the system that issues 28 million annual OPM 
annuity payments is finishing validation and certification 
testing and is scheduled for implementation in March.
    The systems that I've just mentioned comprise 97 percent of 
FMS's payment volume.
    With respect to collections, FMS manages the processing of 
more than $2 trillion in Federal revenues, which include 
corporate and individual income taxes, customs duties, and 
Federal fines. The Electronic Federal Tax Payment System, 
(EFTPS), through which FMS collected $1.1 trillion, or 56 
percent of the government's total collections, and 67 percent 
of total tax collections, was determined to be compliant in 
December.
    The IRS Lockbox, General Lockbox, Plastic Card and other 
collection systems that account for the remaining 44 percent in 
Federal Government revenue are targeted for implementation in 
March 1999.
    And FMS debt-collection systems, including the Treasury 
Offset Program, through which Federal payments to delinquent 
debtors are offset, are now Y2K compliant.
    With regard to government-wide accounting, FMS maintains 
the central accounting and reporting systems that track the 
Government's monetary assets and liabilities. Both the STAR 
central accounting system and the Government On-Line Accounting 
Link System, GOALS, which serves as the automated 
telecommunication link for all Federal program agencies to 
report their accounting and financial transactions for 
processing into the STAR Central Accounting System, will be 
Y2K-ready in March 1999. In fact, 13 of the 16 critical GOALS 
subsystems are now Y2K-compliant.
    The information with regard to the Inspector General's 
report was provided in my formal statement, so I won't go over 
that at this time.
    I would like to just briefly mention our contingency 
planning, which was also discussed by the Inspector General. 
FMS has successfully completed contingency plans for all FMS 
critical systems and non-mission critical systems. Of the 
contingency plans for FMS internally operated systems, 87 
percent are final, meaning that they have been revised and 
approved after review by an outside contractor. The remaining 
plans are under review by the contractor to assure that they 
are comprehensive and address all pertinent risks.
    FMS has set its priorities and is integrating system 
contingency plans with business priorities to make sure the 
most critical business functions will continue uninterrupted if 
problems occur. On top of the list are key systems such as 
Social Security, Supplemental Security and Veterans Affairs 
payment systems.
    Specific risks have been identified and strategies 
developed to mitigate those risks. For example, we are 
configuring our systems so payments can be processed in more 
than one computer center. This will enable FMS to rotate the 
workload should any Y2K disruptions occur in one area of the 
country or in one computer center.
    In addition, an emergency power generator has been 
installed to support our largest computer center in case of 
power outages, and system redundancy has been built into the 
nationwide network so that alternative routing can be used if 
there are data-communication problems. We are also working very 
closely with the Federal Reserve to develop integrated business 
resumption plans and risk mitigation strategies.
    In conclusion, FMS considers preparation for the year 2000 
as our absolute highest priority, ensuring that we are able to 
perform our mission in the year 2000. We will assign whatever 
resources are needed to ensure we do not fail to accomplish 
necessary Y2K changes to our computer systems.
    Thank you for the opportunity to appear this morning.
    [The prepared statement follows:]

Statement of Richard L. Gregg, Commissioner, Financial Management 
Service

    Chairman Archer, Representative Rangel and members of the 
Committee, thank you for the opportunity to appear today to 
discuss the Financial Management Service's (FMS) Year 2000 
(Y2K) program.
    FMS provides payment, collection, government-wide 
accounting and reporting, and debt collection services to most 
federal agencies, to individuals who receive money from the 
government, and to every individual who pays a bill owed to the 
government. Our services benefit federal agencies, government 
policymakers, and the taxpayers by promoting efficient 
financial management practices and facilitating the timeliness 
and accuracy of payment and collection processes. Additionally, 
our services allow the Treasury to administer prudent financial 
management policies, and facilitate centralized management and 
oversight of delinquent federal non-tax debt collection 
efforts.
    To provide these services, FMS depends on automated 
systems. Like most federal agencies, FMS faces the challenge of 
adapting its systems to account for the date change to the Year 
2000. Correcting this problem has been and will continue to be 
our highest priority.
    In 1997, FMS began working to make its systems Y2K 
compliant, completing a full assessment and prioritizing work 
according to the magnitude of impact on the public, 
particularly payment recipients. These systems progressed from 
renovation, in which the code changes are made, through the 
validation phase, in which renovated systems with Y2K code 
modifications are tested, into full implementation, in which 
the renovated and validated systems are put into production. 
Following implementation, the systems are certified Y2K 
compliant. For our highest priority internal systems, such as 
Social Security Administration and Veterans benefit payments, 
certification occurs only after an independent contractor 
verifies Y2K compliance by analyzing all test results to ensure 
that validation testing was successful and comprehensive. If 
re-testing is necessary, the contractor will provide specific 
guidance on the necessary steps to correct identified problems 
and achieve successful validation testing and certification. 
Post implementation reviews will be conducted throughout this 
year to further ensure compliance. For our external collection 
systems, the financial and fiscal agents are self-certifying 
based on the Federal Financial Institutions Examination 
Council's guidance.
    FMS has made significant progress in addressing the Year 
2000 problem. The systems that issue more than 740 million 
government payments, 86 percent of FMS' total payment volume, 
are Year 2000 ready. The system that collected $1.1 trillion in 
federal revenue in FY 1998 is also Y2K ready. Compliance of all 
remaining FMS critical systems is on schedule for completion by 
or before March 1999, and FMS will continue to perform its 
critical functions in making payments and collecting revenues 
for the federal government on January 1, 2000, and after.
    I'd like to now provide a brief update on the current 
status of our largest and most critical systems. The vast 
majority of payments made by FMS are Old Age and Survivor 
Benefits and Supplemental Security Income payments issued on 
behalf of SSA. These payments account for more than 600 million 
payments annually, which comprise 70 percent of FMS' payment 
volume. Our average monthly payment volume is over 42 million 
(30 million EFT) SSA payments and 6.5 million (3 million EFT) 
SSI payments with a total value of approximately $30 billion. 
Since October 1998, SSA and SSI payments have been issued 
through Year 2000 compliant systems.
    The FMS systems used to issue 27 million annual EFT 
payments on behalf of the VA for Veterans' compensation and 
pension, and 10 million annual payments on behalf of the RRB 
were implemented Y2K compliant in December 1998. The systems 
that issue the remaining 13 million VA payments will be 
implemented Y2K compliant in or before March 1999. IRS payments 
account for over 10 percent of FMS' overall payment volume, 
with approximately 90 million tax refund payments made each 
year. Y2K implementation of these systems was completed in July 
1998, and all tax refund payments since that time have been 
issued through the Y2K compliant system.
    The FMS systems used to issue nearly 50 million annual EFT 
Federal Agency salary, travel, and vendor payments began 
implementation in January with customers serviced by our Kansas 
City Regional Finance Center. These same systems are now being 
implemented for customers serviced by our other four payment 
centers. And, finally, the system that issues more than 28 
million annual OPM annuity payments is finishing validation and 
certification testing and is scheduled for implementation in 
March 1999. The seven systems that I have just described 
comprise 97 percent of FMS' payment volume.
    With respect to collections, FMS manages the processing of 
more than $2.0 trillion in federal revenues, which include 
corporate and individual income taxes, customs duties, and 
federal fines. The Electronic Federal Tax Payment System 
(EFTPS) through which FMS collected $1.1 trillion or 56 percent 
of the government's total collections and 67 percent of total 
tax collections was determined to be compliant in December. The 
IRS Lockbox, General Lockbox, Plastic Card and other collection 
systems that account for the remaining 44 percent in federal 
government revenue are targeted for implementation in or before 
March 1999. FMS debt collection systems, including the Treasury 
Offset Program through which federal payments to delinquent 
debtors are offset, are also now Y2K compliant.
    With regard to government-wide accounting, FMS maintains 
the central accounting and reporting systems that track the 
government's monetary assets and liabilities. Both the STAR 
central accounting system and the Government On-Line Accounting 
Link System (GOALS), which serves as the automated 
telecommunications connection for all federal program agencies 
to report their accounting and financial transactions for 
processing into the STAR Central Accounting System, will be Y2K 
ready by March 1999. In fact, 13 of the 16 critical GOALS 
subsystems are already Y2K compliant.
    I would now like to address the issues raised by Treasury's 
Inspector General based on their audit work from May to 
September 1998. Their report has recommended steps to reduce 
risk and, in all cases, we are implementing those 
recommendations. We have strengthened project management; 
improved testing and data exchange strategies; and put 
increased emphasis on the development and testing of 
comprehensive contingency and continuity of operations plans. 
With regard to their recommendations on compiling more 
extensive supporting documentation, we believe this is critical 
and this work will be completed this spring. I believe, 
however, that it is important to keep the Y2K issue in 
perspective. Our overriding concern is making sure that federal 
benefit payments go out uninterrupted. Sometimes making a 
critical business decision to ensure system readiness means 
postponing work in other areas such as documentation. This is 
not to say we find fault with the Inspector General's 
recommendation. I'm just underscoring the need to balance 
planning and documentation with system readiness. It's also 
important to note that the work associated with the Treasury 
Inspector General's report occurred in late spring and summer 
1998 and does not reflect the progress FMS has made during the 
past five months in ensuring its systems are Y2K compliant.
    For example, several initiatives are underway to ensure 
that all data exchanges between FMS and our trading partners 
will occur smoothly on January 1, 2000, and beyond. We are 
finalizing memoranda of understanding (MOU) with federal 
program agencies to clearly identify all interfacing systems 
and to indicate which ones are retaining existing formats and 
which ones are changing formats. For our largest partners such 
as VA and SSA, we have already agreed to these formats either 
through MOUs or face-to-face meetings. We are also stepping up 
our efforts to ensure good communication with our customers. As 
part of this effort, FMS sponsored a meeting on December 8, 
1998, which brought together more than 100 key officials from 
more than 40 federal agencies to exchange information about 
testing and compliance issues. We will sponsor another, similar 
session this spring. In addition, we are continuing to send 
information to our trading partners on file formats, testing 
and system status. FMS sent letters in December 1997 and August 
1998 to all federal program agencies interfacing with GOALS to 
indicate that formats were not changing and to identify 
agencies interested in joint testing of that system. In 
addition, our Regional Finance Centers sent letters to their 
customers last summer indicating that FMS is not changing 
agency input formats for salary, vendor and miscellaneous 
payments. We are now following up to determine which agencies 
are interested in specific interface testing and when they 
anticipate being ready.
    FMS has also successfully completed contingency plans for 
all mission critical systems (43 internal; 15 external; 4 
retired) and non-mission critical systems (17 internal, 1 
external). Of the contingency plans for FMS internally operated 
systems, 87 percent are final--meaning that they have been 
revised and approved after review by an outside contractor. The 
remaining plans are under review by the contractor to ensure 
they are comprehensive and address all pertinent risks. FMS has 
set its priorities and is integrating system contingency plans 
with business priorities to make sure the most critical 
business functions will continue uninterrupted if problems 
occur. On top of the list are key systems such as the Social 
Security, Supplemental Security and Veterans Affairs payment 
systems. Specific risks have been identified and strategies 
developed to mitigate those risks. For example, we are 
configuring our systems so payments can be processed in more 
than one computer center. This will enable FMS to rotate the 
workload should any Y2K disruptions occur in one area of the 
country, or in one computer center. In addition, an emergency 
power generator has been installed to support our largest 
computer center in case of power outages and system redundancy 
has been built into the nationwide network so that alternative 
routing can be used if there are data communications problems. 
We are also working closely with the Federal Reserve to develop 
integrated business resumption plans and risk mitigation 
strategies.
    FMS considers preparation for the Year 2000 as our absolute 
highest priority, ensuring our ability to maintain current 
operations. We will assign whatever resources are needed to 
ensure we do not fail to accomplish these changes to our 
computer systems. Thank you for the opportunity to discuss FMS' 
plans to complete the work necessary to enable us to meet the 
year 2000 challenge. I would be happy to answer any questions 
you may have regarding this issue.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Gregg. Our next witness is 
Mr. Anderson, chief executive officer of Zions National Bank, 
Salt Lake City. And I believe you are representing the American 
Bankers Association. Is that correct?
    Mr. Anderson. I am, Mr. Chairman.
    Chairman Archer. All right. Welcome, Mr. Anderson, you may 
proceed.

 STATEMENT OF A. SCOTT ANDERSON, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, ZIONS FIRST NATIONAL BANK, SALT LAKE CITY, UTAH, AND 
  MEMBER, COMMUNICATIONS COUNCIL, AMERICAN BANKERS ASSOCIATION

    Mr. Anderson. Thank you. Mr. Chairman and Members of the 
Committee, I'm pleased to be here today to discuss how the 
banking industry is addressing the Y2K problem. We believe we 
are on track to meet the many challenges we face.
    For my bank, Y2K is the single, most critical issue that we 
have. And this has been communicated to everyone in our 
organization, from the tellers to senior management, from our 
board of directors to shareholders. Nothing at our bank has 
higher priority, is receiving greater scrutiny or more 
resources than this important project.
    Bankers realized early on though that Y2K is not just a 
technology issue. Equally important are the business and 
communication challenges that go along with it. My industry has 
spent billions of dollars and thousands of man hours to make 
sure that our systems will work and that our customers will be 
properly cared for.
    At Zions Bank we have two distinct groups working on the 
Y2K problem. The first is our in-house computer experts, who 
have completed renovation and are now testing systems, 
interfaces and end-to-end processes. The other group is 
businessmanagers who are involved with business-resumption 
planning, resource allocation, assignment of employee 
resources, and contingency plans.
    One of our greatest challenges is identifying and then 
addressing all the vendors, suppliers and other businesses that 
touch us from the outside on a daily basis. Ongoing 
communication and monitoring of these partners is critical to 
the success of our Y2K effort.
    At Zions, we have an extensive Y2K contingency plan. I 
brought a copy of the plan for our overall organization. Each 
of our 200 units have similar plans that look at each detail, 
that if there is a glitch, what would we do so that we could 
continue to provide service to our customers. These documents 
cover such things as immediate responses, command control 
centers, backup facilities, information centers, and detailed 
business recovery and resumption plans. We even cover how we 
will feed our employees.
    No one, including me, will be on vacation from Christmas 
through January 15, 2000. Hopefully, no one will be needed, but 
everyone will be on-call.
    As you know, Mr. Chairman, the banking industry is highly 
regulated, and bank supervisors have been conducting onsite 
examinations in every bank and at all key vendors providing 
data and services to the banking industry. The results of these 
examinations are very positive. Ninety-seven percent of the 
banking industry received the highest grade. Only 17 
institutions out of over 10,000 received unsatisfactory 
ratings. Outside vendors ranked high as well.
    Being prepared, though, is more than just a banking issue. 
Success depends on all sectors of the economy, including 
energy, telecommunications, transportation, and utilities, 
pulling together to keep the fabric of our community and our 
economy strong and trustworthy.
    Bankers have reached out to these other industries and to 
our customers to ensure that we will all come through this 
project and this challenge together, intact, and successful.
    The banking industry is confident that it can deliver on 
time. But the biggest unknown to us and the greatest fear that 
we have is the public perception and reaction throughout the 
rest of the year.
    The problems created by adverse public reaction or panic 
could be far worse than actual problems. All of us must join 
forces to stabilize public opinion and manage expectations.
    In focus groups that the ABA has conducted, we found some 
very interesting things. For example, many consumers didn't 
know that the Federal regulators were examining banks. This was 
good news to them. It was good news to them that the Federal 
Reserve is printing billions of extra dollars. It was also good 
news to them that bank deposits are insured for $100,000 by the 
FDIC.
    We must be aggressive to dispense these facts, and to 
dispel fiction. We are concerned, for example, that some groups 
are advising consumers to withdraw large amounts of cash just 
to be safe. In fact, it was reported on one news show that a 
couple took out $20,000 from their bank and buried it in the 
backyard, only to have it stolen 2 days later.
    The safe side? Hardly.
    We use this as an example to our senior citizens to help 
them make good decisions. The fact is, the safest place for 
your money is in the bank. These checks that we have are Y2K-
compliant. They can be used anywhere. This credit card, with an 
expiration date of 2001, is Y2K compliant. It can be used 
anywhere.
    The ABA has produced a variety of videos, newsletters, 
manuals, seminars, and, at Zions, we recently created and had a 
seminar, which I've given you a transcript of, where we had 
Senator Bennett come and speak with some representatives from 
the legal and accounting industries to get out the word 
concerning what people need to do to be prepared for the Y2K 
issue.
    In closing, Mr. Chairman, let me say that Congress, 
government, and the regulators have a special role to play 
disseminating accurate information. Last year's bill helped to 
encourage information sharing, but must and needs to be done. 
We urge Congress to enact broader Y2K liability laws, and we 
pledge to work with toward that goal.
    Last year, Zions Bank celebrated its 125th year of 
servicing the people of Utah and the intermountain West. One 
hundred years ago, we were making plans for a new century, and 
we're doing that again today. And we are sure that we will be 
successful.
    Thank you.
    [The prepared statement follows:]

Statement of A. Scott Anderson, President and Chief Executive Officer, 
Zions First National Bank, Salt Lake City, Utah, and Member, 
Communications Council, American Bankers Association

    Mr. Chairman, I am Scott Anderson, President and CEO of 
Zions First National Bank, Salt Lake City, Utah, and a member 
of the Communications Council of the American Bankers 
Association (ABA). The ABA brings together all categories of 
banking institutions to best represent the interests of this 
rapidly changing industry. Its membership--which includes 
community, regional and money center banks and holding 
companies, as well as savings associations, trust companies and 
savings banks--makes ABA the largest banking trade association 
in the country.
    I am pleased to be here today to discuss what the banking 
industry is doing to address the Year 2000 computer problem 
(Y2K). These hearings are very important because information 
about the Y2K problem--and what the government and industry are 
doing to meet this challenge--is critical to maintaining 
confidence in our economy.
    Y2K is really two problems. The first is technology--making 
sure that software and hardware systems will work on January 1, 
2000 and beyond. The second is communication--making sure the 
public is knowledgeable about the problem and what is being 
done to solve it. Even if the technical problems are fully 
resolved, people need to know about it. If nothing is said, the 
information void will surely be filled with misleading and 
provocative stories that will create undue anxiety, and lead to 
bad decisions. The problems created by adverse public reaction 
or panic could be far worse than the actual problem. The news 
media, government, private industry, bankers, and all other 
stakeholders must join forces to stabilize the public opinion, 
and manage expectations.
    The banking industry is working hard at solving both 
aspects of the Y2K problem. Since 1995, the banking industry 
has devoted millions of man-hours and billions of dollars to 
addressing Y2K. The banking industry is well into the testing 
period for all critical systems, working closely the Federal 
Reserve and other federal bank regulators. Our progress is 
right on track. The ABA and individual banks have also done a 
tremendous amount of work to keep our customers informed about 
our progress. We believe this communications effort is right on 
track, too.
    At Zions Bank, Y2K has been identified as the single most 
critical project to be completed this year. Its criticality has 
been communicated through Senior Management, right down to 
every employee and business manager. Nothing at our bank has 
higher priority or greater scrutiny than this important 
project.
    At Zions Bank our efforts have been very successful to this 
point. We are confident in our ability to successfully deliver 
this project on time. Many of the processing systems have been 
replaced in the past five years with up-to-date Y2K compliant 
systems. Most of our core processing systems are supplied by 
outside vendors and have been remediated by them for Y2K 
compliance. Each business unity of Zions Bank has a Y2K 
operational plan specific to their unit, and each has prepared 
a business resumption plan to cover any contingencies that 
might arise. We also have detailed plans for both internal and 
external communications to keep bank personnel, customers, and 
the media informed about what we are doing before, during and 
after January 2000.
    The banking industry is unique in that it has extensive 
levels of federal and state regulation and examination. We have 
worked closely with bank regulators to address all aspects of 
the Y2K issue. The results of the Y2K compliance examinations 
have been very positive. We believe it would be very helpful 
for the bank regulators to discuss publicly the industry's 
readiness for Y2K.
    There are three key messages that I would like to leave 
with the Committee today:

    <bullet> The banking industry is on track meeting critical 
deadlines;
    <bullet> Educating our customers and the public generally 
is vital; and
    <bullet> The safest place for customers' money is in the 
bank.

    Mr. Chairman, before turning to these points, I want to 
take a moment to focus on why these issues are so important to 
the banking industry. We take our role in the economy and in 
each community we serve very seriously. Our business is built 
on the trust established with our customers over many decades. 
Maintaining that trust is no small matter to us. When customers 
put money in my bank, I want them to feel that their funds are 
secure, accessible when they need them, and financial 
transactions will be completed as expected. It is, therefore, 
no surprise that we in the banking industry believe much is at 
stake in addressing the Y2K problem.
    On a larger scale, our national economy relies on a 
smoothly functioning payment system. It's something we all take 
for granted today because our payment system is so efficient, 
accurate and easy to use. Assuring this high level of 
performance requires the collective efforts of many 
participants: banks, thrifts, brokerage firms, regional 
clearinghouses, and the Federal Reserve.
    Careful planning, correcting and testing is crucial to 
minimize any disruptions from the century date change. But we 
must be realistic: it is inevitable that some glitches will 
occur. Contingency planning, therefore, must be an integral 
part of the process. In the case of the banking industry, our 
contingency plans are examined by the bank regulators. We 
intend to be as prepared as is possible for any eventuality.
    Preparedness, however, goes well beyond the banking and 
financial sector. The tightly woven fabric of our economy means 
that businesses, households and government must work together. 
Success depends upon the efforts of all sectors of the economy, 
including energy, telecommunications, transportation, public 
utilities, retail services, etc. Bankers have reached out to 
other industries, as well as our customers, to ensure that we 
all come through this challenge intact and together.
   I. Technology: The Banking Industry is on Track Meeting Critical 
                               Deadlines
    Many banks began their Y2K risk assessment efforts as early 
as 1995. The cost of assessing, correcting, testing and 
contingency planning will easily exceed $9 billion. The goal of 
this massive commitment of effort and resources is to provide a 
smooth transition of banking and financial services into the 
21st century with minimal disruptions.
    The Y2K strategy involves awareness, assessment, 
renovation, validation and implementation. Key components of 
these broad strategic areas include the assessing of business 
risks, conducting due diligence on service providers and 
software vendors, analyzing the impact on customers, and 
assuring customer awareness of progress in addressing Y2K 
concerns.
    Zions Bank has two distinct groups attacking the Y2K 
problem. The first is our in-house staff of computer experts 
who have completed renovation, and are now testing systems, 
interfaces, and end-to-end processes. The other group is 
business managers and owners that are actively managing the 
business side of the issue. This includes such issues as vendor 
management, business resumption planning, resource allocation, 
assignment of employee resources, and contingency plans.
    One of the greatest challenges to business managers is 
identifying and then addressing the vast number of outside 
touch-points to a business unit. These include vendors, 
suppliers, service providers, and a host of other businesses 
that touch us from outside on a daily basis. Ongoing 
communication and monitoring of these partners is critical to 
the success of the Y2K effort.

Regulatory Oversight

    The banking industry is unique in that it is a highly 
regulated industry at both the state and federal level. Since 
1997, the banking industry has worked with the regulators in 
assessing the extent of the Y2K problem and developing a 3-
phase plan of attack.\1\ During phase one, completed June 30, 
1998, federal bank supervisors conducted on-site examinations 
of every depository institution and rated them on their 
remediation plans and written testing strategies. Regulators 
also conducted on-site examinations of firms providing data 
processing and system services.
---------------------------------------------------------------------------
    \1\ The Federal Reserve, the Office of the Comptroller of the 
Currency (which regulates national banks), the Federal Deposit 
Insurance Corporation, the Office of Thrift Supervision, and the 
National Credit Union Administration work jointly on key regulatory and 
supervisory issues through what is known as the Federal Financial 
Institutions Examination Council, or FFIEC. Through this cooperative 
regulatory effort, the FFIEC has played an important role in promoting 
Y2K education and communication among bankers and service providers. 
For example, representatives of the banking industry trade groups meet 
on a quarterly basis in Washington with staff members from the various 
Y2K teams of the FFIEC member agencies. These informative meetings are 
a chance to discuss ongoing efforts, upcoming programs and 
publications, and to exchange news on Y2K developments in general. 
Similarly, several of the Federal Reserve staff members responsible for 
publishing the Century Date Change Bulletin conduct periodic conference 
calls with representatives of financial industry trade groups, to 
exchange information about educational programs and progress being made 
by the banking industry. The banking agencies are also offering 
countless regional seminars on Y2K issues, as provided for in the 
``Examination Parity and Year 2000 Readiness for Financial Institutions 
Act.'' We are extremely pleased at these joint efforts and the agencies 
should be commended for their work in this area.
---------------------------------------------------------------------------
    During phase two, supervisors are examining banks for how 
well the testing of critical systems is progressing and on 
contingency plan development. This is critical as it measures 
the success of the remediation efforts. For banks with their 
own internal systems, testing was to be completed by the end of 
last year. By March 31, 1999, banks relying on outside service 
providers should have testing completed. All institutions 
should also have initiated external testing with customers, 
other banks and payment system providers.
    The results of on-site, phase one and phase two 
examinations show that the banking industry is right on track 
meeting its goals. As of December 31, 1998, 97 percent of the 
industry held the highest rating and only 17 institutions--out 
of more than 10,000 banks and thrifts--received unsatisfactory 
ratings. These poorly rated institutions are being closely 
monitored by the regulatory agencies.
    Phase three includes final testing of internal and third-
party systems and testing with the Federal Reserve and clearing 
systems participants. Phase three will run from April 1 through 
December 31, 1999, with a critical deadline of June 30 for 
completion of testing validation and implementation of 
remediated systems. After June 30, institutions will continue 
to monitor and update contingency plans as may be required by 
external developments, and monitor customer and counterparty 
risk. Agency examiners will continue to check on bank testing 
implementation and contingency plans, and, where needed, with 
continued on-site reviews.
    Testing with the Federal Reserve and clearing system 
participants is very important. Starting last summer, the Fed 
established dedicated times for banks to test the operability 
of systems for Y2K compliance. Systems tested included Federal 
Funds Transfer, Fed Automated Clearinghouse (ACH) transactions, 
checks and all other payment systems. Additional testing 
opportunities are being made available through 1999. As part of 
this procedure, banks will test, among other systems, direct 
deposit services--including payroll, Social Security electronic 
payments, Medicare payments, and other electronic payments--and 
tax information reporting systems.
    Further, we are informed, the Federal Reserve has been 
testing directly over the last several months with the Social 
Security Administration.
    Credit card systems have already been tested for Y2K 
compliance and adjustments to software and hardware have been 
made. Many cards in use today have expiration dates in the year 
2000 or beyond. Systems needed to be ready to recognize these 
cards as valid when they were issued last year. I am happy to 
report that the transition was made so smoothly and with so few 
problems that the public was largely unaware that any changes 
had been made.
Contingency Planning

    While we believe our systems will be ready for the century 
date change, we nonetheless are actively developing Y2K 
contingency plans. One reason contingency planning is so 
important is because banks rely on a whole host of outside 
service providers, which are undertaking their own Y2K 
remediation over which we have little control. For example, 
utility companies provide electricity for banking offices, 
branches and ATM machines; telecommunications facilitates 
customer inquiries of financial records and verifies 
transactions at ATM machines and at point-of-sale terminals 
(for credit cards and debit cards) in retail establishments. 
And banks rely on armored cars to deliver cash to bank branches 
and ATMs, and other transportation services to deliver checks 
for clearing at large banks or through the Federal Reserve. We 
are asking questions of these providers and testing 
compatibility of remediated systems.
    At Zions we have developed an extensive contingency plan 
that sets up a framework to handle Y2K problems, involving data 
services, every business unit, and an emergency management team 
that would oversee the entire process. This document--which 
required over 250 pages to fully detail--covers immediate 
response, command control centers, back-up facilities, 
information centers, and detailed business recovery and 
resumption plans. We've even thought about how we will feed our 
employees who work overtime to handle any problems. The very 
minute after midnight of January 1, 2000, we will have already 
begun to validate that all applications, software, hardware, 
systems and infrastructure are operating as expected. No one, 
including me, will be taking time off time between December 26, 
1999 and January 15, 2000. Hopefully, no one will be needed, 
but everyone is on call.
    Having plans to deal with unexpected events is nothing new 
for the banking industry. Every bank has business recovery 
plans in the event of natural disasters such as hurricanes, 
earthquakes, tornadoes, floods and fires. When those occasions 
arise, the bank is typically the first business in the 
community to be back up and running. There are many examples of 
this:

    <bullet> The two-dozen banks in the Grand Forks, North 
Dakota area got their banks up and running in April 1997 within 
days of the worst flooding by the Red River in this century. 
Banks reopened in trailers, truck stops and grocery stores to 
keep the cash flowing.
    <bullet> In Des Moines in 1993, one bank avoided 
disruptions by moving most of its 750 employees to temporary 
offices after rising waters flooded out four of its mortgage 
operations' downtown buildings. And as a levee threatened to 
burst down-river in Kansas City, Missouri, one bank CEO rented 
a tractor trailer and with his 23 employees, trucked vital bank 
records and equipment to higher ground.
    <bullet> After Hurricane Andrew roared through south 
Florida, bankers hauled in portable generators, transferred 
employees from other parts of the state and quickly made 
available several billion dollars in storm-related emergency 
loans.
    <bullet> Banks recovered quickly after the World Trade 
Center bombing in New York, too. Despite heavy smoke, employees 
at one bank's international operations remained at their 
computers processing payments to corporations around the globe. 
Within hours the bank shifted its processing to a remote 
disaster-recovery location where, over the weekend, employees 
worked around the clock to complete the processing.
    <bullet> Most banks reopened within a day or two of the 
powerful 1994 Los Angeles/Northridge earthquake. One bank's 
credit-card processing facility near the epicenter suffered 
structural damage, so the bank moved to vacant offices 
downtown, leased busses to transport some 520 employees to the 
new location and provided child-care subsidies to offset the 
longer work day.
    <bullet> When fire swept through the 62-story First 
Interstate headquarters building in Los Angeles in 1988, key 
bank employees quickly implemented the bank's new $1.5 million 
disaster plan in an underground command center seven blocks 
away. The CEO said later that the only customers affected by 
the huge fire were those who banked in the headquarters' first-
floor branch.
    <bullet> A detailed disaster plan made it possible for bank 
customers to continue to get cash and make deposits after a $75 
million Thanksgiving fire in 1982 hit the Minneapolis 
headquarters of what is today Norwest Bank. Two days later a 
Norwest ad read: ``It takes more than a five-alarm fire to slow 
us down.''

    ABA has published its own guidance for banks to follow as 
they proceed through the contingency planning process, ABA 
Millennium Readiness Series, Year 2000 Contingency Planning 
Program Management.
         II. Beyond Technology: Maintaining Consumer Confidence
    The steps banks are taking now are intended to make sure 
our systems will work when the calendar changes. Perhaps the 
bigger challenge is maintaining public confidence. We believe 
that Congress has a critical role to play, as do bankers, in 
keeping consumers informed about what is being done and what 
they can do to prepare for the century date change. People want 
and need to know that their money will be safe, their records 
secure and their banks open to serve them next January.
    Consumer education is vital. Recent focus group research by 
ABA indicates that consumers, while concerned about Y2K, are 
not overly alarmed by the prospect of the calendar change. 
However, we know there will be tremendous speculation between 
now and January 1 about what will work and what will not work. 
Many consumers we met with did not know that the federal 
financial regulators are examining every bank multiple times to 
test compliance on the full range of systems, software, backup 
and other contingency plans. The fact that bank regulators are 
watching over banks' Y2K efforts is good news to consumers. The 
fact that the Federal Reserve is printing tens of billions of 
extra dollars and is working to expedite cash delivery to banks 
from the current three days to same-day delivery is also good 
news to consumers. And the fact that deposits are federally-
insured up to $100,000 and backed up by the full faith and 
credit of the federal government is good news as well.
    One unique factor affecting the Y2K issue that is different 
than other historical events, is the advent and widespread 
usage of the Internet as an information medium. News reported 
on the Internet surrounding the Y2K issue ranges from sensible 
advice and preparation, to absolute propaganda. One problem 
with the proliferation of the Internet is the inability of many 
consumers to separate fact from fantasy. Many people have not 
realized that not everything printed on the Internet is true. 
There is much irrational, irrelevant and misleading information 
being circulated regarding this issue. Therefore, there must be 
an equally aggressive effort to dispense facts and dispel 
fiction.
    This raises another critical point. Several well-
intentioned organizations are advising consumers to withdraw 
extra cash ``just to be on the safe side.'' In fact, it is 
anything but the safe side. People need to think twice about 
how much money they want to be carrying around with them and 
keeping in their house. Personal safety is each individual's 
responsibility. Exploiting the year change will tempt many 
people, from champagne vendors to petty thieves, who are well 
aware that people will be withdrawing extra money. There has 
already been one publicized report of $20,000 withdrawn from a 
bank in preparation for Y2K, buried in the backyard--and 
stolen. The safe side? Not at all.
    At Zions Bank, this story disturbed us tremendously. We 
thought that this would be a good example to reach out to our 
customers to help them make good decisions. I've attached to 
this testimony a copy of the letter we are sending to Zions 
customers.

    The message is simple: The safest place for customers' 
money is in the bank. It is much harder to steal, and it is 
FDIC-insured. The consumers we spoke to in our focus groups 
were concerned about the accuracy of their bank records and 
getting access to their cash. In terms of accuracy, customers 
get statements of their accounts monthly. Banks reconcile their 
books daily and have extensive backup records to preserve the 
financial data. In addition, banks will be taking extra 
precautions with manual reports and backups during the calendar 
change. At Zions, in addition to regular monthly statements, we 
will provide to any of our customers, year-end cut-off 
statements for them to use as a point of reconciliation should 
it be necessary.
    How much cash will people need? Probably about as much as 
they would need on any other holiday weekend. Personal checks 
are Y2K-compliant and will work anywhere--in the bank and at a 
wide range of retailers and service providers, both in- and 
out-of-state. If people are still concerned about their cash 
needs, they can put a little extra money in their checking 
account--their FDIC-insured checking account. Would you want to 
be carrying around a lot of extra cash? Would you want your 
elderly relatives to be carrying around a lot of extra cash? I 
know I do not.
    There are steps consumers can take to prepare for the 
change:

    <bullet> Read the information their bank sends them about 
Y2K. Call the bank if they have any questions at all. Trust, 
but verify, in other words.
    <bullet> Hold onto bank statements, bank receipts, canceled 
checks and other financial records, especially for the months 
leading up to January 1.
    <bullet> For customers that bank on-line, make sure home 
computers are Y2K-ready. Check with computer and software 
manufacturers for details on how to do this.
    <bullet> Copy important financial records kept on home 
computers to a back-up disk.
    <bullet> Do not give money to anyone who promises to ``keep 
it safe'' through the date change.
    <bullet> Withdraw only as much cash as would be typical for 
any other holiday weekend.

    For our industry's part, ABA is communicating with bankers, 
consumers and the media. We have produced three informational 
videos for banks to use with their customers--one designed for 
retail customers, a second for a bank's tellers and other 
front-line personnel, and a third for small business customers. 
We send a monthly fax newsletter to banks, which contains 
updates, helpful tips and shares ideas that have worked for 
other banks. We have provided ads, a Y2K customer 
communications kit to help bankers reach out to their 
customers, telephone seminars on a wide range of aspects of the 
Y2K challenge, a Y2K Project Management Manual and a Y2K 
Contingency Plan Manual. The latest piece in this continuing 
series is a Y2K Instruction Booklet containing tips to help 
banks comply, communicate and cope. ABA's web site--ABA.com--
provides our members with other Y2K resources and information.
    In December, ABA ran a full-page ad in USA Today and beamed 
a video news release via satellite to more than 700 television 
stations around the country to reach out directly to consumers. 
The news release included part of an interview with John 
Koskinen, chairman of the President's Council on Year 2000 
Conversion, who has said the banking industry is ``ahead of the 
curve'' in Y2K preparedness.
    ABA has also been holding media briefings jointly in 
Washington with the other financial trade groups, and around 
the country in collaboration with the state bankers 
associations. We are also doing special media tours, making 
bankers available to discuss Y2K issues on TV and radio.
    Customer communication is a must for every bank in the 
country. After all, every customer wants to know about their 
particular bank. No one knows how consumers will behave leading 
up to January 1, and we will continue to conduct research to 
track their behavior and their level of concern. One thing is 
sure: they need information, sound advice and reassurance--from 
their bank, the banking industry, the federal banking 
regulators, and the U.S. Congress.
         III. More Can Be Done: Legislative Initiatives Needed
    Congress, government and regulators have a special role to 
play in disseminating accurate information and creating an 
environment for open discussion. The bill enacted last 
Congress--Year 2000 Disclosure Act--was a first and extremely 
important step in this direction. It helped set a tone for 
talking openly and honestly about the problem by encouraging 
information sharing. Further, it ensures that disclosure of 
Y2K-related technical information will not become the subject 
of lawsuits.
    Congress can make a difference this year as well. In 
particular, we urge Congress to consider broader Y2K liability 
issues, such as disruption liability, punitive damages, class 
actions, and litigation reduction. The cost of doing nothing 
may be considerable. As I noted above, the industry has already 
spent billions of dollars on Y2K remediation efforts. Industry 
consultants further project that $2 million could be spent on 
litigation for every $1 million spent on system remediation.
    The ABA, working with a multi-sector coalition, has 
identified several desirable legislative reforms that would 
help address these concerns.

    <bullet> Limit Y2K litigation to actual damages, and place 
limits on consequential or punitive damages, unless parties 
have agreed otherwise by written contract.
    <bullet> Provide for a ``reasonable efforts'' defense for 
parties that meet a good faith or due diligence standard.
    <bullet> Require federal preemption for all Y2K legal and 
equitable claims, unless parties have agreed otherwise by 
written contract.
    <bullet> Abolish joint and several liability and create a 
federal comparative negligence rule to apportion liability 
among multiple parties.
    <bullet> Discourage and channel class action lawsuits 
through minimum claim requirements, notice procedures, and 
creating federal diversity jurisdiction.

    There are additional provisions being considered which 
would: encourage the use of alternative dispute resolution to 
resolve Y2K disputes without resorting to litigation; require a 
``cure period'' prior to commencing legal action, allowing 
parties time to remedy Y2K disruptions; require mitigation of 
damages by claimants; and place limits on attorneys' fees.
    We would be happy to work with Congress to pass legislation 
in this important area.
                               Conclusion
    Mr. Chairman, the banking industry has every reason to be 
working diligently in meeting the Y2K challenge, and is doing 
so with a wide ranging response that sets an example for other 
industries to follow. Financial institutions across the U.S. 
are executing Y2K project plans that are vast in scope, 
complexity and scale. The banking industry is taking the 
century date change very seriously, with the goal of achieving 
Y2K readiness clearly in sight. But the banking industry alone 
cannot deliver ``business as usual'' in January 2000. There 
must be parallel commitments by all other sectors of the 
economy so that they can become equally prepared. We encourage 
Congress to continue its oversight of the broad range of 
business and government sectors that together are essential to 
producing Y2K readiness in the American economy.

    [``Countdown to 2000: Preparing Your Business for Y2K'' 
will be retained in the official Committee records.]

                                <F-dash>

                                  Zions First National Bank
                               Salt Lake City, Utah, Month DD, 1999
(Personalized Name and Address)

Re: Year 2000 Readiness Disclosure

    Dear (Personalized Name):

    Recently, the morning news of NBC-TV's Cleveland affiliate 
reported that a couple took $20,000 out of their bank and 
buried it. Apparently, they feared that the upcoming change in 
the Year 2000 (``Y2K'') would mean their money wasn't going to 
be safe, and that they wouldn't be able to access it if they 
needed it. In a matter of only a few days, they discovered it 
missing from where it had been buried. The couple was quoted as 
saying, ``Next time, we are going to keep our money in the 
bank.''

    News reports about the Y2K challenge have made some people 
nervous; a few have considered taking or have already taken 
irrational actions, like burying their money or stuffing it in 
a mattress. Undoubtedly, some of these will pay dearly for not 
trusting their bank.
    Zions Bank has been serving the financial needs of our 
clients for over 125 years, since our founding by Brigham Young 
in 1873. Because of our conservative policies, we have been a 
strong, consistent financial resource to the people of Utah and 
Idaho--through all kinds of adversity. Zions Bank has been 
preparing for the Year 2000 for some time, now, as described in 
the enclosed brochure. We have upgraded our computer hardware 
and software, and our testing of the changes has been very 
satisfactory, thus far. We plan to continue such testing 
throughout 1999, to ensure that our systems satisfactorily meet 
our needs.
    Zions Bank will be prepared for the change to Year 2000. 
Your money in Zions Bank will be safe throughout the Y2K 
transition, and you will be able to access it conveniently and 
in a variety of ways, as you have always done before. We are 
also working closely with our regulatory agencies and the 
American Bankers Association as they strive to ensure that 
direct deposit of social security and other federal recurring 
payments will not be disrupted.
    As a valued Zions Bank client, please know that we are 
making every effort to minimize--or even eliminate--
interruptions to our service due to Y2K problems. We value your 
relationship. And we don't want you to be victimized like the 
couple who buried their money. We hope you will continue to 
rely on the bank you can trust.
            Sincerely,
                                         A. Scott Anderson.

                                <F-dash>

    Chairman Archer. Thank you, Mr. Anderson. Our next witness 
is Mr. Joel Willemssen, representing the GAO. Mr. Willemssen, 
welcome and we'll be pleased to receive your testimony.

   STATEMENT OF JOEL C. WILLEMSSEN, DIRECTOR, CIVIL AGENCIES 
              INFORMATION SYSTEMS, ACCOUNTING AND 
INFORMATION MANAGEMENT DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Willemssen. Thank you, Mr. Chairman. Thank you, 
Members. Thank you for inviting us to testify today on SSA's 
year 2000 program. As requested, I'll briefly summarize our 
statement and in doing so address some of the prior issues that 
we pointed out at SSA in our report that we issued on their 
year 2000 program, discuss what kind of actions they have taken 
in response to our recommendations, and then where SSA stands 
today.
    Our earlier report on SSA's Y2K program noted that the 
agency had made significant progress in assessing and 
renovating mission-critical mainframe software that enables it 
to provide benefits to the public. SSA first recognized the Y2K 
challenge 10 years ago and was therefore able to respond early. 
With their knowledge and experience, SSA is recognized as a 
Federal leader on Y2K.
    While SSA deserved credit for its leadership, we had 
previously identified three key risk areas within their Y2K 
program. One concerned the compliance of systems for State 
Disability Determination Services. Second was the need to focus 
on the compliance of SSA's data exchanges with other 
organizations. Third was the need for SSA to develop business 
continuity and contingency plans that would be available in the 
event of system failures.
    SSA agreed with our recommendations in these areas, and 
agency efforts to implement them have either been taken or are 
under way. For example, SSA has enhanced its monitoring and 
oversight of State disability systems by establishing a full-
time project team, designating project managers and 
coordinators and requesting biweekly status reports.
    SSA reported in its most recent Y2K quarterly report that 
all automated State systems have now been renovated, tested, 
implemented, and certified Y2K compliant as of January 31.
    In the date exchange area, SSA is reporting as of January 
31, 98 percent of its external exchanges have now been made 
compliant.
    Turning to contingency planning, SSA's made major progress. 
In addition to developing an overall framework for business 
continuity, the agency is now in the process of developing 
local contingency plans. SSA is scheduled to complete the 
development of all of its contingency plans by April 30 and to 
complete testing of these plans by June 30.
    As the Commissioner pointed out, SSA is also to be 
commended for adopting a detailed day-one strategy that will 
lay out its procedures for the period between late December and 
early January, 2000. SSA also plans to minimize changes to its 
systems that have been certified as year-2000 compliant by not 
allowing other discretionary changes to be made.
    Overall, we've seen significant progress in SSA's efforts 
to become Y2K compliant. Several of SSA's actions constitute 
best practices that could and should be adopted governmentwide.
    At the same time, SSA cannot let up with its Y2K efforts. 
It must ensure that all of its data exchanges are made 
compliant and tested, it must complete the development and 
testing of contingency plans, and in those cases where it needs 
to modify already-compliant software, it will need to retest 
and recertify those changes.
    That concludes the summary of my statement. And after the 
panel is done, I'll be pleased to address any questions you may 
have.
    [The prepared statement follows:]

Statement of Joel C. Willemssen, Director, Civil Agencies Information 
Systems, Accounting and Information Management Division, U.S. General 
Accounting Office

    Mr. Chairman and Members of the Committee: We appreciate 
the opportunity to join in today's hearing and share updated 
information on the readiness of computer systems that support 
key benefits programs to function reliably in the next century. 
As you know, successful Year 2000--or Y2K--conversion is 
critical if programs such as Social Security are to provide 
accurate services and benefits without interruption. Millions 
of Americans rely on such monthly payments.
    In a previous report and testimony, we described the 
efforts that the Social Security Administration (SSA) was 
making to ensure that its information systems are Year 2000 
compliant.\1\ This morning I would like to briefly summarize 
our findings and recommendations from that report, describe 
actions taken on those recommendations, and provide our 
perspective on where SSA stands today.
---------------------------------------------------------------------------
    \1\ Social Security Administration: Significant Progress Made in 
Year 2000 Effort, But Key Risks Remain (GAO/AIMD-98-6, October 22, 
1997) and Year 2000 Computing Crisis: Continuing Risks of Disruption to 
Social Security, Medicare, and Treasury Programs (GAO/T-AIMD-98-161, 
May 7, 1998).
---------------------------------------------------------------------------
Significant Early Progress Made, But Three Key Areas of Risk Identified 
                       in SSA's Year 2000 Program
    Our previous report and testimony noted that SSA had made 
significant early progress in its efforts to become Year 2000 
compliant. SSA first recognized the potential impact of the 
Year 2000 problem in 1989 and, in so doing, was able to launch 
an early response to this challenge. SSA initiated early 
awareness activities and made significant progress in assessing 
and renovating mission-critical mainframe software that enables 
it to provide Social Security benefits and other assistance to 
the public. Because of the knowledge and experience gained 
through its Year 2000 efforts, SSA is now a recognized federal 
leader in addressing this issue. Among other responsibilities, 
SSA's Assistant Deputy Commissioner for Systems chairs the 
Chief Information Officers Council's Committee on the Year 2000 
and works with other federal agencies to address Year 2000 
issues across government.
    While SSA deserves credit for its leadership, our earlier 
report and testimony pointed out that three key areas of risk 
nonetheless threatened to disrupt its ability to deliver 
benefits payments. One major risk concerned Year 2000 
compliance of mission-critical systems used by the 54 state 
Disability Determination Services (DDS) that provide vital 
support to SSA in administering its disability programs. 
Specifically, SSA had not included these DDS systems in its 
initial assessment of systems that it considered a priority for 
correction. Without a complete agencywide assessment that 
included the DDS systems, SSA could not fully evaluate the 
extent of its Year 2000 problem, or the level of effort that 
would be required to correct it.
    A second major risk in SSA's Year 2000 program concerned 
the compliance of its data exchanges with outside sources, such 
as other federal agencies, state agencies, and private 
businesses. In addressing the Year 2000 problem, agencies need 
assurance that data received from other organizations are 
accurate. Even if an agency has made its own systems Year 2000 
compliant, the data in those systems can still be contaminated 
by incorrect data entering from external sources. SSA has 
thousands of data exchanges with other organizations, including 
the Department of the Treasury, the Internal Revenue Service, 
and the states. For example, each month SSA relies on its data 
exchange with Treasury's Financial Management Service (FMS) to 
process and disburse 50 million benefits payments totaling 
approximately $31 billion. Other exchanges may involve data 
reported on individuals' tax-withholding forms or pertaining to 
state wages and unemployment compensation. Unless SSA is able 
to ensure that data received are Year 2000 compliant, program 
benefits and eligibility computations that are derived from the 
data provided through these exchanges may be compromised and 
SSA's databases corrupted.
    Third, the risks to SSA's Year 2000 program were compounded 
by the lack of contingency plans to ensure business continuity 
in the event of systems failure. Business continuity and 
contingency plans are essential. Without such plans, agencies 
will not have well-defined responses and may not have enough 
time to develop and test alternatives when unpredicted failures 
occur. Federal agencies depend on data provided by their 
business partners as well as on services provided by the public 
infrastructure. One weak link anywhere in the chain of critical 
dependencies can cause major disruptions to business 
operations. Given these interdependencies, it is imperative 
that contingency plans be developed for all critical core 
business processes and supporting systems, regardless of 
whether these systems are owned by the agency. At the time of 
our October 1997 review, SSA officials acknowledged the 
importance of contingency planning, but had not developed 
specific plans to address how the agency would continue to 
support its core business processes if its Year 2000 conversion 
activities experienced unforeseen disruptions.
    We recommended that SSA take several specific actions to 
mitigate the risks to its Year 2000 program. These included (1) 
strengthening the monitoring and oversight of state DDS Year 
2000 activities, (2) expeditiously completing the assessment of 
mission-critical systems at DDS offices and using those results 
to establish specific plans of action, (3) discussing the 
status of DDS Year 2000 activities in SSA's quarterly reports 
to the Office of Management and Budget (OMB), (4) quickly 
completing SSA's Year 2000 compliance coordination with all 
data exchange partners, and (5) developing specific contingency 
plans that articulate clear strategies for ensuring the 
continuity of core business functions.
            Actions Being Taken to Mitigate Year 2000 Risks
    At the request of this Committee's Subcommittee on Social 
Security and the Senate Special Committee on Aging, we are 
currently monitoring SSA's implementation of our 
recommendations and additional actions it is taking to achieve 
Year 2000 compliance. SSA agreed with all of our earlier 
recommendations, and efforts to implement them have either been 
taken or are underway. Testing of systems to ensure Year 2000 
compliance is vital, and we are continuing to evaluate the 
effectiveness of the agency's efforts in this area.
    SSA has enhanced its monitoring and oversight of state DDSs 
by establishing a full-time DDS project team, designating 
project managers and coordinators, and requesting biweekly 
status reports. The agency also obtained from each DDS a plan 
identifying the specific milestones, resources, and schedules 
for completing Year 2000 conversion tasks. Further, in 
accordance with our recommendation, SSA in November 1997 began 
including information on the status of DDS Year 2000 compliance 
activities in its quarterly reports to OMB. SSA reported in its 
most recent quarterly report (February 1999) that all automated 
DDS systems had been renovated, tested, implemented, and 
certified Year 2000 compliant as of January 31, 1999.
    In another critical area, data exchanges, SSA has 
identified its external exchanges and has coordinated with all 
its partners about the schedule and format for making them Year 
2000 compliant. As of January 31, 1999, SSA reported that 98 
percent of all of its external data exchanges had been made 
compliant and implemented, and that it was either in the 
process of testing those exchanges that remained noncompliant 
or was waiting for its partners to make the exchanges 
compliant.
    Among SSA's most critical data exchanges are those with FMS 
and the Federal Reserve for the disbursement of Title II (Old 
Age, Survivors and Disability Insurance program) and Title XVI 
(Supplemental Security Income program) benefits checks and 
direct deposit payments. SSA began working with FMS in March 
1998 to ensure the compliance of these exchanges, and recently 
reported that the joint testing of check payment files and the 
end-to-end testing from SSA, through FMS and the Federal 
Reserve for direct deposit payments, had been successfully 
completed. Further, SSA stated that it began generating and 
issuing Title II and Title XVI benefits payments using the Year 
2000 compliant software at SSA and FMS in October 1998.
    Turning to contingency planning, SSA has instituted a 
number of key elements, in accordance with our business 
continuity and contingency planning guidance.\2\ It initially 
developed an overall framework for business continuity that 
presented an effective high-level strategy for mitigating risks 
associated with the Year 2000. For example, the plan identified 
SSA's core business functions that must be supported if Year 
2000 conversion activities experience unforeseen disruptions; 
potential risks to business processes and ways to mitigate 
those risks; and milestones, target dates, and responsible 
components for developing local contingency plans and 
procedures for SSA's operating components.
---------------------------------------------------------------------------
    \2\ Year 2000 Computing Crisis: Business Continuity and Contingency 
Planning (GAO/AIMD-10.1.19, March 1998 [exposure draft], August 1998 
[final]).
---------------------------------------------------------------------------
    SSA is now in the process of developing local contingency 
plans to support its core business operations. It has also 
received contingency plans for all state DDSs. Among the plans 
that SSA reports as being completed at this time is the 
Benefits Payment Delivery Year 2000 Contingency Plan, developed 
in conjunction with Treasury and the Federal Reserve to ensure 
the continuation of operations supporting Title II and Title 
XVI benefits payments. SSA is scheduled to complete the 
development of all of its contingency plans by April 30, 1999, 
and to complete the testing of all plans by June 30 of this 
year.
    As noted in our guide, another key element of a business 
continuity and contingency plan is the development of a zero-
day or day-one risk reduction strategy, and procedures for the 
period between late December 1999 and early January 2000. SSA 
has developed such a strategy. Among the features of this 
strategy is a moratorium on software changes, except for those 
mandated by law. SSA plans to minimize changes to its systems 
that have been certified as Year 2000 compliant by not allowing 
discretionary changes to be made. The moratorium will be in 
effect for commercial-off-the-shelf and mainframe products 
between July 1, 1999, and March 31, 2000, and for programmatic 
applications between September 1, 1999, and March 31, 2000. 
Such a Year 2000 change management policy will significantly 
reduce the chance that errors will be introduced into systems 
that are already compliant.
    Other aspects of SSA's day-one strategy are the 
implementation of (1) an integrated control center, whose 
purposes include the internal dissemination of critical data 
and problem management, and (2) a timeline that details the 
hours in which certain events will occur (such as when 
workloads will be placed in the queue and backup generators 
started) during the late December and early January rollover 
period.
    SSA is also planning to address the personnel issue with 
respect to the rollover. For example, it plans to obtain a 
commitment from key staff to be available during the rollover 
period and establish a Year 2000 leave policy. Such a strategy, 
developed well in advance of the turn of the century, should 
help SSA manage the risks associated with the actual rollover 
and better position it to address disruptions if they occur.
      SSA Well-Positioned for the Year 2000, But Some Work Remains
    Overall, we have seen significant continuing progress in 
SSA's efforts to become Year 2000 compliant. The agency 
reported that, as of January 31, 1999, it had completed the 
renovation of all mission-critical systems so targeted, and 
implemented them in production. The actions that SSA has taken 
to mitigate risk to its Year 2000 program have demonstrated a 
sense of urgency and commitment to achieving readiness for the 
change of century, and will no doubt better position SSA to 
meet the challenge. Moreover, several of SSA's actions-- such 
as its implementation of a day-one strategy--constitute a best 
practice that we believe should be followed governmentwide.
    It is important to note, however, that SSA still needs to 
effectively complete certain critical tasks to better ensure 
the success of its efforts. For example, SSA must ensure that 
all of its data exchanges are made compliant and tested. It 
must also complete the development and testing of contingency 
plans supporting its core business processes. In addition, 
where the agency may be required to modify compliant software 
in accordance with legislative mandates, these modifications 
will have to be retested and recertified. Our ongoing review of 
SSA's Year 2000 actions shows that the agency has established 
deadlines for completing its remaining tasks, and is actively 
monitoring its progress.
    Mr. Chairman, that concludes my statement. I would be 
pleased to respond to any questions that you or other members 
of the Committee may have at this time.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Willemssen. Our last 
witness in this panel is Mr. Dennis Schindel. ``Schindel'' or 
``Schin-dell?''
    Mr. Schindel. ``Schin-dell.''
    Chairman Archer. Who is with the Office of the Inspector 
General for the Department of the Treasury. We are pleased to 
have you with us today, and you may proceed.

 STATEMENT OF DENNIS S. SCHINDEL, ASSISTANT INSPECTOR GENERAL 
FOR AUDIT, OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT OF THE 
                            TREASURY

    Mr. Schindel. Thank you, Mr. Chairman, Representative 
Rangel, and Members of the Committee. I'm pleased to appear 
before you today to discuss the Office of Inspector General's 
oversight of the Department of Treasury's efforts to address 
the year-2000 problem.
    In the interest of time, I'll briefly summarize the results 
of our work at Treasury and then discuss more specifically the 
results of our work at the Financial Management Service.
    We have been actively engaged in reviewing Treasury's Y2K 
efforts. We performed work at the department and at each 
Treasury bureau except the IRS and the U.S. Customs Service. 
With regard to those two bureaus, we were able to leverage our 
resources with the General Accounting Office and with the 
former IRS Inspection Service, now the Treasury Inspector 
General for Tax Administration.
    GAO performed work at Customs, and GAO and the IRS 
Inspection Service reviewed IRS' Y2K efforts.
    The nature of the Y2K problem is such that I don't think 
that anyone can really say for certain that they will be ready 
on January 1, 2000. Our work, however, showed that the Treasury 
Department has done a credible job managing this massive 
effort.
    Treasury has applied significant resources and top-level 
management attention to the effort and has reduced the risk 
that a significant Y2K failure will occur within a critical 
Treasury operation. Out of a total of 321 mission-critical 
systems, Treasury has reported that as of December 31, 1998, 
266 are Y2K compliant. While progress is good, there is 
certainly a lot more work to be done. End-to-end testing, 
systemwide testing, and regression testing must be performed to 
ensure system readiness.
    In addition, business continuity and contingency plans must 
be prepared, re-evaluated, and tested. Treasury has a good 
infrastructure in place for managing these remaining tasks, 
which should help ensure that they are successfully completed.
    Now let me address our work at FMS. In performing work at 
FMS, we focused, as we did at the other Treasury bureaus, on 
the broader issue of how well the overall Y2K conversion effort 
was being managed. We knew that with a project of this 
magnitude, one could apply all the personnel, equipment, and 
expertise that was needed, and still not be successful if it 
was not well managed. Our experience in working with the 
bureaus in the early stages of implementing the Chief Financial 
Officers Act taught us that the most successful bureaus were 
the ones that first obtained strong commitment from the top and 
then obtained buy-in and participation from all program 
managers in all parts of the organization.
    The specific areas that we focused on in our work at FMS 
were project management, system conversion and certification, 
data exchange, and contingency plans for business continuity. 
Before I describe the results of our work at FMS, it should be 
noted that FMS has taken action to address all of our findings 
and recommendations. In addition, they have started and/or 
completed a number of their own initiatives to strengthen their 
Y2K conversion process.
    As a result, FMS's management of their conversion effort, 
their progress in getting systems implemented, tested, and 
certified, and their contingency planning efforts are much 
improved from when we conducted our audit work.
    That audit work showed that FMS had a project-management 
infrastructure, a certified Y2K platform, reasonable guidance, 
a commitment from the Commissioner, and an inventory of 
mission-critical systems in place to address its Y2K conversion 
tasks. However, some parts of FMS's management process needed 
to be strengthened, and certain key parts of the Y2K conversion 
process needed to be better executed.
    For example, the chief information officer had overall 
responsibility for FMS's Y2K effort through the establishment 
of the Y2K special projects office. However, we found that 
summarized project information flowing into the special 
projects office and ultimately to the department and OMB was 
not always accurate, reliable, and consistently gathered. This 
made it more difficult for the special projects office to 
effectively manage the FMS-wide effort.
    FMS has informed us that the completeness and accuracy of 
project information has now been improved since we conducted 
our audit work.
    We also found that for one of FMS's external systems, that 
is, systems that are developed and maintained by an outside 
contractor, FMS needed to improve their ability to assess Y2K 
compliance. The system that we specifically looked at was the 
Government Online Accounting Link System, GOALS, which is 
entirely operated and maintained by a contractor at a 
contractor's facility.
    FMS has significantly limited the amount of test 
documentation required from the contractor, which would, in 
turn, limit FMS's ability to review the completeness and 
reliability of the test results. This potentially increases the 
risk that GOALS may not be Y2K compliant and FMS would not be 
aware of it.
    FMS has taken a number of steps to address this situation, 
including performing their own tests of the contractor's 
certifications.
    In all, we made 14 recommendations for improvement. These 
recommendations address key areas of project management, system 
conversion, certification strategies, data exchange strategies, 
and contingency planning. We recently discussed with FMS their 
efforts to address the recommendations we made as a result of 
our audit.
    FMS has taken positive steps and made progress toward 
reducing the risk of a Y2K systems failure. As of January 31, 
1999, 36 of their 62 mission-critical systems are compliant. 
FMS anticipates the remainder of their mission-critical systems 
will be implemented by March 1999. FMS has also initiated 
coordination with data-
exchange partners and started some end-to-end testing.
    One of the most significant issues at FMS is processing of 
Social Security payments. SSA and FMS have worked together to 
ensure the entire process for providing Social Security 
benefits, from calculating benefits to making payments, is 
ready for the century date change. Approximately a month ago, 
an independent contractor informed FMS that monthly payments to 
the Social Security payment system are indeed ready for the Y2K 
date change. This represents a critical step in the Y2K work on 
these systems, and FMS will continue to test throughout 1999.
    While this progress is good, FMS still has a lot of work to 
do, including end-to-end testing with approximately 30 Federal 
agencies to provide additional assurance on the GOALS system. 
Also, although FMS has prepared contingency plans for all 
mission-
critical systems, those plans need to be updated and tested.
    I'd like to now briefly describe our plans for additional 
work throughout the remainder of 1999. Like management, our job 
is not done with regard to Y2K conversion effort. We plan to 
perform additional work at the ATF, the U.S. Mint, and FMS to 
review their progress related to testing and contingency 
planning, as well as provide coverage on the progress of the 
Office of Thrift Supervision and OCC, the supervision of 
financial institutions' Y2K readiness.
    Our work at FMS will be performed in conjunction with GAO.
    And finally, we will continue to monitor reported progress 
by all the other Treasury bureaus and the Department.
    In conclusion, I'd like to say, that Treasury has expended 
a great deal of effort trying to fix the Y2K problem over this 
past year. This effort has resulted in a great deal of 
progress. Treasury's ability to manage and accomplish a 
successful Y2K conversion is a lot less uncertain today than it 
was a year ago.
    At the same time, no one can sit back and declare victory. 
A great deal of work remains to be done. If, in the next few 
months, the results of the remaining implementation or testing 
of critical systems identifies serious Y2K non-compliance, it 
could be difficult to put the fixes in place and perform 
necessary re-testing before the calendar turns. If sound 
contingency and continuity of business plans have not been 
adequately tested and are not in place and ready, there may be 
no way to avoid serious disruption.
    The intensity of the current Y2K conversion effort and the 
top management attention that it has received needs to continue 
right through to the millennium.
    Mr. Chairman, this concludes my remarks, and I'll be happy 
to answer any questions.
    [The prepared statement follows:]

Statement of Dennis S. Schindel, Assistant Inspector General for Audit, 
Office of Inspector General, U.S. Department of Treasury

                              Introduction
    Mr. Chairman, Members of the Committee, I am pleased to 
appear before you today to discuss the Office of Inspector 
General's (OIG) oversight of the Department of the Treasury's 
efforts to address the Year 2000 (Y2K) problem. I will focus 
first on Treasury's overall Y2K conversion effort and then 
specifically on the efforts at the Bureau of Alcohol, Tobacco 
and Firearms (ATF) and the Financial Management Service (FMS). 
I will then briefly discuss the audit work we have planned for 
the remainder of Fiscal Year 1999.
    The impact of a significant Y2K failure within Treasury on 
the operations of other Federal agencies, state and local 
governments, and the public is well understood by this 
Committee and others. The question remaining now is whether we 
are prepared, and are there any major operations or services 
that will not be fixed in time to avert a major disruption. 
Unfortunately, that question will probably not be fully 
answered until we enter the new millennium. What we can say 
from our review of Treasury's effort, is that Treasury has done 
a credible job managing this effort, has applied significant 
resources and top management attention to the effort, and has 
reduced the risk that a significant Y2K failure will occur 
within a critical Treasury operation. In addition, Treasury has 
provided constant oversight over the bureaus progress and has 
established working groups with representatives from each 
bureau. The purpose of these working groups is to exchange 
information, share best practices, and learn from one another. 
In addition, Treasury has streamlined the contract procurement 
process for key Y2K tasks such as independent verification and 
validation.
                        Overall Treasury Results
    In its February report to the Office of Management and 
Budget (OMB), Treasury reported that as of December 31, 1998 a 
total of 266 out of 321 mission critical systems were 
compliant. According to the monthly status reports, all bureaus 
anticipate meeting OMB's March 1999 milestone for 
implementation, except for ATF and the Internal Revenue Service 
(IRS) both of which have efforts underway to deal with the 
slippage. While the progress is good, there is certainly a lot 
more work to be done. Even if the bureaus have implemented 
their systems, they must continue to perform testing throughout 
1999. End to end testing, system wide testing, and regression 
testing must be performed to ensure systems are ready for the 
next millennium. In addition, business continuity and 
contingency plans must be prepared, reevaluated, and tested. 
Now let me briefly describe the work we did in reviewing 
Treasury's Y2K conversion effort and what we found.
    Starting over a year ago, we divided our review into three 
phases. In phase one, we assessed Treasury's compliance with 
the Y2K requirements of the Federal Financial Managers 
Integrity Act (FFMIA). This involved looking at whether the 
Department and individual bureaus had adequate plans for 
attacking the Y2K problem, were providing OMB with the required 
status reports, and were meeting the milestones established by 
OMB. We issued our report on that phase on April 10, 1998 
indicating that the Department was in compliance with FFMIA.
    In phase two, we assembled teams of auditors to review more 
in depth the efforts at each Treasury bureau, except IRS and 
the U.S. Customs Service (Customs). With regard to these two 
bureaus, we were able to leverage our resources with the 
General Accounting Office (GAO) and the IRS Inspection Service, 
now the Office of the Treasury Inspector General for Tax 
Administration. Both GAO and the IRS Inspection Service 
performed work at IRS, and GAO also reviewed Customs. I would 
like to mention that we had an excellent working relationship 
with both GAO and the IRS Inspection auditors. By working 
together, we were able to share best practices while enabling 
Treasury to get an independent audit assessment in every bureau 
as well as Departmental operations. In addition, we performed 
an audit to determine how well the Office of the Comptroller of 
the Currency (OCC) in the early stages of its effort, performed 
Y2K examinations of banks under OCC supervision.
    In performing our work in phase two, we focused on the 
broader issue of how the overall Y2K conversion effort was 
being managed. Specifically, we determined if processes existed 
and were designed to mitigate the Y2K risk to an acceptable 
level for ensuring all mission critical Information Technology 
(IT) systems remain operable. Therefore, we are not intending 
to represent or convey statements that any given system is Y2K 
compliant or that a system will or will not work into the next 
millennium. We knew that with a project of this magnitude, one 
could apply all the personnel, equipment and expertise that was 
needed and still not be successful if it was not well managed. 
Our experience in working with the bureaus in the early stages 
of implementing the Chief Financial Officer (CFO) Act taught us 
that the most successful bureaus were the ones that first 
obtained strong commitment from the top and then obtained buy-
in and participation from all the program managers. The same is 
true of the Y2K conversion effort. If it were viewed as 
principally the responsibility of the Chief Information 
Officers (CIO) and the IT personnel, then the significant 
amount of progress that is needed in a relatively short period 
of time, with no option for an extension, would not likely 
occur.
    We found that the Department and the bureaus established a 
good infrastructure for managing the Y2K conversion effort and 
minimizing the risk that a Y2K induced failure would have on 
its mission critical operations. However, the inherent nature 
of the Y2K dilemma denies the ability to completely eliminate 
risk. Despite their best efforts and demonstrated success, the 
Y2K problem comes with inherent risks that all organizations 
face and will continue to face. Accordingly, even in those 
bureaus where no significant weaknesses were found, we 
developed three suggestions encouraging all Treasury bureaus to 
sustain efforts in the areas of change management, data 
exchange, and contingency planning for business continuity to 
minimize potential disruptions caused by these inherent risks. 
Specifically, the actions we suggested were:

    <bullet> Ensure that a disciplined change management 
process exists that continues to maintain Y2K conversion 
integrity. Once a system has been certified, steps need to be 
taken to ensure test integrity is maintained and subsequent 
changes to the environment or application do not regress Y2K 
compliance.
    <bullet> Ensure that data exchange procedures identify and 
coordinate pivots with exchange partners.\1\
---------------------------------------------------------------------------
    \1\ The windowing logic technique uses pivots to interpret a two 
digit year into a four digit year. All year values above the pivot are 
understood to represent one century; while all values below the pivot 
are understood to represent another century. Pivots refer to a number 
built into system logic to infer the 2 digit century identifier ``19'' 
or ``20.'' For example, a pivot of 50 infers 19 as the century 
identifier for values 50-99 and infers 20 for values 0-49.
---------------------------------------------------------------------------
    <bullet> Ensure the continued development, testing, and 
reevaluation of contingency plans for each core business 
function, as well as mission critical systems. Business 
continuity planning is essential to maintain an acceptable 
level of core business processes in the event of an 
unanticipated failure.

    In our phase two audit, we did identify four bureaus with 
significant issues that required prompt action to assist in the 
success of their Y2K effort. In these four bureaus we made 
additional specific recommendations to correct the weaknesses 
we found. We worked closely with bureau officials to promptly 
alert them to these weaknesses, and we found the officials were 
very receptive to our recommendations. In most cases, our 
recommendations were acted upon before we issued our reports.
    Since ATF and FMS are two of the bureaus represented at 
this hearing and were included in our phase two audit work, I 
will briefly discuss the weaknesses we identified at each of 
these bureaus, the recommendations we made, and how each bureau 
has responded. As I stated earlier, GAO performed work at the 
IRS and Customs and will address those bureaus in their 
testimony.
                              ATF Results
    I will first start with ATF, which by coincidence was the 
bureau where we piloted our phase two audit approach. I want to 
preface my remarks by saying that not only was ATF very 
responsive to our findings and recommendations, but they were 
extremely open and cooperative with us from the very beginning 
of our audit work. This helped accelerate our learning process, 
and enabled us to share what we learned from ATF with other 
bureaus. I also want to point out that at the time we performed 
our work at ATF they too were still learning how to best 
approach their Y2K conversion effort and manage it effectively. 
It has been four months since we issued our draft report to ATF 
and even longer since we first brought our findings to their 
attention. ATF has taken corrective action on issues we 
identified during our audit, and, as a result, their management 
of the process and their progress has greatly improved.
    The purpose of our audit at ATF was to determine if an 
infrastructure for managing the conversion effort and 
minimizing the risk that a Y2K induced failure would have on 
its operations had been established. Our specific objectives 
were to evaluate ATF's Y2K effort for the following: (1) 
project management; (2) system conversion and certification; 
and (3) contingency plans for business continuity.
    We found that ATF had an infrastructure, skilled resources, 
and reasonable guidance in place to address its Y2K conversion 
task. However, somes aspects of managing the effort and 
coordinating among the various components within ATF needed to 
be strengthened. Also, while ATF was generally following GAO's 
Y2K guidance, improvements were needed in some key parts of the 
Y2K conversion process. For example we identified the need for 
better coordination and communication between the Y2K project 
office and the software development staff to accommodate the 
respective needs of the affected groups within the 
organization. Originally, we found that while the two groups 
were dependent on each other for Y2K certification they had not 
coordinated testing, migration, and certification dates with 
each other. As a result, the Y2K project office was unable to 
identify systems that were ready for certification since the 
two schedules had differences in key system dates. After we 
discussed this issue with ATF officials, they expedited the 
reconciliation of their testing schedules from these cross 
functional areas with Y2K responsibility.
    We also found that while ATF had identified its data 
exchange partners, they had no plans to coordinate the testing 
of these interfaces with their trading partners. ATF's Y2K 
Project Management Office has now been assigned responsibility 
to ensure data exchange testing procedures are incorporated 
into the compliance testing process.
    In our report to ATF \2\ we identified four major areas 
where improvements were needed. These are summarized below. We 
included nine specific recommendations in our report designed 
to help ATF strengthen their Y2K conversion effort in each of 
these areas:
---------------------------------------------------------------------------
    \2\ Year 2000 Compliance Effort at the Bureau of Alcohol, Tobacco 
and Firearms (OIG-99-021, December 18, 1998)

    <bullet> Project management should be further strengthened 
by developing performance measures to ensure accountability and 
taking the appropriate action to ensure continuity in 
contracted support.
    <bullet> System conversion process and certification plans 
should be further strengthened by coordinating cross-functional 
activities; formalizing the Y2K compliance testing procedures; 
minimizing concurrent development; and improving configuration 
management for maintaining conversion integrity.
    <bullet> Data exchange testing strategies should be 
improved by including the necessary coordination with data 
exchange partners.
    <bullet> Contingency planning should be further 
strengthened by accelerating the timeline for developing and 
testing contingency plans and developing the plans on a 
prioritized basis.

    We recently met with ATF to determine what progress they 
have made since our field work. Although they have made 
significant progress in all areas (implementation, 
certification, and contingency planning) and have implemented 
most of our recommendations, ATF still has a lot of work ahead 
of them. They have three mission critical systems that are not 
expected to be implemented until May, July, and August of this 
year. Testing still needs to be performed with critical data 
exchange partners and business continuity plans must be 
prepared and tested for each core business function. If 
subsequent testing shows that some systems are not ready, there 
will be very little time to correct and retest these systems. 
ATF is aware of the tight time frame and narrow margin for 
error. They have the infrastructure in place that should enable 
them to effectively address this increased risk.
                              FMS Results
    I will now focus on our observations at FMS. The purpose of 
our audit was to determine if FMS had established an 
infrastructure for managing their conversion effort and 
minimizing the risk that a Y2K induced failure would have on 
their operations. Our specific objectives were to evaluate FMS' 
Y2K effort for the following: (1) project management; (2) 
system conversion and certification; (3) data exchange; and (4) 
contingency plans for business continuity.
    Similar to ATF, FMS has taken action to address all of our 
findings and recommendations. In addition, they have started 
and/or completed a number of their own initiatives to 
strengthen their Y2K conversion process. As a result, FMS' 
management of their conversion effort, their progress in 
getting systems implemented, tested, certified, and their 
contingency planning efforts are much improved from when we 
conducted our audit work.
    That audit work showed that FMS had a project management 
infrastructure, a certified Y2K platform, reasonable guidance, 
a commitment from the Commissioner, and an inventory of its 
non-information technology mission critical systems in place to 
address its Y2K conversion task. However, also like ATF, some 
parts of FMS' management process needed to be strengthened and 
certain key parts of the Y2K conversion process needed to be 
better executed. For example, the Chief Information Officer 
(CIO) had overall responsibility for FMS' Y2K effort through 
the establishment of the Y2K Special Project Office (SPO). 
However, we found that summarized project information flowing 
into the SPO and ultimately to the Department and OMB, was not 
always accurate, reliable and consistently gathered. We also 
observed that while the SPO had prioritized FMS' mission 
critical systems, the application of resources and a level of 
effort consistent with these priorities was not being managed 
from an FMS-wide perspective. FMS informed us that both of 
these areas have been substantially improved since we conducted 
our audit work.
    We also found that for FMS' external systems, that is, 
systems developed and maintained by an outside contractor, FMS 
needed to improve their ability to assess Y2K compliance. One 
such system is the Government On-line Accounting Link System 
(GOALS) which is entirely operated and maintained by 
contractors at the contractor's facilities. FMS had 
significantly limited the amount of test documentation required 
from the contractor which would limit FMS' ability to review 
the completeness and reliability of the test results. This 
potentially increases the risk that GOALS may not be Y2K 
compliant and FMS would not be aware of it. FMS has taken a 
number of steps to address this situation, including performing 
their own tests of the contractors certifications.
    A complete summary of the issues we reported to FMS in our 
February 10, 1999 draft report are presented below. In addition 
to this draft report, we provided FMS with the detailed results 
of our evaluation of nine mission critical (IT) systems.

    <bullet> Project management should be further strengthened 
by performing more quality assurance reviews to ensure reports 
are reliable; establishing priorities from an FMS-wide 
perspective; and using performance measures to enforce 
adherence to FMS guidance.
    <bullet> System conversion and certification strategies 
should be further strengthened by managing and coordinating 
test schedules and resources; reviewing test results and 
ensuring adequate testing documentation; requiring additional 
testing or other procedures to compensate for lack of test 
documentation on externally maintained systems; and ensuring a 
disciplined change management process exists for maintaining 
conversion integrity.
    <bullet> Data exchange strategies should be improved by 
completing the data exchange inventory; establishing and 
completing agreements with data exchange partners; identifying 
and coordinating pivots; performing testing with FMS' data 
exchange partners; and establishing accountability for 
performing data exchange procedures.
    <bullet> Contingency planning should be further 
strengthened by reevaluating, accelerating, and prioritizing 
the development and testing of contingency plans; defining 
incremental tasks to facilitate the preparation of contingency 
plans; incorporating data exchange risks in contingency plans; 
and preparing business continuity plans to ensure all core 
business processes continue to function at an acceptable level.
    We made 14 recommendations and 1 suggestion for corrective 
action. These actions are designed to strengthen FMS' Y2K 
conversion process and, upon implementation, we believe FMS' 
risk of any Y2K induced failure will be reduced.
    We recently discussed with FMS their efforts to address the 
recommendations and suggestions we made as a result of our 
audit. FMS has taken positive steps and made progress toward 
reducing the risks of Y2K system failures. As of January 31, 
1999, 36 of their 62 mission critical systems are Y2K 
compliant. FMS anticipates that the remainder of their mission 
critical systems will be implemented by March 1999. FMS has 
also initiated coordination with data exchange partners and 
started some end to end testing. Despite this progress, FMS 
still has a lot of work to do, including end to end testing 
with approximately 30 Federal agencies. Although FMS has 
prepared contingency plans for all its mission critical 
systems, they still need to update and test business continuity 
plans.
    One of the most significant issues at FMS is processing 
Social Security payments. FMS maintains payment systems that 
each year make 860 million payments with a dollar value of more 
than $1 trillion on behalf of the Social Security 
Administration (SSA), the Department of Veterans Affairs, the 
IRS, and other agencies. FMS systems issue more than 600 
million Social Security and Supplemental Security Income 
payments each year on behalf of SSA--roughly 70 percent of all 
FMS payments.
    SSA and FMS have worked together to ensure that the entire 
process for providing Social Security benefits--from 
calculating benefits to making payments--is ready for the 
century date change. In October 1998, FMS began to issue 
monthly Social Security payments on systems that had been fixed 
and tested while it awaited independent verification of its 
testing, test results, and documentation to ensure that these 
systems were, in fact, Y2K compliant. Approximately a month 
ago, the independent contractor informed FMS that monthly 
Social Security payment systems are indeed ready for the Y2K 
date change. This represents a critical step in Y2K work on 
these systems, and FMS will continue to test throughout 1999.
                          OIG Phase Three Work
    In Phase three, we plan to perform additional reviews at 
selected bureaus to review their progress related to testing 
and contingency planning as well as provide coverage on the 
progress of the OCC and Office of Thrift Supervision (OTS) 
supervision of institutions. Finally, we will continue to 
monitor reported progress by the bureaus and the Department.
    Our continuing review will be done at ATF, U.S. Mint, and 
FMS. The first part of our work will focus on the results of 
independent verification and validation and then on contingency 
planning. Our work at FMS will be performed in conjunction with 
GAO. It is critical that bureaus perform independent 
verification and validation to ensure adequate testing was 
performed. Without adequate testing, it is possible that a 
system could fail without warning. A review at one bureau 
revealed that a system was certified as Y2K compliant, but the 
auditors found that not all code was identified or renovated. 
If this was not corrected prior to the system's critical date 
(i.e., January 1, 2000), the system could fail. This issue was 
brought to management's attention, and the bureau took prompt 
action by bringing in an independent contractor to review 100% 
of the code.
    In addition, the second part of phase three will focus on 
business continuity efforts. OMB established a March 1999 
milestone for agencies to have fully implemented systems. Based 
on our audit work and review of the bureaus' monthly status 
reports, we have identified two bureaus that are unlikely to 
meet this milestone: (ATF and IRS). ATF has 3 of 24 mission 
critical systems that will be implemented after March 1999; 
while IRS has 7 of 133 mission critical systems that will be 
implemented after March 1999. Therefore, it is even more 
imperative for these bureaus to have comprehensive contingency 
plans in place.
    It is also imperative that bureaus which exchange data with 
international partners have reliable contingency plans in 
place. Early indications are that international partners have 
made slower progress than the United States in converting their 
systems; therefore, there is a higher risk that problems may 
occur when transacting business internationally. In each 
bureaus' report, we stressed either through a recommendation or 
suggestion the importance of contingency planning to all 
bureaus in the event that the milestone dates were not met or 
unanticipated problems were identified with the operation of an 
implemented system. The uncertain and uncontrollable 
international situation raises contingency planning for systems 
with international exchange data to the same critical level of 
concern as actual conversion of mission critical systems.
                               Conclusion
    It would be an understatement to say that a great deal of 
effort has been put into solving the Y2K problem over this past 
year. However, that effort has resulted in a great deal of 
progress. Treasury's ability to manage and accomplish a 
successful Y2K conversion is a lot less uncertain today than it 
was a year ago. At the same time, no one can sit back and 
declare victory. A great deal of work remains to be done. If in 
the next few months the results of the remaining implementation 
or testing of critical systems identifies serious Y2K non-
compliance, it could be very difficult to put the fixes in 
place and perform the necessary re-testing before the calendar 
turns. If sound contingency and continuity of business plans 
have not been adequately tested and are not in place and ready, 
there may be no way to avoid serious disruption. The intensity 
of the current Y2K conversion effort and the top management 
attention it has received needs to continue right through to 
the millennium.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Schindel.
    The Chair is grateful to all of you for your presentations 
today. I must say, generally, they come across as being 
comforting, which I am very pleased to hear.
    Can any one of you think of any reason why the areas of 
operation within your supervision or purview would be disrupted 
as we enter the new millennium? Is there any reason why any 
necessary functions would be disrupted by this Y2K problem at 
the beginning of next year?
    Mr. Apfel.
    Mr. Apfel. Mr. Chairman, that's really the purpose of our 
contingency plans. If there are areas of potential disruption, 
how would we overcome those problems? Not how would we change 
the systems, but how would we get around and get what we need 
to get done, done. And some of that involves moving people to 
work, and moving work to people. But if there were potential 
disruptions, that's really the focus of what contingency 
planning is throughout all of Government, to focus on the areas 
where we could have potential problems and how to overcome 
those problems. In other words, if there is a power shortage in 
our Baltimore headquarters, our contingency assures a week's 
worth of power on our own to operate our computers to make sure 
that we can handle the workload.
    So that's really what the whole focus of contingency 
planning is, to take a look at the ``what-ifs'' and decide how 
we will resolve the issue.
    Chairman Archer. That's very good to hear too. So if Y2K 
does happen to cause any problems, you do have contingency 
plans so that your necessary services will continue without 
disruption. Is that a fair statement?
    Mr. Apfel. That is a fair statement.
    Chairman Archer. And I would say to all of you who are 
involved with the Federal Government, because I don't think we 
are going to provide any resources to Mr. Anderson out of the 
Federal Treasury, but for those of you involved with the 
Federal Government, are you satisfied that the Congress has 
provided adequate resources to solve the problems in the 
operations over which you either supervise or have within your 
purview?
    Mr. Gregg. Mr. Chairman, speaking for FMS, we have 
sufficient funds to do what we need to do. We just need to keep 
focusing on Y2K and get it done.
    Chairman Archer. And to all of you, is there any area where 
you need additional funds?
    Mr. Apfel. No, sir.
    Chairman Archer. OK. Then the record will show that the 
answers were unanimously ``no'' to that question. Those are the 
only questions I have. Mr. Rangel.
    Mr. Rangel. Yes. The distinguished Majority Leader, Mr. 
Armey, was concerned that some of our financial institutions 
might not be prepared to support the progress that is being 
made by the Social Security Administration in getting benefit 
checks out. And he's written to the President of the United 
States about this issue. And I just wondered whether anyone 
could satisfy his concern?
    Mr. Anderson. If I can speak. The banking industry is on 
track in meeting its deadlines. And we have gone through 
extensive tests, both of our internal systems and with the Fed, 
to ensure that the payments will come to the Fed, from the Fed 
they will come to the bank, and from the bank they will be 
credited to the proper individual account. If there are 
glitches, we have contingency plans as well so that we can 
stand behind our Social Security recipients to make sure that 
they get through this all right.
    Mr. Rangel. Mr. Anderson, would you be kind enough to send 
a note to that effect to Mr. Armey because he has concerns like 
this. It bothers me. [Laughter.]
    Mr. Anderson. I'd be glad to.
    Mr. Rangel. Thank you so much. Thank you, Mr. Chairman.
    [Mr. A. Scott Anderson submitted his testimony to Richard 
K. Armey, House Majority Leader.]

Supplement to the Testimony of A. Scott Anderson; on behalf of the 
American Bankers Association

    During the February 24 hearing, Representative Mark A. 
Foley (R-FL) asked that Mr. Anderson provide a discussion of 
the consequence to U.S. financial institutions should Y2K 
glitches occur in transactions with their foreign trading 
partners. The requested discussion follows.
    The issue of global Y2K risk has been of major concern to 
all financial institutions that do business across borders. 
Aside from testing and preparing contingency plans for their 
domestic operations, financial institutions have been closely 
examining their international exposure, and assessing the Y2K 
readiness of their global partners. For example, consider this 
excerpt from the testimony of State Street Corporation, to the 
Senate Commerce Committee on February 9, 1999:
    In much of our business, we act as an agent or true 
financial intermediary in a complex, interconnected chain of 
financial transactions. As a middleman, we interact 
electronically with securities depositories, broker/dealers, 
banks, stock exchanges, telecommunications and utility 
providers, our customers and investment data services in more 
than 80 countries.
    Our business exposes us to the readiness, or failure, of 
multiple parties beyond our control. Regardless of how well we 
have prepared our own information systems technology for Y2K, 
our ability to deliver services remains dependent upon the 
state of readiness of thousands of other service providers.\1\
---------------------------------------------------------------------------
    \1\ Marshall Carter, Chairman & CEO, State Street Corporation
---------------------------------------------------------------------------
    It is precisely this interdependence of multiple parties 
engaged in cross-border transactions that makes it difficult to 
determine the overall risk level of such activities as trade 
finance, currency exchange, and investment settlement services. 
However, each financial institution that provides these 
important services is continuing to verify and monitor the Y2K 
progress of major overseas counter-parties, such as those 
mentioned in the referenced testimony. At the same time, 
financial institutions are developing contingency plans to 
continue their existing services in foreign markets should they 
face Y2K-related disruptions.

                                <F-dash>


    Chairman Archer. Mr. Crane.
    Mr. Crane. Thank you, Mr. Chairman. I want to commend 
Commissioner Apfel, especially for the recognition of this 
problem earlier, I think, than your counterparts in getting up 
to speed and providing that example. And my understanding is, 
the person who pioneered that was Kathy Adams. And is Kathy 
here?
    Mr. Apfel. Kathy is right behind me. Dean Mesterharm also. 
And John Dyer.
    Mr. Crane. Congratulations, Kathy.
    Mr. Apfel. I would like to take full credit for it, but it 
started many, many years before I became Commissioner.
    Mr. Crane. You're in deep ``kimshe'' if you try.
    Mr. Apfel. That's right. [Laughter.]
    Mr. Crane. Let me ask one question though. And that is 
while you're up to speed, do you have any concerns about the 
post office's readiness?
    Mr. Apfel. No, sir. The Postal Service is virtually 
complete in its operations. And again, if there is a localized 
problem, the same notion of moving people to work and moving 
work to people is in their contingency plan. If there were a 
problem in a certain area, the idea would be to work around it 
to assure the delivery of the mails.
    I think you should hear that directly from the Postal 
Service, but we are very comfortable with our efforts that have 
been going on with the Postal Service in this endeavor.
    Mr. Crane. That's comforting. Well, I thank you so much. 
And I yield back the balance of my time.
    Chairman Archer. Mr. Shaw.
    Mr. Shaw. I would like to continue that line of questioning 
with regard to the delivery of the checks, and I would like to 
also speak to Mr. Anderson about this particular matter. What 
about foreign banks, American living abroad who are receiving 
Social Security checks. I'd like to direct this question both 
to Mr. Anderson and Mr. Apfel as to what would happen to them? 
Have we done a survey to see how they can cope with this? 
Anybody, either one.
    Mr. Apfel. I would like to start that.
    Mr. Shaw. All right.
    Mr. Apfel. This is an area that I think needs greater 
attention over the course of this year. That's part of what our 
contingency planning is focusing on. If we can't get the 
sufficient assurances in the international arena, then we're 
going to have to determine alternative systems for delivery at 
that time.
    This is one of the areas I think the U.S. banks are in a 
much stronger position than some in the international arena. So 
this is one of the areas that our contingency planning is 
focusing on this year.
    Mr. Anderson. If I could just add to that, Congressman. I 
serve as a senior adviser to the President's Y2K Council, and 
that is one of the issues that we are very concerned about. We 
are confident that we can get the wires to those other banks, 
and we need to make sure that they can then credit it to the 
appropriate parties overseas. We have a number of our customers 
that do a tremendous amount of wires each day to people serving 
all over the world, and we have been working with those 
customers to develop contingency plans if in fact the wires 
can't get through, that we can get them the cash through other 
means.
    One of these means is through the ATM card, where they 
could then access the cash overseas using the ATM card.
    Mr. Shaw. This is very important not only for the 
beneficiaries who need these funds but also it is very 
disturbing as to the tracks that we leave down to prove that we 
did deliver these checks in compliance with the instruction of 
the recipient. And I think that we need to really go back and 
be sure there is a very good audit trail to prove that we did 
send the money, and that this was the choice and the designated 
recipient of the money made by each of the beneficiary of the 
Social Security system. And I think this is very important that 
we look into that because there could be some real glitches 
that we didn't prepare for.
    I have just one other question that I want to ask Mr. 
Apfel. And I ask this with full recognition the tremendous job 
that you all have done at Social Security, and Kathy, and 
continuing under your leadership. But I do have a question. Our 
Subcommittee asked for certain documentation to be given to the 
General Accounting Office and that they do certain audits and 
report back to the Subcommittee. We understand that there is a 
problem with receiving some of the requested documents. If you 
comment on that or if you would get back to me if you're not 
prepared to comment on that, we do want to fulfill our 
obligation to do our oversight in that area.
    Mr. Apfel. And this is in the Y2K area?
    Mr. Shaw. That's what I understand.
    Mr. Apfel. I am unaware of a problem in this area. We will 
look into it immediately and have someone contact your office 
today.
    Mr. Shaw. If you would check with the General Accounting 
Office and see what they have requested that you haven't 
provided. And we would appreciate your expediting that.
    Thank you. Thank you.
    Chairman Archer. Mr. Coyne.
    Mr. Coyne. Thank you, Mr. Chairman. Mr. Gregg, what 
contingency plans does FMS have should any of the direct 
deposit electronic systems fail?
    Mr. Gregg. We have several, Mr. Coyne. First of all, we 
have a nationwide telecommunications network that runs out of 
our Hyattsville, Md., office. It has the capacity to shift work 
around the country. If we did have a power problem in one part 
of the country, we could shift payments processing to another 
location.
    We also have a backup telecommunications facility in Kansas 
City. Both of our telecommunications faacilities have power 
generators that could operate if we had some kind of power 
problem in those locations.
    In addition to the telecommunication network, we have three 
computers that can each process the full volume of our payments 
for any given month. So if we had a problem, say, in Austin, 
Texas, we could shift all the work that would normally be going 
out of Austin to either Hyattsville or Philadelphia, and make 
the payments through those facilities. I'm talking about 
electronic payments.
    Someone mentioned earlier about the possibility of a 
problem with the Postal Service. If, in fact, we had some 
problem with the Postal Service in one part of the country, we 
could actually shift work and have the checks printed at 
another one of our regional finance centers, where they may not 
be having a problem with the Postal Service.
    So we have quite a few contingencies to address problems 
that could occur. We are doing everything we can to, hopefully, 
reduce that risk. But we do have a good contingency plan in 
case something does happen.
    Mr. Coyne. Are paper benefit checks available as a backup?
    Mr. Gregg. Yes they are. Well, they are in terms of our 
ability to shift check production from one place to another. 
I'm very confident, extremely confident, that the electronic 
processes will work. We have about 70 percent of our overall 
payments now made electronically. The reason I'm confident is, 
first of all, Social Security on one side of us has been ready 
for some time. And, on the other side of us, we have the 
Federal Reserve, who started on this project about the same 
time as SSA. They have also shown great leadership. They have 
been testing with the commercial banks that receive electronic 
payments for some time and they will continue to test 
throughout this year. I'm very confident that those will work.
    If we did have some isolated problem, and in my view it 
would be only a few banks here and there, if we did have an 
isolated problem, we would work with Social Security and 
quickly get out a replacement check for that individual.
    Mr. Coyne. Thank you.
    Chairman Archer. Mr. McCrery.
    Mr. McCrery. Mr. Apfel, just one question. You use an 
example in your testimony or maybe in response to a question 
about the electric power going off, say, in Baltimore and you 
had a contingency plan that would allow you to generate your 
own power for a week. Is that a real-life example or was that 
just----
    Mr. Apfel. That is a real-life example. Our data operating 
center, which is central to our nerve center, has its own power 
source.
    Mr. McCrery. But only able to generate power for 1 week?
    Mr. Apfel. We have the fuel on hand to power it for a week. 
Not that it would shut down in a week.
    Mr. McCrery. OK. Well that's good because I was wondering 
if you were that confident that a problem of that scope, the 
failure of a utility company, for example, to generate power, 
could be solved that quickly. Do you have any thoughts on that 
in your contingency planning as to the ability of other 
entities to identify problems and solve them quickly?
    Mr. Apfel. I think the overall power grid issue is a 
broader issue that I believe John Koskinen will be speaking to. 
He was supposed to testify first, but there have certainly been 
significant improvements in this area. The one area that we 
felt that was centrally important that we have covered in case 
of a localized outage was our data center because that is 
clearly the center of our operation. That is taken care of.
    If a local power company--we've heard about the Austin 
local power--went out, what we would have to do in that 
situation, again, would be to redirect around it. We have 1,300 
field offices. So that capacity to move work throughout the 
country around a localized problem is part of our contingency 
planning.
    Now that's clearly part of the local contingency plans that 
we're developing now and will be finalized by the end of March, 
just those forms of localized problems, and how to work around 
them and get our work done.
    Ultimately, the goal is how do we get the work done if 
``blank'' happens? And that's what the contingency plans do.
    Mr. McCrery. OK. Thank you.
    Mr. Anderson. Congressman, could I add to that?
    That's one of the issues that we've looked at very 
carefully in the banking industry. What would we do? And in our 
particular bank, we have a backup generator for our main 
computers that will take us through for 2 weeks. In addition, 
we will have trailers with their backup generator in the 
trailer that we can move around if there's outages in certain 
areas to continue to service the customers. And in the end, we 
are prepared to do it with lanterns, the old fashioned way, 
with flashlights and so forth.
    Mr. Gregg. Mr. Congressman, I want to get on the generator 
bandwagon here. We also have a generator in our Hyattsville 
office, which is our largest center. We installed it 8 or 9 
months ago. And it will run our whole operation for any length 
of time as long as we have the fuel. It has worked very well 
when we have had power problems due to the weather we have had 
over the 7 or 8 months since it's been installed. The generator 
has really worked flawlessly.
    Mr. McCrery. Mr. Chairman, I yield back, but maybe with all 
this talk of extra use of fuel, we can get oil prices back up 
to help us out in the oil patch. [Laughter.]
    Chairman Archer. That would be beneficial in our part of 
the world in any event. Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    Mr. Apfel, I'm encouraged by your comments this morning 
about how well prepared you are for January 1, 2000, and that 
you had the foresight, and your predecessors had foresight many 
years ago, to look into this problem. I'm also encouraged by 
your reaction to this situation that you're going to be 
forthcoming with some very good recommendations as to 
structural change for the Social Security system itself, as we 
discussed last night.
    I only have one question for you. And that is, these 
``what-ifs.'' What if there is a real problem at the end of 
this year and the beginning of the first two or 3 days of next 
year, and those checks don't show up. Were you to, in your 
local offices, regional offices, receive the calls that are 
going to come from our office? Do you have a good contingency 
plan for that one? That's one I'm really worried about because 
I know that we will be overrun with calls and visits, and I 
know in the Atlanta region office they do a very good job of 
helping us today with situations, but that might be a massive 
one. Do you have contingency plan to handle us?
    Mr. Apfel. To handle?
    Mr. Collins. Us, as a Congress. Our calls to you in 
reference to constituents?
    Mr. Apfel. Absolutely. Part of the local office contingency 
planning is--let me go to two things. First of all, our day-one 
strategy is for every field office, every facility, every 
hearing office that we have, to have people in those offices 
during the weekend to go through a series of real-life 
situations to ensure that systems are working. We have a 
command center in Baltimore to be able to handle that 
information. And that goes all the way to such things as 
embedded systems.
    Let's say you have an electronic lock system. You want to 
make sure that electronic lock system is working because you 
don't want to get locked out. So clearly there's a whole series 
of things that each one of our facilities will be doing.
    In addition, we'll have about 40 of our field offices that 
will actually be making transactions to assure that those 
actual transactions can take place. By the time we open the 
doors after the holiday, we will have assessed exactly where, 
if there is a problem somewhere, that problem would be. If 
there is a problem in a certain area in your district, we would 
notify your office to let you know what our contingency plans 
would be and how to handle that work.
    Mr. Collins. Before the light changes, if you have any 
recommendations for my office through the Atlanta regional 
office so that we can assist you, please call with those 
recommendations because we want to fully prepared too.
    Mr. Apfel. Very good, sir.
    Mr. Collins. Mr. Anderson, right quickly. You mentioned the 
contingency plans that you have and you're encouraging and 
trying to educate your customers to keep their moneys in the 
bank. The Federal Reserve Chairman also made the same 
statement; however, he is printing some $200 billion extra to 
stockpile. I had a constituent just earlier this week who told 
me that he is stockpiling his own little contingency of cash as 
well as other things for January 1, and he's a businessperson, 
very well educated. So your education system is not getting 
down to the grassroots in all places.
    Mr. Anderson. That is absolutely right, Congressman. And 
this is why I think we all have to pull together, the industry, 
the association, and the government, in getting out the 
message. We've had customers come in and pull out their life 
savings. And in talking with them, they are going to take it 
home and keep it until after the change of the year.
    I think back to my mother. I would hate my mother to do 
that. I would be worried about her personal security and 
safety. I'd be worried that something would happen to the money 
and then she would be destitute. She wouldn't have anything. 
And I think it's these fears that we really need to address, 
and let people know that they will be taken care of.
    I'm confident that the ATM system will work. And where you 
can go in there on January 1 and draw out money. You have your 
checks. You can use your checks. You don't need to just have 
cash. You can use your credit cards. And so I am confident that 
things will be all right.
    But we do have to get the message out.
    Chairman Archer. Mr. Kleczka.
    Mr. Kleczka. Thank you, Mr. Chairman.
    Commissioner Apfel, let me re-ask a question that was asked 
by Congressman Coyne. You gave the one scenario of the power 
outage, and that's been talked about at length here. Let me 
broach this scenario. Let me ask a question first: What 
percentage of your benefit checks are direct deposit, or 
benefit payments are direct deposit? About 70?
    Mr. Apfel. About, yes.
    Mr. Kleczka. About 70. OK, which is a hefty amount. Let's 
assume for a moment that one or two banks in the system that 
accept direct deposits for some reason have a glitch, and the 
consumer, the beneficiary cannot access those dollars on 
January 3, is it? What is, January 1 is on what date, Saturday?
    Mr. Anderson. Yes.
    Mr. Kleczka. OK, on January 3. What is that contingency 
plan because that is something that is going to be asked of us 
repeatedly throughout the year?
    Mr. Apfel. The specific contingency plan: Our facility will 
be working with that financial institution to determine 
immediately whether, in the next 48 hours, the situation would 
be resolved so that it could be deposited electronically.
    Mr. Kleczka. And the answer to that question is it cannot. 
Then what?
    Mr. Apfel. Step two is the arrangement to determine whether 
a second financial institution could make the electronic 
transfer. If we could not, then step three, we would be working 
with the FMS to cut a paper-based check. And step four, if 
there is an emergency, if someone said I am destitute, our 
field offices are prepared at that time to immediately cut a 
check.
    So we have a several-step process.
    Mr. Kleczka. So what is the longest period of delay that a 
constituent, say in my district, would suffer if they went to 
the bank on Monday for a withdrawal, the transfer was not 
showing up, how long before that person could get their actual 
dollars?
    Mr. Apfel. If the person is not in an emergency situation, 
it could be about a week. However, if there is a financial 
problem, if they really needed the cash immediately, our field 
offices would be prepared to cut that check immediately.
    So step one, the first 48 hours with a financial 
institution to determine whether it can be done. Step two, it's 
whether there could be another alternative financial 
institution. If that is immediately ruled out, then cut the 
paper-based check. And in the case of emergency, the immediate 
check cut by our field office.
    Mr. Kleczka. I'm assuming you're going to be asked those 
questions repeatedly over the next 300 and some days. What I 
would ask you to do is revise the system and move off that 1 
week because that will clearly cause panic with some people. So 
there's got to be a system where, whether or not it's an 
emergency, it's my money. And I went to the bank on Monday and 
I want $200. There's got to be some system in place where 
within a 24-hour or 48-hour period, that person has access to 
those dollars.
    OK?
    Mr. Apfel. In an emergency situation, the answer is 
absolutely yes.
    Mr. Kleczka. ``Emergency'' is it's my money and I want it.
    Mr. Apfel. Yes.
    Mr. Kleczka. OK?
    And that's what we're going to be getting in calls to our 
office. And it might be to pay a bill, it might be just to go 
shopping--I don't know. But with that person, it's an emergency 
to them. You know? It's not a life or death, but----
    Let me also restate a point made by Mr. Anderson, which I 
think is probably the crux of the entire problem. And in your 
statement, as you well know, you indicate the biggest, the 
bigger challenge, is maintaining public confidence. We believe 
that Congress has a critical role to play as do bankers in 
keeping consumers informed about what's being done.
    We had a hearing yesterday on an important issue on Social 
Security, and there were three or four cameras in the room. In 
fact, one is sitting right in front of you to get your fact 
shot. Today they are not there. And clearly, you know, I don't 
know where you put it in the importance of things as far as Y2K 
and Social Security. I think both are very important issues, 
but we don't have the public exposure to your comments today 
like we do for other hearings here. And I think it's incumbent 
upon Congress to make sure that we don't cause the panic. 
Because it's great sport bringing an agency before various 
Committees if one of the administrators indicates that we're 
not really up to speed. That word is going to get out right 
away, and naturally the public is going to be very concerned.
    So I think the burden of consumer confidence and making 
sure that the perception that the sky is not falling comes from 
this body, the Congress itself. And the agencies are not 
surprised at this. They have been working for years in some 
cases. We know that billions and billions of dollars have been 
spent on the problem. And what I try to do when I go back home, 
in fact we write a weekly column for the local newspapers. And 
the one about 2 weeks ago was on Y2K and that the government is 
coming up to speed and there's no reason for panic. The bankers 
and financial institutions are there. And hopefully through 
that type of educational process, my consumers, or my 
constituents, won't be the ones buying gold and starting to 
hoard consumer products, be it food, water, whatever.
    But let me ask this panel, and I don't know who wants to 
answer it. But we see the stories repeatedly on TV where there 
are now conventions or seminars on weekends where people are 
told to start squirreling away water and canned goods. Some of 
these things are even for sale at these seminars. We've heard 
the stories of people pulling their money. My nephew asked the 
other day whether or not he thought, or I thought it was a 
good, for him to get some gold. You know.
    Paint me a scenario where all the food stores in the 
country, Giant, Safeway, Kohls, and the like would not be open 
at all, that our money would be worthless. I just can't fathom 
that transpiring, but some people do. And some people are out 
to make a buck by encouraging that type of thinking. Could 
somebody here tell me, or try to paint me the worst-case 
scenario, where I cannot access any food products whatsoever 
for a period of time, or the money supply that I have either 
saved or whatever is worthless, and without gold we're all in 
deep trouble?
    Mr. Anderson. Mr. Congressman, I applaud your comments, and 
I do think we need to get the word out. I can't think of an 
instance where that would happen. And in fact, if you go back 
over history, those who have been the doomsayers in the past 
and said invest in gold, that's probably been the worst 
investment that they could have. Again, I'm convinced that the 
banking side will be ready, that the safest place for people's 
money is in the bank. People need to be careful about some of 
the hysteria and some of the fraudulent schemes that are out 
there to take money away from people, take advantage of the 
situation.
    Mr. Kleczka. Thank you very much. And again, thank you for 
your comments. Hopefully the Members of Congress will be 
listening to them and heeding that advice.
    Thank you, Mr. Chairman.
    Chairman Archer. Mr. Houghton.
    Mr. Houghton. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your testimony. Good to see you, Commissioner 
Apfel. I think you're doing a great job. Thanks very much for 
the things that you're doing for the Y2K problem.
    Let me just try to put this thing in perspective. The Y2K 
issue for the U.S. Government is an issue for the 
administration, really not for Congress, or not for the 
Judiciary. And the reason we are involved here is because of 
the oversight to see how it's going. Are there any weak spots? 
And I would assume that the President of the United States or 
any of his lieutenants have said to you, we expect that this 
will be solved, and be solved expeditiously so that there will 
be no problem with the U.S. citizenry. And if it is not, and 
you are worried about it, you let us know.
    And, in effect, the word came back that you needed a little 
less than $3.5 billion, and that came forward through military 
and non-military supplemental appropriations last year.
    So I would assume, irrespective of what the problems are, 
there are always the ``what-if,'' that this thing is going to 
be solved and you got enough money. And if it's not, I would 
like to know it.
    Mr. Apfel. Mr. Houghton, I can only speak for the Social 
Security Administration, but we have fully adequate resources 
to completely resolve this issue. I think that the importance 
of this hearing today is to ask that question of every agency. 
I think these hearings are very appropriate to look at where 
there are potential problem areas, and what the resource 
implications are. From a Social Security perspective, Mr. 
Houghton, I can assure you that we have the resources and the 
plan in place to handle this.
    Mr. Houghton. Well now, let me just go on to Mr. Schindel. 
Mr. Schindel, you wrote a sentence which is a sentence I've 
never seen before: ``Treasury's ability to manage and 
accomplish successful Y2K conversion is a lot less uncertain 
today than it was a year ago.'' Tell me, what does that mean?
    Mr. Schindel. Congressman, what that means is that a year 
ago, I think that most of the agencies and Treasury were where 
a lot of other agencies were. They would have liked to have 
gotten started a lot sooner. So last year there were a lot of 
plans in place. An infrastructure was put in place to start 
managing the Y2K conversion, but we didn't have a lot of actual 
renovation and conversion of systems going on. That has 
substantially improved or increased since that time.
    Mr. Houghton. But, Mr. Schindel, if I could just interrupt, 
if I were the operating officer of the United States, and you 
said that to me, that would worry me. I expect you to do this 
job. And we don't get paid off on effort. And I understand some 
of the past problems, but we need to be sure that things are 
going to be all right. And I know you're in the auditing 
business, and I know that's important, but it is not a 
reassuring sentence.
    Mr. Schindel. Well, I think what it's meant to communicate 
is that between now and January 1, 2000, there's still some 
work to be done. But everybody is engaged in doing that. And 
until that work is completed, additional testing is done, there 
is still the potential that some systems could be Y2K non-
compliant.
    Mr. Houghton. Mr. Chairman, I've just got one other 
question, if I could ask it.
    Chairman Archer. Of course. Go right ahead.
    Mr. Houghton. All right. I'd like to ask this of Mr. 
Anderson. You say in your testimony in the last paragraph 
conclusion, that the banking industry alone cannot deliver 
business as usual in the year 2000, there must be parallel 
commitments by all other sectors of the economy. Are there any 
reasons to doubt that there are not?
    Mr. Anderson. Mr. Chairman, or Congressman, we are looking 
at that very carefully, and we are dealing with our vendors and 
our service suppliers with our utilities and the 
telecommunication providers to ensure that they are taking 
appropriate actions and that the service that they are 
providing us will be made----
    Mr. Houghton. I'm sure you are, and that is very 
reassuring. However, do you see any real soft spots out there 
that we should be concerned with?
    Mr. Anderson. Overall, I'm very confident. There may be 
glitches, but I think we will be able to overcome them so that 
the service to the individual consumer at least coming into the 
bank will not be interrupted.
    Mr. Houghton. Thank you, Mr. Chairman.
    Chairman Archer. Mr. Tanner.
    Mr. Tanner. Thank you, Mr. Chairman.
    I was interested in your opening statement, Mr. Anderson. 
My grandfather was in the banking business back during the 
Depression. This fellow came in 1 day and withdrew all his 
money and said I just can't trust the banking system. A couple 
weeks later he came back, put his money back in. My grandfather 
asked him, what did you change your mind for?
    He said, well I buried it in the backyard and I wore a path 
checking on it. He said any fool could have found it. 
[Laughter.]
    My question following up on Mr. Houghton. Your comments, 
all of you, have been reassuring as has been said. What about 
your suppliers and those with whom you have Y2 compliant 
computer interaction that you must depend on. I mean, it's all 
right for you to be Y2 compliant, but those with whom you 
interact by computer, if they are not, the old adage, it takes 
two to tango in this business. Could you all comment on where 
you are with that and if you see any problem. Thank you.
    Mr. Apfel. Mr. Tanner, it's a major priority that our 
partners, and there's not just one, there's lots, are connected 
to us and that everything is compliant. We identified 2,000 
data exchanges, that's 2,000 partners. We must be able to 
assure that those systems are working in a positive 
interconnected way. Within Social Security, we've fixed all but 
13 of those 2,000. The last 13 are not mission-critical, but we 
still want to get that resolved, and we will over the next 3 
months. One of the key aspects of any agency is to determine 
what its data exchanges are, identify them, rank them, 
determine their mission criticality, and then go in and 
actually get it done. That is something that we have done. It's 
clearly one of the major undertakings that we went through over 
the course of last year.
    Mr. Anderson. I may just add, from a banking point of view, 
we've gone through and made extensive inventory of all of the 
vendors and service providers that deal with banks, from 
systems and software providers to elevator operators and 
maintenance people, and we've gone back to each of them and 
tested their systems. Also, I should mention, and this should 
give the public a great deal of relief, that the Federal 
banking regulators are looking not only at banks but also at 
the major key vendors that provide data and technology services 
to banks. And they have found that 95 percent are compliant. In 
addition to that, we are working with them and doing our own 
testing with each of those vendors.
    Mr. Gregg. The only thing I would add is what I said 
before. We have considerable redundancy built into our system 
so if we did have a problem in one location we could operate 
elsewhere. And we also have plans to have additional check 
stock on hand, more than we would normally have, just in case 
there was some kind of problem.
    Chairman Archer. The gentleman's time has expired. Mr. 
English.
    Mr. English. Thank you, Mr. Chairman. Commissioner Apfel, I 
want to compliment you. Your testimony today is most 
reassuring, and it's a great testament to your proactive 
efforts to deal with this Y2K problem.
    Referencing the remarks made by my friend and colleague 
from Wisconsin, I think it is incumbent on us to get the good 
word out, particularly to Social Security recipients, that you 
have done a very good job of insulating them from potential 
disruption. And let me say, as my colleague from Wisconsin 
said, I wish C-Span were here today because I think this is a 
message that really needs to get out with the public.
    I have one brief question that you can probably comment on 
relative to Mr. Willemssen's written testimony. He identified 
three key risk areas. One of them was having to do with support 
from the 54 State Disability Determination Services. I am 
wondering, are you now satisfied that those 54 State services 
are now on track to be Y2K compliant and to support your 
efforts to keep the disability program on track?
    Mr. Apfel. The answer to that, Mr. English, is yes. It's 
not only on track, it's done. The disability determination 
services (DDS) systems have completed their operation. I would 
also point out that the General Accounting Office also laid out 
three areas that we needed to continue to work on. One was data 
exchanges, and as I indicated, we have another 13 non-mission-
critical systems to do. So I think we are very much on track in 
that area. The second one was any new systems changes that we 
make need to be recertified, if we do make any systems changes. 
And, of course, there will be some, given say, the COLA 
announcement. We intend to do that. That is our plan, which is 
consistent with GAO's recommendation. And third, there is the 
need for contingency plans, which we are on track to do.
    Their original report identified the DDS activities as 
being critical, which they are, but I again assure you those 
activities are done.
    Mr. English. Thank you. Thank you again for your testimony.
    Chairman Archer. Ms. Johnson.
    Mrs. Johnson of Connecticut. Thank you, Mr. Chairman. I 
think it is fair to say that, given the human resources that 
you have dedicated to this problem and the monetary resources, 
and the general inventiveness of the American people when faced 
with a challenge like this, you are going to be able to meet 
across the board in the public and private sector the Y2K 
problem head-on. And the problems that we are going to 
encounter are going to be narrow and localized, I think, across 
the Nation.
    There are two things specifically that I would like inquire 
about. First, Mr. Apfel, when the Social Security system began 
end-to-end testing, which I think was before you became the 
head of the office----
    Mr. Apfel. Well the end-to-end testing was actually 
completed 2 to 3 months ago.
    Mrs. Johnson of Connecticut. OK. On your first test run, 
how many problems did you find? On your second test run, how 
many problems did you find? How many runs did it take of end-
to-end testing, which is an extraordinary challenge in and of 
itself, before you got to where you felt the system really was 
going to serve you, was reliable?
    Mr. Apfel. There were some problems identified, and I will 
get you for the record a list of the specifics. There were not 
very many. Back last July and August, a lot of the runs were 
started to determine the efficacy of the system. There were a 
few minor problems, and I will for the record document those 
for you so that you have them.
    The Social Security Administration initiated detailed 
planning discussions with the Financial Management Services of 
the Treasury Department of Year 2000 end-to-end testing in 
March 1997. The software changes were implemented at SSA and 
Treasury in August-September 1998. We feel that the key to our 
success was that we allowed adequate time (a year) for 
planning, requirements, development and internal testing before 
we conducted the agency to agency validation with Treasury and 
the Federal Reserve. the validation ran from March 1998 through 
July 1998, with files being passed to the Federal Reserve for 
final validation during July.
    During the planning for testing and validation, we 
recognized that it was necessary to provide time for reruns. It 
usually takes several runs to complete a validation 
successfully, and one should not plan on one test run being 
sufficient. Both agencies allowed adequate time for internal 
testing and the result was that the software we used for the 
March-July 1998 agency-to-agency validation produced few 
problems.
    There were two areas where we encountered challenges, but 
they both had to do with setting up validation rather than the 
quality of the software:
    1. Naming the test files (data set names) in order to get 
the files through both SSA's and Treasury's TOP SECRET 
telecommunications security systems.
    2. Keeping SSA's validation data base synchronized with 
Treasury's data base required a great deal of effort and more 
time than we had anticipated.
    Both of these challenges were overcome, and we were able to 
complete the testing within our original schedule.
    But by the end of that period of time, we were confident 
that we could move to independent external testing. And that is 
what took place with FMS, with the Fed, end-to-end testing from 
us through FMS into the Fed.
    Mrs. Johnson of Connecticut. Now when you--the problems 
that you found in your early systems testing, what was the 
effect of those problems? Did they infect other areas, or were 
they very system-specific or site-specific? In other words, did 
a problem in one office bring down the system throughout the 
country?
    Mr. Apfel. No. It was not like we discovered that one field 
office has a particular problem. It was an integrated test to 
look at the comprehensive delivery of that system.
    Mrs. Johnson of Connecticut. But in looking at that, did 
you find that then one problem in one aspect of the system 
would bring, would stop the whole system?
    Mr. Apfel. No, we did not. It was----
    Mrs. Johnson of Connecticut. Because I think what we're 
going to face is, very significant departments, I have in mind 
Medicare, not beginning end-to-end testing until October or 
November or 1999. So it's important as you go throughout, and 
unfortunately my time has expired and some of you might want to 
come back to this, what you expect when you get to end-to-end 
testing in other agencies in terms of whether the problems will 
be isolated and how we will manage them and what are the 
implications of end-to-end testing beginning so late in a 
number of significant services across the government.
    Thank you, Mr. Chairman.
    Chairman Archer. The Chair would appreciate it, and we 
still have a number of Members to inquire. The Chair would 
appreciate it if Members would make every effort to stay within 
the 5 minutes because we have a lot of witness today before we 
get through. And having said that, the Chair recognizes Ms. 
Thurman.
    Mrs. Thurman. Thank you, Mr. Chairman.
    Mr. Anderson, let me ask a question. A lot of people 
through the Internet, think the sky is falling over this issue; 
how are you reaching your customers to let them know that you 
don't believe there will be any interruption within their 
service?
    Mr. Anderson. We're doing a number of things. We've 
developed a comprehensive plan for our customers that we 
actually started about a year ago. We've had four mailings to 
them. This includes statement stuffers that explain the 
problem, explains what the bank is doing. It also gives them 
suggestions on what they can do to prepare for themselves.
    This is a problem that not only the banks have but they may 
have at home. And so if they're on the Internet, they need to 
make sure, for example, that their home computer is Y2K 
compliant, and they need to make sure they have backup to the 
data on there. The ABA has videos, they have statement 
stuffers, they have ads, they have seminars that are available 
that the banks can use throughout the area.
    I would also personally encourage you and all Members of 
Congress to meet with your banks and go on a tour of their 
facilities and see that they in fact are getting ready for Y2K. 
And get the publicity that that would bring. That would be a 
tremendous benefit.
    Mrs. Thurman. Do you see a possibility, or is there a 
potential problem if people do start making a run on the bank 
toward the end of 1999? What could happen?
    Mr. Anderson. Well, I think that's one of the reasons why 
the Federal Reserve has said that they are printing $50 billion 
in extra cash so there will be plenty of cash in the system. 
But what we really want to do is through communication, to let 
our people know, our customers know, that in fact that's not 
the smart thing to do. And that in fact, their money is safer 
in the bank than in the ground or under their mattress. 
[Laughter.]
    Mrs. Thurman. And I'm glad to hear that because I am a 
little concerned about that just from what you hear on radio 
talk shows and some of the things people are doing to prepare.
    Mr. Apfel, have you had many people within the Social 
Security system who are recipients asking about changing from 
electronic transfer to a mail, based on this issue at all?
    Mr. Apfel. No. The increase continues in electronic 
transactions. So we're not seeing a number of people wanting to 
go back to paper, which I think could be a real mistake. Moving 
an electronic transaction is really the safest for 
beneficiaries and cheapest for cost. So its a very good thing.
    Mrs. Thurman. That's why I want this discussion because I 
think the American public does need to realize that.
    Mr. Anderson, last question, I know you represent the 
bankers, but what about independent, rural, and bankers of that 
nature. Do you see them in the same mode as you, as the 
American Bankers Association as versus independents?
    Mr. Anderson. Yes. In fact, the banking regulators have 
examined all banks, and of all banks, 97 percent they found 
have received the highest rating. Only 17 out of the 10,000-
plus have had any problems.
    Mrs. Thurman. Thank you.
    Chairman Archer.
    Mr. Weller.
    Mr. Weller. Thank you, Mr. Chairman, and, Commissioner, it 
is good to see you again. You probably feel like you haven't 
left because of the hearing going late last evening.
    Mr. Apfel. I slept here last night. [Laughter.]
    Mr. Weller. I appreciate your good work.
    I would actually like to address my question to the 
spokesman for the banking community, and I really want to 
commend your efforts focusing on communication and education 
for your customers because, as folks back home slowly become 
more and more aware and concerned about the year 2000 problem, 
there are going to be folks that are going to be afraid. And 
your efforts to reassure your customers will be important, 
particularly as we may expect those in the entertainment 
industry to produce TV shows and movies that may cause some 
concern, and hopefully not panic, but take advantage of this 
landmark time.
    The question that I have for you is, you noted in your 
testimony that at the end of each month that financial 
institutions issue a monthly report. Has some thought ever been 
considered into issuing your usual monthly statement on 
December 31, but also printing a second one on January 1 after 
midnight so that your customers can take their December 31 
statement and compare that to their January 1 statement and see 
whether or not there are any changes of differences that should 
not be there?
    Mr. Anderson. That is a very good comment, and we have 
considered it. What we are doing at Zion's Bank, at my bank, is 
that in the December statements that are mailed out, we will 
have a card that will ask the customers if they want an 
additional cutoff statement that will come actually as of 
December 30. And those who want one, we will prepare it. We 
will also let them know that they can go to any ATM machine 
throughout the month of December, and they can get a mini-
statement which gives them their last 10 transactions and their 
balance. And so, with that information, we feel they should be 
confident that when they get their January statement that they 
can match it up, and, if there are any issues, they can come 
back and we can correct them.
    That is the nice thing about the banking industry, we do 
have a lot of backup information that helps us identify and 
correct problems when they occur.
    Mr. Weller. But you are saying that service would just be 
available in December and would not be available in January, 
because, after midnight is January.
    Mr. Anderson. Right.
    Mr. Weller. Would that service be available after January 
1?
    Mr. Anderson. Congressman, we haven't thought of doing it 
on January 1. Normally the statements start going out on the 
third of January, so they will be getting their statements 
toward the first of the month. As we have looked at the 
problem, we thought it important that they have a cutoff 
statement as of the end of the year that they can compare to 
their statement that comes out in January.
    Mr. Weller. But the January statement is usually the 
December 31 printout, isn't it?
    Mr. Anderson. Right. But usually the statements for 
November come out the first of December, and then the next 
statements would come out the first of January. And, as we have 
done focus groups with our customers, we have found out that 
what they want to know, is, as of the end of December, what is 
their balance. They want something more current than the 
November 30 statement that came out the first of December. They 
want something close to the end of the year so that when they 
do get their statements in January, they can compare it to to 
see if there are any glitches.
    Mr. Weller. I realize I have run out of time here, but the 
point that I am trying to make is that the end of December is 
midnight. The concern that I have heard back in Illinois is 
what happens after midnight. They want a January statement. 
They are anxious to know what their bank balance is on January 
1, after midnight, compared to December 31. So, I would ask 
that you take a look at it--figure out some way that people 
have an opportunity to compare what happens after midnight 
versus what was in the account before midnight.
    Mr. Anderson. That is a good suggestion. We will do that.
    Chairman Archer. As is generally true, the gentleman from 
Illinois is correct, he is out of time. [Laughter.]
    Mr. Lewis.
    Mr. Lewis. I have no questions, sir.
    Chairman Archer.
    Mr. Foley.
    Mr. Foley. Thank you, Mr. Chairman.
    About 2 months ago we were in Brussels discussing, with our 
European counterparts, the Y2K problem, and there seemed to be 
a lack of interest in pursuing corrective remedies. In fact, 
they seemed to give it short shrift when we discussed it. Can 
you give us an illumination from the banker's perspective about 
that type of concern that we may have, and, due to the global 
nature of our economy, due to the currency changes, the 
introduction of the Euro, and all the other things that may 
become important, do you see that having an impact? Even though 
we, domestically, may be ready, what happens with our European 
counterparts?
    Mr. Anderson. That is a very good question. That is a very 
complicated question, and, if it is all right, I would like to 
respond in writing to you on that, for the record.
    Mr. Foley. OK. Commissioner?
    Mr. Apfel. Mr. Foley, I would think that Mr. Koskinen would 
be the perfect person for that question. From a Social Security 
perspective, our focus here is the 300,000 individuals who 
receive payments overseas. About 100,000 of those are direct 
deposit and about 200,000 are through the mail. That is where 
we are developing our contingency plans.
    I don't think that I have the expertise to comment on the 
broader issues that you raise, sir.
    Mr. Foley. Does anybody else on the panel have a comment?
    Mr. Willemssen. If I may comment, sir.
    From a worldwide perspective, those countries generally 
considered to be furthest out front, in addition to the United 
States, include the United Kingdom, Australia, Canada, and a 
couple of other countries. Beyond that, you really have a next 
lower tier. Even some of the industrialized countries, such as 
Germany and Japan, are not, from a readiness perspective, where 
we and some of those other leaders are.
    I think, particularly in the banking area, Japan was 
considered to be lagging somewhat, and that may have been one 
of the reasons for some of the delays in some of the 
international bank testing that was planned for later this 
year. I understand that they are now in the midst of catching 
up, and I don't know if you want to add to that in terms of the 
testing that is planned for later this year from an 
international perspective.
    Mr. Foley. I would be delighted to receive written 
response, because I do think that it has some real implications 
with arbitrage, currency fluctuations, changes of various and 
sundry objectives.
    And then there will be further--my time is about up--but I 
would also like to look at the Defense Department's Y2K issues 
and how it interacts with defense capabilities and the 
information that we share with our allies.
    Thank you, Mr. Chairman.
    Chairman Archer. The gentleman's questions are very 
probative, but the Chair would advise members that our effort 
here today--and we have got a long list of witnesses--is to 
concentrate on those areas that are within our Committee's 
jurisdiction. I hope that we can limit the questioning to that.
    Mr. Hulshof.
    Mr. Hulshof. Mr. Anderson, as you can gather from all the 
questions being propounded in your direction, we have been 
hearing a lot from our constituents about the efforts that you 
have made. I do want to commend you. Mrs. Thurman asked about 
the education efforts that you have made to your customers, our 
constituents, regarding Y2K and why this should not be a 
problem.
    Let me take it just one step further, have you also, in 
this education effort, communicated to your customers things 
that the banking industry has learned in dealing with this Y2K 
problem that they find of benefit? Maybe that is not the role 
of your industry, but perhaps things that you could communicate 
to your customers as to how they might be in their personal 
work or home become Y2K compliant?
    Mr. Anderson. Well, we have. We have tried to provide them 
information and a checklist of things that they should do. ABA 
has provided that information to all banks.
    For example, we have encouraged our customers to keep 
copies of their bank statements and their receipts and their 
loan payments so that they have a record. You see, this is a 
good chance for our customers to get organized from a financial 
point of view so that if there are glitches, they can come back 
and correct it. It is always easier when they have the data 
there in front of you.
    We have told our customers that we are providing and we are 
doing backups, so that, if there is a glitch, we can go to our 
backup files and pull out information and make corrections as 
necessary.
    Mr. Hulshof. Mr. Gregg, what a difference a year makes. A 
year ago, when this Committee convened, and we talked about the 
efforts, obviously as we have talked about already, the 
situation regarding financial management services was a concern 
to a lot of us. And, God forbid that we be here a year from 
now, still talking about Y2K because those generators will have 
been running, I think, for 2 months, instead of 2 weeks, as we 
have talked about.
    Has FMS worked with IRS or other Federal agencies to do 
end-to-end testing as you have done with the Commissioner and 
the Social Security Administration, and, if so, have any of 
those processes been certified as Y2K compliant?
    Mr. Gregg. We have plans to do the same thing with IRS and 
VA that we did with Social Security. The systems, as I 
mentioned, for most of the payments for VA are already running 
on Y2K-compliant systems, and, since last July, the IRS 
payments have been going out on Y2K-compliant systems. But we 
do plan to do some more testing with the major agencies over 
the next few months.
    Mr. Hulshof. OK.
    That is all I have, Mr. Chairman. I yield back my time.
    Chairman Archer.
    Mr. Portman.
    Mr. Portman. Thank you, Mr. Chairman.
    Mr. Apfel, I am the father of two elementary school 
students who bring home their report cards every now and then. 
I am rather efficient at looking at report cards, and I want to 
give you a star for your GAO Subcommittee report card this time 
around. Except, you went from an A+ to an A, and you like to 
see improvement.
    But I guess that your other agencies haven't done quite as 
well, and we are going to hear from the IRS later today. For 
the last couple of years, we have been following the IRS very 
closely on this Committee and on the Subcommittee. And I 
remember a statement being made about 18 months ago that it was 
a marathon that needed to be run at a sprinter's pace.
    I guess my question is really to Mr. Gregg, and to Mr. 
Schindel would be with regard to the IRS--and we will hear from 
them later directly--but do you believe that the sprint is 
continuing and that they are going to make the deadline?
    Mr. Schindel. We have not done work directly, out of the 
Treasury IG's office on IRS. That was done by GAO and the IRS 
inspection service. But, in our meetings with them, and in the 
information that they have fed us, the IRS is proceeding on 
target. Of course, they have a massive, and perhaps a bigger, 
renovation effort than a lot of other agencies, hundreds of 
thousands of lines of code, but they are making progress.
    Mr. Portman. With regard to Social Security, Mr. Apfel, are 
you here today to tell us that you are confident that 
recipients in the year 2000 will indeed be receiving their 
benefits?
    Mr. Apfel. Yes, sir, I am.
    Mr. Portman. And, Mr. Willemssen, do you agree with that? 
Do you have that confidence with regard to the Social Security 
program?
    Mr. Willemssen. I have as high of a degree of confidence as 
you can have without giving a 100 percent guarantee. That is 
why I would also say we focus on contingency plans because we 
can't give an absolute guarantee that there won't be some 
systems failures, and, in the event of those failures, they 
need those backup plans.
    Mr. Apfel. That is an absolute correct response. That is 
the purpose of our contingency plans.
    Mr. Portman. Another question--and I appreciate your 
confidence--with regard to resources. Again, in the last 
Congress, we added significant resources to the Y2K effort, in 
part because of Social Security and IRS and other agencies. Are 
you comfortable with the amount of resources that this Congress 
has provided and that this Committee is supporting?
    Mr. Apfel. From our perspective, we have sufficient 
resources for this issue.
    We did not receive money from that supplemental, 
incidentally. We funded that entirely through our ongoing 
operations.
    Mr. Portman. But do you believe that your resources are 
sufficient?
    Mr. Apfel. Absolutely. But if that changes at any time, I 
would absolutely let you know immediately. But I am very 
confident.
    Mr. Portman. I am sure that you will.
    Thank you, Mr. Chairman.
    Chairman Archer. The Chair believes that all members 
present have inquired. And, as a result, the Chair is extremely 
grateful for you all giving us some insight into your 
involvement in the Y2K problem, and we are also very comforted 
to know that we are moving forward to where we will not have 
any disruption, and, if there is any failure, there are 
contingency plans so that services, the essential services, 
will be there in January of next year. And that, to me, is the 
important message that you have given us today.
    So you gentlemen are excused.
    Mr. Apfel.
    Mr. Apfel. Just one small point: Chairman Shaw asked about 
some information that was to be provided by the Social Security 
Administration to the General Accounting Office. I indicated 
that I would look into it. The answer is that the information 
has already been provided to the General Accounting Office, and 
that issue is resolved. I wanted to say that for the record.
    Chairman Archer. Thank you very much. And again, I thank 
all of you.
    And while Mr. Koskinen is moving to the witness chair--it 
is the Chair's intention to recess at 12 noon for 1 hour at 
lunch and to return at 1 o'clock, so witnesses and members can 
adjust their schedules accordingly.
    Mr. Koskinen, you are really sort of the umbrella 
organization working for this entire problem and working for 
the President, as I understand it, and I believe that your 
official title is Chairman of the President's Council on Year 
2000 conversion. Is that correct?
    Mr. Koskinen. That is correct, Mr. Chairman. I am also 
fondly known as the bag holder. [Laughter.]
    Chairman Archer. Well, you have an enormous responsibility. 
And, I am sorry that we had to proceed before you got here this 
morning, because I know that you have a tight schedule, and I 
appreciate your staying with us. I hope that members will 
expedite their questions.
    We are very pleased to have you with us, and I hope that 
you can limit your verbal presentation to 5 minutes. Your 
entire written statement, without objection, will be printed in 
the record. We will be pleased to have your testimony. You may 
proceed.

STATEMENT OF HON. JOHN A. KOSKINEN, ASSISTANT TO THE PRESIDENT, 
   AND CHAIRMAN, PRESIDENT'S COUNCIL ON YEAR 2000 CONVERSION

    Mr. Koskinen. Thank you, Mr. Chairman, and my apologizes 
for the traffic delays that caused me to show up here late.
    I am pleased to appear before the Committee to discuss the 
activities of the President's Council on Year 2000 Conversion, 
and the status of public and private-sector efforts to address 
the year 2000, or Y2K, problem.
    The Council began its work last year using a three-tiered 
approach. From the Federal Government's point of view, it means 
first ensuring that critical Federal systems are ready for 
January 1, 2000. Next, working with our interface partners for 
important Federal services, primarily States, to ensure that 
they are remediating their systems. And, finally, reaching out 
to those whose failures, domestically or internationally, could 
have an adverse effect on the public or the economy.
    To reach out beyond the Federal Government, the Council has 
formed working groups focused on Y2K challenges in over 25 
critical sectors such as finance, communications, 
transportation, electric power, oil and gas, and water supply. 
The working groups have reached out to form cooperative working 
relationships with the major trade associations and other 
umbrella organizations representing the individual entities 
operating in each sector.
    Working group outreach efforts are designed to increase the 
level of action on the problem and to promote the sharing of 
information between entities. The outside organizations in each 
sector have also agreed to conduct Year 2000 readiness surveys 
of their members which they share with us and the public.
    As you just heard, we have also created a Senior Advisors 
Group to the President's Council, comprised of Fortune 500 
company CEOs and heads of national public-sector organizations 
representing our working groups. The Group provides the Council 
with an additional perspective on Y2K challenges that cut 
across sector lines and recommends how industries can best work 
together in these critical areas.
    You have already heard from one member of that group, and 
you will hear from the other, Mr. Brown of BJC Healthsystems, 
who represents the hospital industry. Mr. Anderson, who you 
heard from earlier, represents the banking industry. We 
appreciate the willingness of these gentlemen and their 
organizations to work with us to address the Year 2000 problem.
    Our first challenge is to ensure that Federal systems are 
prepared for the Year 2000. These are the systems for which we 
are responsible and have the authority to fix. I am pleased to 
report that the Federal Government continues to make strong, 
steady progress in solving its Y2K problems. According to the 
most recent agency data, as of January 31, 1999, 79 percent of 
all Federal mission-critical systems are now Year 2000 
compliant--more than double the 35 percent compliant a year 
ago. The data also show that, of critical systems requiring 
repair work, 96 percent have been fixed and are now being 
tested.
    The President has established an ambitious goal of having 
100 percent of the government's mission-critical systems Y2K 
compliant by March 31, 1999, well ahead of many private-sector 
system remediation schedules. Although much work remains to be 
done, we expect that close to 90 percent of the government's 
mission-critical systems will meet the March goal, a tribute to 
the hard, skillful, and dedicated work of thousands of Federal 
career employees.
    We also expect that all of the government's mission-
critical systems will be Year 2000 compliant before January 1, 
2000.
    The Social Security Administration, whom you just heard 
from has been a leader in Federal agency Y2K efforts. SSA is 
virtually done with its work and is now focused, appropriately, 
on contingency planning. The Treasury Department, including the 
IRS, the Customs Service, and the Financial Management Service, 
has some of the most complicated systems in the Government 
which serve millions of Americans. New managers, particularly 
at the IRS and FMS, have done a very effective job of managing 
the process. At the IRS, Commissioner Rossotti, has helped his 
agency to master what many thought would be an insurmountable 
task. And we are confident that the IRS will have completed 
most of its work on mission-critical systems by the end of this 
March. You will hear more details from HCFA about the 
challenges that they face as they move forward.
    Our second challenge is to work with the Federal 
Government's interface partners, primarily the States, as they 
work to ensure that their systems are ready for the Year 2000. 
States administer over 160 Federal programs that provide some 
of the most recognizable Federal services, such as unemployment 
insurance, Medicaid, and food stamps. As a general matter, most 
States are making good progress in remediating their systems. 
And, according to the National Association of State Information 
Resource Executives, several States have reported that they 
have completed Y2K work on more than 70 percent of their 
systems.
    Unfortunately, not every State is doing as well. The same 
NASIRE survey indicates that a handful of States report that 
they have not yet completed work on any of their critical 
systems. For its next quarterly report, to be released next 
month, OMB has asked Federal agencies to provide information 
about each State's Y2K progress on 10 key, State-administered 
Federal programs such as Food Stamps and Unemployment 
Insurance.
    The third challenge for the President's Council was to 
reach out beyond the Federal Government and its partners to 
those organizations whose system failures could have an adverse 
effect on us all. Last month, we issued our first quarterly 
summary of assessment information across these key sectors. And 
I would like to conclude by making three key points about what 
we know thus far.
    First, we are increasingly confident that there will not be 
large-scale, national disruptions in key infrastructure areas. 
In particular, the telecommunications and electric power 
industries have constructed well-organized and comprehensive 
responses to the problem.
    Second, banks, large and small, are well prepared for the 
Year 2000 transition. In the most recent examination by Federal 
regulators, as you have heard, over 96 percent of the Nation's 
depository institutions were on track to meet the regulators' 
goal of completing Y2K work by June 1999.
    The third point is obvious, but bears repeating. Our 
greatest risk lies in organizations that are not paying 
adequate attention to the problem.
    Let me close by noting that we all continue to confront the 
challenge of encouraging organizations to take the Y2K problem 
seriously, remediate their systems and prepare contingency 
plans without causing overreaction by the public. Our strategy 
in this area is based on the premise that the public has great 
common sense and will respond appropriately when they have the 
necessary information.
    We believe, therefore, that everyone working on this 
problem, at the Federal level, at the State and local level, 
and in the private sector, needs to provide the public clear 
and candid information about their Year 2000 activities. That 
is why we are making industry surveys available to the public. 
That is why the OMB reports on Federal agency progress are 
provided not only to Congress but to the public. That is why we 
have created a toll-free information line for consumers and 
constituents across the country. And that is why we will 
provide the details of the Government's Y2K contingency 
planning and will encourage others to do the same. A corollary 
principle is that everyone working on this problem has a 
responsibility that their comments accurately reflect the 
factual information available and that they avoid over 
generalizations that will only play into the hands of those who 
want to create panic for their own gain.
    We remain committed to working with this Committee and the 
full Congress on this critical issue, and I would be pleased to 
answer any questions that you might have, Mr. Chairman.
    [The prepared statement follows:]

Statement of the Hon. John A. Koskinen, Assistant to the President, and 
Chairman, President's Council on Year 2000 Conversion

    Good morning. I am pleased to appear before the Committee 
to discuss the activities of the President's Council on Year 
2000 Conversion and the status of public and private sector 
efforts to address the Year 2000 (Y2K) computer problem.
    Mr. Chairman, I would like to start by thanking you and the 
other members of the Committee for your ongoing interest in the 
Y2K problem and its potential implications for beneficiaries 
and taxpayers.
    Businesses and governments across the country are engaged 
in vigorous efforts to ensure that systems are prepared for the 
date rollover. It is a vast challenge, and not every system 
will be fixed by January 1, 2000. While progress is being made 
in the public and private sectors, continued efforts are 
necessary if we are to achieve our shared goal of minimizing 
Y2K-related disruptions.
                       The Three-Tiered Approach
    The Y2K problem is a layered problem. It's not enough for 
the Federal Government, or any organization, to fix its own 
systems. Organizations also need to be concerned about the 
progress of partners they exchange data with and depend upon as 
well as progress among other organizations whose failure could 
have a significant effect upon their operations.
    The Council began its work last year using this ``three-
tiered'' model. From the Federal Government's point of view, it 
means first, ensuring that critical Federal systems are ready 
for January 1, 2000; next, working with our interface partners 
for important Federal services, primarily States, to ensure 
that they are remediating their systems; and, finally, reaching 
out to those whose failures domestically or internationally 
could have an adverse affect on the public.
    The Council's more than 30 agencies, including several 
independent regulatory agencies, work together to exchange 
information on agency Y2K progress and shared challenges. They 
also coordinate interagency testing efforts for programs that 
rely upon multiple agency systems and assist each other with 
contingency planning efforts.
    To reach out beyond the Federal Government, the Council has 
formed working groups focused on Y2K challenges in over 25 
critical sectors such as finance, communications, 
transportation, electric power, oil and gas, and water supply. 
The working groups have reached out to form cooperative working 
relationships with the major trade associations and other 
umbrella organizations representing the individual entities 
operating in each sector. Working group outreach efforts are 
designed to increase the level of action on the problem and to 
promote the sharing of information between entities. The 
outside organizations in each sector have also agreed to 
conduct Year 2000 readiness surveys of their members.
    We have also created a Senior Advisors Group to the 
President's Council, comprised of Fortune 500 company CEOs and 
heads of national public sector organizations representing our 
working groups. The Group provides the Council with an 
additional perspective on Y2K challenges that cut across sector 
lines and recommends how industries can best work together in 
critical areas. You are scheduled today to hear from two 
members of this Group. Scott Anderson of Zions National Bank 
represents the banking industry and Fred Brown of BJC Health 
Systems represents the hospital industry. We appreciate the 
willingness of these gentlemen and their organizations to work 
with us to address the Year 2000 problem.
    Materials describing our working groups and the Senior 
Advisors Group are available on the Council's web site--
www.y2k.gov.
                        Federal Agency Progress
    Our first challenge is to ensure that Federal systems are 
prepared for the Year 2000. These are the systems for which we 
are responsible and have the authority to fix. Consequently, it 
is the area about which we have the most information. Agencies 
report quarterly to the Office of Management and Budget (OMB) 
and Congress, and the OMB summary reports on agency Year 2000 
progress are available on the Council's web site. I am pleased 
to report that the Federal Government continues to make strong, 
steady progress in solving its Y2K problems.
    According to the most recent agency data, as of January 31, 
1999, 79 percent of all Federal mission-critical systems are 
now Year 2000 compliant--more than double the 35 percent 
compliant a year ago. These systems have been tested and 
implemented and will be able to accurately process data through 
the transition from 1999 into the Year 2000. The data also show 
that, of critical systems requiring repair work, 96 percent 
have been fixed and are now being tested.
    The President has established an ambitious goal of having 
100 percent of the Government's mission-critical systems Y2K 
compliant by March 31, 1999--well ahead of many private sector 
system remediation schedules. Although much work remains, we 
expect that close to 90 percent of the Government's mission-
critical systems will meet the March goal, a tribute to the 
hard, skillful, and dedicated work of thousands of career 
Federal employees. Monthly benchmarks with a timetable for 
completing the work will be available for every critical system 
still being tested or implemented after March. And we expect 
that all of the Government's critical systems will be Y2K 
compliant before January 1, 2000.
    Although you will hear more from all of them later today, 
let me say a few words about some of the agencies that are of 
particular interest to this Committee--the Social Security 
Administration (SSA), the Treasury Department, and the 
Department of Health and Human Services (HHS).
    As you know, Mr. Chairman, the Social Security 
Administration has been a consistent leader in the Federal 
Government's Year 2000 efforts. SSA chaired the first 
interagency committee on Y2K in 1995 and has been an active 
participant on the President's Council, sharing useful guidance 
with the other agencies on best practices for remediation, 
testing, and contingency planning. In December, after we were 
informed that Treasury's Financial Management Service (FMS) had 
completed its work in this area, the President announced that 
the Social Security payment system is now Y2K compliant. And 
according to the most recent data, SSA has now completed work 
on all of its mission-critical systems.
    The Treasury Department, which includes the Internal 
Revenue Service (IRS), the Customs Service, and the Financial 
Management Service, has some of the most complicated systems in 
the Government which serve millions of Americans. In 
particular, the IRS and FMS have faced difficult Y2K 
challenges. But the new managers in those agencies have done a 
very effective job in managing the process. At the IRS, 
Commissioner Rossotti has helped his agency to master what many 
thought to be an insurmountable task, and we are confident that 
the IRS will have completed work on most of its critical 
systems by the end of March.
    HHS continues to confront some of the most unique 
information technology challenges in the world. The 
Department's efforts are complicated by the fact that the 
Medicare system is very dependent on the private sector for its 
operations. The Health Care Financing Administration (HCFA) has 
had to work in concert with roughly 60 large insurance 
companies who were not all initially responsive to the need to 
meet Government goals that, in most cases, required compliance 
earlier than their private sector customers. But they are 
making progress. And although significant systems work and 
contingency planning will remain after March, most Medicare 
contractors are expected to complete renovation and testing by 
the Government-wide goal. HCFA is also making substantial 
progress on its internal systems, as you will hear from 
Administrator Min DeParle.
                           Interface Partners
    Our second challenge is to work with the Federal 
Government's interface partners, primarily the States, as they 
work to ensure that their systems are ready for the Year 2000.
    States administer over 160 Federal programs. These programs 
provide some of the most recognizable Federal services such as 
Unemployment Insurance, Medicaid, and Food Stamps. Millions of 
Americans rely upon these programs, so the Federal Government 
obviously has a vested interest in requiring that State systems 
administering them are Y2K compliant.
    As a general matter, most States are making good progress 
in remediating their systems. Virtually every State has an 
organized Y2K program in place, often led by a designated State 
Y2K Coordinator. According to a National Association of State 
Information Resource Executives (NASIRE) survey of State Y2K 
remediation efforts, several States report that they have 
completed Y2K work on more than 70 percent of their systems. 
But not every State is doing well. The same NASIRE survey 
indicates that a handful of States report that they have not 
yet completed work on any of their critical systems.
    The Council's State and Local Government Working Group is 
led by the White House Office of Intergovernmental Affairs and 
includes key groups like the National Governors Association 
(NGA), the National Association of Counties, the National 
League of Cities, and NASIRE. Last summer, Council members 
joined the NGA in a Y2K summit with Year 2000 coordinators from 
45 States. To help sustain the momentum generated at that 
conference, I now participate in a monthly conference call with 
State Year 2000 executives to discuss cooperative efforts 
between the Federal Government and the States and how States 
can help each other to address Y2K challenges. We will hold 
another State summit next month with the NGA.
    Federal agencies are also actively working with the States 
to ensure that Federal-State data exchanges for State-
administered programs will be ready for the Year 2000. Most 
Federal agencies and States have now inventoried all of their 
data exchange points and are sharing information with one 
another to ensure the exchanges will function in the Year 2000. 
However, as of the most recent OMB quarterly report, three 
States had not yet provided any information on the status of 
their data exchange activities. For its next quarterly report, 
which will be released next month, OMB has asked agencies to 
provide assessments of each State's Y2K progress on ten key 
State-administered Federal programs such as Food Stamps and 
Unemployment Insurance.
    Our joint Y2K efforts with the States are bearing fruit. 
Working together, we last month overcame one of the first major 
examples of a ``look ahead'' Y2K problem. The Unemployment 
Insurance program, a major Federal-State partnership 
administered by 53 State Employment Security Agencies (SESAs), 
encountered the Year 2000 problem on January 4. Since new 
claims are calculated on a 12-month basis, State systems had to 
process dates going into January 2000. The Labor Department had 
been working closely with all the States to ensure that they 
could continue to process claims and provide benefits through 
this transition, particularly the 16 SESAs that had not 
completed all of their Y2K system renovation before January 4, 
1999. Thanks to this collaborative effort, these SESAs were 
prepared with, and are now using, temporary fixes to their 
systems so that they can continue to accept claims and process 
benefits while they complete their remaining Y2K work. The 
Department has also instituted special reporting procedures for 
the Unemployment Insurance program to identify any early 
problems. Reports have been received from all States and 
indicate that no Y2K-related service disruptions have occurred.
                     Beyond the Federal Government
    The third challenge for the President's Council is to reach 
out beyond the Federal Government and its partners to those 
organizations whose failures would have an adverse effect on 
the public. As noted, to accomplish this goal, the Council has 
formed over 25 working groups in critical sectors such as 
electric power, communications, oil and gas, finance, and 
transportation. One of the first things our working groups 
encountered in their relationships with major industry trade 
associations and others was a reluctance on the part of many to 
share technical and other valuable information about their 
experiences in addressing the problem as well as information 
about the status of their Y2K remediation efforts.
    To break this logjam and help associations and other groups 
collect and share Y2K information, the Administration worked 
with Congress to enact the ``Year 2000 Information and 
Readiness Disclosure Act.'' This bipartisan legislation 
provides protection against the use, in civil litigation, of 
technical Year 2000 information about an organization's 
experiences with product compliance, system fixes, testing 
protocols, and testing results when that information is 
disclosed in good faith. It also includes important protections 
for information gathering that is designated as a ``special 
data gathering request'' under the Act. These collections of 
information cannot be reached by private litigants, or used by 
Federal agencies for regulatory or oversight purposes, except 
``with the express consent or permission'' of the provider of 
the information.
    Using these statutory protections, the working groups, 
under the leadership of their outside industry group partners, 
are focused on gathering industry assessments of Y2K 
preparedness in critical sectors. Last month, the Council 
issued its first quarterly summary of this assessment 
information. While many industry groups are just beginning to 
receive survey data from their members and some report that 
they expect to have such information within the first quarter 
of this year, I'd like to make three points about what we know 
thus far.

          First, we are increasingly confident that there will not be 
        large-scale, national disruptions in key infrastructure areas. 
        In particular, the telecommunications and electric power 
        industries have constructed well-organized and comprehensive 
        responses to the problem.
          Second, banks--large and small--are well-prepared for the 
        Year 2000 transition. In the most recent examination by Federal 
        regulators, 96 percent of the Nation's depository institutions 
        were on track to meet the regulators' goal of completing Y2K 
        work by June 1999.
          Third, point is obvious but it bears repeating. Our greatest 
        risk lies in organizations that are not paying adequate 
        attention to the problem.

    If the head of an organization has fixing the Y2K problem 
as a top priority, that organization is by definition going to 
be better prepared--even if it cannot fix all of its systems 
before January 1, 2000. It is organizations where the 
leadership is convinced that the problem doesn't apply to them 
or that they can simply fix systems when they break that are of 
most concern.
    Of all the industry sectors, health care presents some of 
the most difficult outreach challenges. As you know, it is a 
diverse industry that covers everything from hospitals and 
long-term care facilities to pharmaceutical companies and 
retailers. Many health care providers and companies are free-
standing entities and are not active participants in national 
organizations like the American Hospital Association (AHA) and 
others with whom the Council has working relationships. The 
diffuse nature of the industry has prompted us to divide the 
outreach responsibilities of the Council's Health Care Working 
Group into three main areas--medical devices, health care 
facilities, and pharmaceuticals.
    Under the leadership of the Food and Drug Administration, 
and with active participation by the Department of Veterans 
Affairs and the Defense Department, the Government has been 
collecting and publishing information about the Year 2000 
compliance of medical devices. Companies were initially 
reluctant to take part in this process, but the level of 
participation has increased significantly in the last few 
months. Fortunately, the vast majority of medical devices do 
not have Year 2000 safety concerns, and many are not affected 
by the date rollover. Nonetheless, we are concerned about and 
are focused on providing to all health care providers 
information about the small number of devices with Y2K problems 
that could compromise patient safety.
    HHS is working with the AHA, the Joint Commission on Health 
Care, and others to assess the status of Y2K efforts within 
health care facilities and to encourage information sharing 
within this segment of the health care industry. At this 
juncture, we are particularly concerned about smaller health 
care facilities, many of whom may lack the resources to deal 
with the problem.
    Under the leadership of the VA, the Council is working with 
the pharmaceutical associations, who have been focused on 
developing assessments of industry preparedness. We will also 
be gathering more information about the pharmaceutical supply 
chain, which fortunately does not operate on a strictly just-
in-time inventory system and has reserve capability built into 
the process. We are looking forward to working with these 
groups to provide information to the public about the adequacy 
of prescription drug supplies as we move toward the end of this 
year.
                             Areas of Risk
    Following the logic that our greatest risk lies in 
organizations where for one reason or another the leadership 
does not have the Year 2000 problem as a high priority, I 
believe that at this time our greatest risks are in three 
areas: smaller government entities, small businesses, and 
internationally.
    At the local level, many towns, cities, and counties are 
aggressively attacking the problem and are making good 
progress, but a significant number are not sufficiently 
organized to prepare critical systems for the new millennium. 
According to a December 1998 National Association of Counties 
survey of 500 counties representing 46 States, roughly half of 
counties do not have a county-wide plan for addressing Year 
2000 conversion issues. Almost two-thirds of respondents have 
not yet completed the assessment phase of their Year 2000 work.
    Many small- and medium-sized businesses are also taking 
steps to address the problem and to ensure not only that their 
own systems are compliant but that organizations they depend 
upon are ready for the Year 2000 as well. But a significant 
number of small- and medium-sized businesses are not preparing 
their systems for the new millennium. A recent National 
Federation of Independent Business (NFIB) survey, released this 
month, indicates that as many as one-third of small businesses 
using computers or other at-risk devices have no plans to 
assess their exposure to the Y2K problem. The survey also 
indicates that more than half of small firms have not yet taken 
any defensive steps. The NFIB and other small business surveys 
have found that having adequate resources for addressing the 
problem is not the concern. Rather, a significant number of 
small businesses appear to taking a ``wait and see approach'' 
on whether or not their systems will be affected by the Y2K 
problem. We are trying to get them to understand that this is a 
high-risk strategy.
    Internationally, there is more activity than there was a 
year ago, but it is clear that most countries are significantly 
behind the United States in efforts to prepare critical systems 
for the new millennium, and a number of countries have thus far 
done little to remediate systems. Awareness remains especially 
low among developing countries. While strong international 
coordination of Y2K efforts has existed for some time in the 
area of finance and more recently has begun to take shape for 
telecommunications and air traffic, we are very concerned about 
the lack of information and coordination in the area of 
maritime shipping. You will hear more about that area from the 
Coast Guard later today. Lack of progress on the international 
front may lead to failures that could affect the United States, 
especially in areas that rely upon cross-border networks such 
as transportation.
    The Council has been working to improve the response among 
smaller governments, small businesses, and international 
entities. For smaller governments, we have been working to 
reach out through groups like the National Association of 
Counties and the National League of Cities. We are also 
encouraging State Year 2000 coordinators to focus on the 
efforts of smaller governments within their jurisdiction. For 
small businesses, the Council joined the SBA, the Commerce 
Department, and other Federal agencies in launching ``National 
Y2K Action Week,'' last October to encourage small- and medium-
sized businesses to take action on the Y2K problem with 
educational events that were held across the country. Another 
week is planned for this spring. And SBA has mounted an 
aggressive outreach program where, through its web page and 
with partners in the banking and insurance industries, it is 
distributing Y2K informational materials to the Nation's small 
businesses.
    Internationally, the Council worked with the United Nations 
to organize in December a meeting of national Year 2000 
coordinators from around the world, perhaps the most important 
Year 2000 meeting to date. More than 120 countries sent 
representatives to New York. The delegates at the meeting 
agreed to work on a regional basis to address cross-border 
issues (e.g., telecommunications, transportation). They also 
asked the steering committee we had created to help organize 
the meeting to establish an international mechanism for 
coordinating regional and global activities, including 
contingency planning. Earlier this month, the steering 
committee announced the creation of the International Y2K 
Cooperation Center, which will support regional activities and 
international initiatives in areas such as telecommunications 
and transportation. The World Bank will support the advisory 
and planning activities of the Center through voluntary 
donations.
              Contingency Planning and Emergency Response
    The Federal Government responds to a range of emergencies 
under the direction of several agencies. FEMA chairs the 
Catastrophic Disaster Response Group, which is comprised of a 
set of Federal agencies and the Red Cross. The State Department 
and the Treasury Department have responsibilities for foreign 
civil emergencies while the Defense Department supports both 
domestic and foreign emergency responses as well as being 
responsible for national security. The Departments of Energy 
and Transportation each have emergency command centers to help 
respond to challenges in their areas.
    One of the challenges of the Y2K problem is that, while we 
do not expect major national failures in the United States, it 
is possible that we will have a confluence of demands for 
assistance and response as the clock turns to January 1, 2000. 
Therefore, we are working with all of the major emergency 
response agencies to create a coordinating center to ensure 
that we can respond effectively to whatever challenges we face 
moving into the next century.
    We will also be discussing with our partners in our varied 
working groups, under the leadership of the Senior Advisors 
Group, the status of industry-wide plans for dealing with any 
emergencies that they may confront. While these responses are 
primarily the responsibility of each individual enterprise and 
industry, we clearly will all benefit by coordinated planning 
and communication.
    We also are encouraging all organizations, beginning with 
the Federal agencies, to have contingency plans for the 
possible failure of their systems as well as the failure of 
systems they rely on that are run by others. As demonstrated by 
the Unemployment Insurance experience, the best form of 
response to a system failure is an effective backup plan.
                           The Balancing Act
    Let me close by noting that we all continue to confront the 
challenge of encouraging organizations to take the Y2K problem 
seriously, remediate their systems, and prepare contingency 
plans without causing a public overreaction that is unnecessary 
and unwarranted.
    Our strategy is based on the premise that the public has 
great common sense and will respond appropriately when they 
have the necessary information.
    We believe, therefore, that everyone working on this 
problem--at the Federal level, at the State and local level, 
and in the private sector--needs to provide the public with 
clear and candid information about the status of their Year 
2000 activities. That's why we're making the industry 
assessments we gather publicly available. That's why the OMB 
reports on Federal progress are available to the public. That's 
why we have created the 1-888-USA-4-Y2K information line for 
consumers. That's why we will provide details of our 
contingency planning and are encouraging others to do the same.
    A corollary principle is that everyone working on this 
problem has a responsibility to ensure that their comments 
accurately reflect the factual information that is available, 
and that they avoid over generalizations that will only play 
into the hands of those who want to create panic for their own 
gain.
    We remain committed to working with the Committee and 
Congress on this critical issue. I would be pleased to answer 
any questions you may have at this time.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Koskinen.
    Is there any reason why any essential Federal services will 
be disrupted in January in the year 2000?
    Mr. Koskinen. There is no reason to expect, based on the 
information that we have now, that there will be any national 
failures. But, as I noted, we are concerned about some small- 
and medium-sized organizations in the private-sector and in the 
public-sector that are not paying appropriate attention to the 
problem. And we think that the risks of outages, if there are 
any, will be at the local level--with local power plants, local 
telecommunications companies, local water treatment companies.
    Chairman Archer. Are there contingency plans to wire around 
any possibility of disruption in those areas?
    Mr. Koskinen. Contingency plans are being developed for the 
vast critical systems that we all depend on nationally. But, 
again, our concern is organizations that are not paying 
appropriate attention to the problem at the local level. If 
organizations are not paying attention to fixing the problem, 
it is likely that they are also not paying attention to 
ensuring that they have appropriate workarounds.
    Chairman Archer. At the Federal level, has the Congress 
given all of the resources necessary to solve this problem?
    Mr. Koskinen. Yes. The Congress has been very supportive 
both financially and, last year, with the passage of the 
Information Readiness and Disclosure Act which is designed to 
increase the flow of voluntary information about fixes as well 
as about readiness.
    Chairman Archer. Should you find that there is any other 
desperate need that occurs this year, we invite you to let us 
know immediately so that we can attend to it.
    Mr. Koskinen. Thank you, Mr. Chairman, I appreciate that. 
And I would reiterate again that we have had nothing but the 
closest and the most supportive cooperation from the full 
Congress.
    Chairman Archer. And we want to keep it that way from our 
part of it.
    Mr. Coyne.
    Mr. Coyne. Thank you, Mr. Chairman.
    Mr. Koskinen, I wonder if you could expand upon your 
response relative to reports that one-third of small businesses 
that use computers in their businesses have not assessed their 
exposure to the Y2K problem, and that about one-half have not 
taken any defensive steps to this point. I know that you 
touched on it, but I wonder if you could expand on this?
    Mr. Koskinen. We just had a trilateral meeting with the 
Year 2000 coordinators from Canada and Mexico on Monday and 
Tuesday of this week. And their experience, as is ours, is that 
the issue with small businesses is actually a problem around 
the world. Smaller organizations tend to assume that this 
problem doesn't effect them because they are not running major 
main frames. Or, increasingly, as they become aware of the 
problem, their judgment is that they will wait and see what 
breaks and fix it afterward. We are doing everything we can to 
advise them that is a very high-risk strategy because if they 
wait until it breaks and then try to fix it, they may be at the 
end of a very long line of people who took a similar action.
    So we, along with the SBA and the Commerce Department, did 
a national Y2K action week for small businesses in October. And 
the SBA, the Agriculture Department, and Commerce's 
Manufacturing Extension Partnership are planning another full-
court press at the end of March to hold seminars and provide 
technical information to all the small businesses that we can 
get to show up at the meetings. Our problem is--not that small 
businesses don't have the resources--many are basically saying 
that they will just wait and see.
    Mr. Coyne. You have sort of imposed a 90-percent completion 
by March 31 of your efforts in your testimony there. I wonder 
how you are going to notify Congress whether or not you are 90-
percent compliant by March 31.
    Mr. Koskinen. OMB has provided, for the last 2 years, 
quarterly reports to Congress. The March report actually 
reflects progress as of January 31. The next report will 
contain information as of April 30. But for the agencies with 
the major challenges, we have been getting monthly reports. The 
reports for March 31 will be in to OMB in mid-April, and we 
will make that public and advise you as to where the agencies 
are.
    Mr. Coyne. And, at that point, you expect to be 90-percent 
compliant? Hopefully, 100 percent?
    Mr. Koskinen. No, I think that we will be over 90 percent. 
We expect that there will be a handful of mission-critical 
systems in several agencies that will be monitored on a monthly 
basis, but there is no indication that they won't be ready, all 
of them, well in advance of the Year 2000.
    Mr. Coyne. What are your concerns with regard to State and 
local governments' computer systems?
    Mr. Koskinen. Our concern, again, as I noted in my formal 
testimony, is in those organizations where the head of the 
organization does not have the problem as a high priority. So, 
we have been stressing, not only to Governors, but to county 
executives, mayors, and city managers, that the Year 2000 
problem has to be their priority because that is the only way 
you can send appropriate signals to the people in your 
organization. It is more than just an IT problem, it is a 
management problem. The cities and towns that think they need 
only to focus on software problems have not understood the 
impact that this may have on water treatment plants, on local 
community hospitals, or on local 911 systems.
    So, our risk and concern is not with those organizations 
working hard on the problem. Our risk and concern is for those 
who have decided for one reason or another, that they are not 
going to pay attention.
    Mr. Coyne. Thank you.
    Chairman Archer. Mr. Crane.
    Mr. Crane. Thank you, Mr. Chairman.
    Mr. Koskinen, how do you respond to Edward Yardini and 
others who predict an international economic crisis that will 
result from Y2K, and what else can be done that is not being 
done to prevent such a crisis?
    Mr. Koskinen. I have talked to Mr. Yardini, and, as I have 
made clear several times, he knows a lot more about economics 
than I ever will. He is very thoughtful and constructive. But 
he is really the only major economist that takes that position. 
I have met several times with the Council of Economic Advisors 
staff and the NEC, and the recent Economic Report of the 
President noted that the consensus of economists is that this 
problem will have a relatively modest effect on GDP now, no 
more than two or three-tenths of a percent.
    We all know that the proof will be in the pudding, but at 
this juncture, there is no indication on the basis of what we 
know either internationally or domestically, that we will have 
a major economic recession or worse as a result of Y2K 
problems. That does not mean that there will not be problems. 
It simply means that those problems, particularly 
internationally, will not by themselves send us into a 
recession.
    Mr. Crane. And what can Congress do that it is not doing 
already to help ensure that there are no major Y2K-related 
failures? And I am thinking in terms of funding and legislation 
authorizations, oversight.
    Mr. Koskinen. I think that oversight hearings like this one 
are very productive and important in terms of providing more 
information to the public. As noted earlier, one of our issues 
is to try to get the public to understand exactly where the 
risks are and where they are not. But at this juncture, we do 
not have a need for any other major legislative initiatives.
    We appreciate Congress' support last year for the 
information sharing act. At this juncture, I think the 
responsibility for Federal systems is on us and on each of the 
cabinet Secretaries. Increasingly, one of the messages that we 
are trying to drive home is that the head of every organization 
in the public sector and the private sector has a 
responsibility for their systems. We can reach out and try to 
encourage them. We can try to support their efforts. We can 
give visibility to where we think there are problems, but the 
ultimate responsibility rests with every chief executive 
officer, and every mayor, county executive, and Governor.
    Mr. Crane. You touched upon the possibility that at the 
local level some are dismissing the possibility of a crisis. It 
may not be a national crisis, and yet it could provide serious 
hardship to a lot of people. Is there a way that you could 
prepare a warning list in some of those targeted areas and try 
and guarantee that it gets distributed to newspapers and the 
media for publication to try and alert people at the local 
level to ask those questions? Are we doing what needs to be 
done, and are we going to be spared that?
    Mr. Koskinen. It is a very good question. It is, in fact, 
the focus of a lot of our activity. The Federal Emergency 
Management Agency has been working with the State and local 
emergency managers. FEMA is in the process of holding 10 
regional meetings for State and local emergency managers, and 
we have put the State Year 2000 coordinators in those meetings 
to start to look at what the risks are and to send that message 
out. Later this spring or in the early part of the summer, we 
want to provide to local officials tool kits for, in fact, 
conducting what we call ``Community Conversations'' or 
``Townhalls.'' These would be gatherings where, in communities 
across the United States, citizens and elected officials could 
sit down with the local service providers--their banker, their 
power company, their telecommunication company--and discuss the 
state of readiness. Not necessarily that they are done with 
their work, but where they are in the process. And I think that 
if we can get more of those dialogs and conversations going at 
the local level we will bring to the surface the issue and the 
nature of the problems.
    Mr. Crane. Well, if you could get the alert signs to us, 
too, because that is a message that we can take home for town 
meetings and, at least, raise the question ourselves.
    I want to congratulate you for what you have done.
    Thank you, Mr. Chairman.
    Chairman Archer. Does any other member wish to inquire?
    Mr. Hulshof.
    Mr. Hulshof. Thank you, Mr. Chairman.
    I recognize that Ms. Golden will be up momentarily to talk 
about HHS, but I noted that in your testimony, Mr. Koskinen, 
that you mentioned that HHS has some unique challenges facing 
them especially as far as this Committee's jurisdiction 
regarding HCFA. Could you just talk about that a little bit?
    Mr. Koskinen. Yes.
    Obviously, HCFA processes billions of dollars of payments, 
and hundreds and millions of transactions each of which are 
separate. So HCFA's systems are some of the largest and most 
complicated in the world. Now the process, as you all know 
better than most, is that Medicare system is actually run for 
us by the private sector. Sixty large insurance companies, in 
fact, process those claims. So it has taken us some time to 
move forward, to some extent because we were pushing for 
earlier target dates than the private sector. We wanted 
implementation by March 31. Most private-sector companies are 
looking at completing work this summer. So, it took us some 
time to get them focused.
    We have some unique relationships with those companies that 
are not the normal Federal contract relationships. HCFA has no 
authority to have that work done by other information 
processors. It has to be done by the insurance companies. It 
also is a situation where the normal contractual rules to end a 
relationship are more complicated because of special 
legislative provisions. And we have supported HCFA's 
recommendations that there be contractor reform legislation 
that would put contractors in this area in the same boat with 
all other Federal contractors.
    But I am happy to report that, with a lot of hard work by 
those contractors and HCFA over the last 6 months, we are now 
confident that system will work. But, as Mrs. DeParle will tell 
you, even if we have our systems working, and the 
intermediaries will have their systems working, the question 
will be whether the providers have their systems working. Will 
the doctors, the hospitals, and the healthcare facilities 
actually be able to submit payments to be processed? Those are 
systems we don't control. We don't have authority over them. 
Again, back to our concern about local communities, our concern 
here is about local providers. And you will hear more about 
that from HCFA in terms of their outreach efforts, but I think 
that if we are going to have a problem, it will be at that end 
of the process, not at our end.
    Mr. Hulshof. OK, thank you.
    Mr. Chairman, I yield back.
    Chairman Archer. Mrs. Thurman.
    Mrs. Thurman. Thank you, Mr. Chairman.
    I have to tell you that I talked to one of my sheriffs last 
year, and I need to do a follow-up with him based on this 
conversation. He was very, very concerned about this compliance 
with Y2K and how he was going to change his computer system 
over because there were no grants, there was nothing available 
to them to help them through the State systems. Are you seeing 
more of that in your conversations with the State and local 
people? Monies being available? Because a lot of these people 
are hitting caps, can't afford it, especially within rural 
areas.
    Mr. Koskinen. We are concerned about rural areas. We 
deliver 20 percent of utilities in this country in rural areas 
and small towns. There are over 3,000 power companies, over 
1,400 telephone companies, so a lot of the problem is not just 
AT&T and Sprint and the power companies in cities like 
Washington. A lot of it is at the local level. And we are 
reaching out through the associations and organizations to 
reach them.
    But, again, as has been our experience with small 
businesses, our experience at the local level is not that 
people don't have the resources. We don't have a significant 
influx of small businesses saying that they need financial 
help. And we don't have a lot of local communities saying, 
``You know, if we had some money, we would fix it.'' We have a 
lot of local communities who, for one reason or another, have 
not yet made this a priority.
    Mrs. Thurman. Well, this one, particularly, had made it a 
priority, but he didn't have any money. He was looking for 
grants, loans, and other things to try to update this system 
within his area.
    Let me ask you this question. In Gainesville last week, 
there was an article in the university newspaper. There was a 
law conference that was addressing the technology issue with 
Y2K, and he mentioned that there was a particular problem--and 
I don't know what you are seeing out here, but it is certainly 
something, I think, to be talked about. ``I would wager your 
business client is doing an inadequate job with Y2K compliance. 
Business clients need to prioritize their dependency on certain 
items and establishing ongoing conversation with larger 
suppliers.''
    But he also went on to say that encapsulation and windowing 
were how small business were getting around this, or at least, 
potentially reacting to this. But these were not really taking 
care of the problem. It is just kind of delaying the problem.
    Are we seeing a lot of that as some safety net out there 
for folks? They are going to do these things, but then they 
turn around and it is really not going to be fixed?
    Mr. Koskinen. It doesn't solve the underlying problem, but 
it is not a short-term fix in some cases depending on the 
process.
    One way to window is to say that every number after 50 is 
1900 and every number before 50 is 2000. So that 00 would be 
2000, 01 would be below 50 and would be 2001. So, that would 
give you a system that would run until 2050.
    There are various other windowing techniques. You can roll 
the clock back to 1972 which is the same calendar year as the 
Year 2000, and again, you have 28 years.
    People who are windowing are using it not as a 6-month fix, 
but to give themselves a year or two running room to upgrade or 
totally replace the system that is being windowed.
    The complication with windowing is that to the extent that 
you exchange data, you have got to make sure that the 
formatting works with the people you exchange date with, which 
is why you hear so much about the importance of data exchanges.
    But a lot of work is being done. Rather than moving the 
Code from two digits to four, you would, in effect, work around 
the Code, and, in fact, have the system think it is a year that 
it is not.
    Mrs. Thurman. So, they could maybe be feeling that they are 
fixing this but falsely not and particularly, if they have to 
do a data change----
    Mr. Koskinen. Everyone knows that you are doing it to fix 
the problem, but that you are not fixing it out to the Year 
3000. What you need to do with windowing, and the people doing 
it are aware of this, is to ensure that any data exchanges you 
make are with systems that can adopt and accept the format you 
use.
    Mrs. Thurman. And you are saying that finances are not the 
problem with small businesses. Why would they not just go ahead 
and try to get into compliance with Y2K without using these 
other two techniques?
    Mr. Koskinen. The SBA already has a loan program that is 
available to small businesses. And the explanation as to why 
they don't take action is that this would be a lot easier 
problem if you could guarantee that everything would fail 
because then people would have to fix it.
    We don't want small businesses to waste money buying things 
that they don't need. That's why, for Federal agencies, the GAO 
and OMB analysis starts with an assessment.
    What a lot of businesses are saying is that they don't want 
to borrow any money, whether it is thruogh a low-interest loan 
from SBA or somebody else, and that they are busy and they 
don't know about this. They'll just wait and see. And then if 
their computer shuts down, they will go and buy another one. 
``I don't want to spend a few thousand dollars, or even a few 
hundred dollars now, if I don't have to.''
    We can't issue an edict in which we say to every small 
businesses computers are all going to fail. A lot of them will 
not. What small businesses need to do is make an assessment of 
what their risks are. Check with their manufacturers. Take 
advantage of the information that the SBA and others are 
providing to them, and then make a decision. It is that process 
that they are not going through.
    Mrs. Thurman. Thank you.
    Chairman Archer. Does any other member wish to inquire?
    Mr. Koskinen, you have taken on a massive responsibility, 
and I am impressed by your grasp, your knowledge, and what you 
have done both from an overall standpoint and from a detail 
standpoint. The Nation is lucky to have you. Thank you for what 
you have been doing. Thank you for being before us today.
    Mr. Koskinen. Thank you for your very kind comments, Mr. 
Chairman.
    Chairman Archer. Our next witness is the Honorable Olivia 
Golden, Assistant Secretary for Children and Families with HHS.
    Good morning, and welcome, Ms. Golden. We are pleased to 
have you before us. I think that you probably heard my previous 
admonition to witnesses that if you can keep your verbal 
testimony to within 5 minutes, we would appreciate it. Your 
entire written statement will be inserted, without objection, 
in the record.

   STATEMENT OF HON. OLIVIA GOLDEN, ASSISTANT SECRETARY FOR 
  CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Ms. Golden. Thank you, Mr. Chairman. I will summarize my 
longer statement for the record.
    Thank you, Mr. Chairman, and Members of the Committee, for 
the opportunity to appear before you today to report on the 
progress that we have made in ensuring that our automated 
systems are Year 2000 compliant and to share our outreach 
efforts to the human services sector.
    I am extremely pleased to report to the Committee that ACF 
has completed our efforts to ensure Year 2000 compliance of all 
its automated systems. I would like to describe briefly our 
efforts on these systems and our efforts to work with our State 
and local partners to address the special problems that they 
face.
    First, ACF's internal systems. Ensuring that all ACF 
mission-critical systems--grant making, child support 
enforcement, and information collection and reporting, are Year 
2000 compliant, has long been a priority for us.
    In 1993, ACF engaged in a business process re-engineering 
effort which resulted in the GATES system. This system allows 
ACF to carry out all of our functions related to grant making 
in one system, and it was designed from its inception to be 
Year 2000 compliant.
    ACF's second major category of mission-critical systems is 
child support enforcement systems: the Federal parent locator 
service, the tax refund offset system, the renumeration 
verification system, and the child support enforcement network. 
The first three of these systems were repaired to meet Year 
2000 requirements, and the fourth was developed as a Y2K-
compliant application.
    The third, and final, internal system category in ACF 
involves information collection and reporting. ACF uses two 
systems to collect and analyze information on certain at-risk 
populations. We have the adoption and foster care analysis and 
reporting system, and the runaway and homeless youth management 
information system. Both of these systems were designed to be 
Year 2000 compliant.
    To further ensure that these systems meet Y2K requirements, 
ACF hired three independent verification and validation 
contractors to conduct testing of the systems. IV&V efforts 
have been completed on all but one of ACF's mission-critical 
systems, five have received final compliance certifications 
from the contractors. The IV&V effort for the GATES system has 
been extremely complex, but we expect to receive the final 
certification of compliance by the end of March.
    And, as an extra measure of protection from unanticipated 
problems, as you have heard from other agencies, ACF has 
developed business continuity and contingency plans for all of 
our mission-critical systems. The plans contain specific 
information on Year 2000-related problems that might occur to 
each system and spell out the triggers that would cause a 
specific remediation action to be invoked.
    In addition to ensuring the integrity of our Federal 
systems, we have focused attention on the effect of Year 2000 
problems on providers of human services under programs funded 
by ACF. I would like to briefly summarize our efforts.
    Assistance to States and grantees: ACF supports a wide 
range of programs that are administered at the State, county 
and local levels. While we do not play a direct role in the 
development and operation of the systems needed to support 
these programs, we are working on a number of fronts to ensure 
that to the maximum extent possible, human services providers 
are taking appropriate steps to address the Year 2000 problem. 
Our shared goal with States and grantees is to ensure the 
continued provision of human services in our programs in the 
coming millennium.
    To achieve this role, ACF's goal, in addition to ensuring 
the readiness of our own system, is threefold. First, to 
heighten awareness. For the past few years, ACF has been 
involved in actively reaching out to human services providers 
on the Year 2000 issue. We are seeking not only to elevate the 
level of attention at the State and local level, but also to 
glean information about the most useful ways that we can help 
our partners continue to deliver services in the case of a 
system breakdown. Detailed information on our awareness 
strategies is in the long version of my testimony, and I would 
be happy to provide details in answer to questions.
    Second role: access to resources. ACF has assisted States 
and grantees in gaining access to a range of available 
resources which will be useful in their efforts to become Year 
2000 compliant.
    And our third role is to access overall readiness, 
including a focus on contingency plan development. ACF will 
continue to use information from our surveys and onsite reviews 
to assess how we can best work with States and providers that 
are most in need.
    In conclusion, we are confident that all internal systems 
in the administration for Children and Families are Year 2000 
compliant. We are continuing our efforts to assist grantees and 
other human service providers by conducting extensive Year 2000 
outreach.
    I would be pleased to respond to any questions. Thank you.
    [The prepared statement follows:]

Statement of Hon. Olivia Golden, Assistant Secretary for Children and 
Families, U.S. Department of Health and Human Services

    Good morning Mr. Chairman and Members of the Committee. I 
am Olivia Golden, Assistant Secretary for Children and Families 
within the Department of Health and Human Services. I 
appreciate the opportunity to appear before you today to report 
on the progress we have made in ensuring that our automated 
systems are Year 2000 compliant, and to share our outreach 
efforts to the human services sector. Your attention to this 
issue is certain to help us in highlighting the importance with 
which it must be viewed by State, county and local human 
service providers.
    I am extremely pleased to report that ACF has completed 
efforts to ensure Year 2000 compliance of all its automated 
systems applications. We initially identified 55 systems as 
providing mission-critical support to ACF core business 
processes which require Year 2000 remediation--grant-making, 
child support enforcement, and information collection and 
reporting (ten were subsequently retired).
    I would like to describe our efforts to ensure compliance 
in each of these critical systems, including our use of 
independent verification and validation processes and 
contingency planning for the unexpected, and our efforts to 
work with our State and local partners to address the special 
problems they face.

                    I. ACF Mission Critical Systems

    Ensuring that ACF mission-critical systems are Year 2000 
compliant has been a priority for us for several years. I am 
convinced that this level of attention was essential to our 
success in completing Year 2000 compliance activities for all 
our mission-critical systems.
    Beginning in 1993, ACF engaged in a business process 
reengineering (BPR) effort, the aim of which was to consolidate 
the many ACF grant-making, tracking, and reporting systems into 
one integrated system. This system, called the Grants 
Application, Tracking, and Evaluation System or GATES, allows 
ACF to carry out all the administrative functions related to 
grant-making via one system. GATES ensures that grants are 
processed seamlessly, and allows ACF to collect and analyze 
program performance information. It was designed from its 
inception to be Year 2000 compliant and is a dynamic system 
that will continue to evolve to meet ACF's grants-related 
needs.
    This transformation of grant-making systems was a huge 
accomplishment. Now, all grants, whether entitlement grants 
like Child Support Enforcement or discretionary grants such as 
Head Start, are processed using one central system.
    ACF's second major category of mission-critical systems is 
Child Support Enforcement systems. ACF efforts to assist all 
States and territories in their attempts to establish and 
enforce child support are supported by four systems:
    <bullet> The Federal Parent Locator Service (FPLS) which is 
a computerized national location network that consists of a 
National Directory of New Hires (NDNH), a centralized 
repository of W-4, quarterly wage and unemployment insurance 
claims data, and a Federal Case Registry (FCR) of child support 
orders. These two databases are automatically matched on a 
daily basis, providing States with the most timely, accurate 
information available to locate non-custodial parents for the 
purpose of establishing or enforcing child support orders;
    <bullet> The Tax Refund Offset System (TROS) which allows 
States to intercept Federal tax refunds and other Federal 
payments due to non-custodial parents who are delinquent in 
paying child support;
    <bullet> The Enumeration Verification System (EVS) which 
allows States to verify the social security numbers of non-
custodial parents; and
    <bullet> The Child Support Enforcement Network (CSENet) 
which provides a means for States and territories to exchange 
information needed to work interstate child support cases.
    The first three of these systems are housed on a Social 
Security Administration mainframe computer. These systems were 
repaired to meet Year 2000 requirements by providing individual 
lines of code to ensure that all dates use four-digit years in 
calculations, manipulations, display, input, and reports.
    CSENet is a federally maintained network of personal 
computers (PCs) at 54 State and territorial sites, connected 
via modems to a federal host personal computer. CSENet was 
developed as a Year 2000 compliant application. Currently, the 
PCs upon which this application is run are being upgraded to 
ensure Year 2000 compliance of all aspects of the network. This 
upgrade will be completed by March 1999 for most States and, 
pending completion in the others, a contingency of patches will 
be made available for the hardware and its operating systems 
until all of the upgraded hardware is in place.
    The third and final internal system category in ACF 
involves information collection and reporting. ACF collects 
information on at-risk segments of the population served by our 
programs, such as children in the adoption and foster care 
system and runaway and homeless youth.
    ACF uses two systems to collect and analyze this 
information: the Adoption and Foster Care Analysis and 
Reporting System (AFCARS) and the Runaway and Homeless Youth 
Management Information System (RHYMIS). AFCARS is housed on a 
National Institutes of Health mainframe, while RHYMIS is a 
system consisting of stand-alone PCs that collect and analyze 
information from approximately 400 grantees. These PCs save 
electronic reports to diskettes that grantees mail to the 
Family and Youth Services Bureau for uploading into a composite 
federal RHYMIS system. Both AFCARS and RHYMIS were designed to 
be Year 2000 compliant.
    A number of these systems exchange information with State 
systems, such as AFCARS, FPLS, TROS, and EVS. In these cases, 
we have established bridges to ensure that all data 
incorporated in our systems from the States' systems are Year 
2000 compliant. A bridge screens the incoming data to ensure 
that they use 4-digit year dates; if they do not, the bridge 
prefixes the proper century digits to the year date. In turn, 
as an interim measure, if a State system cannot accept Year 
2000 compliant data, a conversion program will format the data 
field in a way that is usable by the State prior to 
transmitting the data to the State system.
    I'd like to now turn to our Independent Verification and 
Validation activities and our contingency planning to deal with 
unexpected systems problems.

          II. Independent Validation and Contingency Planning

    Independent Verification and Validation (IV&V) is essential 
for ensuring that the hardware and software associated with a 
system meet Year 2000 requirements. Using three IV&V 
contractors, ACF's mission-critical systems were tested on 
several different levels to ensure that they comply with the 
Year 2000 requirements for the use of the four-digit year date 
format and that they would function properly after remediation 
was completed. IV&V have been completed on all but one of ACF's 
mission critical-systems; five of those have received final 
compliance certifications from the contractors: AFCARS, RHYMIS, 
FPLS, EVS, and TROS.
    Although the CSENet IV&V showed that the CSENet application 
itself is compliant, it also revealed that the hardware and 
operating system software upon which the application runs need 
to be upgraded. We are in the process of addressing the needed 
upgrades.
    The IV&V effort for the GATES systems has been an extremely 
complex undertaking. However, we expect to receive the final 
certification of compliance by the end of March. The contractor 
has spent a large amount of time becoming familiar with the 
system's construction and interfaces with external systems and 
is currently running a series of date rollover tests as a final 
step to certification of compliance.
    As a result of these rigorous efforts, we are confident 
that our systems will be fully Year 2000 compliant by the end 
of March, with the sole exception of CSENet. That system will 
be compliant when its underlying hardware and operating systems 
are replaced in September 1999. However, as an extra measure of 
protection from any unanticipated problems, ACF has developed 
Business Continuity and Contingency Plans (BCCPs) for all our 
mission-critical systems. These plans will ensure that ACF will 
be able to carry out its core business functions until 
unforeseen problems are resolved. The BCCPs contain specific 
information on Year 2000 related problems that might occur to 
each system, and spell out the triggers that would cause a 
specific remediation action to be invoked.
    In addition to ensuring the integrity of our federal 
systems, we have focused attention on the affects of Year 2000 
problems on providers of human services under programs funded 
by ACF. I would like to briefly describe our efforts.

                 III. Assistance to States and Grantees

    ACF supports a wide range of programs that are administered 
at the State, county and local levels. While we do not play a 
direct role in the development and operation of the systems 
needed to support these programs, we are working on a number of 
fronts to ensure that, to the maximum extent possible, human 
services providers are taking appropriate steps to address the 
Year 2000 problem.
    This is very complicated because there are substantial 
variations in the degree of automation in each program and at 
each level, ranging from sophisticated. Statewide systems for 
multiple programs, to simple desktop operation for a non-profit 
service provider. The sheer number and complexity of these 
systems makes assessment of the potential Year 2000 problems 
extremely difficult. The number of entities involved in the 
provision of human services, from the federal level down to the 
providers of services in communities, further complicates the 
picture. An example may help to illustrate this point:

          In one large State, there are numerous systems that are used 
        to administer the human services programs. Four separate 
        systems determine eligibility for the Temporary Assistance for 
        Needy Families, food stamp and Medicaid programs. Many Child 
        Support Enforcement systems are operated at the county level. 
        There is a Statewide system for the child welfare program under 
        title IV-E of the Social Security Act, but services may be 
        tracked by a large number of private service providers at the 
        community level. There is no centralized child care system--
        multiple information systems exist at the county and local 
        provider level. Head Start grantees operate individual 
        information systems with varying degrees of sophistication. 
        This also is true for grantees in many other programs as well.

    For the families that rely on our systems, this staggering 
level of complexity means that a wide variety of partners in 
the Federal, State, and local levels must undertake intensive, 
focused efforts to be sure that families and individuals do not 
lose crucial services due to Year 2000 computer problems. While 
ACF has achieved its own Year 2000 compliance, that alone is 
only one part of the battle to ensure that service is not 
disrupted. In addition, we must hold States and local entities 
accountable for seeing that their systems are compliant and 
that they have viable contingency plans in place, with our 
support and assistance.
    ACF has taken action to make our partners and grantees 
aware of the critical nature of the problem, and to assist them 
as they plan and execute their own Year 2000 readiness 
strategies. As laid out in more detail below, we have provided 
and will continue to provide information, technical assistance, 
and help with assessments of grantees' systems. In addition, we 
plan to accelerate our efforts to do more on-site assessment 
and participate in States' contingency planning efforts.
    In order to get a clearer sense of the status of all these 
systems, we have requested that States provide us with 
estimates of Year 2000 readiness for these major programs, the 
status of their contingency plans, and updates of this 
information on a regular basis. Although no State has indicated 
that it will not be Year 2000 ready, a number have indicated 
that they will not be ready until late in the year. With just 
over half the States responding so far, several indicate that 
they are going to finish their fixes later in the year--in the 
third or fourth quarter. Coming this close to the deadline is a 
real cause for concern, because systems experts believe that 
large, complex organizations should be in a testing phase by 
now. To compound the fact that some States are cutting it so 
close, approximately a quarter report that they have no 
contingency plans.
    This information, like other reports, indicates that we 
have reason to be concerned about State and local readiness 
regarding Year 2000. The recent General Accounting Office (GAO) 
report on the Year 2000 readiness of State public assistance 
systems, and the National Association of Counties (NACO) report 
on the readiness of counties, have raised concerns about the 
ability of State, territorial, and local governments to deal 
with this problem. The GAO survey found most States were not as 
far along with their corrective action plans as they should 
have been. Similarly, NACO's report, based on a sample of 500 
counties, found that up to half of all counties do not have 
Year 2000 corrective action plans, or budgets to support such 
plans.
    ACF's outreach strategy is designed to inform and support 
our State and local partners as they move ahead on their 
critical task of ensuring that their human services systems are 
not disrupted by Year 2000 problems. Our shared goal is to 
ensure the continued provision of human services under our 
programs in the coming millennium. To achieve this goal, ACF's 
role is to:
    <bullet> Ensure the readiness of ACF systems, which is 
complete as described above;
    <bullet> Heighten awareness of the issue and the impact of 
taking corrective action to ensure continued service delivery;
    <bullet> Assist states in gaining access to available 
resources to support their Year 2000 efforts; and
    <bullet> Work with our partners to assess the overall 
readiness of their systems and encourage and support the 
development of contingency plans.

Heighten awareness

    For the past few years, ACF has been involved in actively 
reaching out to human service providers on the Year 2000 issue. 
ACF has led the Human Services Outreach Sector, which includes 
the Administration on Aging, the Health Care Financing 
Administration (Medicaid), the Health Resources and Services 
Administration and the Substance Abuse and Mental Health 
Services Administration.
    In addition, I have personally made this issue a top 
priority in my meetings with State and local officials and have 
asked managers and staff throughout ACF to do the same. We are 
seeking not only to elevate the level of attention on the issue 
at the State and local level, but also to glean information 
about the most useful ways that we can help our partners 
continue to deliver services in case of a system breakdown. ACF 
has taken additional steps to make program providers aware of 
the problem and of the need to take action, including:
    <bullet> Establishment of a comprehensive Year 2000 web 
page (www.acf.dhhsgov), which includes information for both 
technical and non-technical users, to reach a wide variety of 
audiences. The website contains guidance on planning and 
undertaking Year 2000 efforts, samples of documents that will 
help human service providers catalog their Year 2000 efforts, 
and software that will help providers assess the readiness of 
their own systems.
    <bullet> Development and distribution of a Year 2000 Guide 
for Human Service Providers, which was distributed last year to 
over 7,000 human service providers and representative 
organizations. This document is currently being revised to be 
distributed to an additional 25,000 human service providers 
under ACF and other Departmental agencies.
    <bullet> Establishment of a Year 2000 help-desk which human 
services providers can access through an internet e-mail 
address and 1-800 telephone number.
    <bullet> Insertion of a standard Year 2000 information 
sheet in all ACF grant awards.

Access to resources

    ACF has assisted States and grantees in gaining access to a 
range of available resources, which will be useful in their 
efforts to become Year 2000 compliant,
    <bullet> ACF issuance of an Action Transmittal to States on 
July 1, 1998, which provided streamlined procedures for 
acquiring expedited approval of Federal matching funds in the 
cost of activities undertaken to make State systems Year 2000 
compliant.
    <bullet> Development of a TANF data collection system which 
is Year 2000 compliant and distribution to States of Year 2000 
compliant PC-based software that they could use to collect and 
maintain information. About 30 percent of States use this 
software; the remaining 70 percent extract TANF information 
from their existing mainframe systems and transmit it to ACF in 
a Year 2000 compliant format.
    <bullet> Use of existing contractor resources, available in 
each often HHS regional offices to assist Head Start grantees 
in assessing their Year 2000 readiness and solving any 
identified problems. In addition, grantees have been advised 
that program administration grant funds may be used to make 
their systems Year 2000 compliant.

Assess overall readiness including contingency plan development

    Considerable gaps in information about the status of State 
systems remain. As I indicated, ACF, along with the Assistant 
Secretary for Management and Budget at HHS, have surveyed 
States on their progress in Year 2000 and on-site reviews will 
be conducted to further assess State systems and the need for 
States to put contingency plans in place. We will continue to 
use information from our surveys and these reviews to assess 
how we can best work with States as they make progress in 
dealing with this problem.
    We also are taking advantage of opportunities provided by 
our ongoing systems work, where have a more active role, to 
focus on Year 2000 efforts. In child support, we are closely 
monitoring State Year 2000 activities as part of all systems 
reviews and automation funding requests. The latest information 
we have indicates that fully one-third of these systems are 
Year 2000 compliant. However, we are requiring that at-risk 
States produce an acceptable contingency plan to ensure the 
continued collection and disbursement of child support payments 
in the event that the State does not complete Year 2000 
remediation efforts in time.
    In addition, we have completed an in-house assessment for 
non-State human service providers, such as Head Start and 
Runaway and Homeless Youth. Based on this assessment, we intend 
to focus further outreach efforts and provide technical 
assistance to those providers most in need.
    Finally, should systems disruptions occur, we have 
emphasized the need for contingency plans. At the same time as 
we are urging all our partners to develop such plans, and 
offering to support in those efforts, we are investigating 
whether there is flexibility under our programs that might 
offer further assistance.

                             IV. Conclusion

    In summary, we are confident that all internal systems in 
the Administration for Children and Families are Year 2000 
compliant. The remediation of these systems and independent 
verification and validation of their functions have helped us 
to improve the automated support of our core business 
processes. In addition, we are continuing our efforts to assist 
grantees and other human service providers by conducting 
extensive Year 2000 outreach. I can assure you that we are 
taking all possible measures to secure services into and beyond 
the new millennium.
    Thank you. I would be pleased to respond to any questions.

                                <F-dash>


    Chairman Archer. Thank you, Ms. Golden.
    Is there any reason why these essential services under your 
supervision would be disrupted by the Y2K problem?
    Ms. Golden. Let me give you that answer in two parts.
    In terms of our systems which move grants to States and 
grantees and provide information, we are Y2K compliant, and, as 
Mr. Apfel said to you, we are developing contingency plans 
which would address any unforeseen circumstances.
    The second part of that question, in terms of whether 
States can make that assurance to you and to us that all will 
be able to provide child support services, welfare, and so 
forth, what I would say is that we need to reach the point 
where all 50 States can make those assurances. We are not there 
yet, but I believe that we will be there.
    Chairman Archer. Is it fair to assume that you have given 
important notice to the States of how essential this is?
    Ms. Golden. Yes. We have been working in a variety of ways. 
We began a couple of years ago in terms of basic information 
sharing. We have a Web site. We have a help desk. We have a 
grant insert with information. We wrote to the States last July 
to make sure that they knew that we were providing expedited 
access to matching funds if they needed that in a number of 
areas. In the child support area where we have been on site 
doing systems reviews, we have had more intensive involvement.
    We are now intending to kick that up a level. We have 
written to the States. I have written, together with John 
Callahan, the Assistant Secretary for Management and Budget, to 
ask for regular updates from the States in terms of the status 
of their remediation and contingency plans, and we will be 
working with those materials and expanding our onsite review 
capacity.
    Chairman Archer. Has the Congress given you adequate 
resources for the remediation necessary at the Federal level?
    Ms. Golden. Yes. Based on what I know now, we have 
completed our remediation.
    Chairman Archer. And again, I would invite you that if you 
need any on an emergency basis, if something comes up, that you 
will please notify us.
    Mr. Crane.
    Mr. Crane. Thank you, Mr. Chairman.
    For the systems that you rely on for the States to develop 
and operate, what Y2K risks remain, and what are you doing to 
manage those risks?
    Ms. Golden. Well, let me tell you a little bit about how 
these programs operate and answer that question.
    As you know, the child welfare systems, the welfare 
programs, child support, childcare, are all systems that are 
operated by the States and, in many cases, counties play a role 
in them as well. The States and the counties maintain databases 
and they often set policies. What needs to happen, is that at 
the State level, as Mr. Koskinen said, the chief executive 
officer, the Governor, as well as key State staff need to be 
focused on ensuring that the State system is Y2K compliant and 
that its relationships with county or local systems meet those 
requirements.
    Right now many States are on track in that respect as Mr. 
Koskinen said. I think that there are some cases where we need 
to work with States to ensure that level of focus.
    Mr. Crane. Have you, by chance, seen this report card yet, 
that has been issued on the various departments and agencies in 
terms of being up to speed with regard to compliance to all of 
the potential Y2K problems?
    No. 1, on the report card list, is Social Security 
Administration, although they went down hill in May of last 
year. They were an A+. They are only an A today.
    There are several A's up there. But the Department of 
Health and Human Services--and this goes back to May 15, August 
15, November 13, of last year--made F grades each time, and 
they are up to C+ today. But on the list here, you can see that 
C+ is toward the bottom.
    What is demoralizing, looking at the list, is that the 
Department of Defense is C-, and the Department of State, 
Department of Transportation, and the Agency for International 
Development are all still making F grades.
    At any rate, this was prepared by the Subcommittee on 
government Management Information and Technology and issued on 
February 22. It is a concern when we listen to the previous 
panel and Mr. Koskinen, and it sounded very positive in terms 
of preparedness and contingency plans. But the report card, if 
it is accurate, is a little demoralizing.
    Is that your assessment, that you would give the Department 
of Health and Human Services a C+ grade currently?
    Ms. Golden. Well, I can only speak to my portion of it. We 
are the part of the agency that deals with welfare, childcare, 
child support, and foster care programs. And we have completed 
our remediation of the internal systems, and we are virtually 
complete on the IV&V certification. So, we believe that we also 
are bringing you good news in terms of having accomplished 
that.
    Mr. Crane. Well, that is reassuring. You do have 
contingency plans, too?
    Ms. Golden. We do.
    Mr. Crane. Just in case.
    Ms. Golden. Yes, we do have contingency plans.
    Mr. Crane. Very good.
    Thank you so much. I yield back.
    Chairman Archer. Mr. Coyne.
    Mr. Coyne. Thank you, Mr. Chairman.
    Ms. Golden, which welfare, childcare, and family assistance 
systems are at greatest risk due to problems at the State 
level?
    Ms. Golden. Let me try to give you an overview, Mr. Coyne, 
of what we know at this point, and then we will, of course, be 
happy to provide more detailed information as we have it later 
on.
    What we know right now is based on State self reports as 
well as the work that GAO has done and some of our own onsite 
reviews particularly in child support. What we know at this 
point is that no State has told us that they will fail to meet 
the deadline. So, no State is currently sending up that alert.
    Second, I do believe that most States have a very high 
level of focus, and that that is critical and one of the 
reasons that this hearing is so important.
    And third, some States have already accomplished their 
remediation in child support which is the area that we know the 
best and have the most detailed information about. More than 
one-third of States, we believe, are currently Y2K compliant.
    But there are some areas for concern, and I think that I 
would just echo Mr. Koskinen's comment about the critical 
importance of keeping a focus at the State and local level. 
Based on State reports to us, several States are not 
anticipating compliance until the third or fourth quarter of 
calendar 1999. And that is an area of concern in relation to 
these complex systems.
    About a quarter of the States that have reported to us do 
not currently have contingency plans. That is also an area of 
concern. And I would say that those States which have 
complicated interaction with county systems, that is an area of 
concern, as well.
    We are still working with individual States, so I don't 
have State-by-State information that I am completely confident 
is accurate at this moment, but that is an overview, and we 
would be happy to share more.
    Mr. Coyne. What recourse does ACF have if a particular 
State fails to pay welfare block grants, TANF benefits? And if 
they don't transmit child support payments or reimburse foster 
care providers on a timely basis because the State has failed 
to renovate its computer system? What recourse does your staff 
have if that doesn't come about?
    Ms. Golden. Well, of course, where I believe we need to be 
right now is making sure that that doesn't happen, so we have 
been focusing really intently on making sure that there is 
awareness at the State level. No State, certainly, would choose 
to be in that situation. And so, we are focusing on making sure 
that they have information and that there is a real focus on 
early contingency planning.
    I believe that one of the things that I learned from our 
successful work within ACF is that you need independent 
verification, so that if there are some things that you need to 
fix or to plan around, you can do that.
    And so, at this point, I believe that it is fair for us and 
for you to hold all States accountable for succeeding in 
delivering those services, and that we need to keep the intense 
focus over the coming months.
    Mr. Coyne. So, at this point, you don't have any plans to 
have some recourse in the event that they fail? At this point?
    Ms. Golden. At this point, all of our energy is on trying 
to provide information and ensure accountability for 
succeeding.
    Mr. Coyne. Which States are in the best shape relative to 
Y2K and why are they in better shape than others?
    Ms. Golden. I am not sure that I have an answer with names 
of States, but we could come back to you. I think that it 
varies across the different systems, that is, depending on 
whether it is child support, child welfare or TANF. In general, 
I think that it help if a State has started early. It helps if 
the State has focus at the highest level. And it helps, because 
of the interactions between State and county systems in the 
delivery of many of these services. If a State needs to deal 
with those, it helps to have had a focus of both high level 
State and county officials early. So, those are some of the key 
elements.
    Mr. Coyne. So, you don't want to venture into which States 
have been more successful by naming them. Is that it?
    Ms. Golden. I don't, at this point, have a name of a State 
that has been a model across all the areas. But we can follow 
up. We are working on refining our State-by-State information, 
and we could follow up with you if that would be useful.
    Mr. Coyne. Thank you.
    Chairman Archer. Mr. Jefferson.
    Mr. Jefferson. Thank you, Mr. Chairman.
    Let me follow up on some of the things that Mr. Coyne was 
asking about.
    What assistance are you providing States in their efforts 
to meet their requirements? That your department is providing 
today?
    Ms. Golden. We have done a variety of things. As you know, 
we can't do it for the State. The State has to be accountable 
for improving their system. But there is a wide variety of 
things that we have been doing and that we plan to do.
    In addition to providing information to making sure that 
there is a Web site and a help desk and information out there, 
we have taken a number of steps to make sure that States have 
access to resources. We have written to them to provide an 
expedited process for getting access to matching dollars in the 
areas of child support and child welfare. In the area of TANF, 
of welfare reform, and child care, they don't need help from us 
because the dollars that they have already received in their 
block grant can be used for this purpose. But we have provided 
States with Y2K compliant software for reporting to us in the 
welfare reform area. So, we've done that.
    As we move more into onsite reviews and assessment, what we 
want to do is work with States in seeing if we can be helpful 
in contingency planning. For example, we think that in some 
cases it may be that States can help each other. Here has been 
a lesson learned in one State with one kind of system, that 
would be very useful to another State. And so, we are hopeful 
that we will be able to help in that arena.
    Mr. Jefferson. I understand, your focus is on making the 
system work and not in thinking about what happens if it fails 
to work. But, of course, there can always be some failures in 
whole or in part, in some limited ways, or in some greater or 
lesser extent failures here or there.
    So, I want to ask, not from the point of view of what does 
the Department do if they fail, but what do people who are 
recipients do? Low-income folks who are looking for payments 
that are delayed?
    Ms. Golden. That is a critical question and one that we are 
intending to work with the States through contingency planning 
to make sure that there is a way to get the checks out.
    Let me tell you where we are on that. We asked all the 
States to provide us with their contingency plans, and we plan 
to review them. We have not received them yet, but we will be 
receiving them and reviewing them and knowing much more in the 
next couple of months. We expect that we might be able to be 
helpful because there might be ways that different counties in 
a State or different States could assist each other if it looks 
as though there is going to be a problem. And we also, have 
among our grantees at ACF not only States and counties but also 
community agencies, and we believe that some of the community 
agencies have experience providing emergency kinds of 
assistance, so we want to get them involved in the contingency 
planning as well.
    So, I share your view that the most critical thing here is 
to make sure that low-income families don't have interruptions 
in basic services.
    Mr. Jefferson. Now, what time table do you have to work out 
these contingency plans that you just discussed with me?
    Ms. Golden. We asked the States to provide them to us when 
we wrote to the States in December. We are anticipating getting 
them soon. We have not gotten contingency plans from all the 
States so we expect to be reviewing them over the next couple 
of months and working with the States.
    Mr. Jefferson. The concerns that you have related in your 
prior answers about the compliance of the State systems, do 
these concerns also go to the smaller units of government like 
cities and counties or villages that are also involved here? Is 
there some way that you ask to States to work with them to pass 
on information or to provide them with technical support? How 
is this working?
    Ms. Golden. That is a very important issue. We have done 
some work to provide direct information to counties and cities, 
and their organizations. We have sent out about 7,000 copies of 
a guide for human services providers. As we work with States on 
contingency planning, we need to ensure that they are working 
with local units of government.
    I also would note that I appreciate the Committee's focus 
on this set of issues, and I believe that the members here, 
given the wide array of States and communities that you 
represent, may also be able to raise that focus because I do 
believe that it is central to have State chief executives and 
local and county chief executives focused on this issue.
    Mr. Jefferson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Archer. Dr. Golden, we want to express 
appreciation to you for giving of your time generously today, 
and we look forward to working with you in the future.
    With that, inasmuch as we have a pending vote on the floor, 
rather than call the next panel and let you start your 
presentations for a minute or two, we will stand in recess 
subject to the call of the Chair. The expectation is that we 
should be back here reconvening in 10 to 15 minutes max.
    [Recess.]
    Mr. Crane [presiding]. Would everyone please take their 
seats?
    I would now like to call up our next panel. Julie Pollard, 
Medicaid Director, Connecticut Department of Social Services, 
on behalf of the National Governors' Association. Is Julie 
present? And Joel Willemssen, again, to participate in this 
panel. And, as I was appropriately taught as a young man, 
ladies first.
    So, we will have Julie make her presentation, and please 
try and confine your oral presentations to 5 minutes, and your 
printed remarks will become a part of the permanent record.
    Julie, proceed.

  STATEMENT OF JULIE POLLARD, MEDICAID DIRECTOR, CONNECTICUT 
    DEPARTMENT OF SOCIAL SERVICES, AND CHAIR, HCFA SYSTEMS 
  TECHNICAL ADVISORY GROUP ON Y2K; ON BEHALF OF THE NATIONAL 
                     GOVERNORS ASSOCIATION

    Ms. Pollard. Thank you very much.
    I appreciate having this opportunity to be here today, and 
I have been asked by the National Governors' Association to 
provide information to your Committee on State Medicaid agency 
Year 2000 readiness with the Medicaid management information 
system technology.
    Governors, as well as State agency directors and staff, are 
committed to meeting the challenge of Year 2000 computer 
problems in order to assure the clients of public services are 
not adversely affected.
    I appreciate having this opportunity to be here today to 
update you both on Connecticut's progress and on steps being 
taken to ensure that all States are properly prepared for the 
Year 2000. As the State Medicaid administrator and chair of the 
Systems Technical Advisory Group to the Health Care Financing 
Administration, I have gained an understanding of the 
complexity of the tasks at hand and an appreciation for the 
hard work and diligent efforts of the many who are rising to 
meet the Year 2000 challenge.
    First, I will provide you with an overview of my agency in 
Connecticut. I will then let you know about the State and 
Federal entities who have been supporting us through this 
process, and then some closing comments.
    The Department of Social Services is the designated single 
State agency for administration of the approved State plan of 
the Connecticut Medicaid Program. The Connecticut Medicaid 
Program currently provides quality healthcare access to 
approximately 360,000 eligible consumers. A full range of 
demographics from newborns to elders in rural and urban locales 
through community-based and institutional settings can be seen 
in the population that receives our support. They can access a 
wide variety of healthcare services ranging from traditional 
medical care provided by physicians, pharmacies, hospitals, 
clinics and others to the alternative, non-traditional supports 
found in the Medicaid waiver initiatives. Our connection to 
that eligible population is through our Medicaid provider 
community.
    Our administrative activities support the processing, 
authorizing, reporting and monitoring of the medical assistant 
services that the department pays for as required by Federal 
and State statutes. During the past State fiscal year, the 
department paid over 20 million claim details costing over $2 
billion to more than 6,000 medical providers and service 
organizations who are enrolled in our program.
    Claims processing, provider relations, Federal and State 
financial reporting and surveillance utilization review 
reporting are administered through our MMIS.
    Clearly, the dynamic world of information technology has 
provided many valuable tools that support our daily program 
operations.
    Accordingly, the applications and operating systems of the 
MMIS have needed to successfully perform yesterday, today, and 
in the days and century to come. The challenges encountered 
along the way secondary to the rapidly changing healthcare 
landscape, exciting Federal and State initiatives, or a 
millennium have and will be met. Upon completion, our MMIS Year 
2000 project will incorporate, recognize and unambiguously 
treat the new century and all date fields in the systems, files 
and functions in order to continue to effectively process all 
claims, reports, and other output.
    The Connecticut MMIS will also be equipped for both 
outgoing and incoming interfaces with multiple entities, 
external systems, including those of the Health Care Financing 
Administration and the Internal Revenue Service.
    It is important to note that these enhancements are being 
completed in a manner that is not disruptive to the current 
ongoing daily operations of the Medicaid Program. Project 
approach and overall project management has necessarily been 
predicated on the fact that our consumers need access to 
healthcare services that are inextricably tied to providing 
claims payment support in the healthcare industry. We recognize 
that responsibility and strive for excellence in that role.
    Now, the analysis and implementation of changes to the 
Connecticut MMIS has been a complex, yet evolving, set of 
tasks. And while initial research for technical solutions began 
in early 1997, there has been an ongoing commitment to 
remaining current to Year 2000 industry practices and 
approaches which resulted in the fine tuning of our approach in 
management strategies.
    Clearly the input that we received from others, from those 
both at the State and Federal levels, has provided valuable 
lessons along the way. The phases associated with our MMIS Year 
2000 project at a high level can be categorized as assessment, 
renovation, testing, and implementation with extensive project 
management activities throughout (not unlike the Year 2000 
conversion model that was put forth in the September 1997 GAO 
assessment guide.)
    Now, we have not pursued our initiative in isolation. Our 
executive branch, secondary to establishing a centralized Year 
2000 Program Office out of our Department of Information 
Technology, has promulgated a Year 2000 certification process 
and agency reporting management methodology. Their quality 
assurance process addresses the issue of certification, and it 
is designed to be simple and flexible while ensuring that 
projects critical to the State of Connecticut are completed on 
time. The Y2K Program Office is also working with each agency 
to complete that certification process.
    In addition, that department anticipated the need for 
independent validation and verification monitoring. They pre-
qualified vendors and established a listing of potential 
contractors that could be used by State agencies in procuring 
quality assurance and project management services.
    Use of that service has facilitated our acquisition of a 
quality assurance team that provides independent monitoring and 
risk assessment of our MMIS project.
    This past July, State Medicaid Directors received 
information regarding HCFA's millennium compliance strategy as 
it relates to the MMIS. Details regarding steps to be taken by 
States in certifying to HCFA that the MMIS and mission-critical 
interfaces are Year 2000 compliant were clarified. 
Documentation related to contingency planning as well as 
monthly Y2K status reports to HCFA Regional Offices was 
requested.
    Additionally, HCFA strongly recommended the use of IV&V 
contractor services and further supported us by providing us 
with a 75-percent Federal match for such services.
    Recently HCFA has acquired services of an IV&V contractor 
to collect status information on States and on their Y2K 
activities and to validate the information that is being 
reported by State Medicaid agencies to their regional offices. 
Onsite visits are being conducted by HCFA's contractors. They 
have placed additional demands on State resources. We have 
worked together to try to avoid duplication of effort. The 
visits are yet another risk-assessment snapshot providing 
information for consideration in these final months of Year 
2000 project activity.
    Now, with hindsight, we might all agree that the best case 
scenario would have been for those early computer programmers 
to have ignored management concerns over data storage costs and 
to have gone ahead and coded a four-digit year format. That 
would have been the ultimate, no risk Year 2000 solution. But 
here at the end of the 20th Century, we do have a time of 
challenge for program managers and technology experts alike as 
we prepare for the next millennium.
    Throughout our daily activities, we strive to achieve 
effective and efficient delivery of services to our customers 
to improve the quality of their lives. And I am here to assure 
you that we are committed to fulfilling our administrative 
responsibilities to these families and individuals who need our 
assistance in maintaining or achieving their self-direction and 
self-reliance and independent living.
    Thank you for this opportunity. I would be happy to answer 
your questions.
    [The prepared statement follows:]

Statement of Julie Pollard, Medicaid Director, Connecticut Department 
of Social Services, and Chair, HCFA Systems Technical Advisory Group on 
Y2K; on behalf of the National Governors' Association

    Mr. Chairman, I have been asked by the National Governors' 
Association to provide information to your committee on State 
Medicaid Agency Year 2000 readiness of Medicaid Management 
Information System technology. Governors, as well as state 
agency directors and staff, are committed to meeting the 
challenge of the Year 2000 computer problem in order to ensure 
that clients of public services are not adversely affected.
    I appreciate having this opportunity to appear before you 
today to share an update on both Connecticut's progress, and on 
steps being taken to ensure that all states are adequately 
prepared for the year 2000. As a state Medicaid administrator 
and chair of the Systems Technical Advisory Group to the Health 
Care Financing Administration, I have gained an understanding 
of the complexities of the task at hand and an appreciation for 
the hard work and diligent efforts of the many who are rising 
to and meeting the Year 2000 challenge.
    First I will provide an overview of how my agency, the 
Connecticut Department of Social Services, is approaching Year 
2000 readiness of our Medicaid Management Information System. 
Second, I will discuss the Year 2000 support and input that we 
have received from state and federal entities. Finally, I will 
offer some closing comments.
                          Connecticut Overview
    The Department of Social Services is the designated single 
state agency that administers the approved state plan for the 
Connecticut Medicaid Program. The Connecticut Medicaid program 
currently provides access to quality health care for 
approximately 360,000 eligible consumers. The full range of 
demographics, from newborns to elders, in urban and rural 
locales, through community-based and institutional settings, 
can be seen in the population that receives our support. They 
can access a wide variety of health care services ranging from 
traditional medical care provided by physicians, pharmacies, 
hospitals, clinics, and others, to the alternative, non-
traditional supports found in Medicaid waiver initiatives. Our 
connection to that eligible population is through our Medicaid 
provider community.
    Our administrative activities support the processing, 
authorizing, reporting, and monitoring of the medical 
assistance services the Department pays for as required by 
federal and state statutes. During the past state fiscal year, 
the Department paid over 20 million claim details costing over 
$2 billion to more than 6,000 medical providers and service 
organizations enrolled in our program. Claims processing, 
provider relations, federal and state financial management 
reporting, and surveillance and utilization review reporting 
are administered through the use of a federally certified 
Medicaid Management Information System (MMIS). Clearly, the 
dynamic world of information technology has provided many 
valuable tools in support of daily program administration.
    Accordingly, the applications and operating systems of the 
MMIS have needed to successfully perform yesterday, today, and 
in the days and century to come. Challenges encountered along 
the way secondary to the rapidly changing health care 
landscape, such as exciting federal or state initiatives, or a 
millennium New Year, have and will be met. Upon completion, our 
MMIS Year 2000 project will incorporate, recognize, and 
unambiguously treat the new century in all date fields in all 
systems, files, and functions in order to continue to 
effectively process all claims, jobs, reports, and other 
output. Internal functionality will be equipped to deal with 
appropriate century identification through all its process. The 
Connecticut MMIS will also be equipped for both incoming and 
outgoing interfaces with multiple external entities and 
systems, including those of the Health Care Financing 
Administration (HCFA) and the Internal Revenue Service.
    It is important to note that these enhancements are being 
completed in a manner that is not disruptive to the on-going 
daily operation of the Medicaid program. Project approach and 
overall project management has necessarily been predicated on 
the fact that our consumers need access to health care services 
that is inextricably tied to providing claims payment support 
to the health care industry. We recognize that responsibility 
and strive for excellence in that role.
    The analysis and implementation of changes to the 
Connecticut MMIS has been a complex yet evolving set of tasks. 
While initial research of the technical solution began in early 
1997, there has been an on-going commitment to remain current 
on Year 2000 industry practices and approaches with a resultant 
``fine tuning'' of our approach and project management 
strategies along the way. Clearly, the input received from 
others, at both the state and federal levels, has provided 
valued ``lessons learned'' along the way.
    The phases associated with our MMIS Year 2000 project at a 
high level can be categorized as assessment, renovation, 
testing, and implementation, with extensive project management 
activities throughout. (This approach is not unlike the Year 
2000 Conversion Model put forth in the September 1997 GAO 
assessment guide.) The first phase, assessment, was critical to 
the success of subsequent project activities. Solution 
strategies were reviewed and validated, scope of work was 
finalized, tool requirements were determined, and staffing was 
validated. The second phase of code renovation was conducted 
parallel to preparations for the testing phase, which includes 
unit, end to end, and user testing. Implementation follows the 
testing phase and results in a Year 2000 ready MMIS.
                             State Support
    The Connecticut Department of Social Services has not 
pursued this Medicaid Year 2000 initiative in isolation. Our 
Executive Branch, secondary to establishing a centralized Year 
2000 Program Office out of the Department of Information 
Technology, has promulgated a Year 2000 certification process 
and agency project management methodology. In carrying out 
their oversight role, the Y2K Program Office in Connecticut has 
defined a quality assurance process, a set of deliverables, and 
a project management methodology for agency Year 2000 projects. 
The quality assurance process addresses the issue of 
certification, and is designed to be simple and flexible, while 
ensuring that projects critical to the State of Connecticut are 
completed on time. The Y2K Program Office is working with each 
agency to complete the certification process.
    As an additional support to state agencies, the Department 
of Information Technology anticipated the need for independent 
validation and verification monitoring. They pre-qualified 
vendors and established a listing of potential contractors to 
be used by state agencies in procuring quality assurance and 
project management services in the monitoring of Year 2000 
initiatives. Use of that list facilitated our acquisition of a 
Quality Assurance Contract Team, thus enhancing our MMIS Year 
2000 Project management support and providing independent 
monitoring and risk assessment.
                            Federal Support
    States have been moving forward with Year 2000 readiness. 
In recent months there has been heightened external attention 
as to the status of State Medicaid Agencies in responding to 
the Year 2000 challenge.
    This past July, State Medicaid Directors received 
information regarding HCFA's Millennium Compliance Strategy as 
it relates to the MMIS. Details regarding steps to be taken by 
States in certifying to HCFA that the MMIS and mission-critical 
interfaces are Year 2000 compliant were clarified. 
Documentation related to contingency planning, as well as 
monthly Y2K status reporting to HCFA Regional Offices, was 
requested. Additionally, HCFA strongly recommended that states 
contract for Independent Verification and Validation (IV&V) 
services as a means of obtaining an unbiased view of an 
organization's systems to provide yet another level of risk 
mitigation in dealing with Year 2000 issues. HCFA further 
supported this recommendation by offering to provide a 75% 
federal match rate for such services.
    More recently HCFA has acquired the services of their own 
IV&V contractor to collect status information on states and 
their Y2K activities and validate the information that is being 
reported by state Medicaid agencies to the regional offices. 
On-site visits conducted by HCFA's contractor have placed 
additional demands on state resources and we have worked 
together to avoid duplication of effort whenever possible. The 
visits provide yet another risk assessment snapshot, providing 
information for consideration in these final months of Year 
2000 Project activity.
                            Closing Comments
    With hindsight, we might all agree that the best case 
scenario would have been for those early computer programmers 
to have ignored management concerns over data storage costs and 
coded dates using a four-digit year format. That would have 
been the ultimate ``no risk'' Year 2000 solution.
    The end of the twentieth century presents a time of 
challenge for program managers and technology experts alike as 
we prepare for the next millennium. Throughout our daily 
activities, we strive to achieve effective and efficient 
delivery of the highest quality of services to help our 
customers improve the quality of their lives. I can assure you 
that we are committed to fulfilling our administrative 
responsibilities within the context of our agency mission: to 
serve families and individuals who need assistance in 
maintaining or achieving their full potential for self-
direction, self-reliance, and independent living.
    Thank you again for this opportunity to testify on the 
topic of Medicaid Year 2000 Readiness.

                                <F-dash>


    Mr. Crane. Thank you, Ms. Pollard.
    Mr. Willemssen.

   STATEMENT OF JOEL C. WILLEMSSEN, DIRECTOR, CIVIL AGENCIES 
  INFORMATION SYSTEMS, ACCOUNTING AND INFORMATION MANAGEMENT 
            DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Willemssen. Thank you, and thank you for letting us 
testify on this critical issue of State systems supporting 
critical human services programs such as TANF, child support 
enforcement and Medicaid.
    For these and other programs, last year we reported on 
States systems' status. And overall the results were not 
encouraging. We found that States were reporting only about 
one-third of their systems as compliant. The compliance rate 
ranged from about 16 percent for Medicaid to 25 percent for 
TANF, 56 percent for child care.
    We also found disappointing results in the testing area. 
Despite the need for thorough testing, States said that they 
had not developed test plans for about 27 percent of their 
systems.
    In addition to the Year 2000 systems conversions, States 
must continue to perform routine systems development and 
maintenance activities as well as implement other systems 
changes required to support their programs. Eighty percent of 
the States reported to us that these systems activities had 
been delayed because of the Y2K compliance efforts.
    Since our report in November, Federal guidance and 
oversight activities for State systems have increased. For 
example, OMB implemented a requirement that Federal oversight 
agencies include the status of State human services systems in 
quarterly Y2K progress reports. For Medicaid, HCFA's 
administered two State self-reported surveys and conducted 
several onsite visits.
    Unfortunately, overall, State Medicaid system status 
appears to have changed little. For example, HCFA reported in 
November that Medicaid systems had shown some progress in 
renovation, but that the number of States reporting completion 
of this phase had actually decreased compared to the July 
August data that we had reported.
    To obtain more reliable Y2K information, HCFA has hired a 
contractor to conduct independent verification and validation 
of State systems. After conducting another survey, HCFA decided 
to rely on onsite visits to determine States' status. HCFA 
reported in the HHS February quarterly report to OMB that, 
based on seven site visits, some of the dates that States had 
told us in July August had already slipped.
    Next, let me turn to ACF and TANF, child support 
enforcement, childcare and child welfare. ACF could not provide 
us with updated information on all State systems for this 
program since our report. As noted earlier, ACF did send 
letters and surveys to States asking for system status 
information. However, as of February 16, only 27 responses had 
been received. Further, according to HHS, the information 
provided by the States raised more questions than answers.
    ACF is now considering onsite reviews of State systems, and 
it is considering developing a process similar to the one being 
used by HCFA or possibly working with HCFA in gathering 
information.
    Overall, in closing, although some States are reporting 
progress, others are not due to be compliant until later this 
year. For those States and those systems, contingency planning 
will be especially critical.
    That concludes the summary of my statement. I would be 
pleased to address any questions.
    [The prepared statement follows:]

Statement of Joel C. Willemssen, Director, Civil Agencies Information 
Systems, Accounting and Information Management Division, U.S. General 
Accounting Office

    Mr. Chairman and Members of the Committee: Thank you for 
inviting us to participate in today's hearing on the Year 2000 
status of states' automated systems that support federal human 
services programs, such as Medicaid, Temporary Assistance for 
Needy Families, and Food Stamps. The federal government and 
states have a huge vested interest--financial and social--in 
related automated state systems. Many of these systems must 
still be renovated to make the transition to the year 2000.\1\ 
Unless successfully remediated, many systems will mistake data 
referring to Year 2000 as meaning 1900. Such corrupted data can 
seriously hinder an agency's ability to provide essential 
services to the public and ensure adequate accountability over 
program operations.
---------------------------------------------------------------------------
    \1\ The Year 2000 problem is rooted in the way dates are recorded 
and computed in automated information systems. For the past several 
decades, systems have typically used two digits to represent the year, 
such as ``99'' to represent 1998, in order to conserve electronic data 
storage and reduce operating costs. With this two-digit format, 
however, the year 2000 is indistinguishable from 1900 because both are 
represented simply as ``00.'' As a result, if not modified, computer 
systems or applications that use dates or perform date- or time-
sensitive calculations may generate incorrect results beyond 1999.
---------------------------------------------------------------------------
    Given the magnitude and nature of the programs these 
automated systems support, the potential problems of failing to 
complete Year 2000 conversion could be felt by millions of 
needy Americans. While some progress has been achieved, many 
states' systems have been reported to be at risk and not 
scheduled to become compliant until the last half of 1999. 
Further, progress reports to date have been based largely on 
state self-reporting which, upon on-site visits, has 
occasionally been found to be overly optimistic. Given these 
risks, business continuity and contingency planning becomes 
even more important in ensuring continuity of program 
operations and benefits in the event of systems failures.
       Human Services Programs' Essential Services Face Risk of 
                         Year 2000 Disruptions
    Failure to complete Year 2000 conversion activities could 
cause billions of dollars in benefits payments to fail to reach 
our nation's elderly, needy families, and women, infants, and 
children. Those newly approved for benefits could face an 
inability to be automatically added to the recipient file; 
eligibility for new applicants might not be able to be 
determined in a timely fashion; eligible recipients could be 
denied benefits; and payments could be underpaid, overpaid, or 
delayed. Key state-administered programs that could be affected 
include the following:
    <bullet> In fiscal year 1997, Medicaid provided about $160 
billion to millions of recipients. A joint federal-state 
program supported by the Department of Health and Human 
Services' (HHS) Health Care Financing Administration (HCFA) and 
administered by the states, Medicaid provides health coverage 
for 36 million low-income people, including over 17 million 
children. Its beneficiaries also include elderly, blind, and 
disabled individuals.
    <bullet> Temporary Assistance for Needy Families (TANF), 
child support enforcement, child care, and child welfare 
programs are likewise critical to the health and well being of 
needy families. HHS' Administration for Children and Families 
(ACF) oversees these programs that provide benefits to 
economically needy families with children who lack financial 
support from one or both parents because of death, absence, 
incapacity, or unemployment. In fiscal year 1997, federal and 
state agencies spent just under $14 billion on cash and work-
based assistance. Of this total, almost $8 billion was federal 
money, while just over $6 billion was state-funded. This 
program served almost 8 million recipients as of September 
1998.
    <bullet> Food Stamp and the Supplemental Program for Women, 
Infants, and Children (WIC) programs provide food for millions 
of Americans. The U.S. Department of Agriculture's (USDA) Food 
and Nutrition Service (FNS) oversees these programs. In 1998, 
almost 20 million people received food stamp benefits, while an 
average of 7.5 million received monthly WIC benefits.
 Survey of State Readiness to Support Federal Human Services Programs 
                  Raises Concerns and Potential Risks
    Our survey last year of states' Year 2000 status found that 
many systems were at risk and much work remained to ensure 
continued services. Overall, only about one-third of the 
systems supporting the Medicaid, TANF, Food Stamp (FS), WIC, 
Child Support Enforcement (CSE), Child Care (CC), and Child 
Welfare (CW) programs were reported to be compliant.\2\ As 
figure 1 illustrates, the state reported compliance rate ranged 
from a low of about 16 percent (Medicaid systems) to a high of 
56 percent (child care systems).\3\
---------------------------------------------------------------------------
    \2\ Year 2000 Computing Crisis: Readiness of State Automated 
Systems to Support Federal Welfare Programs (GAO/AIMD-99-28, November 
6, 1998). We sent a survey to the 50 states, the District of Columbia, 
and three territories (Guam, Puerto Rico, and the Virgin Islands).
    \3\ The Office and Management and Budget endorsed a five-phase 
approach for conducting Year 2000 work, and established target 
completion dates for each phase. Following awareness, agencies were 
instructed to assess systems (by June 1997), including inventorying, 
analyzing, and prioritizing them. Agencies then had to renovate their 
systems, either by converting or replacing them (by September 1998); 
validate through testing and verification (by January 1999), and then 
implement the converted or replaced systems (by March 1999). These 
phases are detailed in GAO's Year 2000 assessment guidance, Year 2000 
Computing Crisis: An Assessment Guide (GAO/AIMD-10.1.14, September 
1997).
---------------------------------------------------------------------------
    Figure 1: Percentage of Systems Reported Compliant--July/
August 1998.\4\
---------------------------------------------------------------------------
    \4\ The states reported using a total of 421 automated systems to 
manage these programs. (Several states reported using more than one 
system to support a program.)
[GRAPHIC] [TIFF OMITTED] T6850.001

    States reported having completed renovation on only about 
one-third of the systems as of July/August. Of those states 
that had not completed this phase, many systems (25 percent) 
were no more than one-quarter complete. For example, 18 states 
reported that they had completed renovating one quarter or 
fewer of their Medicaid claims processing systems. These 18 
states had Medicaid expenditures of about $40 billion in fiscal 
year 1997--one-quarter of total Medicaid expenditures 
nationwide, covering about 9.5 million recipients.
    Thorough testing is required to ensure that Year 2000 
modifications function as intended and do not introduce new 
problems. Despite this need, states said last summer that they 
had not yet developed test plans for about 27 percent of the 
systems. Further, only about one-quarter of the systems were 
reported at that time as having completed validation and 
implementation.
    In addition to Year 2000 systems conversions, states must 
continue to perform routine systems development and maintenance 
activities, as well as implement other systems changes required 
to support their human services programs. Eighty percent of the 
states noted that these systems activities had been delayed 
because of Year 2000 compliance efforts. Faced with these 
competing priorities, states reported struggling to manage 
their workloads, including important initiatives such as 
tracking and reporting the requirements of federal welfare 
reform, new HCFA programmatic requirements, and new child 
support requirements.
            Updated Results of State Human Services Systems
    Since our report, federal guidance and oversight activities 
for state human services systems have increased; however, 
concerns regarding states' systems status remain. Following our 
report, OMB implemented a requirement that federal oversight 
agencies include the status of state human services systems in 
quarterly Year 2000 progress reports.\5\ Specifically, it 
requested that federal agencies describe actions to help ensure 
that federally supported, state-run programs will be able to 
provide services and benefits. OMB has further asked that 
agencies report the date when each state's systems will be Year 
2000 compliant, and provide information on any significant 
difficulties that states are encountering.
---------------------------------------------------------------------------
    \5\ OMB Memorandum for the Heads of Selected Agencies, Revised 
Reporting Guidance on Year 2000 Efforts, January 26, 1999. The state 
programs included were Food Stamps, Medical Assistance, Unemployment 
Insurance, TANF, Child Support Enforcement, WIC, Low Income Home Energy 
Assistance, Child Nutrition, Child Care, and Child Welfare.

---------------------------------------------------------------------------
Medicaid Systems Remain at Risk

    Since last summer, HCFA has administered two state self-
reported surveys and conducted several on-site visits and found 
that overall state Medicaid systems status has improved little. 
For example, HCFA reported in November 1998 that Medicaid 
systems had shown some progress in renovation, but that the 
number of states reporting completion of this phase had 
actually decreased compared to the July/August 1998 data that 
was reported to us by the states. It found, further, that 11 
states' Medicaid systems were still reported to be 25 percent 
or less renovated, and about half of the states were 50 percent 
or less renovated. Only five states--Arkansas, California, 
Idaho, Illinois, and Iowa--reported their Medicaid systems to 
be 100 percent renovated. Thus, while OMB guidelines target 
completion of systems renovation by September 1998, states' 
self reported data to HCFA showed that about 90 percent of 
states had not completed renovation for the Medicaid programs 
as of November 1998.
    To obtain more reliable Year 2000 state Medicaid status 
information, HCFA hired a contractor to conduct independent 
verification and validation of states' systems. As an initial 
effort, the contractor and HCFA distributed a survey to all 
states to ascertain background and Year 2000 status 
information. However, based on more recent information from on-
site visits, the IV&V project leader said that the survey data 
were not as reliable as HCFA had expected because states tended 
to overstate their progress. As a result, HCFA has instead 
decided to rely on on-site contractor visits to ascertain 
accurate Medicaid systems' status.
    HCFA reported in HHS' February 1999 quarterly report to OMB 
that based on seven site visits, some of the dates' states had 
reported to us in July/August 1998 had already slipped, 
underscoring the need for on-site visits to secure more 
accurate information. For example, according to HCFA, while 
four states appeared to have made some progress in the 6 months 
since our survey, three states' status remained the same. 
Further, HCFA found that one state's Medicaid eligibility 
system was not as far along as the state had reported in our 
survey. As of February 17, 1999, HCFA told us they had visited 
14 states and that half of those states have shown some 
improvements. Thus, HCFA and the IV&V contractor plan to make 
on-site visits to all 50 states and the District of Columbia by 
the end of this April. For states considered at risk, HCFA will 
conduct second site visits between May and September 1999 and, 
if necessary, third visits between October and December 1999. 
The later visits will emphasize contingency planning to help 
the states ensure continuity of program operations in the event 
of systems failures.

Current Status of Systems Supporting ACF Programs is Unknown

    ACF is currently surveying the states to determine the 
status of TANF, child support enforcement, child care, and 
child welfare systems, however, it does not have current 
information on states' systems. In response to OMB's 
requirement to provide updated state systems status in the 
quarterly Y2K progress reports, ACF sent letters and surveys to 
state Chief Information Officers asking for such information 
and asked the states to return the survey by January 31, 1999. 
As of February 16, 1999, ACF had received responses from 27 
states. Further, according to HHS' Year 2000 Program Manager, 
the information provided by the states raised more questions 
than answers--some states did not answer all questions or 
complete the survey for all systems.
    ACF is now proposing on-site reviews of state systems for 
TANF and the child support enforcement, child welfare, and 
child care programs in all 50 states. ACF sees these reviews as 
enhancing the available information concerning states' Year 
2000 readiness and providing a vehicle through which the agency 
can provide states with technical assistance. ACF is 
considering developing a process similar to the one being used 
by HCFA, or possibly working with HCFA in gathering 
information.

USDA Has Been Tracking Systems Status for Food Stamps and WIC

    The Department of Agriculture's Food and Nutrition Service 
(FNS) is tracking and reporting on Year 2000 progress for the 
Food Stamp and WIC programs for all 50 states, the District of 
Columbia, Guam, Puerto Rico, and the Virgin Islands. For both 
programs, USDA initiated a survey in April 1998, asking states 
when their hardware, software, and telecommunications 
supporting automated Food Stamp and WIC systems would be 
compliant.
    FNS updated the survey last December, and noted that 13 of 
the states' software, hardware, and telecommunications systems 
supporting the Food Stamp Program were reported as being Year 
2000 compliant. Another 15 expected to be compliant by March 
31, and another 13 by June 30 of this year. The remaining 13 
states reported that they would not achieve compliance until 
the last 6 months of calendar year 1999--which puts them at 
high risk of failure if any unforeseen problems are encountered 
during testing.
    Regarding WIC, as of last December, FNS reported that 42 
states said their WIC systems were already compliant or would 
be Year 2000 compliant by June 30, 1999. However, 12 states 
reported that they would not be compliant until the last 6 
months of 1999. For states reporting that they will not be 
compliant by March 31, 1999, USDA has requested the state to 
certify in writing that they have a working contingency plan in 
place that will ensure the delivery of benefits to Food Stamp 
Program and WIC recipients.

           *         *         *         *         *

    In closing, although some states are reporting progress in 
achieving Year 2000 compliance, many human services systems may 
not become compliant until later this year. Consequently, these 
systems are at a high risk if any unforeseen problems are 
encountered during testing. Business continuity and contingency 
plans will thus become increasingly critical for these states 
in an effort to ensure continued timely and accurate delivery 
of benefits and services. Federal oversight agencies, through 
their monitoring activities, plan to likewise continue to 
emphasize the need for contingency planning to ensure 
continuity of service.
    Mr. Chairman, this concludes my statement. I would be happy 
to respond to any questions that you or other members of the 
Committee may have at this time.

                                <F-dash>


    Mr. Crane. Thank you, Mr. Willemssen.
    That report that showed the wide disparity between the 
States and among the programs within the States is unnerving, 
and your requirement of another report, a quarterly report, I 
hope that you can get to us as soon as possible. We hope and 
pray that there is significant progress.
    Mr. Coyne.
    Mr. Coyne. Thank you, Mr. Chairman.
    Ms. Pollard, does the NGA have any data that contradicts 
GAO's findings that at least 15 States are less than half way 
through renovating their welfare block-grant computer system? 
Do you have any information to the contrary?
    Ms. Pollard. I am not aware of NGA specifically having 
statistics that would align or rebut those numbers. I am aware, 
from my interactions with my healthcare financing activities 
that many States are much farther along now than they were in 
November 1998, which is the last time, I believe, that a 
snapshot was taken of Medicaid activity.
    Mr. Coyne. Assuming that there are some of those States, 
let's assume 15, do you have any reason--can you give us any 
reasons why you think that they are that far behind?
    Ms. Pollard. Well, I think that there could be, perhaps, 
the point to be made with regard to the definition of 
``behind.'' A State that was timing testing, for example, to be 
in June or July of this year, may not consider themselves 
behind. Perhaps someone else could be viewing that as a 
standard whereby they were saying that testing should be done 
no later than March which would then lead one to say that June 
testing is behind.
    So, I believe that the way in which the project management 
is approached by the different States does lead to some lack of 
clarity as to how those measures are being judged on a national 
survey level.
    Mr. Coyne. What type of contingency plans are the States 
making to ensure timely payment of TANF benefits, recognizing 
that some States may not have fully renovated their computer 
systems by January 1, 2000?
    Ms. Pollard. I can speak to the issues that I am familiar 
with with regard to the Medicaid management system which is the 
technology used to reimburse healthcare services.
    It is interesting that the issue of contingency planning is 
spoken of so strongly with Year 2000 readiness. Contingency 
planning has been a part of system development all along. And 
through the years, different States at times have gone through 
development and implementation activities where they have, 
after a period of time, totally built a new system, turned off 
the old system, turned on the new system. Those moments don't 
always happen seamlessly.
    So, how one continues to conduct business, how one has 
business continuity, even if there is a problem with the 
computer, is part of Medicaid business. For example, interim 
payments, being able to issue checks and payment for services 
outside of that particular computer. Later on, being able to 
reconcile it back in relative to reporting, but being able to 
issue that money in a way that is separate from the traditional 
claims payment system is a tool that all States are very much 
aware of and have used at times when they have done major 
system changes in the past.
    Another example would be when we have a brandnew provider. 
For example, pharmacy services are very technologically 
dependent upon the use of drug use review systems. We recently 
had the experience in Connecticut where a brandnew provider was 
joining us--nothing to do Y2K per se, but the issue of 
technology. They were not able to get their system ready in 
time for when they wanted to start their billing with us. We 
were able to provide them with funds outside of the system so 
that their business could continue while the problems were 
corrected and then we reflected those fund expenditures back 
into the system at a later time.
    So, the issue of business continuity, I think, is well 
known to Medicaid Program administrators. The use of 
technology, when it is there, is certainly to our advantage. 
There are ways to do business without technology.
    Mr. Coyne. Thank you.
    Mr. Crane. Mr. Houghton.
    Mr. Houghton. Thank you, Mr. Chairman.
    Mr. Willemssen, I don't find myself very encouraged by your 
report. What you, in effect, are saying, and I quote, ``many 
human services systems may not become compliant, and therefore, 
they are at high risk. In other words, if they find there are 
glitches, there is not going to be enough time to change and to 
correct those glitches.''
    Is that right?
    Mr. Willemssen. That is correct. That is why it is 
especially important that we continue to raise the level of 
concern for these types of systems similar to the way that that 
kind of concern has been raised historically at Federal 
agencies.
    One point to keep in mind is, if you look at States, you 
see an incredible amount of variance between States and even 
within States between programs, and so, it is hard to say that 
all States are in this category or in that category. But there 
are pockets of States and programs that are way ahead and 
others that are way behind. And to the extent that we can 
continue to surface the issues and make sure that everyone is 
on board within the limited time remaining, I think that we can 
reduce that risk.
    Mr. Houghton. Well, that is a good goal, but you know you 
have 50 States and they are all individual little fiefdoms 
under themselves. You say that we must raise the concern, who 
is ``we''? It is not us. It is the States themselves. And the 
question is, how does this interact?
    Mr. Willemssen. We, in terms of the report that we issued, 
I think that we assisted in raising the concern level. So, I 
use it in that vein.
    I think that the approach, for example, that HCFA is using 
in conducting onsite visits through its independent 
verification and validation contractor is a good model that 
other organizations such as ACF may want to emulate to get 
better ground data on exactly where that State and that program 
is at.
    Mr. Houghton. OK, well, these agencies in the States they 
are going to be ready or they are not. So, if they are not, 
then what happens? Is there something that the Federal 
Government has to do? Or what about the funding of----
    Mr. Willemssen. That is, again, why we would--as mentioned 
here, we continue to emphasize the need for contingency 
planning. There has to be some backup mode.
    Mr. Houghton. If there is high risk and some of these human 
services systems may not meet the test, do you find that in the 
cases where you are most worried that there is contingency 
planning?
    Mr. Willemssen. I find that generally speaking they are 
under development. As was mentioned, contingency plans and 
disaster recovery plans often exist for general computer 
systems environments. Do those plans exist for the most part 
from a Year 2000-induced failure scenario? No. Not at this 
point. Not based on the work that we have done.
    Are they under development? Yes, generally. But there is 
little time left, and that is why we have to continue to rachet 
up the attention. The words that were spoken earlier by Ms. 
Golden, that has to continue to be the focus.
    Mr. Houghton. So, one State, in terms of some human service 
area, falls by the wayside; they don't do it. It is January 20, 
and we are all in trouble. How does that effect the recipients 
of Federal funds?
    Mr. Willemssen. It could affect it. If nothing is done and 
the backup is not in place, the recipient may get an inaccurate 
accounting of what is owed them, or may not get the payment on 
time.
    If I may give you an example. State unemployment insurance 
systems have already gone through a failure scenario. State 
unemployment insurance systems had a failure date in early 
January 1999, and, in fact, there were four whose systems 
failed and had to have a contingency plan. That contingency 
plan was putting in a, so-to-speak, make-believe date in order 
that checks could be processed.
    So, there is already some experience in this. The 
Department of Labor took a very proactive stance, as well as 
Mr. Koskinen, in making sure that those failures were 
minimized. I would theorize that you will probably see similar 
things going on later in 1999 in this human services arena.
    Mr. Houghton. Mr. Chairman, I don't know what we do to 
follow up on this session. Obviously we are all very concerned. 
But, if Mr. Willemssen says that there are States that are at 
risk, and further more, they don't have a contingency plan, we 
ought to know about this.
    Mr. Crane. I couldn't agree more. You can provide that to 
us, right?
    Mr. Willemssen. Yes, sir, we can provide that information.
    Mr. Houghton. Thank you very much.
    Mr. Crane. Well, I thank you, and I thank Ms. Pollard, and 
I thank you, Mr. Willemssen.
    And, with that, the Committee will stand in recess until 
one.
    [Whereupon, at 12:13 p.m., the Committee recessed, to 
reconvene at 1 p.m., the same day.]
    Mr. Collins [presiding]. OK, we will get under way here.
    The next panel consists of Hon. Charles O. Rossotti, 
Commissioner, Internal Revenue Service; Mr. Paul Cosgrave, 
Chief Information Officer with Internal RevenueService.
    Gentlemen, we appreciate you all serving on the panel with 
some private-sector people. Thank you very much.
    Mark A. Ernst, executive vice president and chief operating 
officer of H&R Block; William J. Dennis, Jr., senior research 
fellow, National Federation of Independent Businesses; Mr. 
James R. White, Director of Tax Policy and Administration 
Issues, General government Division, U.S. General Accounting 
Office.
    We thank you, gentlemen, for being here with us today, and 
Mr. Rossotti, we will begin with you. And each of your 
statements, full statements, will be entered into the record.

 STATEMENT OF HON. CHARLES O. ROSSOTTI, COMMISSIONER, INTERNAL 
                        REVENUE SERVICE

    Mr. Rossotti. Thank you very much, Mr. Collins. I'd just 
like to briefly summarize my written statement and then turn it 
over to Mr. Cosgrave.
    As of last month, nearly all of the IRS' mission-critical 
applications systems were Y2K compliant, and were placed back 
into production for the 1999 tax filing season. About half of 
these systems have been successfully tested from end to end, 
from beginning to end, with the clock rolled forward with the 
new century date. So we will continue focusing our efforts on 
these mission-critical applications systems from now until 
about the end of March. And then from April through the end of 
1999, most of our effort will be on completing the integration 
of these application systems with commercial software products, 
wrapping up some smaller systems, and, most importantly, 
completing this really large-scale end-to-end test.
    So while this is generally a positive picture, we do want 
to stress that there is still a great deal of risk and we do 
have some trouble spots. We believe the next 60 days represent 
the riskiest period. And that's just because of the massive 
amount of changes that have been made to our systems in the 
last year, coupled with the heavy volume of processing that 
occurs during the peak of the filing season. It may cause some 
localized problems.
    We have organized an internal process to identify and 
respond to these problems immediately, especially so we can 
mitigate any possible impact on taxpayers.
    We are continuing to allocate major amounts of management 
time to the Y2K program. We have, of course, a century date 
change program office, made up of a senior executive director, 
53 full-time staffers, and about 1,000 other IRS employees and 
contractors. This program office conducts weekly status 
meetings, during which they review every aspect of the Y2K 
repair activities.
    I also want to stress that Y2K is my own personal top 
priority. I chair a monthly executive steering Committee with 
representatives of all the key people involved in the program. 
And we, of course regularly meet with Mr. Cosgrave here and 
other key executives, to go over particular projects and 
particular risks.
    We also meet periodically with our major partners in the 
contracting firms that are assisting us to talk about specific 
issues and stress the importance of it.
    I do want to mention that in addition to our internal 
technical challenges at the IRS, we need to address the 
question of potential impact on taxpayers of potential Y2K 
problems that might occur next year after the change of the 
century. And I think the main point here is that we want to 
make sure that we at the IRS are in a position so that 
taxpayers who are attempting to file in good faith and pay on a 
timely basis are not harmed because of a Y2K computer problem 
that might be beyond their control.
    So, at the present time, of course, the IRS has discretion 
to abate penalties for reasonable cause, but only limited 
discretion to abate interest. We are currently working with the 
Treasury Department to develop abatement policies and 
recommendations to be prepared to address this issue. And we 
will certainly keep the Committee aware of our progress and 
advise of any legislative changes that we think might be needed 
in this area.
    So in conclusion, although significant risks remain, we are 
confident the IRS will be capable of fulfilling its mission in 
the year 2000 and beyond. We will keep the Committee informed, 
of course, of any errors or problems that we experience, and 
any impact on taxpayers and our actions to alleviate any added 
burden.
    Thank you for this time, and I'd now like to introduce Mr. 
Cosgrave, our Chief Information Officer, to briefly summarize 
the status of our Y2K effort and each project.
    [The prepared statement follows:]

Statement of Hon. Charles O. Rossotti, Commissioner, 
Internal Revenue Service

    Mr. Chairman and Distinguished Members of the Committee: 
Thank you for the opportunity to discuss the status of the 
Internal Revenue Service's (IRS') Century Date Change 
Conversion program and our progress towards meeting the 
challenge of the Year 2000.
    The IRS has made significant progress in preparing for the 
Year 2000. As of last month, nearly all of our mission critical 
systems were made Y2K compliant and were placed back into 
production for the 1999 Filing Season. Approximately half of 
these systems have been successfully tested ``end-to-end'' with 
the clocks rolled forward. We will continue focusing our repair 
efforts on mission critical systems from now until the end of 
March. From April through the end of 1999, most of the effort 
will be applied to wrapping up some smaller systems and, most 
importantly, completing the full-scale End-to-End Testing.
    While this picture is generally positive, there is still a 
great deal of risk and some trouble spots. In fact, we believe 
that the next 90 days represent the riskiest period. The 
massive amount of changes made to our systems in the last year, 
coupled with the extremely heavy volumes of processing that 
occur during the filing season, may cause localized problems. 
We have organized an internal process to identify and respond 
to such problems immediately and to eliminate or mitigate any 
possible impact on taxpayers.
    I would like to take the next few minutes to discuss the 
scope of the Year 2000 conversion at the IRS and address the 
leadership structure we have in place to manage our progress 
toward Year 2000 compliance. Then, I would like my Chief 
Information Officer, Paul Cosgrave, to present some of the more 
detailed facts about the IRS' Y2K efforts.
                             Program Scope
    The IRS is a vast and complex organization, employing more 
than 100,000 individuals in service centers, regional offices, 
district offices, and posts of duty across the United States 
and around the world. Each year the IRS collects over $1.7 
trillion in tax revenue to support the operations of the 
Federal Government. In order to fulfill its mission of service 
to taxpayers, the IRS depends on its automated systems to 
process tax returns, issue refunds, deposit payments, and 
provide taxpayers basic answers to their more than 170 million 
inquiries a year which we must respond to 24 hours a day, 7 
days a week.
    Most of these systems date back to the 1960s and 1970s when 
programmers were required to use two-digit date fields to 
represent the year because of space limitations. This is, of 
course, what causes the Year 2000 problem as we know it. The 
Year 2000 problem is undoubtedly a top priority at the IRS this 
year. If we don't fix our programs, our systems could generate 
millions of erroneous tax notices, refunds, bills, and any 
number of other financial reporting errors.
    Making the IRS' Y2K problem even more challenging is the 
sheer number of affected information technology systems. The 
IRS currently houses over 80 mainframe computers, 1,400 
minicomputers, over 100,000 personal computers and a massive 
telecommunications network comprised of more than 100,000 
components. There are over 40 million lines of code in 79,000 
software programs that support IRS operations. We must also 
address non-information technology (non-IT) items, such as 
security systems, heat and air conditioning, and office 
equipment in over 850 IRS locations.
    I will now address our management commitment, and then Paul 
Cosgrave will address the progress of our work and the current 
priorities of our Year 2000 project.
                         Management Commitment
    Almost 28 months ago, the Century Date Change (CDC) Program 
Office was created to manage and execute the IRS' Year 2000 
repair activities. The CDC Program Office is comprised of a 
Senior Executive Program Director and 53 full-time IRS staffers 
who are supported by over 1,000 IRS employees and contractors. 
The CDC Program Office conducts weekly status meetings during 
which the Director reviews the progress of every aspect of IRS 
Y2K repair activities. The Program Office then uses this 
information to create a Y2K ``dashboard''--a widely used 
project management tool--which is a concentrated and high-level 
look at the overall status and progress of all IRS Y2K efforts. 
Please refer to the attachment, Year 2000 Dashboard Report, for 
the most recent Y2K ``dashboard.''
    Allow me to assure you that Y2K is an IRS top priority, as 
well as my own this year. In support of our Y2K repair project, 
I chair a monthly Executive Steering Committee with 
representatives from Treasury, the IRS, the General Accounting 
Office, and the National Treasury Employees Union. In addition, 
I meet regularly with the IRS' Chief Information Officer and 
other key executives to obtain individual project status 
updates, monitor key risks, and to ensure that all necessary 
actions are being taken. I also meet periodically with key 
executives from the major contracting firms that support IRS 
tax administration systems to emphasize the importance of 
meeting our Y2K objectives and time lines and to obtain their 
personal commitment to our needs.
    Finally, in order to validate that we are doing everything 
we can to ensure that the IRS is Year 2000 compliant, we have 
commissioned independent assessments by organizations such as 
Booz-Allen & Hamilton, Inc. and Northrup Grumman, Inc. Booz-
Allen & Hamilton, Inc. is performing risk identification and 
assessment on all CDC Program activities, while Grumman is 
performing a 100% review of our code renovation. They have 
reviewed 67.5% of our code and have found only one in every 
20,000 lines of code that requires reprogramming.
    An independent review of our Commercial Off-the-Shelf 
(COTS) products has also been scheduled. The review of the COTS 
products is scheduled to begin in March. In addition, we 
continue to rely on feedback from the Treasury Inspector 
General for Tax Administration (TIGTA) and GAO assessments on 
our Year 2000 program.
                       Significant Progress Made
Business Systems Conversion

    The IRS conducts its operations using custom-developed 
applications. The total number of ``mission critical'' 
information technology systems is made up of 126 application 
systems and 7 telecommunication systems, of which two of the 
application systems will be retired. We are focusing our 
conversion activities on the application systems to ensure 
their continued and uninterrupted operation. Overall, 
approximately 40 million lines of code must be made compliant 
within these mission critical application systems. As of 
January 31, 1999, the IRS completed 92% of its code compliance 
work. More specifically, 114 of the 124 mission critical 
application systems have been made compliant.

Infrastructure

    Mainframes (Tier I)--Most of the IRS' mainframe 
infrastructure was scheduled to be Y2K compliant by January 31, 
1999. Some COTS products associated with mainframes are still 
being evaluated. Y2K compliant versions of these products will 
be fully implemented before the start of our final, integrated 
test.
    Minicomputers (Tier II)--Approximately 1,400 minicomputers 
and their associated systems software (operating systems, 
databases, etc.) must be replaced or upgraded to be Y2K 
compliant. As of January 31, 1999, the infrastructure 
supporting 14 of the 27 Tier II mission critical systems is Y2K 
compliant. The balance of Tier II infrastructure conversion is 
scheduled for completion by July 1999 with the exception of 4 
mission critical systems, whose infrastructure will be 
compliant by September 30, 1999. While any delay in 
implementation is of concern, the affected systems have been 
identified as having minimal or no impact on filing season 
activities. We are confident that these systems will be ready 
for the final, integrated test.
    Personal Computers (Tier III)--We are currently upgrading 
our inventory of personal computers and laptops. Our goal is to 
achieve Y2K compliance by July 31, 1999 by retiring our 
obsolete PCs, moving to modern, Pentium-class platforms 
throughout the agency, and implementing a Y2K compliant 
standard suite of software. This effort will not only make us 
Y2K compliant, but will also eliminate the vast numbers of old, 
incompatible software products in existence at IRS.

Telecommunications

    The IRS' telecommunications network, critical to 
operations, is supported through the Treasury Communications 
System (TCS) contract. The network conversion is a significant 
challenge given the need to upgrade or replace thousands of 
components within the TCS network, as well as additional custom 
IRS networks that include another 30,000 components. Our 
telecommunication equipment was made compliant in January with 
a few exceptions. Some telecom support equipment for collection 
has been deferred until after the peak of the filing season. 
The completion of our Voice Messaging System upgrade will 
continue into March.

External Trading Partners (ETPs)

    The IRS, like other organizations, relies on its ability to 
exchange information with other organizations, or trading 
partners. For example, the IRS must be able to receive 
electronic tax returns that are prepared by various tax 
practitioners or exchange data with organizations like the 
Financial Management Service who prepares refund checks. The 
IRS is working closely with its trading partners and requiring 
them to certify that their interfacing systems will comply with 
the IRS' expanded date format. Over 70% of the 406 files 
exchanged externally that needed to be compliant have been 
converted. The balance is scheduled for completion by July. We 
are also conducting assessments of our critical trading 
partners' systems to ensure that they are Y2K compliant. 
Meanwhile, information exchanges are being tested throughout 
the conversion process and will be included in the final 
integrated test.
    Our work on the Electronic Federal Tax Payment System 
(EFTPS) is an example of our success in this area. EFTPS is one 
of the major systems used by business taxpayers and receives 
over $400 billion a year in federal tax payments. The system 
was successfully made compliant and implemented last year.

Non-IT

    All areas unrelated to computer systems or software are 
either Telecommunications or Non-IT systems. Non-IT systems are 
real or personal property that contain a computer chip used to 
record or regulate functions. Examples of real property include 
security systems, alarm systems, heat and air conditioning 
systems, and utility systems. Examples of personal property 
include reproduction and other office equipment, vehicles, 
laboratory equipment, and special production equipment such as 
the Composite Mail Processing Systems (COMPS) used to process 
mail at IRS service centers.
    The IRS has completed an assessment of its personal 
property. With the exception of the COMPS equipment that will 
be replaced with Y2K compliant equipment by November 1999, all 
of the 5700+ IRS personal property products that could have an 
impact on IRS operations have been made Y2K compliant.
    For real property, the IRS occupies 756 buildings of which 
96 have been identified as mission critical. Renovation of 54% 
of the 96 mission critical buildings is complete. The remaining 
mission critical buildings are scheduled for completion by July 
1999. Contingency Plans for all mission critical buildings will 
be developed by July 1999.
    Of the remaining 660 IRS occupied buildings, which are 
owned/operated by The General Services Administration (GSA), 
41% are Y2K ready. The IRS is working closely with GSA to 
ensure that the remaining buildings are Y2K compliant on a 
timely basis.

Budget

    For the last two fiscal years, IRS expenditures for the 
Year 2000 Conversion effort have totaled over $620 million. 
Expenditures for Fiscal Year 1999 are projected to be $378.5 
million. All told, the project life cycle costs of the Year 
2000 conversion effort will be approximately $1.3 billion.
    IRS' Year 2000 effort also involves replacement of our 
major tax return processing system and payment processing 
system. These replacements include our Mainframe Consolidation 
project and our Integrated Submission and Remittance Processing 
System.

Mainframe Consolidation

    The IRS proposed and received Congressional approval for a 
program to consolidate its mainframe computers while making 
them compliant for the Year 2000. This is a major program that 
involves eliminating 67 mainframe computers in 12 sites and 
replacing them with 12 new, Y2K compliant mainframes in two 
computing centers. This program is an important step in moving 
the IRS to a modern, standardized method of managing its 
computing resources and is consistent with the Office of 
Management and Budget (OMB) directives requiring consolidation 
of mainframe computing. Our current projections indicate that 
this program will also reduce operating costs by $79 million 
per year when fully implemented.
    This large program consists of 5 projects and each is being 
carefully managed to ensure our ability to support the filing 
season, to achieve Year 2000 compliance, and to achieve the 
objectives of improved management and reduced long-term costs.
    As of January, we replaced the non-compliant Communications 
Replacement System (CRS) and moved the workload from all 10 
service centers to the two computing centers. Conversion of CRS 
was extremely difficult, especially in light of the fact that 
there is not an effective back-up plan for this system. The new 
Y2K compliant tax processing mainframes were installed in the 
two computing centers and workload from three of the 10 service 
centers was moved. The IRS identified the need for additional 
emphasis in the areas of standardization, automated tools, and 
staffing prior to the remaining migrations. In order to 
complete this work and minimize risk to the filing season, we 
held the remaining migrations until after the 1999 Filing 
Season. Upgrades were made, however, to vendor-supplied 
software to make the existing, older mainframe computers Y2K 
compliant. We also replaced over 15,000 obsolete computer 
terminals as part of the program.

Integrated Submission and Remittance Processing System (ISRP)

    The Integrated Submission and Remittance Processing System 
(ISRP) replaces two legacy systems which could not be made Year 
2000 compliant. The Distributed Input System (DIS) and 
Remittance Processing System (RPS) originally formed the core 
input system which processes more than 200 million tax returns 
and accounts for tax revenues of over $1.7 trillion. The new 
Y2K compliant system is operational for data entry in all 10 of 
the IRS' service centers. However, we experienced some problems 
in implementing the Remittance Processing System (RPS) which 
precipitated our decision to defer the roll out of RPS to four 
service centers until August 1999. Presently, six service 
centers have implemented RPS and will perform filing season 
activities.
    Recent events during the week of February 8 helped to 
lessen the level of concern with ISRP RPS considerably. Major 
software upgrades were successfully installed in two of the six 
ISRP RPS centers that alleviate many of the problems and risks 
associated with the new remittance processing system. Plans are 
in place to implement these upgrades to the remaining four ISRP 
RPS centers during the next three weeks. Detailed contingency 
plans have been prepared by all centers to use the legacy RPS 
equipment as a backup if the new system has problems during the 
April peak processing period. All centers will test their plans 
and equipment by ``falling back'' to the legacy RPS equipment 
for several days between now and March 8.
    As you can see, the IRS has made significant progress in 
its Y2K repair efforts over the past several months. This can 
be attributed to a strong team of IRS employees and contractors 
and the effective leadership of the CDC Program Office. 
However, as much as we have accomplished to date, the Year 2000 
remains a challenge for the IRS. It is a challenge that forces 
us to continually adjust our schedule, and to maneuver people 
and resources to attack the most critical Y2K problems. Failure 
to manage risks and schedules in this flexible way enormously 
increases the likelihood of failures and frequently ends up 
delaying, rather than accelerating, actual progress. We have 
worked hard to establish a realistic repair schedule that works 
for the IRS and the specific challenges we face. It is a 
schedule that gets the job done right the first time, because 
everyone knows there won't be any second chances. Our teams are 
at work everyday to meet these deadlines, as well as 
maintaining our focus on the government-wide deadlines 
established by OMB. We have come a long way, and we fully 
acknowledge that there is a great deal of work left to be 
accomplished this year.
    As I discussed, our original schedule was altered on 
several of our systems due to infrastructure issues. We 
prioritized our schedule so that systems involved in the filing 
season are converted and tested first. The remaining systems 
that are not critical to the filing season will be converted 
and tested at a later date. I might also add that we are 
currently using the converted systems to process tax returns. 
Any problems that we encountered have not impacted taxpayers 
and were generally fixed within 24 hours of being identified.
    I'd now like to explain our most pressing Year 2000 
priorities for this year, beginning with filing season 
activities which are now taking place.
                           Current Priorities
1999 Filing Season

    While the Year 2000 problem is a top priority, providing 
high-quality service to taxpayers and efficiently collecting 
tax revenue remains our primary mission. The impact of our Y2K 
repairs remains a major concern for this filing season and 
Filing Season 2000, but we are encouraged by the results of the 
1999 Filing Season to date. Reports show that as of February 5, 
1999 we have processed over 10 million of the 13 million 
returns received. This is four percent more than last year.
    This year, we are proactively reporting errors, Y2K related 
or not, through a new web page on our Internet site. This page 
will report errors that impact taxpayers, such as erroneous 
notices sent due a systems error. It will also include other 
non-Y2K errors such as incorrect information in printed forms 
or instructions.

End-to-End Testing

    End-to-End Testing will be performed on IRS mission 
critical systems to ensure that they function together through 
a series of increasingly complex tests that simulate tax 
processing activities in a Year 2000 environment. While many 
tests focus solely on the individual system, End-to-End Testing 
will test the entire process that takes a tax return from its 
receipt to issuance of a notice or refund.
    Testing activities are being performed in an isolated test 
environment so that the IRS can continue its core business 
activities--processing tax returns. Currently, the second of 
three major End-to-End Tests is in progress and, to date, 
testing has been successful. The final End-to-End Test is 
scheduled to begin in October 1999. However, the fact that we 
will need to compress our schedule for making changes to filing 
season software programs makes End-to-End Testing very 
challenging. All Filing Season 2000 changes need to be made to 
the software before they can be included in the final End-to-
End Test.

Maintaining Focus

    Although we have concentrated on converting the systems 
that have the most direct impact on taxpayers, we have not lost 
sight of the work that still needs to be done to convert and 
test some of our smaller systems and complete critical 
information technology projects.
    As prevously mentioned, from April through the end of 1999 
most of our efforts will be applied to wrapping up these 
smaller systems and completing the full-scale End-to-End 
Testing activities. Simultaneously, we will be completing the 
roll-out of our Integrated Submissions and Remittance 
Processing System (ISRP), which will be fully operational by 
August 1999. Mainframe consolidation efforts will also be 
taking place as we finish Y2K compliance activities.

Small Business/Practitioner Outreach

    In addition to communicating with taxpayers about errors, 
we are also working with the Small Business Administration 
(SBA) to inform the small business community about the 
importance of Year 2000 compliance. We have held a joint press 
conference and produced a special Y2K article for the SSA/IRS 
Reporter, which is mailed to 6.5 million businesses throughout 
the country. In addition, the IRS homepage was updated to 
encourage small businesses to determine if they are ``Y2K OK,'' 
and includes a link to the SBA's Y2K homepage which provides a 
wealth of useful information about the Year 2000. Our efforts 
will help ensure that small businesses have every opportunity 
to prepare for the Year 2000.
    We also hold regular liaison meetings with practitioner 
organizations, such as H&R Block, Jackson-Hewitt, and the 
National Association of Tax Practitioners, which provide a 
forum in which to discuss the Y2K project. Specifically, the 
Information Reporting Program Advisory Committee (IRPAC) has 
addressed the Y2K problem in their semi-annual meetings. IRPAC 
was established in 1991 as a way to advise the IRS on 
information reporting issues of concern to the private sector 
and the Federal Government.
    Practitioners are aware that the IRS is operating Year 2000 
compliant systems this filing season and they have been asked 
to help out by identifying problems as they surface. Their 
efforts will benefit not only the IRS, but also their own 
organizations since early detection will allow a faster 
turnaround if corrections or repairs are necessary.

Contingency Planning

    The IRS is developing contingency plans that outline the 
necessary procedures to follow in the event that a Year 2000 
problem affects any of the IRS' mission critical tax processing 
systems. These plans concentrate on those areas that have the 
greatest impact on tax processing activities in addition to the 
areas we know to be particularly affected by the Y2K problem. 
This will allow us to work on aspects that have the greatest 
risk, while continuing to leverage the majority of our limited 
resources on Year 2000 conversion activities and testing.

Taxpayer Impact

    Mr. Chairman, in addition to our internal technical 
challenges, there is a question about the impact on taxpayers. 
We want to be sure that taxpayers who attempt to file in good 
faith or pay on a timely basis are not harmed because of a Y2K 
computer problem beyond their control. At the present time, the 
IRS has discretion to abate penalties for reasonable cause, but 
has only limited discretion to abate interest. We are currently 
working with the Treasury Department to develop abatement 
policies and recommendations to address this issue. We will 
certainly keep the Committee aware of our progress and advise 
you of any legislative changes that may be needed.
                           Long-Term Benefits
    While our primary goal is Year 2000 compliance, the Y2K 
problem has forced the IRS to address some shortcomings in its 
current practices. As a result of measures implemented to 
address the Y2K problem, the IRS will reap several long-term 
benefits. While I will not take the time to address all of 
these benefits, I would like to discuss the two which I feel 
are most important:

Use of Consistent Standards

    The Year 2000 problem will allow us to continue to develop 
and employ consistent standards across the agency. For example, 
our Y2K work involved extensive testing of Y2K repaired 
systems, including a series of integrated End-to-End tests. 
Many of these testing activities will become standard practice 
at the IRS long after the Year 2000. In addition, as a result 
of Y2K work, we developed standards for desktop software 
applications, such as e-mail and word processing programs.

Improved Project Management Practices

    The Year 2000 problem is perhaps the greatest project 
management challenge facing organizations today. Y2K has given 
the IRS the opportunity to hone its project management skills 
in preparation for similar large-scale projects, such as 
modernizing the agency.
                               Conclusion
    We are personally monitoring the status of IRS' Year 2000 
activities, and are confident that the IRS will be capable of 
fulfilling its mission in the Year 2000 and beyond. While we 
recognize that significant risks still exist, we have every 
confidence that our CDC Program leadership is taking the steps 
necessary to address them. As we continue to develop our 
contingency plans and closely monitor our schedule and 
progress, we will keep the Committee apprised of any Year 2000-
related errors we experience, their impact on taxpayers, and 
our actions to alleviate any added taxpayer burden. We thank 
you again for the opportunity to discuss the IRS' Y2K efforts 
and appreciate the continued support of the Committee.
    I will be happy to entertain questions.

                       Year 2000--DASHBOARD REPORT
------------------------------------------------------------------------
          Project Area            Overall Assessment       Comments
------------------------------------------------------------------------
Business Systems Applications...  Yellow............  <bullet> 92% of
                                                       Mission Critical
                                                       application
                                                       systems are Y2K
                                                       compliant. The
                                                       remaining systems
                                                       will be compliant
                                                       by July 31, 1999.
                                                      <bullet> 75% of
                                                       Non-Mission
                                                       Critical
                                                       application
                                                       systems are Y2K
                                                       compliant. The
                                                       remaining systems
                                                       will be compliant
                                                       by July 31, 1999.
                                                      <bullet> A 100%
                                                       code review is
                                                       underway and on
                                                       schedule. 27
                                                       million lines of
                                                       code (LOC)
                                                       reviewed to date.
                                                       Error rate--
                                                       .005%.
Integrated Submission and         Yellow............  <bullet> Return
 Remittance Processing System...                       processing
                                                       segment
                                                       operational in
                                                       all 10 service
                                                       centers.
                                                      <bullet> Remittanc
                                                       e processing
                                                       segment
                                                       operational in 6
                                                       to 10 service
                                                       centers.
                                                      <bullet> Contingen
                                                       cy plans inplace
                                                       at all sites to
                                                       mitigate risks.
Infrastructure..................  Yellow............  <bullet> Infrastru
                                                       cture supporting
                                                       14 of 27 key Tier
                                                       2 systems was
                                                       completed on
                                                       schedule by  1/31/
                                                       1999; the
                                                       remaining systems
                                                       are scheduled for
                                                       completion by
                                                       July 1999 except
                                                       for 4 systems
                                                       approved for
                                                       completion later
                                                       in 1999.
                                                      <bullet> Contract
                                                       for an
                                                       independent
                                                       review of all
                                                       COTS product
                                                       across all tiers
                                                       has been awarded.
                                                       Work will begin
                                                       March 1999 and
                                                       will be completed
                                                       September 1999.
                                                      <bullet> All
                                                       personal
                                                       computers and
                                                       laptops to be Y2K
                                                       compliant by July
                                                       1999.
Service Center Mainframe          Green.............  <bullet> All
 Consolidation..................                       segments with Y2K
                                                       compliance
                                                       issues, which
                                                       include security
                                                       systems and
                                                       terminal
                                                       replacements,
                                                       complete.
                                                      <bullet> Schedule
                                                       for consolidating
                                                       remaining
                                                       segments adjusted
                                                       to minimize
                                                       unnecessary
                                                       change prior to
                                                       the millenium.
Telecommunications..............  Green.............  <bullet> Y2K
                                                       compliant rate
                                                       for the entire
                                                       Telecommunication
                                                       s inventory is
                                                       99%.
                                                      <bullet> Remaining
                                                       products/systems
                                                       are scheduled to
                                                       be compliant
                                                       after the filing
                                                       season.
External Partners...............  Yellow............  <bullet> 291
                                                       externally
                                                       exchanged
                                                       datafiles must be
                                                       made Y2K
                                                       compliant. Over
                                                       70% of these are
                                                       currently Y2K
                                                       compliant.
                                                      <bullet> The
                                                       balance of the
                                                       remaining files
                                                       will be compliant
                                                       by July 1999.
                                                      <bullet> Additiona
                                                       l FMS testing is
                                                       currently being
                                                       carried out--
                                                       scheduled
                                                       completion date 4/
                                                       1/1999.
Non-IT..........................  Green.............  <bullet> Of the 67
                                                       IRS-controlled
                                                       mission-critical
                                                       buildings, 35 are
                                                       complete, 19 are
                                                       green (on
                                                       schedule), and 13
                                                       are yellow (5%
                                                       and 15% behind
                                                       schedule).
                                                      <bullet> All 5700+
                                                       personal property
                                                       products have
                                                       been made Y2K
                                                       compliant with
                                                       the exception of
                                                       the Composite
                                                       Mail Processing
                                                       System (COMPS).
                                                      <bullet> The IRS
                                                       is working with
                                                       GSA to develop
                                                       reporting of the
                                                       29 mission-
                                                       critical
                                                       buildings under
                                                       GSA control.
Budget--FY 1999.................  Yellow............  <bullet> Identifyi
                                                       ng area of
                                                       potential savings
                                                       and quantify new
                                                       costs.
End-to-End Testing..............  Green.............  <bullet> Testing
                                                       is on schedule.
                                                      <bullet> Tracking
                                                       mechanism is in
                                                       place.
Contingency Management Plant      Green.............  <bullet> CMP
 (CMP)..........................                       developed.
                                                      <bullet> Matrix of
                                                       IS systems to
                                                       business
                                                       processes
                                                       delivered.
                                                      <bullet> All plans
                                                       comprising the
                                                       CMP on schedule
                                                       and due by 5/31/
                                                       1999.
Location Specific Deployment      Green.............  <bullet> Process
 Plan...........................                       in place.
                                                      <bullet> Data is
                                                       available to all
                                                       IRS personnel on
                                                       the Y2K web site.
End Game Planning...............  Green.............  <bullet> Process
                                                       underway to
                                                       coordinate all
                                                        January 1, 2000
                                                       planned
                                                       activities.
------------------------------------------------------------------------


                                <F-dash>


    Mr. Collins. Thank you, Mr. Commissioner.
    Mr. Cosgrave, we will be pleased to receive your testimony.

STATEMENT OF PAUL COSGRAVE, CHIEF INFORMATION OFFICER, INTERNAL 
                        REVENUE SERVICE

    Mr. Cosgrave. Thank you, Mr. Chairman. Commissioner 
Rossotti gave you an overview of both the scope and management 
of IRS' Y2K program. I will go into a little more depth about 
the status of our Y2K efforts.
    Specifically, I'm going to talk about our software 
applications and technology infrastructure; our external 
partners, with whom we exchange information; major systems 
replacement projects; and finally our end-to-end testing, 
contingency planning, and additional support planning for 
January 2000.
    First, Commissioner Rossotti discussed the scope of the Y2K 
effort at the IRS. We have 800,000 individual components that 
we are converting, testing, and implementing to ensure that 
they will operate smoothly at the turn of the century. This 
work is like taking an 800,000-piece jigsaw puzzle apart, 
looking at each piece individually, doing something, and then 
putting them back so it all works together. You have to take 
apart the puzzle and get it all working again.
    And I'm pleased to report, all but a handful of those 
800,000 pieces will be back together by July of this year. The 
remaining pieces will be done by September, and they will all 
be included in our final integration test, which is scheduled 
for the remainder of this year.
    In terms of our applications, at this time 92 percent of 
IRS' mission-critical applications are Y2K compliant, and 75 
percent of our non-mission-critical applications are compliant, 
with the remainder to be completed by July 1999. Most all of 
our local-area networks are now Y2K compliant, and all of our 
PC's and laptops will be Y2K compliant by July 1999.
    The entire technology infrastructure that supports these 
applications is today approximately 56 percent compliant, with 
the rest to be completed later in 1999. The principal reason 
for trailing in the infrastructure area is that several vendors 
of our off-the-shelf business applications did not declare 
themselves Y2K compliant until late in 1998. So I didn't try to 
rush implementation and testing of those products. Rather, I 
decided to wait until after filing season to implement the new 
programs and validate Y2K compliance of these infrastructure 
systems.
    All the infrastructure and applications with completion 
dates later in this year will still be part of our final 
integration tests. We are also conducting an independent review 
of 100 percent of all of our computer programming code that's 
over 40 million lines of code. To date, we've reviewed 27 
million lines, and that revealed an error rate of only .005 
percent. I'll just comment that our error rate approaches a 
number known as six sigma, which is a standard of quality used 
by some of the best private-sector companies.
    With respect to our external partners, I'd like to give you 
some sense of our progress. Our external partners include the 
Social Security Administration, Financial Management Service, a 
number of banks--NationsBank, BancOne--service providers such 
as H&R Block, and over 50 and State and local entities, and 
many others.
    IRS is working very closely with our external partners 
ensuring that their interfacing systems comply with our four-
digit year date format and making sure they get the information 
they need so they can comply with the formats we need. Seventy-
two point 5 percent of the files exchanged externally are 
currently Y2K compliant, and the remainder will be complete by 
July. We are also assessing the Y2K plans of our most critical 
partners to ensure they are Y2K ready.
    Some of our systems in two particular cases here, are over 
20 years old and literally cannot be made compliant. These are 
some of our most important base systems, the one that processes 
our basic returns and our payments, and also our mainframe 
computers that perform our consolidated reporting.
    As it relates to processing returns and payments, first our 
new integrated submissions and processing system has two 
critical components that have to be made Y2K compliant. The 
component that processes returns has been completed and is now 
operational at all 10 service centers and is being used during 
this filing season. The component that processes payments is 
currently operational for this filing season in 6 of the 10 
service centers, and those six sites are performing their 
normal activities effectively. The remaining four sites will be 
converted in August of this year.
    The second replacement project is our service center 
mainframe consolidation project. This project has several 
objectives, in addition to achieving Y2K compliance, that 
includes supporting the filing season, positioning the service 
for modernization, reducing long-term cost, meeting OMB 
directives, and implementing disaster recovery. All components 
of this project that had Y2K issues, which include the security 
systems and the terminal replacements, have now been made Y2K 
compliant and the workload has been moved from the 10 service 
centers to two consolidated computing centers.
    The schedule for the remaining components, which includes 
consolidating some collection systems and our printing 
capabilities, is now complete at three centers. We'll have five 
centers done by year-end, and will complete all 10 sites in 
calendar 2000.
    Since we have completed all necessary Y2K work, we changed 
the schedule in order to minimize introducing unnecessary 
change prior to the actual millennium date.
    Finally, our end-to-end tests, which tests how well all 
these jigsaw pieces fit back together, are on schedule. We 
completed the first two phases of this testing, and we'll begin 
the final integrated tests in May.
    In addition to end-to-end tests, we're developing 
contingency plans based on GAO's recommendations. All plans are 
on schedule and will be complete by May 1999.
    In addition to testing and contingency planning, we are 
also preparing for additional support in January 2000 should 
hiccups occur in any of these different systems. These plans 
included activities scheduled for January 1st and 2nd of 2000, 
prior to the first work day.
    So in conclusion, both the Commissioner and I are 
personally monitoring the status of IRS' year 2000 activities 
and we are confident we will be able to fulfill our mission in 
the year 2000.
    We recognize that there may be some glitches along the way, 
but we are prepared to deal with them in an organized manner to 
minimize any impact on taxpayers.
    Thank you for your time.
    Chairman Archer. Thank you, Mr. Cosgrave.
    Our next witness is Mr. Mark Ernst. If you will identify 
yourself and whom you represent for the record, you may 
proceed. Welcome.

STATEMENT OF MARK A. ERNST, EXECUTIVE VICE PRESIDENT AND CHIEF 
               OPERATING OFFICER, H&R BLOCK, INC.

    Mr. Ernst. Thank you. Mr. Chairman and Members of the 
Committee. I'm Mark Ernst. I'm executive vice president and 
chief operating officer of H&R Block. We appreciate the 
opportunity to discuss the effects that Y2K adjustments by the 
IRS and IRS' stakeholders will have on taxpayers.
    I would like to make just four brief points.
    First, H&R Block is the Nation's largest tax preparation 
firm. With the year 2000 beginning in only 310 days, we and 
over 15 million of our clients who file one in seven individual 
tax returns that are received by the IRS (and about 36,000 per 
Congressional District), have a very big stake in a smooth 
transition.
    Our clients are especially concerned about receiving timely 
refunds. Seventy percent of taxpayers get refunds, and many 
families depend on them to pay bills and as a source of annual 
forced savings.
    Second, we know that successful Y2K transition depends not 
only on the IRS but also on a long chain of external trading 
partners, including tax professionals like H&R Block. I'm 
pleased to report that we are on schedule for successfully 
modifying our systems for year 2000. We've completed and tested 
90 percent of 133 Y2K projects in nine mission-critical 
business functions. The remainder are scheduled for after April 
15. While we do not expect any major interruptions of our 
business, we are preparing contingency plans to address areas 
of exposure, including trying to anticipate issues which may 
arise out of the IRS.
    Third, we are encouraged by the IRS' progress. The current 
1999 tax season, in which many Y2K upgrades are being tested, 
is functioning fairly well. IRS appears on track, and it has 
been active in meeting with key partners and stakeholders. So 
far, so good.
    Fourth, for the future we've made a number of suggestions 
which have been well received by the IRS. They include:
    <bullet> increasing the openness about the IRS' plans and 
progress,
    <bullet> identification of risks to facilitate our and 
other tax practitioners' contingency planning,
    <bullet> a continued dialog with a wide group of 
stakeholders, and
    <bullet> tests with State revenue departments, the Social 
Security Administration, and the Financial Management Service 
before fourth-quarter end-to-end tests.
    Mr. Chairman, we appreciate your support and IRS's 
cooperation. And we look forward to working with the Service 
and other stakeholders to ensure a seamless transition.
    While we can't guarantee that citizens will be any more 
thrilled about paying taxes in the next millennium, we are 
working to ensure that the process will go smoothly and refunds 
will be issued promptly. We are happy to respond to questions.
    [The prepared statement follows:]

Statement of Mark A. Ernst, Executive Vice President and Chief 
Operating Officer, H&R Block, Inc.

                                Summary
    <bullet> H&R Block handles over 15.6 million individual 
U.S. tax returns, 1 of 7 received by the IRS (about 36,000 per 
Congressional district), and markets Kiplinger 
TaxCut<Register>.
    <bullet> With Y2K beginning in only 310 days, stakes are 
high for government units and especially for the 70% of 
taxpayers who expect timely refunds. Y2K compliance depends not 
only on the IRS but on a long chain of external trading 
partners.
    <bullet> H&R Block is on target to successfully modify its 
systems and prepare for Y2K. It has completed and tested 90% of 
133 Y2K projects in nine mission-critical business functions; 
the remainder are scheduled after April 15.
    <bullet> We are encouraged by IRS's progress. The 1999 tax 
season--in which many Y2K upgrades are being tested--is 
functioning well. IRS appears on track, and has been proactive 
in meeting with key partners and stakeholders.
    <bullet> Our suggestions have been well received, including 
openness about plans and progress, identification of risks to 
facilitate contingency planning, continued dialogue with a wide 
group of stakeholders, and tests with state revenue 
departments, SSA, and FMS before fourth quarter end-to-end 
tests.
                              ----------                              

    Mr. Chairman and Members of the Committee: I'm Mark Ernst, 
Executive Vice President and Chief Operating Officer of H&R 
Block. Prior to joining the company last September, I was for 
12 years affiliated with American Express. We appreciate the 
opportunity to discuss the effects of Y2K adjustments by the 
Internal Revenue Service and its stakeholders on taxpayers and 
beneficiaries of federal programs. With me today are David 
Jamison, head of our Y2K project office, and Bob Weinberger, 
our vice president for government relations.
                            About H&R Block
    H&R Block, founded in 1955 and headquartered in Kansas 
City, is America's largest tax return preparation company. Over 
120,000 individuals take our tax training courses annually. At 
8,900 U.S. offices, we handle over 15.6 million individual 
returns--which is one in seven received by the IRS and about 
36,000 per Congressional district. We are leaders in electronic 
filing, originating over half the practitioner e-filed returns 
that IRS receives. One of our subsidiaries--Block Financial--
develops and markets Kiplinger TaxCut<Register> tax preparation 
software, which has over 1.5 million users. We also offer our 
clients mortgages, financial planning, and investment services. 
We have recently acquired accounting practices in five cities. 
And we prepare tax returns internationally at over 1,200 
offices in Canada, Australia, and the United Kingdom.
                              High Stakes
    The implications of Y2K for taxpayers and the tax system 
are serious. Calendar year 2000 begins in just 310 days. Almost 
immediately, America will begin the annual ritual of an 
intensive and complex 105-day tax season. Over 120 million 
individual taxpayers, 4.7 million corporations, 640,000 tax-
exempt organizations, and millions of payors and employers will 
file over a billion federal information and tax returns.
    The compliance chain needed to make the 2000 tax season 
successful includes employers and information return providers, 
software publishers, tax professionals, electronic return 
trans-mitters and originators, state governments, financial 
institutions and payroll agents, and nearly 50 federal agencies 
including the Social Security Administration and the Financial 
Management Service.
    Much depends on that data: IRS bookkeeping, compliance, and 
enforcement; the operation of thousands of state and local 
government units; verification of Social Security numbers to 
validate dependents and credits; the issuance of checks or 
direct deposits; the offset of refunds for delinquent child 
support, student loans, and government tax debts; the 
administration of Social Security and Medicare; and, of course, 
the availability of $1.8 trillion in revenue that funds federal 
government benefits and programs that affect all Americans.
    Beyond the effect on governments, many of the 70% of 
individual taxpayers--who today receive an average tax refund 
of $1,800 each--depend on receiving their refunds promptly. 
What may be a minor hiccup in the tax system can have 
significant effects for an individual taxpayer.
                      Block's Program 90% Complete
    At H&R Block, we have been working since 1997 to remediate 
our systems and prepare for Y2K. Our efforts are detailed in an 
Attachment to my remarks. Of 133 projects within nine mission-
critical business functions, over 90% were completed and tested 
by the end of January; the remainder are scheduled to be 
finished after the current tax season ends. These efforts 
relate primarily to company-owned offices. About half of our 
tax offices are owned by franchisees. We are surveying their 
progress and offering assistance. We are also monitoring our 
suppliers and transmitters.
    As the IRS notes, results can never be guaranteed, but we 
believe our own program is on target for successful completion. 
We are trying to identify any weaknesses of others in the tax 
chain to work through, or around, any problems. One plus for us 
is that we prepare our own tax software and so have an 
infrastructure of programmers and testers. Because we modify 
our software annually, we have experience in making necessary 
changes. But while we do not expect major interruption of our 
business, we are preparing for the possibility in any case.
                           Good IRS Progress
    Because of the high stakes, we are encouraged by the 
progress Commissioner Rossotti, Paul Cosgrave, IRS's Chief 
Information Officer, John Yost, the Y2K Program Director, and 
Bob Barr, Assistant Commissioner for Electronic Tax 
Administration, are making. You have given them needed funds 
and support to do the job. Each has a solid background in 
information systems technology and management. They are working 
to implement best practices.
    Significantly, they report most Y2K changes have been made 
already with the remainder well on track. And, despite minor 
glitches, the current tax season--which is effectively testing 
many of the upgraded systems--seems to be functioning fairly 
smoothly. So far, so good.
    Our contacts with the IRS have been effective. IRS has been 
proactive in its outreach and assessment of 13 key external 
trading partners. IRS's outside consultants, Booz Allen & 
Hamilton, met separately last winter with us and with our 
electronic return transmitter--then CompuServe, now MCI-
WorldCom--to make sure our Y2K plans were robust. In early 
1998, we tested modernized electronic filing formats that 
reflected Y2K upgrades through the Preparer Acceptance Testing 
System (PATS). IRS has also addressed stakeholders through the 
Council for Electronic Revenue Advancement (CERCA) and the 
Electronic Tax Administration Advisory Committee (ETAAC). IRS 
end-to-end testing is set for the second half of 1999, and we 
have eagerly requested to participate.
    Suggestions that we have made to IRS have been well 
received. They include:
    <bullet> First, we encourage IRS to continue to be open 
about its plans and progress. Disclosure of trouble spots where 
IRS believes its systems may be at risk will allow us to 
develop contingency plans accordingly.
    <bullet> Second, IRS needs to continue communications with 
a wide group of stakeholders whose cooperation is essential for 
a successful 2000 tax filing season. Each is fixing its own 
computers and software. Active dialogue among stakeholders and 
with the IRS will help to ensure that the many ways we interact 
with one another are successful beginning in January, 2000. In 
our own case as the nation's largest tax preparer, we have 
invited Messrs. Cosgrave and Yost to a review and planning 
discussion.
    <bullet> Third, we suggest that IRS test its systems with 
state revenue departments, the Financial Management Service, 
and the Social Security Administration and share the results in 
advance of end-to-end testing. Each plays an important role in 
tax administration.
    Our suggestions in these areas are not meant to imply that 
IRS is not adequately planning or sequencing its Y2K 
operations. It properly needs to keep focus on its own repair 
efforts. Its cooperation enables us to perform our role in the 
tax chain and develop contingency plans where risks can't fully 
be seen.
    We look forward to working with the Service and various 
stakeholders and partners to ensure a smooth transition to a 
successful 2000 filing season in which returns are filed easily 
and refunds issued promptly.
    I'm happy to respond to questions.
                     H&R Block Y2K Plans and Status
    In July 1997, H&R Block established a program to inventory, 
evaluate and mitigate potential Year 2000 related issues. As 
part of this program, the company identified three key 
categories of software and systems, including information 
technology (IT) systems, non-IT systems (systems with internal 
clocks or imbedded microprocessors) and systems of third 
parties with which it interacts. Although the assessment phase 
of the project is essentially complete, our Year 2000 Project 
Office continually monitors the Y2K environment for new 
information that may adversely affect us and implements 
industry best practices to ensure successful operations 
continue well into the new millennium.
    During assessment, we identified nine mission critical 
business functions, with U.S. tax preparation services topping 
the list, and 28 non-mission critical business functions. 
Within each of the business functions, key IT and non-IT 
systems are being inventoried and assessed for compliance and 
detailed plans are in place for required system modifications 
or replacements.
    Currently, remediation projects are at different phases of 
completion. One hundred and thirty-three remediation projects, 
including both IT and non-IT systems, were identified within 
the nine mission critical business functions. Of these 133 
projects, over 90% completed remediation and testing by January 
31, 1999. The remaining projects in testing cannot be fully 
completed and in production until after the 1999 tax season due 
to the nature of our business.
    We are also in the process of completing a survey and 
inventory of our tax franchisees. Some readiness issues have 
been identified and we are assisting our franchisees with their 
remediation programs to help mitigate their risk. One area in 
which we are assisting includes an understanding of IRS Y2K 
status.
    The Company has initiated communications and surveyed 
state, Federal and foreign governments and suppliers and 
business partners with which it interacts to determine their 
plans for addressing Year 2000 issues. We are relying on their 
responses to determine if they will be Year 2000 compliant. Not 
all have responded. Contingency plans are being modified and 
developed as appropriate.
    One of the Company's mission critical business partners, if 
not the most mission critical, is the Internal Revenue Service. 
In its most recent report, dated December 8, 1998, the Office 
of Management and Budget lists IRS as a ``Tier Two Agency''--
evidence of progress is visible, but concerns also exist.
    The IRS was scheduled to be Year 2000 compliant by January 
31, 1999. It plans to do end-to-end testing in a simulated Year 
2000 environment with critical business partners and state 
departments of revenue in the second half of 1999.
    We have met with associates from Booz, Allen & Hamilton who 
represent IRS in its efforts to understand the status of H&R 
Block's systems and business processes that interface with IRS. 
We have also audited IRS Program Director John Yost's Y2K 
update to the Council on Electronic Revenue Advancement (CERCA) 
membership last October. Eddie Feinstein, H&R Block's Director 
of Electronic Commerce, has also met with Commissioner Rosotti, 
CIO Paul Cosgrave, and others in the Y2K project in his role as 
CERCA Chairman and a member of the Electronic Tax 
Administration Advisory Committee (ETAAC).

                                <F-dash>


    Chairman Archer. Thank you, Mr. Ernst.
    Our next witness is Mr. William Dennis. If you will 
identify yourself and whom you represent for the record, you 
may proceed.

 STATEMENT OF WILLIAM J. DENNIS, JR., SENIOR RESEARCH FELLOW, 
   EDUCATION FOUNDATION, NATIONAL FEDERATION OF INDEPENDENT 
                            BUSINESS

    Mr. Dennis. Thank you, Mr. Chairman. I'm William Dennis, 
senior research fellow with the NFIB Education Foundation here 
in Washington.
    Attached to my written statement is a copy of a report that 
I prepared late last year regarding the preparedness of small 
business for Y2K as of late October, early November. The report 
itself was developed from data collected for us by The Gallup 
Organization, from a national random sample, not just of NFIB 
members, but from all small businesses.
    We expect to conduct the third survey in this series in 
April and we will be happy to report to you when the project 
completed in May.
    Since the full report is attached, let me just briefly 
summarize and discuss implications for issues within the 
jurisdiction of the Committee. When you think about small 
business and its preparedness for Y2K, divide the population 
into thirds. The first third of this 5.7 million small 
employers is the group that has done something. They have taken 
steps; they feel that they are prepared; 70 percent have 
already tested their systems. Unless something very different 
happens, they think they are prepared.
    This group consists disproportionately of larger small 
firms and more urban small firms. As a result, they cover a 
greater share of the employment in the small business 
population than their numbers within it.
    The second third falls at the direct opposite end. This is 
the third that hasn't done anything, and says it is not going 
to do anything. Their rationale is that they don't think they 
are going to be affected. But if they are going to be affected, 
it probably will be cheaper for them to fix any problem after 
January 1 than to go ahead through the entire process earlier. 
An optimist would point out that 90 percent of all small firms 
have had their most critical software updated in the last 2 
years and virtually all within the last 5 years. Nonetheless, a 
substantial number of small firm owners appear not to be ready 
to do anything further.
    The final third can be divided into two equal halves. The 
first one of these halves is the group that doesn't have 
computers and says that it doesn't have equipment with any 
embedded chips in them. This group essentially has no 
management control over any type of vulnerable equipment. It 
couldn't take any action within the firm that would affect the 
Y2K problem one way or another.
    The second group, the other sixth, is the group that plans 
to do something, but hasn't yet done it. Given the history of 
these surveys, this group probably will follow through. Thus, 
if we take the plans that they have and extrapolate them 
forward, we're looking at approximately 3 million small 
employers who will be prepared. We're looking at about 1 
million who essentially are out of the picture and don't really 
have to be worried. And we're looking at about 1.75 million or 
slightly less than that who will have taken no action.
    Now small business owners basically consider this a small 
business problem or a business problem. And warn that business 
is going to have to resolve it themselves. The primary issue 
for the Federal Government is to make sure its own house is in 
order. When small business files its taxes, it must be sure 
that it's taxes been properly credited and so forth.
    The second thing the Federal Government can do is lead. It 
can do more with wheedling, cajoling, and explaining than it 
already has. And I'd be happy to give you some particulars on 
that.
    Since my time is running short, let me just conclude with 
one final point. Data problems prohibit us from offering a 
definitive estimate of the cost that those who have taken 
action have incurred. While some are running into extraordinary 
costs, very high costs, most are running into very minimal 
costs. In fact, 75 percent have spent less than $5,000 to come 
into compliance.
    So it's not a lot and most of them have annual computer 
budgets that are larger than that. So at this time, financing 
is not a major impediment to action.
    Thank you very much, Mr. Chairman.
    [The prepared statement follows:]

Statement of William J. Dennis, Jr., Senior Research Fellow, Education 
Foundation, National Federation of Independent Business

    Thank you for this opportunity to present testimony on the 
Y2K preparedness of small business and its implications for 
matters within the jurisdiction of this Committee.
    Attached is a copy of the full report that I wrote in 
December concerning the preparedness of small business for Y2K 
as of late October/early November. The report was developed 
from data collected for the NFIB Education Foundation by The 
Gallup Organization. The document is the second report in the 
series, the first published in May and sponsored by the Wells 
Fargo Bank. The Foundation currently expects to conduct a third 
survey study in April with results available in May.
    Since the full report is attached, let me summarize the 
salient points and move to implications. The state of small 
business preparedness for Y2K can be roughly divided into 
thirds. The first third of the estimated 5.75 million small 
employers has taken steps to prevent internal problems that may 
have been created by the Millennium Bug. This group has 
generally completed preventive measures (or is the process of 
completion) and in most instances have tested their systems. 
Small business owners in this third are ready for January 1, 
2000, for all intents and purposes and plan no additional 
measures. It should be noted that these owners tend to operate 
larger small businesses and therefore include a 
disproportionately large share of small business employment. 
They also are disproportionately located in urban areas.
    The second third falls at the other end of the preparedness 
scale. Its members have taken no action and plan to take none. 
While it is likely that some will eventually move from the no 
action category to the action category, my judgment is that 
most will do precisely what they say they will do--nothing. 
Their rationale is generally straight-forward: they don't think 
Y2K is a problem that will directly affect them or will 
directly affect them enough to worry about. (In this context 
``directly affects'' means an impact that they can control. It 
does not mean a problem beyond their management authority, 
e.g., loss of electric power.) Theirs is not an altogether 
irrational position. A very small business with a relatively 
new computers and updated software could conceivably spend more 
checking itself than replacing its system if it went down, and 
with new equipment the chances of a problem are greatly 
minimized. An optimist can even point out that almost 90 
percent have updated their most critical software in the last 
two years and the remainder have in the last five.
    The difficulty with this rationale, however, and the single 
greatest argument for small business owners taking preventive 
measures as soon as possible is that those impacted will all be 
hit at about the same time. The key to minimizing damage or 
even surviving will be to get the impacted systems up and 
running immediately. But small business will be at the end of 
every line to obtain/purchase help, and those who can find it 
will pay a premium.
    The third must actually be divided into halves. The first 
half of the group is planning to take action, but has not yet 
done so (as of the date of the survey). If history provides any 
insight, this one-sixth of the population will follow-through 
on its plans. The number in the April survey who planned to 
take steps was the number in the October/November survey who 
took steps in that six month interval.
[GRAPHIC] [TIFF OMITTED] T6850.002

    The last group, i.e., the second half of the third third, 
doesn't have equipment susceptible to the Millennium Bug. 
Owners in this category have no computers or similar devices. 
They have no embedded chips threatening to close down critical 
machines. While these ventures may be impacted by events 
occurring outside their place of business, they can do little 
within the framework of their enterprise to prevent problems.
    It appears that about half of all small employers will have 
taken action by January 1, 2000, to protect themselves from 
internally generated Y2K impacts. That constitutes almost three 
million firms. Yet, over one and two-thirds million will be 
exposed to difficulties brought on by their own equipment. The 
final one million do not need to be concerned.
    Pressures are being brought to bear within the private 
sector to improve these numbers. Larger firms often require 
their suppliers to be Y2K compliant. Some commercial banks are 
demanding their customers, particularly those who interact 
electronically, to certify that they have taken preventive 
measures. Still, only 27 percent of exposed owners claim to 
have received a communication from a supplier, customer or 
financial institution asking them to certify their preparedness 
for Y2K.
                       Y2K Is a Business Problem
    Y2K is essentially a business problem. It originated 
through a normal business decision-making process which, at the 
time, seemed quite rational. It was neither instigated nor 
coerced by government nor will government be the prime vehicle 
to resolve it.
    The most important thing the Federal government can do is 
put its own house in order. IRS must have its systems prepared 
to accurately and efficiently process the vast amount of data 
it receives. If a tax-paying small business owner deposits his 
taxes on the anointed day, he has every right to expect that he 
will receive credit for the deposit and that it will be done 
without persistent snafus. If a tax-paying small business owner 
needs to inquire about any aspect of his account with IRS, he 
should be able to receive an accurate and timely response. 
Those of us on the outside have no means to judge how 
effectively IRS is addressing its Y2K problem. But little could 
be more disruptive than to have the tax agency beset by 
systematic data processing problems.
    The second thing the Federal government can do is to adopt 
a position of the Village Nag. It can use its pulpit to 
wheedle, cajole and explain. In other words, it can lead. The 
Federal government can raise Y2K visibility and can warn (in 
contrast to alarm) people. It can also encourage business to 
work with one another to identify problems and to resolve them.
    None of us really know what will happen next January 1. 
Some think it will be just another day while others stock their 
bunkers. But assume for the moment that some machines lock or 
malfunction. That will not stop business from being transacted 
nor government from demanding its paperwork. Small employers 
will be expected to fulfill their legal obligations as if 
nothing had happened.
    But, what will the IRS reaction be if a small employer's 
computers lock and he can't file his W-3s by the end of 
January? What will the IRS reaction be if an owner is in the 
middle of an audit and he can't retrieve critical information? 
What will its attitude be if a small business owner is the 
client of a firm which experiences a Y2K malfunction? IRS (and 
other governmental agencies) should have policies in place to 
handle such contingencies. An announced policy recognizing and 
allowing for the existence of adverse Y2K outcomes might have 
the secondary benefit of serving as an incentive for some to 
take action when they otherwise might not have.
    I easily reconcile the view that Y2K is essentially a 
business problem with the fear that IRS policy will not 
appreciate or account for Y2K difficulties (public policy) that 
may arise among smaller firms. My rationale is the uncertainty 
of the solutions. To some extent, I am less concerned about the 
very small firms which have not taken action than larger, firms 
which have. The reason is that larger firms are on the whole 
older firms. For example, the median age of a 1-4 employee 
business is about four to four and one-half years. The median 
age of a 50-100 employee business is over 10 years. Newer firms 
will have fewer old systems and affected devices. As a rule, 
they are also less likely to have sophisticated equipment 
(though medical facilities are examples to the contrary). In 
addition, the issue of embedded chip devices remains a major 
question mark. What equipment contains them? And what equipment 
contains chips with timing/dating mechanisms? Most think of Y2K 
in terms of their computers, but what of the other, less 
obvious systems?
                            Costs of Action
    Data problems prohibit definitive estimates of Y2K costs. 
However, most small business owners who have taken action have 
spent minimal sums to become ``Y2K compliant.'' While there are 
small firms required to spend $50,000 or more to protect 
themselves, the common figure is less than $1,000. Over 75 
percent who have taken action have spent less than $5,000. 
(Another nine percent didn't know). That sum clearly falls 
within their computer budgets. The median annual budget for 
hardware, software and maintenance is about $4,000 with almost 
three in four budgeting less than $10,000. As the deadline 
approaches, costs appear to be rising. The reason isn't clear, 
though one can speculate that the easiest ``fixes'' were 
completed first and the more difficult, more expensive ones are 
following.
    Financing is not a major impediment to action at this time. 
Only three percent now planning action say that the reason they 
have not done so to date is a financing problem. Few small 
business owner respondents mentioned finance in any context. 
However, for some, the out-of-pocket costs will be significant 
and ones that they would not normally make. This is not a 
question of locating debt finance to undertake the preventive 
measures. That appears readily available. It is a question of 
paying for them.
                         International Problems
    The Committee has every right to be concerned about the 
impact of Y2K on international trade given the lesser 
preparedness in many parts of the world. From the parochial 
small business perspective, the impact of Y2K does present a 
serious difficulty. Just three percent of small business owners 
say that they interact electronically ``a lot'' with business 
associates, i.e., suppliers, financial institutions or 
customers, outside the country. Fifteen (15) say the interact 
with these people ``a little.'' The rapid growth of e-commerce 
means these percentages may already have changed since the 
conduct of the survey upon which this information was 
developed. Still, it is not a major small business 
consideration at this time.
                               Conclusion
    To repeat, the most important thing that the Federal 
government can do to help small business with Y2K is be certain 
that its own house is in order and to exhibit consideration 
with regard to its administrative requirements for those owners 
who have encountered an adverse Y2K experience.
    I will attempt to answer any questions that you may have.
    [The attachment is being retained in the Committee files.]

                                <F-dash>


    Chairman Archer. Thank you, Mr. Dennis.
    Our last witness on this panel is Mr. James White. Would 
you identify yourself and the group that you are representing, 
which I think I'm familiar with. You may proceed.

     STATEMENT OF JAMES R. WHITE, DIRECTOR, TAX POLICY AND 
   ADMINISTRATION ISSUES, GENERAL GOVERNMENT DIVISION, U.S. 
                   GENERAL ACCOUNTING OFFICE

    Mr. White. Thank you, Mr. Chairman, and Members of the 
Committee. My name is James White, I'm the Director of the Tax 
Issue area at the General Accounting Office. I'm pleased to be 
here today to discuss the status of IRS' year 2000, or Y2K, 
effort and the remaining challenges it faces.
    My statement makes four points, which are summarized in the 
full version of my statement on page 2.
    First, we are unable to provide an overall picture of the 
Y2K status of IRS' 133 mission-critical systems. Examples of 
these systems are Telefile, which allows taxpayers to file 
simple returns by phone, and various programs that update 
taxpayer accounts. IRS does not report the status of these 
mission-critical systems, rather, as Mr. Cosgrave explained, it 
reports on components, such as application software and 
hardware. This reflects the way IRS is organized, with one 
office managing applications, one managing hardware, and so on.
    Second, although we cannot report on the status of the 
mission-critical systems in their entirety, IRS has made 
significant progress since we testified before the Ways and 
Means Oversight Subcommittee last May. However, it has not met 
all of its goals. IRS did meet its January 1999 goal for 
correcting application software, upgrading telecommunications 
networks, and implementing the Y2K part of its mainframe 
computer consolidation.
    Despite significant progress, it did not meet its goal for 
upgrading systems software and hardware, and for fully 
implementing its new tax return and payment processing system. 
One consequence of not meeting these goals is that some systems 
will not be ready for full testing until late in 1999.
    Third, in addition to completing the work I just discussed, 
IRS faces two remaining crucial year 2000 tasks. The first is 
what is called an end-to-end test of IRS' mission-critical 
systems. It will test the ability of IRS' upgraded systems to 
work collectively.
    The second critical task is to develop 36 contingency plans 
to deal with possible failures scenarios. In response to 
recommendations we made last June, IRS has broadened its 
contingency planning effort. However, it has delayed the 
completion date for the plans, leaving less time for testing 
them, in part because of competing demands on the staff 
responsible for the plan. IRS has prioritized the due dates for 
these contingency plans based on risks.
    Fourth, IRS will continue to face the challenge of 
competing demands on its information system staff. Demands that 
compete with the year 2000 effort include making tax law 
changes and customer service improvements. To address these 
competing demands, so far IRS has transferred staff, hired 
staff, and delayed some activities.
    As I said, IRS has made considerable progress in completing 
its year 2000 work. However, it did not complete all the work 
it had planned by January, and in addition has other crucial 
tasks to complete this year. In the next 5 months, IRS will 
pass several key milestones, including the April start for end-
to-end testing and the May deadline for contingency plans. As 
each milestone is passed, the IRS and Congress should have 
additional information about the risks posed by the year 2000 
to IRS' mission-critical systems and thus to taxpayers.
    Mr. Chairman, that concludes my statement. I'll be happy to 
answer questions.
    [The prepared statement follows:]

Statement of James R. White, Director, Tax Policy and Administration 
Issues, General Government Division, U.S. General Accounting Office

    Mr. Chairman and Members of the Committee: We are pleased 
to be here today to discuss the status of the Internal Revenue 
Service's (IRS) Year 2000 efforts \1\ and the remaining 
challenges IRS faces in making its information systems Year 
2000 compliant. If IRS' Year 2000 efforts are unsuccessful, the 
impacts on taxpayers could include millions of erroneous tax 
notices and delayed or erroneous refunds. IRS had established a 
goal to complete most of its Year 2000 work by January 31, 
1999. IRS established that goal to help ensure that it would 
(1) have a Year 2000 compliant environment implemented for the 
1999 filing season and (2) provide time for working out 
problems that surfaced in the 1999 filing season and its Year 
2000 testing.\2\
---------------------------------------------------------------------------
    \1\ IRS' Year 2000 efforts are necessary because IRS' information 
systems, many of which are over 25 years old, were programmed to read 
two-digit date fields. Therefore, if unchanged, these systems would 
interpret 2000 as 1900, seriously jeopardizing tax processing and 
collection operations. IRS' Year 2000 efforts include (1) fixing 
existing systems by correcting application software and data and 
upgrading hardware and systems software, if needed; (2) replacing 
systems if correcting them is not cost-beneficial or technically 
feasible; and (3) retiring systems if they will not be corrected by 
2000.
    \2\ The Year 2000 end-to-end test is to ensure that most of IRS' 
mission-critical systems can operate collectively, with all systems 
date clocks set forward to simulate the Year 2000.
---------------------------------------------------------------------------
    Our statement discusses four topics--(1) the extent to 
which IRS monitors the Year 2000 status of its mission-critical 
systems in their entirety; (2) whether IRS met the January 31, 
1999, completion goal for the areas that it monitors--
application software, systems software, hardware, and 
telecommunications networks; (3) the status of two remaining, 
critical Year 2000 tasks--conducting Year 2000 testing and 
completing 36 contingency plans; and (4) the fact that other 
business initiatives are creating competing demands on staff 
needed for Year 2000 efforts.
    <bullet> First, we cannot provide a complete picture of the 
Year 2000 status of IRS' 133 mission-critical systems because 
IRS does not report Year 2000 status for these systems in their 
entirety. Instead, IRS monitors the Year 2000 status of the 
components of an information system, such as the application 
software,\3\ systems software,\4\ and hardware, for each of its 
three types of computers--mainframes, minicomputers/file 
servers, and personal computers. IRS officials acknowledge that 
their monitoring reports do not provide a complete picture on a 
system-by-system basis. However, these officials believe the 
costs of doing so outweigh the benefits, particularly given the 
time remaining to complete IRS' Year 2000 work.
---------------------------------------------------------------------------
    \3\ Application software is the collection of computer programs 
that allows a user to perform a specific job task.
    \4\ Systems software is the collection of computer programs that 
manage the computer's system hardware components (e.g., operating 
system, central processing unit, or disk drives) that allow the 
application software to interact with the hardware.
---------------------------------------------------------------------------
    <bullet> Second, IRS reports that it met the January 31, 
1999, completion goal for some of the areas that it monitors 
but not for others. IRS reports that it met the January 1999 
completion goal for (1) correcting application software, (2) 
upgrading telecommunications networks, and (3) fully 
implementing one of its two major system replacement projects. 
Despite significant progress since our testimony last May,\5\ 
IRS did not meet the goal for (1) upgrading systems software 
and hardware for its three types of computers and (2) fully 
implementing the other major system replacement project. As a 
result of not meeting the goal some changes will not be tested 
until late in 1999, reducing the time available to make 
corrections before January 2000. Also, some service center 
staffs will have no experience before 2000 using the new system 
to process peak filing season volumes of remittances.
---------------------------------------------------------------------------
    \5\ IRS' Year 2000 Efforts: Status and Risks (GAO/T-GGD-98-123, May 
7, 1998).
---------------------------------------------------------------------------
    <bullet> Third, in addition to completing work on upgrading 
systems software and hardware, IRS faces two remaining, 
critical Year 2000 tasks. The first task, and one most 
important for gauging IRS' success in achieving Year 2000 
compliance, is an unprecedented, Year 2000 end-to-end test of 
most of IRS' mission-critical systems. The end-to-end test is 
to begin in April 1999. The need to conduct this test has 
created an additional new challenge for IRS--meeting a 
compressed schedule for developing and implementing tax law 
changes for the 2000 filing season. The second critical task is 
to develop 36 contingency plans that IRS has determined are 
needed to address various failure scenarios for its core 
business processes. IRS is developing these plans in response 
to our June 1998 report.\6\ IRS has delayed the completion 
dates so that the first set of plans are to be completed by 
March 31, 1999, and the second set of plans by May 31, 1999. To 
the extent that the plans require additional actions, such as 
those associated with testing or preparatory activities needed 
to implement the plans, this delay reduces the time available 
to complete these activities.
---------------------------------------------------------------------------
    \6\ IRS' Year 2000 Efforts: Business Continuity Planning Needed for 
Potential Year 2000 System Failures (GAO/GGD-98-138, June 15, 1998).
---------------------------------------------------------------------------
    <bullet> Fourth, as IRS continues its Year 2000 efforts, it 
will face the challenge of how to address the competing demands 
on its staff. These competing demands are created by IRS' other 
major business initiatives, such as implementing tax law 
changes and completing the non-Year 2000 portions of one of 
IRS' major system replacement projects. To address these 
competing demands, in the past several months, IRS has (1) 
transferred staff from other areas, (2) hired additional staff, 
and (3) delayed some activities.
    Our statement today is based on our past and ongoing Year 
2000 work for this Committee's Oversight Subcommittee. As a 
part of this work, we have interviewed officials from the 
National Office and reviewed IRS' contingency planning 
documents and IRS' Year 2000 progress reports for the week 
ending February 6, 1999. We did not verify the reliability of 
the data included in the February 6, 1999, reports.
  IRS' Reports Do Not Provide A Complete Picture of Mission-Critical 
                            Systems' Status
    IRS' Year 2000 status reports do not provide a complete 
picture of the status of IRS' mission-critical systems because 
IRS does not monitor Year 2000 status for its mission-critical 
systems in their entirety. Instead, IRS monitors the Year 2000 
status of the components of an information system, such as the 
application software, systems software, and hardware for each 
of its three types of computers--mainframes, minicomputers/file 
servers, and personal computers. IRS also monitors its 
telecommunications networks separately.
    As part of IRS' Year 2000 risk mitigation efforts,\7\ IRS 
has hired a contractor to conduct periodic risk assessments. 
The contractor's December 1998 report recommended exploring the 
feasibility of tracking status on a system-by-system basis to 
provide a clear view of IRS' ability to achieve Year 2000 
compliance. The report stated that such a system view would 
permit IRS to, among other things, help assess the need to 
target resources to achieve Year 2000 compliance. IRS officials 
said that IRS' approach to monitoring Year 2000 compliance 
corresponds to how IRS' Information Systems organization is 
structured to carry out its work. Specifically, IRS officials 
said that separate organizational units are responsible for 
application software, systems software and hardware, and 
telecommunications networks. Therefore, IRS monitors its Year 
2000 status by these areas. They do not believe the benefits of 
monitoring status on a system-by-system basis outweigh the 
costs, given the amount of time remaining to complete IRS' Year 
2000 work.
---------------------------------------------------------------------------
    \7\ IRS' Century Date Change Project Office outlined a risk 
management process that is to (1) identify risks to the successful 
completion of Year 2000 goals, (2) coordinate the development of risk 
mitigation strategies, (3) oversee the execution of the strategies, and 
(4) elevate unmitigated risks to the Commissioner's Executive Steering 
Committee on the 1999 filing season and Year 2000 efforts.
---------------------------------------------------------------------------
Reports Indicate That IRS Met The January 1999 Completion Goal For Some 
                        Areas But Not For Others
    IRS' reports indicate that it met the January 1999 
completion goal for some areas but not for others. The reports 
indicate that IRS met the January 1999 goal for correcting the 
application software for its existing systems and upgrading 
telecommunications networks. Since May 1998, when we last 
testified on this topic, IRS has also made progress in an area 
that we said was lagging--upgrading systems software and 
hardware. Despite this progress, however, IRS did not achieve 
its January 1999 completion goal for any of its three types of 
computer hardware. IRS fully implemented the Year 2000 aspects 
for one of its major system replacement projects. For the other 
system replacement project, 6 of the 10 service centers were 
using the full suite of Year 2000 changes.

Reports Indicate that IRS Met Its Goal for Application Software 
for Existing Systems and Telecommunications Networks

    Since we testified in May 1998, IRS has continued to make 
progress in correcting the application software for its 
mission-critical systems. As of February 6, 1999, IRS reports 
indicate that IRS has corrected 88 percent of these 
applications, thereby exceeding its 85 percent goal.\8\ In 
addition to completing this work, IRS has hired a contractor to 
review all of the corrected application software to determine 
whether IRS made any errors. This effort began in August 1998 
and is scheduled to continue through May 1999.
---------------------------------------------------------------------------
    \8\ In assessing progress, IRS determined that it needed to 
complete 85 percent of its application software work by January 31, 
1999. The work for the remaining 15 percent includes the steps needed 
to certify that IRS has achieved Year 2000 compliance. IRS has deferred 
correcting about 2 percent of its application software until July 1999 
and January 2000.
---------------------------------------------------------------------------
    In addition, IRS reports indicate that it met its goal for 
completing work on its telecommunications networks. In May 
1998, we said that, according to IRS, telecommunications 
networks presented the most significant correction challenge 
and were likely the highest risk for not being completed by 
January 31, 1999. As of February 6, 1999, with the exception of 
three areas, IRS reported that it met its goal for these 
networks.\9\
---------------------------------------------------------------------------
    \9\ The three areas are (1) voice mail for some of IRS' field 
locations; (2) telephone routing for IRS' automated collection system; 
and (3) telecommunications networks for at least 8,000 terminals. Work 
on these three areas is to be completed by July 31, 1999.

Reports Indicate That IRS Did Not Meet the Goal for Systems 
---------------------------------------------------------------------------
Software and Hardware

    IRS' reports indicate that IRS made significant progress in 
an area that in May 1998 we said was lagging--upgrading systems 
software and hardware for its three types of computers: 
mainframes, minicomputers/file servers, and personal computers. 
Despite this progress, IRS did not meet the January 31, 1999, 
completion goal for its three types of computers.
    For IRS' mainframe computers, IRS officials said IRS fell 
short in meeting its goal because of delays in receiving the 
Year 2000 upgrades for one of its system replacement projects. 
IRS officials said those upgrades are to be received and 
implemented by March 1, 1999.
    For minicomputers/file servers, IRS reports indicate that 
as of February 6, 1999, IRS' Information Systems organization 
had completed 60 percent of the work for upgrading systems 
software and hardware--a significant increase from 13 percent 
that was done in May 1998, when we last testified on the IRS' 
Year 2000 status.\10\ According to IRS, systems software and 
hardware for 13 of the 27 mission-critical systems that use 
minicomputers/file server were not upgraded by January 31, 
1999. The systems software and hardware for 7 of the 13 systems 
are not scheduled to be Year 2000 compliant until after March 
1999. As a result of the delay, some changes are not to be 
tested until October 1999, when the second part of the Year 
2000 end-to-end test is to begin. This delay reduces the time 
available to make any needed corrections before January 1, 
2000.
---------------------------------------------------------------------------
    \10\ IRS' goal for systems software and hardware was to complete 80 
percent of the work by January 31, 1999.
---------------------------------------------------------------------------
    For personal computers, IRS officials said they plan to 
replace about 35,000 personal computers and the associated 
systems software between February 1999 and July 1999 to achieve 
Year 2000 compliance. As a part of this replacement effort, IRS 
plans to reduce the number of commercial software and hardware 
products in its inventory from about 4,000 to 60 core standard 
products. According to IRS officials, thus far, IRS has 
completed testing on 5 of the 60 core products. IRS plans to 
complete the testing for the remaining 55 products by April 
1999. IRS' goal is to eliminate all nonstandard products by 
July 1999.

Full Implementation of Year 2000 Changes Achieved for One of 
the Two Replacement Projects; Less Than Full Implementation 
Achieved for the Other

    For one of IRS' two major system replacement projects, IRS 
implemented the Year 2000 changes at all 10 service centers by 
January 31, 1999; for the other system replacement project, 6 
of the 10 service centers were using the full suite of Year 
2000 changes for the system by January 31, 1999. IRS' two major 
system replacement projects are Service Center Mainframe 
Consolidation (SCMC) and the Integrated Submission and 
Remittance Processing (ISRP) System. SCMC is to consolidate the 
mainframe computer tax processing activities from the 10 
service centers to 2 computing centers--thereby reducing the 
total number of tax processing mainframe computers from 67 to 
12. Specifically, SCMC is to (1) replace and/or upgrade 
mainframe hardware, systems software, and telecommunications 
networks; (2) replace about 16,000 terminals that support 
frontline customer service and compliance activities; and (3) 
replace the system that provides security functions for on-line 
taxpayer account databases with a new system known as the 
Security and Communications System (SACS). Replacement of the 
terminals and the implementation of SACS are critical to IRS' 
achieving Year 2000 compliance. The other replacement project 
is ISRP. ISRP is a single, integrated system that is to perform 
the functions of two systems that are not Year 2000 compliant--
the Distributed Input System that IRS uses to process tax 
returns and the Remittance Processing System that IRS uses to 
process tax payments.

SCMC

    IRS completed the Year 2000 critical portions of SCMC by 
January 31, 1999. Specifically, in early October 1998, IRS 
completed its implementation of the 16,000 terminals that are 
needed for frontline customer service and compliance 
activities. Also, as of January 31, 1999, all 10 service 
centers were using SACS.
    Originally, IRS had planned to have the other aspects of 
SCMC besides SACS--that is, the tax processing activities of 
the 10 service centers--moved to the 2 computing centers by 
December 1998. As of January 31, 1999, the tax processing 
activities for three service centers had been moved to the 
computing centers. IRS is determining the number of additional 
service centers that are to be moved in 1999. SCMC officials 
have developed several different schedule options for moving 
the tax processing activities of the remaining seven service 
centers. At the time we prepared this statement, IRS officials 
had not yet selected a schedule option.
    According to IRS officials, the tax processing activities 
of all 10 service centers do not need to be moved before 2000 
because the existing mainframes in each of the 10 service 
centers have been made Year 2000 compliant. Thus, in all 
likelihood, at the start of the 2000 filing season, some 
service centers will be processing their data locally, whereas 
others will have their data processed at the computing centers. 
IRS' Year 2000 end-to-end test is designed to include both 
processing scenarios.

ISRP

    Both functions of ISRP--tax return processing and 
remittance processing--were to be implemented in November 1998. 
However, as a result of problems that occurred during the pilot 
test of ISRP and the contingency option IRS implemented for the 
1999 filing season to address those problems, 4 of the 10 
service centers are not to begin using the remittance 
processing portion of ISRP until August 1999.
    For the 1999 filing season, the contingency option for ISRP 
is to retain enough of the old tax processing and remittance 
processing equipment in the service centers so that IRS could 
revert to the old systems if ISRP experiences problems. 
However, four of the service centers did not have enough floor 
space to accommodate both the old tax processing and remittance 
processing systems and the ISRP equipment. As a result, these 
four service centers are to continue using the old remittance 
processing equipment during the 1999 filing season and convert 
to ISRP in August 1999. These four service centers were among 
the top five remittance processing centers during the peak of 
the 1998 filing season. We recognize that this contingency 
option may have been the only feasible one for IRS. As we 
reported in December 1998, these four service centers are to 
receive their equipment late in 1999. As a result, their staffs 
will have no experience with the new equipment before the 2000 
filing season in processing the large volume of remittances 
that occur in the peak of the filing season.\11\
---------------------------------------------------------------------------
    \11\ Tax Administration: IRS' 1998 Tax Filing Season (GAO/GGD-99-
21, Dec. 31, 1998).
---------------------------------------------------------------------------
Two Remaining Critical Year 2000 Activities Still Remain; One of Which 
                           is Behind Schedule
    In addition to fixing its existing systems, IRS still needs 
to complete two critical activities for its Year 2000 efforts, 
and one of these activities is behind schedule. The two 
critical activities are the completion of (1) an unprecedented 
Year 2000 end-to-end test of 97 of IRS' 133 mission-critical 
systems and (2) 36 contingency plans for IRS' core business 
processes.

Unprecedented End-to-End Test is to be Begin in April 1999

    Using thousands of test cases, IRS' Year 2000 end-to-end 
test is to assess the ability of IRS' mission-critical systems 
to function collectively in a Year 2000 compliant environment. 
These cases are intended to replicate the many different kinds 
of transactions that IRS' information systems process on any 
given day to help assess whether IRS' systems can perform all 
date computations using data and systems date clocks with 
January 1, 2000, or later. The test will involve 97 of IRS' 133 
mission-critical systems.\12\ Most of IRS' mission-critical 
system application software has been tested individually; 
however, the ability of the application software to operate 
collectively, using Year 2000 compliant systems software and 
hardware, with all systems date clocks set forward to simulate 
the Year 2000, has not been fully tested.
---------------------------------------------------------------------------
    \12\ According to IRS' Product Assurance officials, 97 systems 
represent the maximum number of systems Product Assurance could 
effectively manage. Testing for the remaining systems is to be done by 
those organizations that have responsibility for maintaining them.
---------------------------------------------------------------------------
    In July 1998, IRS began the preliminary activities 
associated with conducting the end-to-end test. These 
activities included, but were not limited to, establishing a 
dedicated test environment to replicate IRS' tax processing 
environment, developing test plans and procedures, and doing 
some preliminary testing of some systems with the systems date 
clock set forward to 2000. Currently, IRS is developing 
baseline data from the 1999 filing season that will be 
ultimately used for the Year 2000 end-to-end test. The end-to-
end test is to have two parts. The first part is scheduled to 
begin in April and end in July 1999. The second part is to 
begin in October and end in December 1999. The April test is to 
include the application software that is currently being used 
for the 1999 filing season. The October test is to include the 
application software changes that are needed for the tax law 
changes that are to be implemented for the 2000 filing season.
    The need to conduct this test has in turn created an 
additional challenge in completing the work necessary for the 
2000 filing season. As shown in table 1, to accommodate the 
Year 2000 end-to-end test, IRS revised its traditional 
milestones for implementing tax law changes for the 2000 filing 
season, thereby compressing the amount of time available to 
develop and test these changes. Under this compressed schedule, 
instead of having until January 2000, IRS must program and test 
all tax law changes that are to take effect in the 2000 filing 
season before September 30, 1999.

 Table 1.--Key Activities Associated With Implementing Tax Law Changes,
 Traditional Milestones, and Revised Milestones as a result of Year 2000
                              Test Schedule
------------------------------------------------------------------------
                                                       Revised milestone
                                      Traditional       as a  result of
          Key activity                 milestone      Year 2000  testing
                                                         requirements
------------------------------------------------------------------------
Business requirements developed.  Summer to January.  Summer of 1998 to
                                                       January 1999
Business requirements             February to June..  February 1999
 transmitted to Information
 Systems organization.
Development of application        March to October..  March to Mid-June,
 software.                                             1999
Systems acceptance testing <SUP>a</SUP>....  Late August to mid- Mid-June to
                                   January.            September, 1999
Final phase of the Year 2000 end- N/A <SUP>b</SUP>.............  October to
 to-end test.                                          December, 1999
Implementation..................  January...........  January 2000
------------------------------------------------------------------------
<SUP>a</SUP> IRS' systems acceptance testing assesses whether an application meets
  the specified user requirements.
<SUP>b</SUP> Not applicable.
Source: IRS data.

    Under the compressed schedule, business requirements are to 
be delivered to IRS' Information Systems organization by 
February 28, 1999; the Information Systems organization is 
scheduled to complete the application software changes by June 
15, 1999; and testing of these application software changes is 
be completed by September 30, 1999.

Staggered Milestones Developed for Completing IRS' Contingency 
Plans

    In 1999, IRS is to complete the development of 36 
contingency plans that IRS determined are needed to address 
various Year 2000 failure scenarios for its core business 
processes. IRS' initial goal was to have these plans completed 
by December 1998; however, IRS' revised goal is to complete 18 
submissions processing contingency plans, 2 customer service 
contingency plans, and 3 key support services \13\ plans by no 
later than March 31, 1999. One key support services contingency 
plan and 12 compliance contingency plans are to be completed by 
May 31, 1999.
---------------------------------------------------------------------------
    \13\ Key support services include internal business processes, such 
as maintaining buildings and executing budget functions and payroll 
activities.
---------------------------------------------------------------------------
    In June 1998, we reported that IRS' Year 2000 contingency 
planning efforts fell short of meeting the guidelines included 
in our Year 2000 Business Continuity and Contingency planning 
guide.\14\ Accordingly, we recommended that the Commissioner of 
Internal Revenue take a series of steps to broaden IRS' 
contingency planning effort to help ensure that IRS adequately 
assesses the vulnerabilities of its core business processes to 
potential Year 2000 induced system failures. Specifically, we 
recommended that the Commissioner take the following steps: (1) 
solicit the input of business functional areas to identify core 
business processes and identify those processes that must 
continue in the event of a Year 2000 failure; (2) map IRS' 
mission-critical systems to those core business processes; (3) 
determine the impact of information systems failures on each 
core business process; (4) assess existing contingency plans 
for their applicability to potential Year 2000 failures; and 
(5) develop and test contingency plans for core business 
processes if existing plans are not appropriate.
---------------------------------------------------------------------------
    \14\ IRS' Year 2000 Efforts: Business Continuity Planning Needed 
for Potential Year 2000 System Failures (GAO/GGD-98-138, June 15, 
1998).
---------------------------------------------------------------------------
    Since we issued our report, IRS has been taking actions to 
address our recommendations. IRS has solicited the input of its 
business officials and established working groups to identify 
failure scenarios and to develop the contingency plans. The 
working groups determined IRS should develop 36 contingency 
plans that cover various aspects of its core business areas of 
submissions processing, customer service, compliance, and key 
support services. One factor influencing the staggered schedule 
for completing contingency plans was that the staff assigned to 
develop plans have competing responsibilities, such as the 
development of business requirements to implement tax law 
changes as well as other business improvement initiatives. 
Under the staggered schedule, with the exception of the key 
support services area, earlier completion milestones were 
established for those aspects of three other core business 
areas that, according to IRS officials, were likely to 
experience a Year 2000 before the other areas. To the extent 
that the plans require additional actions, such as those 
associated with testing or preparatory activities, these delays 
reduce the time available to complete these activities.
    According to IRS officials, the completion milestones of 
March and May 1999 reflect when the technical work for the 
plans is to be completed. Once that work is completed, the 
plans are to be approved by the official responsible for the 
core business process and tested. According to IRS officials, a 
contractor is still developing the testing approach. As a 
result, these officials could not provide us with the 
completion milestones and staff requirements for testing the 
contingency plans.
 Other Business Initiatives Are Creating Competing Demands On Certain 
                   Staff Needed For Year 2000 Efforts
    In addition to Year 2000 efforts, IRS has other ongoing 
business initiatives that are placing competing demands on its 
information systems and business staff. The Commissioner's 
Executive Steering Committee (ESC) and IRS' risk mitigation 
efforts have provided a forum for addressing these issues.
    Concurrent with its Year 2000 efforts, IRS is continuing to 
make changes to its information systems to accommodate changes 
resulting from various business initiatives. These initiatives 
include the SCMC project that we discussed previously, 
implementation of the IRS Restructuring and Reform Act 
provisions, and of various taxpayer service initiatives.\15\ 
While we do not question the importance of these initiatives, 
as we have said before, the need to make a significant number 
of tax law changes for the 2000 filing season introduces an 
additional risk, albeit one that we could not quantify, to IRS' 
Year 2000 effort.\16\
---------------------------------------------------------------------------
    \15\ The Commissioner of Internal Revenue established the Taxpayer 
Treatment and Service Improvement Program in November 1997 to plan, 
coordinate, and manage hundreds of commitments for improvements in 
service to taxpayers that have emanated from various sources. These 
sources include the National Performance Review, Senate Finance 
Committee hearings, and the IRS Restructuring and Reform Act.
    \16\ Internal Revenue Service: Impact of the IRS Restructuring and 
Reform Act on Year 2000 Efforts (GAO/GGD-98-158R, Aug. 4, 1998).
---------------------------------------------------------------------------
    In November 1997, the Commissioner established the ESC 
Steering Committee (ESC) to identify risks to the 1999 filing 
season and the entire Year 2000 effort and to take actions to 
mitigate those risks. In addition, IRS hired a contractor to 
conduct periodic risk assessments. The contractor's most recent 
report was issued in December 1998.
    Recent ESC documents, the contractor's December 1998 risk 
assessment report, and our interviews with SCMC officials, have 
identified the following examples of competing demands on staff 
in IRS' Information Systems organization and business 
organizations:
    <bullet> Documents prepared for the September 1998 ESC 
meeting stated that IRS' Information Systems organization that 
is responsible for systems software issues was ``overextended'' 
because of Year 2000 demands, SCMC, and support for the Year 
2000 end-to-end test.
    <bullet> The contractor's December 1998 risk assessment 
report indicated that some of IRS' core business area staff 
face competing demands from the need to (1) identify business 
requirements for the 2000 filing season and (2) complete Year 
2000 contingency plans. As we said previously, IRS' goal is to 
have business requirements completed by the end of February.
    <bullet> According to the minutes from the January 1999 ESC 
meeting, IRS' Internal Audit has also raised a concern about 
the availability of sufficient staff to support the Year 2000 
end-to-end test given the other Year 2000 demands. According to 
IRS officials, Internal Audit has not released a formal report 
on this matter.
    <bullet> IRS' draft paper on the SCMC schedule options 
states that one of the risks for each of the schedule options 
is the resource drain on IRS staff and contractors from the 
filing season, the Year 2000 end-to-end test, and critical 
staff being used to train any new SCMC staff. The draft option 
paper notes that the extent of the drain varies somewhat 
depending on how many service centers are to have their tax 
processing activities moved to the computing centers in 1999.
    Over the last several months, IRS has taken various actions 
to address these competing demands. For example:
    <bullet> To address the ``overextension'' of the 
Information Systems organization that is responsible for 
systems software, the Chief of that organization said that he 
obtained contractor support and transferred staff from other 
areas. He said the additional staff, coupled with the delays in 
moving the tax processing activities of the service centers to 
the computing centers, helped alleviate this overextension.
    <bullet> To address the competing demands on the business 
staff to develop Year 2000 contingency plans and finalize 
business requirements for the 2000 filing season, IRS officials 
decided to stagger the completion milestones for contingency 
plans.
    <bullet> To help prioritize the work within the Information 
Systems organization IRS officials told us they have 
established another executive steering committee. In addition, 
the minutes from the January 1999 ESC meeting said that the 
Commissioner has asked the cognizant staff to identify the 
source of each of the 2000 filing season requirements--(i.e., 
IRS Restructuring and Reform Act, Taxpayer Service Improvement 
Initiative, etc.). This identification is the first step for 
providing the additional information that would be useful for 
establishing priorities for IRS' Information Systems staff.
                        Concluding Observations
    Since our testimony in May 1998, IRS has made considerable 
progress in completing its Year 2000 work. However, IRS did not 
complete all the work that it had planned to do by January 
1999. This unfinished work and upcoming critical tasks are to 
be completed in the remainder of 1999. At the same time IRS is 
addressing its Year 2000 challenge, it is undertaking other 
important business initiatives, such as preparing for the 2000 
filing season and implementing SCMC. These various initiatives 
place competing demands on IRS' business and Information 
Systems staff. To date, IRS has taken actions to address these 
competing demands, including delaying the completion milestones 
for some Year 2000 activities.
    In the next 5 months, IRS will pass several key milestones. 
As IRS passes each one, it will have more information on the 
status of its Year 2000 effort and the amount of remaining 
work. This information should help IRS and Congress assess the 
level of risk to IRS' core business processes in 2000. For 
example:
    <bullet> By the end of February 1999, the business 
organizations are to submit their requirements to IRS' 
Information Systems organization for the 2000 filing season. In 
the event that business requirements for the 2000 filing season 
are not submitted on time, IRS increases the risk that some tax 
law changes may not be thoroughly tested before they are 
implemented.
    <bullet> From April to July 1999, IRS is to conduct its 
Year 2000 end-to-end test. The results of this test will be an 
indicator of the extent to which, for the work completed thus 
far, IRS has been successful in making its systems Year 2000 
compliant. The results of this test should also provide 
information on how many Information Systems staff will be 
needed for correcting any problems that are identified.
    <bullet> By the end May 1999, IRS is to complete its 
contingency plans. These plans should provide information on 
any additional steps needed to implement the plans.
    We plan to continue to monitor IRS' progress in meeting 
these key milestones.
    Mr. Chairman, this concludes my prepared statement. I 
welcome any questions that you may have.

                                <F-dash>


    Chairman Archer. Mr. White, thank you. And thank you for 
also giving us a little time back. We appreciate it.
    Mr. White. You're welcome.
    Chairman Archer. Mr. Commissioner and Mr. Cosgrave, this 
country owes both of you a deep debt of gratitude for coming to 
its aid at a time of great need. I know there are many other 
things that you could do with your lives very productively in 
our society, and I for one congratulate you and compliment you 
on being where you are and the kind of job, the professional 
job, that you are committed to do and which you are undertaking 
with a very, very complicated, far-flung, difficult operation 
to manage.
    I suppose your computer system is about the largest in the 
world, is it not?
    Mr. Rossotti. Well, it's one of the largest. Yes. Depends 
on how you measure it.
    Chairman Archer. So this is not a small problem; this Y2K 
is not a small problem for you. Are you satisfied at this point 
that when we go into next year that the IRS will be able to 
perform its essential services in a timely manner?
    Mr. Rossotti. First of all, let me just thank you for your 
opening comment, Mr. Chairman. I really appreciate that very 
much.
    The answer to your question, yes. I am confident that we 
will be able to perform our central mission. I do want to 
qualify that with the fact, as we said repeatedly, that I think 
we will be able to sufficiently test broadly to be sure that we 
will meet, be able to continue to function our central mission. 
But we won't be able to test every possible combination of 
everything.
    That's why there still will remain the possibility, the 
risk, of particular problems that may occur. And that's why we 
are organizing what we call our end-game strategy, not our end-
to-end tests, but our end-game strategy, which means that we 
will be prepared to respond to things that are unexpected, that 
come up, so that we can get them out of the way quickly.
    Chairman Archer. My question assumes that you will have 
contingency plans in the event that there is some snag in your 
computer operation so that your services can still performed in 
a timely manner. Is that a fair statement?
    Mr. Rossotti. I'll let Mr. Cosgrave mention some of the 
contingency plans, but I do want to not mislead, Mr. Chairman 
and others. The contingency planning that we're doing is aimed 
at being able to respond if there's a temporary outage in a 
particular area, for example. There really is no contingency 
plan, broadly speaking, that if our computer systems were not 
functioning in a predominantly successful way that we could 
really, really execute an entire filing season. So, I mean 
there are contingency plans that are very important to do, but 
they are not contingency plans that, say if the whole IRS 
computer network were not functioning, that we could still do a 
tax season.
    I don't think we need a contingency plan for that. First of 
all, there really isn't a contingency plan for that. But I 
believe we have more than adequate confidence that we are not 
going to have a global failure of that kind. But having said 
that, let me just ask Paul here to talk about some of the 
contingency planning that we are doing.
    Mr. Cosgrave. Thank you, Mr. Commissioner.
    Let me, first, just acknowledge GAO's assistance here. They 
reported back in June of last year that the IRS was behind in 
their contingency planning. We took that recommendation to 
heart--in fact, adopted an approach that they laid out to us 
that had already been used effectively at the Social Security 
Administration as the way to go about this problem. In fact, 
we, are executing the exact model that they have identified. 
This involves addressing this problem from the business 
perspective. We have each of our businessowners actively 
involved in building contingency plans. First of all, they are 
identifying which contingency plans are needed based on the 
critical business processes that we need those plans for. They 
did that work and that's complete. We have identified the need 
for 37 plans. Twenty-four of those 37 plans will, in fact, be 
completed by March, and the remaining 13 will be done by May. 
So by May of this year, we will have contingency plans in place 
for all of our critical business applications.
    Chairman Archer. Are you confident that all refund checks 
will go out in a timely fashion next year?
    Mr. Rossotti. Well, I think that gets to the point. We are 
confident that we will be able to process refund checks. They 
will be able to go out in a timely manner. But when you say all 
refund checks, I have to say I can't be confident of that 
because there could be particular situations for particular 
taxpayers because of some particular path that they go through 
that we haven't tested, where there could be, as we call it, a 
glitch.
    I don't predict that. I certainly don't want that to 
happen, but we also don't want to offer false confidence that 
there won't be any problems. This is why we are preparing not 
only contingency plans, as Paul mentioned, but also quick 
response situations, so that if we find a particular problem, 
as we do in every filing season, actually, we'll be able to 
respond to it quickly and hopefully minimize any taxpayer 
impact to the bare minimum.
    Chairman Archer. Do all refund checks go out today in a 
timely manner.
    Mr. Rossotti. Actually, most do. [Laughter.]
    But there are some that don't.
    Chairman Archer. Even without the Y2K problem, you can't 
make that a blanket statement?
    Mr. Rossotti. That's actually an excellent observation. 
That's very, very true. Every filing season there are problems.
    Chairman Archer. My last question is, is there anything 
further that the Congress can do to help you to do your job?
    Mr. Rossotti. Well, let me just say that in my year or so 
here, I have been very pleased with the response we have gotten 
from the Congress. We have gotten just about everything we've 
requested from the Congress. At this moment, with respect to 
the IRS Y2K problem, I don't think there is. I did mention in 
my testimony, that one of the things we are studying in our 
role as tax administrator, is to make sure that we are prepared 
in case there are taxpayers who have, problems in filing or 
paying timely because of a situation that might develop totally 
beyond their control. For example, with their bank.
    We haven't completed this study yet, but this is something 
we are going to be working on with the Treasury. We want to 
make sure that we are prepared and able to deal with those 
situations to avoid any harm to the taxpayers. We may need to 
consult with the Committee over the course of this year, over 
the next few months even, as we study that issue to make sure 
that we have the requisite authority to deal with that.
    We will continue to consult with you on this issue 
throughout the year. As of this moment, I think we have what we 
need.
    Chairman Archer. OK. Thank you very much. If you need 
anything else, we invite you to let us know immediately so we 
can go to work in working with you.
    Ms. Thurman.
    Mrs. Thurman. Thank you, Mr. Chairman. We appreciate all of 
you being here today. If for no other reason, these hearings 
are good to keep the public aware that this is an issue still 
ongoing, probably to give some more confidence that we are in 
better shape than what some have anticipated so that we don't 
have runs on banks and we don't have some of the things that we 
are all very concerned about.
    But, Mr. Dennis, I really need to ask you some questions 
because, and I'm sorry I was not here for your testimony when 
you were actually saying it, but I do have the testimony that 
you have written before. And I need some clarification on the 
last page because it says there that financing is not a major 
impediment to action at this time. Only 3 percent now planning 
action say that the reason that they have not done so to date 
is the financing problem. Few small business owners-respondents 
mentioned finance. I guess this is in the form of your survey. 
However, for some, the out-of-pocket costs will be significant, 
and ones they would not normally make. This is not a question 
of locating debt-finance to undertake the preventive measures, 
that appears readily available. It is a question of paying for 
them.
    You've lost me somewhere in here. One minute it doesn't 
seem it's about cost, and then the next minute it seems to be 
about cost. So I need some clarification on that, particularly 
because you know that I've introduced a piece of legislation to 
try to do an accelerated depreciation for businesses 
specifically for the purposes of kind of grabbing the attention 
of small businesses that they really need to get into this Y2K 
compliance issue.
    So if you could give me some direction, I would be very 
appreciative.
    Mr. Dennis. Surely. Thank you.
    Most small businesses who have taken action already tell us 
that they are spending relatively small amounts of money. When 
I say most, 75 percent have spent less than $5,000. There are 
exceptions, those spending large sums, over $50,000. It's a 
very small percentage thus far, one, 2 percent at most.
    My reference to financing not being a major problem is tied 
to the survey. We provided respondents with reasons for not 
going ahead. Financing was one of them. I think it was 3 
percent who indicated that that was a problem impeding them 
from going forward. So yes, there are extreme cases where it is 
going to be difficult. There's no if, ands, or buts about it. 
But for the most part, it is not an issue. Owners have told us 
that that is not an issue.
    When it comes to debt capital, the Small Business 
Administration's, SBA's 7(a) program, is a back up. Not only 
that, in the 20-some years that I have been working at NFIB, 
the present is probably the most favorable conditions for 
small-business borrowing I've seen. So that's not an issue 
either.
    Mrs. Thurman. However, they are familiar with the Code that 
does allow them that accelerated depreciation so they might be 
a little bit more familiar with this, might be more comfortable 
in using some kind of tax issue.
    But let me just make this comment too because I think this 
is really important, and I'm real concerned after reading this. 
I don't know if you were here this morning when I read from an 
article about what businesses were doing, and they are doing 
something called ``windowing'' and ``encapsulation,'' which may 
not be the wherewithal of the fix that some of them are going 
to put themselves in believing that they are going to spend 
this extra dollar or they are going to roll their computer 
back. And then all of a sudden it quits anyway. Do we know 
what's happening with small businesses in that way? I'm going 
to talk about it when I'm home, but I think we have to capture 
their attention on this because I'm really concerned.
    Mr. Dennis. I couldn't agree with you more in the sense 
that many simply don't believe it, simply don't believe this is 
going to affect them and don't think it's a problem. So I 
couldn't agree with you any more. I think there's a number of 
things that could be done just on awareness issues. One of the 
things that's really been disappointing is the use of industry-
specific trade associations to get this message out, even more 
so for embedded-chip-type equipment that's particular to 
certain industries than for computers in general.
    I think that vehicle could be used to a much greater extent 
than has been done in the past. Any type of awareness activity 
I think is something good to do because there are many owners 
out there who just don't believe it, don't believe it will 
affect them, and feel that it's not worth the effort to do 
anything.
    Chairman Archer. The gentlelady's time has expired. Mr. 
Weller.
    Mr. Weller. Thank you, Mr. Chairman. Before I ask my 
questions, I also want to salute the Commissioner of the IRS 
for the commitment you've shown to implement IRS reform. The 
first IRS reform began in this Committee room under the 
leadership of our Chairman and the Ways and Means Committee. 
And the follow through, I definitely want to salute you on your 
commitment to following through on IRS reform, making IRS 
responsive to the taxpayer, rather than the other way around. 
So thank you for that.
    I'm going to keep the focus of my questioning also on small 
business, Mr. Dennis. In your knowledge and you pointed out in 
your response to Ms. Thurman's questions, that some small 
business owners don't believe anything is going to happen so 
they are not going to worry about it. What do you feel is 
really the remaining big risk for small business in being Y2K 
compliant, and particularly as it relates to taxes and tax 
collection.
    Mr. Dennis. I think the greatest risk, quite frankly, is 
getting people to do something. That's the first major one. The 
second one, I would suggest, probably is a little bit different 
than you may think. I worry a great deal about embedded chips 
and what it's going to do to some firms. Now you say, how does 
that affect taxes? Well, it affects taxes because they are 
going to have to put all their resources and energy into 
correcting any Y2K problem, whatever that problem is. If their 
equipment goes down, the key to their survival is going to be 
how quickly they can be up and running. That is the absolute 
critical thing. So it's possible that some dates can slip and 
that kind of thing.
    I was very encouraged when Mr. Rossotti indicated that IRS 
was developing some sort of internal policy which might address 
that problem. Indeed I mentioned that in my written testimony. 
I would like to see a policy made public to really encourage 
people to take action. The IRS policy would really encourage a 
lot of people to say ``Well, gee, if there is some kind of 
consideration and if I have done something to address the 
potential problem, that might be a very strong incentive to 
prepare.''
    Mr. Weller. Who is, you know, you had mentioned that 
perhaps the trade organizations and business groups could be 
better utilized to get information out. Who is everyone 
depending on for information today? Where are small business 
owners getting their information if it's not coming from their 
professional or trade organization?
    Mr. Dennis. That's a very good question, and I don't know 
that I have a good answer for you. We hear anecdotally, but 
that was not one of the questions I asked on the survey. 
Anecdotally, we believe that they are getting a lot of 
information from the net. They are getting some from general 
business magazines, including their trade association-type 
magazine. It's kind of a catch-as-catch-can. One of the 
problems is that there seems to be a lack of simplistic--no, I 
don't want to use the word simplistic--relatively easy, step-
by-step approaches to how you specifically handle problems 
discovered. Some Internet addresses, for example, provide very 
complicated solutions.
    Mr. Weller. Is there one, you know, if you were able to do 
one thing to do a better job of getting information out there 
to help small business owners deal with Y2K compliance, what 
would that initiative be?
    Mr. Dennis. Having Mr. Koskinen or someone grab trade 
association execs by the back of the neck and say, this has got 
to be done.
    Mr. Weller. And so those trade organizations in the 
audience make a note of that, be thinking how they can 
communicate to their members.
    And last, I realize the light's yellow here, but are there 
any particular tax incentives that may help small business 
better comply and afford the cost to comply, realizing that 
small business, and many of them are mom and pop shops, limited 
on resources and staff?
    Mr. Dennis. Tax incentives are always nice. But in terms of 
getting more people to do things to resolve their potential Y2K 
problems, I haven't seen any evidence they would. Obviously 
there will be a few, but not an overwhelming number.
    Mr. Weller. All right. Thank you.
    Chairman Archer. Mr. Foley.
    Mr. Foley. Thank you, Mr. Chairman.
    Mr. Rossotti, in your written testimony, you touched 
briefly on the end-to-end testing. Can you explain the rigor of 
your end-to-end test, and also give us a little greater detail 
on that and when it may be complete.
    Mr. Rossotti. I think I'll ask Mr. Cosgrave, if it's OK, to 
respond to that. He's directly in charge.
    Mr. Cosgrave. The end-to-end test is a totally integrated 
test, where we are taking most of all our systems and putting 
them together in a totally integrated environment, that 
includes almost 95 different systems linked together. We're 
doing this in three different phases. The first two have 
already been completed. And the 1st part of the third phase 
will start in April and will run into July of this year. From 
my experience, and I believe the Commissioner has the same 
experience having done a lot of systems testing in other 
businesses, this is as complex, as complete, and as large a 
test as we have ever seen anyone undertake. It's running well 
to date, and we anticipate having those mission-critical 
systems tested and-to-end beginning in April.
    Mr. Foley. There's also discussion on--oh, did you want 
to----
    Mr. Rossotti. I was just going to add one thing. One of the 
key things about this that is different from the other testing 
that we do, is that we take a special computer and we actually 
set the clock forward so we make believe it's already January 
1, 2000. That's the one thing that we can't do in our normal 
testing, because we can't change the actual computer clocks or 
we'll make everything run awry. This actually involves taking a 
separate set of computers and operating them with the clock set 
forward.
    Mr. Foley. You also touch on, you mentioned it briefly in 
response to the chairman on contingency planning. It seems to 
me that the most critical part of it is to have a backup plan 
in case. What is that plan for processing returns, to assure 
customer assistance, and, of course, compliance in general.
    Mr. Rossotti. Well, again, I'll let Mr. Cosgrave give you 
some detailed examples of our 37 contingency plans. But I again 
need to stress that there really is no contingency plan that, 
given a computer failure, broadly speaking, that will allow us 
to continue to do the business of the IRS. We are just too 
dependent on these computers, and there isn't any really 
practical backup plan you could have on a broad scale. So our 
strategy is to use our end-to-end tests to make sure we don't 
have a broad failure, recognizing there could be limited 
failures.
    Our contingency plans are basically designed to cope with 
those kinds of localized or specific failures. That's why there 
are 37 of them. Mr. Cosgrave can give some examples of what 
these are.
    Mr. Cosgrave. I'll give one or two examples. In fact, I 
happen to have brought one of those plans with me today. This 
is the FTD, Federal Tax Deposit, contingency plan. It gets very 
specific. For example, on January 3, if something is not 
operating the way it should, who will be there to provide 
backup support? What exactly are the approaches we would take 
as a workaround to the problem? It's got phone numbers; it's 
got every conceivable thing we would need in an emergency 
situation.
    The major systems that I described earlier that we're 
implementing, where we are actually replacing the system and 
hence have the most risk, would be our submissions processing 
and our remittance processing systems. In those cases, we are 
actually, in the case of remittance processing, keeping the old 
system around. Even thought it won't be Y2K compliant, we know 
we can trick the system to fake out the date factor, and we'll 
use that as a fallback. But again, those systems are 20 years 
old, and frankly we are glad to have the opportunity to replace 
them and get some new technology in there. But they will be 
there in the backup mode, should we need them.
    Mr. Foley. In the transition period, is there any security 
breach problems we may encounter through the electronic filing 
method? Is there any way for somebody to penetrate the computer 
system to alter data?
    Mr. Cosgrave. That's an interesting question. With the new 
integrated submissions-remittance processing system, we did 
detect in our final test one potential security breach. And so 
we actually de-installed a few components that would have 
allowed that breach. We have operated until just recently, when 
we were able to get a fix for that, with some of the 
functionality turned off. Now that we have fixed that problem, 
we are back in production with the system at full capacity.
    Mr. Foley. Thank you, Mr. Chairman.
    Chairman Archer. Ms. Thurman would like to make a short 
inquiry, and I believe that will conclude this panel.
    Mrs. Thurman. Chairman Rossotti, what I'd like to ask is, 
if you could get me some information of how many of our small 
businesses are using section 179? That might give us a better 
idea of whether tax incentives, depreciables, the kinds of 
things that we would look in looking at ways we might help.
    Mr. Rossotti. Unfortunately, the IRS does not have reliable 
data documenting whether businesses located in empowerment/
enterprise zones are using the additional expensing allowance 
for depreciable business property as allowed for in section 179 
of the Internal Revenue Code. Use of this provision is very 
infrequent. The General Accounting Office noted this finding in 
their June 1998 report, Community Development--Information on 
the Use of Empowerment Zone and Enterprise Community Tax 
Incentives. The report states ``IRS officials reported that 
none of the information on expensing and depreciation that 
businesses or individuals file on Form 4562 (Depreciation and 
Amortization) is computerized and entered into a master file.'' 
In addition, further review of sample data for tax year 1996 
indicated that of 124 returns with expensing deductions large 
enough to indicate that they might be eligible for the 
additional EZ expensing allowance, almost none were. The 
Department of Treasury found similar results for tax year 1995.
    As the IRS transitions to four operating units designed to 
serve unique groups of taxpayers, the need for more specialized 
data about customer segments will increase. While the Small 
Business/Self Employed Operating Division may not collect 
specific information in the future about section 179, they will 
have an opportunity to collect more specialized data about 
their customers, small businesses and self-employed taxpayers. 
This will allow IRS to better understand the needs of these 
taxpayers and share that information with Treasury and 
Congress.
    Chairman Archer. The Committee will stand in recess for the 
vote on the floor. We'll go vote and come back as quickly as 
possible and reconvene.
    Glad to see our next panel is already assembled at the 
witness table. And Mr. Magaw, we're going to start off with you 
if you are ready. And if you will identify yourself and whom 
you represent, for the record, you may proceed.
    Our general ground rules are that we'd like for you to keep 
your verbal testimony to within 5 minutes, and the lights will 
come on. And your entire printed statement, without objection, 
will be inserted in the record.
    Mr. Magaw.

   STATEMENT OF JOHN W. MAGAW, DIRECTOR, BUREAU OF ALCOHOL, 
                     TOBACCO, AND FIREARMS

    Mr. Magaw. Thank you, Mr. Chairman. My name is John W. 
Magaw and I'm the Director of the Bureau of Alcohol, Tobacco, 
and Firearms. Members of this Committee, I am pleased to appear 
here today concerning an extremely important issue, that of Y2K 
compliance. Accompanying me today, is Mr. Pat Schambach, and 
he's like you, Mr. Chairman, I think like you are right now, 
wearing two or three hats.
    At ATF, he is the assistant director for science and 
technology. He's also our chief of information. And also he is 
our senior executive for year 2000 compliance, and works on it 
virtually every day. And he's sitting to my left and will make 
a few comments in a moment.
    Most people know ATF for our roles as regulators and 
enforcers of criminal laws relating to alcohol, tobacco and 
firearms. But it is not as well known that ATF is a major 
revenue collector. In Fiscal Year 1998, ATF collected a total 
of $12.4 billion, this includes $6.5 billion in alcohol taxes, 
$5.6 billion in tobacco taxes, and $300 million in firearms and 
ammunition taxes. We estimate that the multiple tobacco tax 
increase that is scheduled to begin in January of 2000 will 
expand the annual revenue by the year 2002 to more than $15 
billion.
    We fully appreciate that the continuity of revenue 
collection is critical to the Nation's well-being. Our budget 
for Fiscal Year 1999 is $608 million, and I am pleased to note 
that for the fourth consecutive year, ATF has received the 
highest possible rating on the annual general audit of our 
finances and internal controls. This audit was conducted by 
Price-Waterhouse-Coopers and the Treasury Inspector General's 
Office.
    It is our intent to maintain a sound revenue management and 
regulatory system that continues to reduce taxpayer burden, 
improve service, collect the revenue due, and prevent illegal 
diversion. We continue to accomplish these objectives in large 
part through the partnership with the industry, taxpayers and 
through technological innovations. Our National Revenue Center, 
in Cincinnati, Ohio, had applied these two principles in 
improving the consistency of our tax administration in 
preparing for Y2K.
    Mr. Schambach will detail more specifically the measures 
that we are taking, not only in the area of revenue collection, 
but also in all of the matters that impact our ability to serve 
the public of this Nation.
    Thank you, sir.
    [The prepared statement follows:]

Statement of John W. Magaw, Director, Bureau of Alcohol, Tobacco and 
Firearms

    Thank you, Mr. Chairman, Congressman Rangel, and Members of 
the Committee. Accompanying me today is Mr. Pat Schambach who 
wears three hats here at ATF--Assistant Director for Science 
and Technology, Chief Information Officer, and Year 2000 Senior 
Executive.
    With your permission, I will briefly provide an overview of 
the mission of the Bureau of Alcohol, Tobacco and Firearms 
before deferring the balance of my time to Mr. Schambach who 
will address ATF's significant Y2K conversion efforts.
    ATF's three strategic goals are to reduce violent crime, 
protect the public, and collect the revenue. We administer and 
enforce the Federal laws and regulations relating to alcohol, 
tobacco, firearms, and explosives. Although perhaps not readily 
apparent, the commodities regulated by ATF share a common 
bond--each has legal consumer uses, the potential for serious 
abuse, and significant revenue implications.
    In Fiscal Year 1998, ATF collected a total of 12.4 billion 
dollars--including $6.5 billion from the alcohol industry/ and 
$5.6 billion from commerce in tobacco. We estimate that tax 
increases effective January 1, 2000 on tobacco products will 
provide $2.5-$3 billion per year in additional revenue by 2002 
as we implement the Taxpayer Relief Act of 1997. These 
collections are made with a budget of approximately $600 
million. All funds are transferred to the Treasury or other 
Federal agencies for further distribution in accordance with 
various laws and regulations.
    Permit me to note that for the fourth consecutive year, ATF 
has received the highest possible rating on the annual General 
audit of our finances and internal controls. This audit was 
conducted by Price Waterhouse Coopers and the Treasury 
Inspector General.
    It is our intent to maintain a sound revenue management and 
regulatory system that continues to reduce taxpayer burden, 
improve service, collect the revenue due, and prevent illegal 
diversion.
    We continue to accomplish these objectives, in large part, 
through partnership with industry members, States, and other 
Federal agencies--and through technological innovation. Our 
National Revenue Center has applied these two principles in 
improving the consistency of our tax administration, and 
providing timely trend analyses and industry statistics.
    ATF has used the integration of partnership and innovation 
to identify and overcome the potential vulnerabilities that the 
Year 2000 portends. We fully appreciate that the continuity of 
revenue collection is critical to the Nation's well-being.
    Mr. Schambach will detail the measures we are taking not 
only in the area of revenue collection but also in all matters 
that impact our ability to serve the public.

                                <F-dash>


STATEMENT OF PATRICK SCHAMBACH, ASSISTANT DIRECTOR, SCIENCE AND 
  TECHNOLOGY, CHIEF INFORMATION OFFICER, AND YEAR 2000 SENIOR 
      EXECUTIVE, BUREAU OF ALCOHOL, TOBACCO, AND FIREARMS

    Mr. Schambach. Thank you, Mr. Director. Mr. Chairman, we 
first established our program--sorry
    Chairman Archer. Mr. Schambach, if you will give your full 
name and the entity that you represent, you may proceed.
    Mr. Schambach. Thank you, sir. I'm Patrick R. Schambach, 
Assistant Director of the Bureau of Alcohol, Tobacco, and 
Firearms. Mr. Chairman, we first established our program in ATF 
to address the Y2K challenge in 1996. As you have heard from 
many other witnesses, we soon discovered the Y2K challenge has 
tentacles into every corner of our organization and extends 
beyond the boundaries of our organization into relationships 
with other entities.
    Our primary efforts can be categorized into the following 
major areas, information technology systems, non-information 
technology systems, business continuity and contingency 
planning, crisis management and outreach. Over 30 full-time-
equivalent positions, both ATF employees and consultants, 
support these efforts in our program management office. 
Additionally, representatives from all core business areas of 
our bureau actively participate in each of these efforts.
    In 1997, an integrated project team was established. This 
team, chaired by me, was established to provide an open forum 
for communicating Y2K status throughout our organization and 
for raising and resolving Y2K business issues.
    I'd like to focus my remarks in two distinct parts, those 
activities aimed at internal ATF preparations, followed by 
external preparations aimed at preserving the smooth flow of 
revenue that ATF is charged to collect from the alcohol, 
tobacco and firearms industries.
    The chart on the easel to your left, which I will explain 
in a few minutes, indicates the volume of dollars collected 
from each of these regulated industries in Fiscal Year 1998. In 
our internal preparations we have identified 156 information 
technology systems in operation within ATF. Of these, 24 are 
mission-critical, and all 24 have completed assessment. 
Nineteen are now year 2000 compliant, and 5 systems remain to 
be replaced. And efforts are under way to replace these five 
systems during Fiscal Year 1999.
    Through a major technology upgrade using a new acquisition 
method in the Federal Government, called Seat Management, last 
year we provided Y2K-compliant personal computers to all ATF 
employees. We are certifying all other computer hardware to 
provide the best assurance possible that our processes will 
continue to function properly. Concurrently we are updating our 
contingency plans that have been developed for each mission-
critical system so that we have realistic and actionable 
alternatives should we experience unexpected failure.
    We have also identified 129 non-information-technology 
systems within ATF, to include building security systems, 
laboratory equipment, and other devices that contain computer 
chips and computer logic. Of these, 85 are mission-critical. 
Eighty of these systems have been assessed, and 32 are Y2K 
compliant. Renovation plans are in place to repair, replace or 
retire the remaining systems determined to be non-compliant.
    We are also updating our contingency plans that have been 
developed for non-IT mission-critical systems.
    While it's our goal to avoid any unexpected surprises to 
ensure our vital processes remain intact, or can be resumed 
most expeditiously, we are developing business continuity plans 
relative to our core processes. That is, we want to have plans 
in place should any infrastructure or facility failure occur 
that is totally out of our control.
    Concurrently, we have started planning efforts for an ATF 
crisis management operation to be in effect for the century 
date change holiday period. The primary purpose of this 
initiative is to have in place a centralized team that will 
have the authority and expertise to receive reports of 
suspected Y2K failures, analyze them, and make appropriate 
business decisions. I expect to have this team in place and 
operational in late 1999, working through the New Year's 
holiday weekend, and collecting input from more than 220 
locations throughout the country.
    Now a few words about our external preparations. As you can 
see from the chart, ATF is responsible for collecting over $12 
billion annually in Federal excise and other taxes. That 
amounts to approximately $500 million collected every 2 weeks, 
with the first payment in the new year is due January 14. Even 
a minor delay in that flow of funds can be costly both to the 
government and to the American taxpayer.
    Let me take a minute to walk you through the chart, 
beginning on the right side. A small amount of our revenue, 
approximately $2 million, comes from the tax to transfer 
certain controlled weapons, such as machine guns that have been 
controlled by law since 1935. Excise taxes are collected from 
manufacturers of guns and ammunition to the tune of $165 
million last year. Special occupational taxes are imposed on 
those involved in the distribution chain of alcohol, tobacco, 
and firearms products, which amounted last year to $106 
million.
    And, finally, firearms and explosives dealers paid license 
fees to the tune of $4 million.
    That brings us to the larger of Federal excise taxes on 
alcohol, on the top half of the pie chart, showing by industry, 
beer producers paying over $3 billion, distilled spirits 
producers just under $3 billion, and wine producers, almost 
half a billion dollars.
    Tobacco producers also pay excise taxes of over $5 billion. 
In this last category, as the Director mentioned, with the tax 
increases already passed by Congress, revenue from tobacco will 
increase our overall collections to approximately $15 billion.
    Now, to protect the smooth flow of this revenue, ATF 
initiated a proactive outreach program in the summer of 1998. 
We began by visiting several of our largest taxpayers, 
primarily large producers in the beverage alcohol industry to 
discuss mutual Y2K concerns and preparations. I've also 
addressed an industry-wide Y2K task force of alcoholic-
beverage-industry representatives. As recently as last week, we 
hosted major alcohol and tobacco industry members at our 
headquarters and via teleconference in a meeting to continue 
these important conversations.
    Our outreach efforts are aimed at assisting industry 
members with contingency plans for tax calculations and payment 
processes in order to prevent any disruption to the flow of 
Federal excise tax revenue. I've been invited to address a 
major industry conference next month to explain our 
expectations for industry.
    And complementary to these conversations, we are creating a 
Y2K Internet site that will be designed to streamline 
communication with our industry partners and taxpayers.
    In concert with these efforts, similar to comments of 
Commissioner Rossotti in the earlier panel, we are looking at 
internal policies that would enable ATF to mitigate or waive 
penalties for late payments due to Y2K disruptions which are 
out of the control of our taxpayers.
    Finally, in addition to our efforts with our industry 
partners, we are also working with other Federal agencies, such 
as our sister bureau, the Financial Management Service, the 
Federal Reserve and its financial institutions to ensure that 
there will be no disruptions to the revenue flow.
    In closing, we are confident that ATF has a viable Y2K 
program that is linked to the success of our core business 
areas, and we will continue to work diligently to assure the 
continuation of our mission. We have enjoyed our longstanding 
partnership with industry, and we look forward to building on 
that relationship as we deal collectively with year 2000 
issues.
    Thank you, Mr. Chairman.
    [The prepared statement follows:]

Statement of Patrick Schambach, Assistant Director, Science and 
Technology, Chief Information Officer, and Year 2000 Senior Executive, 
Bureau of Alcohol, Tobacco, and Firearms

                              Introduction
    I am Patrick Schambach, Assistant Director of Science and 
Technology at the Bureau of Alcohol, Tobacco and Firearms. 
Additionally, I am the Bureau's Chief Information Officer (CIO) 
and Year 2000 Senior Executive. I appreciate the opportunity to 
acquaint you with the status of ATF's year 2000 program, our 
renovation efforts and our remaining challenges that will 
ensure the continuation of vital services provided through ATF 
programs.
                               Background
    ATF established a program in 1996 to address the Y2K 
challenge. As with many organizations, the initial focus of our 
program was to educate our people and assure our Information 
Technology systems were compliant with the century date change. 
As our awareness and knowledge increased it quickly became 
evident that the scope and focus of our program had to change 
to meet those challenges. What began as a modest Information 
Technology (IT) effort, consisting of 67 legacy application 
systems, now encompasses over 150 application systems Bureau-
wide and a myriad of hardware, commercial software, and other 
specialty equipment and infrastructure areas that affect ATF's 
core business activities. As you have heard from many other 
witnesses, the Y2k challenge has tentacles into every corner of 
our organization, and extends beyond the boundaries of our 
organization into our relationships with many other entities.

Y2K Program Structure

    Our Year 2000 efforts can be categorized into the following 
major areas:
    Information Technology Systems, Non-Information Technology 
Systems, Business Continuity and Contingency Planning, Crisis 
Management, and Outreach. Over 30 full-time equivalent 
positions, both ATF employees and consultants, support these 
efforts. Additionally, representatives from other Bureau core 
business areas outside of the IT organization actively 
participate in each of these major efforts. In 1997 an 
Integrated Project Team was established. This team, chaired by 
me, was established to provide an open forum for communicating 
Y2K status throughout our organization and for raising and 
resolving Y2K related business issues.

Current Status

    I'd like to focus my remaining remarks in two distinct 
parts--those activities aimed at internal ATF preparations for 
the century date change--followed by external preparations 
aimed at preserving the smooth flow of revenue that ATF is 
charged to collect from the alcohol, tobacco and firearms 
industries.

Internal Preparations

    Information Technology Systems: We have identified 156 
Information Technology systems in operation within ATF. Of 
these, 24 are mission critical. All 24 have completed 
assessment: 19 are Year 2000 compliant and 5 systems remain to 
be replaced. System development efforts are underway to 
construct Y2K-compliant replacements for these 5 systems in FY 
'99. Additionally, we are certifying our hardware platforms to 
provide the best assurance possible that our client-server 
computers and personal computers will function properly. 
Concurrently, we are updating our contingency plans that have 
been developed for each of our mission critical systems, so 
that we have realistic and actionable alternatives should we 
experience an unexpected failure.
    Non-Information Technology Systems: We have identified 129 
Non-Information Technology Systems within ATF. Of these, 85 are 
mission critical. Eighty of these systems have been assessed, 
and 32 are Year 2000-compliant. Renovation plans are in place 
to repair, replace or retire the remaining systems determined 
to be non-compliant. In addition, several facility and security 
assessments at key ATF locations throughout the country are 
underway. As with the IT effort, we are updating our 
contingency plans that have been developed for each of our Non-
IT mission critical systems.
    Business Continuity/Contingency Planning and Crisis 
Management: While it is our goal to avoid any ``unexpected 
surprises,'' to insure our vital business processes remain 
intact or can be resumed in the most expeditious manner, we are 
developing business continuity plans relative to our core 
business processes. Concurrently, I have started planning 
efforts for an ATF Crisis Management operation. The primary 
purpose of this initiative is to activate a centralized team 
during the century date-change period. This team will have the 
authority and expertise to receive reports of suspected Y2k 
failures, and to analyze, resolve and make appropriate business 
decisions to effectively address unplanned outages anywhere 
within ATF operations. I expect to have this team in place and 
operational in late 1999, working through the New Year's 
holiday weekend, and collecting input from more than 220 ATF 
locations throughout the country.

External Preparations

    As you can see from the chart presented here in the hearing 
room, ATF is responsible for collecting over $12 billion 
annually in federal excise and other taxes. On this chart ATF 
revenues are broken down by industry-type to give you an idea 
of our tax-paying ``customer'' base.
    Outreach: With the intent of protecting the smooth flow of 
this revenue, ATF initiated a proactive outreach program in the 
Summer of 1998. My counterpart, Mr. William Earle, the Bureau's 
Chief Financial Officer and I began by visiting several of our 
largest taxpayers, primarily large producers in the beverage 
alcohol industry, to discuss Y2k concerns and preparations. I 
have also addressed an industry-wide Y2K Task Force of 
alcoholic beverage industry representatives. As recently as 
last week, we hosted alcohol, tobacco, and firearms industry 
members at our headquarters -and via teleconference -to 
continue these important conversations.
    Our outreach efforts are aimed at assisting industry 
members with contingency plans for tax calculations and payment 
processes in order to prevent any disruption to the smooth flow 
of federal excise tax revenue. I have been invited to address a 
major industry conference next month to explain our 
expectations for industry in preparing for the century date 
change. Complimentary to these conversations, we are creating a 
Y2K Internet site that will be designed to streamline 
communication with our industry partners and taxpayers. It is 
our intent to provide pertinent ATF Y2K information that will 
be useful to our industry partners and will provide them a 
direct link to address concerns.
    In concert with these efforts, we are looking at internal 
policies that would enable ATF to mitigate or waive penalties 
for late revenue payments due to Y2K disruptions which are out 
of the control of the taxpayer. Finally, in addition to our 
efforts with our industry partners, we are also working with 
other Federal agencies and financial institutions to ensure 
that there will be no disruption to the revenue flow process.
                                Closing
    In closing, we are confident that ATF has a viable Y2K 
program that is linked to the success of our core business 
areas. We will continue to work diligently to ensure the 
continuation of our mission. We have enjoyed our long-standing 
partnership with industry and we look forward to building on 
that relationship as we deal collectively with year 2000 
issues.
    Thank you again for the opportunity to appear before you 
today. I would be happy to answer any questions you may have.
[GRAPHIC] [TIFF OMITTED] T6850.003


                                <F-dash>


    Chairman Archer. Thank you, Mr. Schambach.
    Mr. Hall, if you'll identify yourself, you may proceed.

 STATEMENT OF S.W. HALL, JR., ASSISTANT COMMISSIONER AND CHIEF 
           INFORMATION OFFICER, U.S. CUSTOMS SERVICE

    Mr. Hall. Mr. Chairman, my name is S.W. Hall, Jr. I 
currently serve as the Assistant Commissioner for Information 
and Technology, and Chief Information Officer at the U.S. 
Customs Service.
    Mr. Chairman and members, I would like to thank you for the 
opportunity to report on the progress of the year 2000 program 
at U.S. Customs. I'd like to make some brief remarks and then 
submit my statement for the record.
    Ensuring that the U.S. Customs automated systems are Y2K 
compliant is critical to the smooth flow of trade imports and 
exports, the movement of passengers in and out of the country, 
timely revenue collection, and effective enforcement of 
national laws.
    My message today is that Customs is well on its way to 
ensuring that these vital systems are ready for the new 
millennium. At this point in time I am happy to report that we 
have reviewed 25 million lines of code in our mission-critical 
systems, and have returned those to production. We are in the 
midst of a major independent verification and validation 
effort, where we are using automated tools to rescreen that 
software to make sure that things have not been overlooked.
    We are doing an independent functional review of our 
processes to make sure we had indeed followed our internal 
testing protocols. We are planning to put an emergency response 
center capability in place beginning this summer which will 
allow us to support our trade partners as well as any 
unforeseen national infrastructure issues that might arise 
affecting the operational viability of our systems.
    We are in the process of completing the replacement or 
upgrading of approximately 20,000 personal computers nationwide 
to make sure that they are Y2K compliant. We are in the process 
of replacing and upgrading approximately 300 telephone systems 
and almost 200 voice mail systems to likewise ensure that they 
remain operationally viable. And, we are completing a 
comprehensive set of business continuity of operations plans 
that ensure that each major operating location has contingency 
procedures in place to deal with either local or national 
conditions that might arise.
    We have had some independent review of our approach to the 
Y2K remediation effort. We've received a favorable audit from 
the General Accounting Office and the Treasury Department's 
Inspector General, which found that our management approach to 
this major challenge is disciplined and effective. We have had 
an independent review done by the Gartner Group, an independent 
consulting group that specializes in auditing and analyzing IT, 
information technology, issues. And they declared our program 
to be among the best in class.
    We have also had the management of this effort recognized 
by government Executive magazine as one of the top 20 
management success stories this past year in the Federal 
Government, and our Y2K program manager was recognized by 
government Computer News as an example of a very successful 
government information technology manager.
    With this in mind, I'd like to conclude by assuring you 
that we believe that the Customs Y2K program is on track and 
demonstrates when provided the necessary support and resources, 
that we can attack a large system challenge successfully and 
get done what needs to be done.
    This concludes my remarks, and I'd be happy to answer any 
questions that you might have.
    [The prepared statement follows:]

Statement of S.W. Hall, Jr., Assistant Commissioner and Chief 
Information Officer, U.S. Customs Service

   The Year 2000 Program at Customs--``Current Status and Remaining 
                              Challenges''

    On May 7, 1998, the Assistant Commissioner, Office of 
Finance and Chief Financial Officer for the U.S. Customs 
Service, testified before this Committee's Subcommittee on 
Oversight. During her testimony, she provided the Committee 
with an overview of the Customs Year 2000 Program and the 
status of the Program at that time. Today, I wish to provide 
the Committee with a brief update on the current status of the 
Year 2000 Program at Customs, a summary of the accomplishments 
which the Program has realized to-date, and a description of 
the ongoing tasks which the agency intends to complete prior to 
the advent of Fiscal Year 2000.
                                Overview
    On a yearly basis, Customs mission critical computer 
systems process over $850 billion worth of imported merchandise 
and account for the collection of more than $21 billion in 
revenue. Annually, information concerning over 450 million 
people who enter the United States from foreign lands are 
processed by Customs law enforcement and targeting systems. 
Other systems process export information, provide 
administrative and payroll support to the Customs Service, and 
support trade, carrier and other commercial organizations.
    Crucial to the fulfillment of the Customs Mission, Customs 
computer systems are also vital to the operational success of 
other federal government agencies with whom Customs shares 
electronic information: The U.S. Census Bureau, the U.S. Fish 
and Wildlife Service, the U.S. Food and Drug Administration, 
The U.S. Department of Justice, the U.S. Department of 
Agriculture, and Customs' sister bureaus within the Department 
of the Treasury are representative of the government agencies 
with whom Customs systems interface and share information.
    Customs overarching objective in addressing the Year 2000 
Problem was to ensure that its mainframe mission critical 
computer systems continue to deliver timely, reliable, and 
accurate information, without interruption, into the new 
millennium. To achieve this goal, the Customs Year 2000 Program 
reviewed approximately 25 million lines of computer code and 
successfully renovated, tested for Year 2000 compliance, and 
migrated into the Customs Production environment 100 % of its 
mainframe mission critical assets. This monumental feat was 
accomplished within budget, in accordance with General 
Accounting Office guidelines, and in advance of deadline dates 
imposed by the Department of the Treasury and the Office of 
Management and Budget.
    With Customs mainframe mission critical systems Year 2000 
compliant and fully functional, assuming the public data and 
telephone infrastructure is also Year 2000 compliant, Customs 
can continue to operate in an efficient , effective, and 
dependable manner. If these systems were not Year 2000 
compliant however, the results to Customs operations would be 
devastating. Millions of passengers and billions of dollars 
worth of merchandise arriving into the U.S. would have to be 
processed manually, thus creating delays and contributing to a 
loss of revenue. The integrity of U.S. borders would be 
jeopardized, and efforts to apprehend criminals and interdict 
narcotics would be severely crippled.
                   Year 2000 Program Accomplishments
    Guided by the Year 2000 Executive Council and through the 
proper management, allocation, and mobilization of necessary 
resources, the award-winning Customs Year 2000 Program has 
successfully met the Year 2000 Program milestones established 
by GAO, OMB and Treasury. In fact, the combined audit team from 
GAO and the Inspector General's Office within Treasury found 
that ``Customs Has Established Effective Year 2000 Program 
Controls.'' In addition to the timely renovation, validation, 
and implementation of Customs mission critical mainframe 
computer systems, Customs has also:
    <bullet> Validated and tested its mainframe mission 
critical hardware, including network and communication 
interfacing equipment.
    <bullet> Renovated, validated, and tested the computerized 
user developed programs which interface with Customs mainframe 
computer systems, tables and files.
    <bullet> Validated and tested the computer software used in 
conjunction with its mainframe and personal computers. These 
software packages, including operating systems, capacity 
planning tools, security packages, word processors and 
spreadsheets, were tested in Customs own systems environment.
    <bullet> Identified, tested, and evaluated over 5,000 non-
information technology (non-IT) assets for Year 2000 compliance 
including facilities systems, portable radios, lab equipment, 
building security systems, and other such products having date-
related functions. Sixty non-IT products assessed as non-
compliant will be renovated or replaced prior to May 1999.
    <bullet> Completed, and submitted to Treasury, business 
continuity of operations, technical compliance assurance and 
business quality assurance plans. These plans were developed as 
a contingency against potential Year 2000 induced failures. 
These plans have been used by Treasury as a model for use by 
its other bureaus. A simulated test of these procedures, at the 
Customs Port in Houston, Texas, was postponed due to local 
trade community opposition.
    <bullet> Conducted awareness conferences throughout the 
country, addressing Year 2000 issues of concern to field level 
Custom offices.
    <bullet> Completed the development of recommendations for a 
Year 2000 Emergency Response Center (ERC). The purpose of the 
ERC is to protect our private and public sector trading 
partners as well as our field support from Year 2000-induced IT 
failures. Although Customs is confident in the thoroughness and 
quality of its Year 2000 remediation process, there are 
external risks over which the agency has no control (e.g., non-
compliant data exchanges from our trading partners, civil 
infrastructure failures). We are taking this proactive step to 
provide further assurance that service to the field offices and 
to our public is unaffected. Our objective is to have the ERC 
operational starting August 1, 1999.
                          Remaining Challenges
    While the Customs Year 2000 Program is on-schedule and has 
continued to meet all prescribed deadline dates for completion 
of its many processes, there is still much work to be 
accomplished in the months ahead. Briefly, the Customs Year 
2000 Program will be undertaking the following tasks:
    <bullet> Though Customs mainframe mission critical systems 
have been successfully tested and are functioning properly, to 
further ensure the functionality of the systems, we are re-
testing and will continue to re-test all systems via simulated 
post-2000 environments.
    <bullet> Customs is continuing a series of tests with 
organizations with whom we interface. These external interface 
tests, which began in January 1998, will continue through June 
1999. The tests will assist these interfacing organizations in 
ensuring that their systems will work with Customs into the 
Year 2000 and beyond.
    <bullet> Customs is either checking, upgrading, or 
replacing nearly 19,000 personal computers to be Year 2000 
compliant. This task is nearly 60% completed. It is anticipated 
that all systems, including their software, will either be 
replaced or upgraded by June 1999.
    <bullet> Customs is currently replacing 300 telephone 
systems and 156 voice mail systems. Year 2000 related upgrades 
are being performed on 34 voice mail systems. It is anticipated 
that this task will be completed by June 1999.
    <bullet> Customs recently completed Business Continuity Of 
Operation Plans and quality assurance plans for its major 
business processes. The Information Technology Continuity Of 
Operations Plans, in support of Customs business functions, are 
in process and will be completed by June 1999.
    <bullet> Customs is conducting an Independent Verification 
and Validation (IV&V) Program. Upon the completion of the IV&V 
Program, Customs will have reasonable assurance that all of 
Customs systems are Year 2000 compliant and that the processes 
used in the conduct of the Year 2000 Program followed 
appropriate GAO, OMB, and Treasury guidelines. The IV&V Program 
includes the use of an automated tool which double checks 
potential date problems which may have been overlooked in the 
original testing of renovated computer programs. The IV&V 
Program will continue through June 1999.
    <bullet> Customs is in the process of developing formalized 
plans and an implementation schedule for the Year 2000 ERC. The 
plans are based on the recommendations developed in December 
1998.
    <bullet> Customs anticipates completion of the renovation, 
testing, and replacement of its non-compliant non-IT assets by 
May 1999.
    <bullet> Through January 31, 1999, Customs expended 
approximately $85 million on the Year 2000 Program. We 
currently expect to complete all Year 2000 remediation efforts 
under the original project estimate of $120 million.
          Long-Term Benefits of the Year 2000 Project Approach
    Customs implemented its Year 2000 Program with an eye to 
the future. The plans, processes, and procedures put into place 
to support the Year 2000 effort were developed so that Agency 
operations could continue to benefit from this value-added 
approach well after the year 2000 has passed. These long-term 
benefits, most of which are based on the agency's ``lessons 
learned and best practices,'' include:
    <bullet> The completion of a comprehensive inventory of 
applications and user procedures which cross-reference system 
files, tables, and systems users, both within and outside of 
Customs.
    <bullet> The development of a coordinated approach, and 
repeatable processes, to project management and tracking, 
through a Project Program Office. The success of the Customs 
approach has been recognized with an award of excellence by 
Government Executive Magazine.
    <bullet> The upgrade and standardization of various 
equipment and systems at both Headquarters offices and field 
locations. This approach will create a more cost-effective 
asset base and more consistent training methodologies, and will 
facilitate enhanced communications between organizational 
entities within the agency.
    <bullet> The creation of a separate computer system testing 
environment which will be beneficial for other projects as they 
enter the acceptance testing phase of the systems development 
life cycle.
    <bullet> The development of contingency strategies, plans, 
and procedures which will become a permanent part of Customs 
business process environment, and which will be invoked in the 
event of Year 2000 or other induced systems failures.
    <bullet> The development of an awareness of the importance 
of Audit Trail Models and the maintenance of system 
``artifacts.'' Following their audit of the structure and 
processes of the Year 2000 Program, GAO and Treasury Inspector 
General informed Customs that: ``Customs Has Established 
Effective Year 2000 Program Controls.''
    <bullet> The development of an Independent Verification and 
Validation (IV&V) Program. Through the Year 2000 Program, 
Customs developed an IV&V process. Customs will be continuing 
the IV&V Program as part of its ongoing quality assurance 
program which will be incorporated into all OIT projects.
    This concludes my remarks before the Committee. We would 
now be pleased to entertain any questions you may have about 
our Year 2000 Program and our project approach.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Hall.
    Admiral Naccara, welcome. If you'll identify yourself, you 
may proceed.

    STATEMENT OF REAR ADMIRAL GEORGE N. NACCARA, DIRECTOR, 
          INFORMATION AND TECHNOLOGY, U.S. COAST GUARD

    Admiral Naccara. Thank you, sir. I'm George Naccara, the 
Coast Guard's Chief Information Officer. I have responsibility 
for the Coast Guard's Year 2000 project, and thank you very 
much, Mr. Chairman, for the opportunity to testify before you 
and your Committee today.
    The Coast Guard is certainly aware of the potential for 
disruption posed by the so-called Millennium Bug both in Coast 
Guard readiness as well in cooperation with and in support of 
other agencies. We are working diligently to ensure that our 
own information technology systems are prepared for the 
millennium. Our motto is Semper Paratus, Always Ready, and 
therefore we must similarly ensure that our hardware with which 
we deliver our marine safety, environmental protection, search 
and rescue, and maritime law enforcement services to the public 
is also ready.
    On that score, I am pleased to report that we are making 
excellent progress, and we expect our boats, ships, planes, and 
command and control systems will be ready and operating January 
1, 2000, and the many other dates on which there may be Y2K 
events.
    In addition, our managers and technical staffs are 
repairing the administrative and support systems that underpin 
our operations. And we expect them to be repaired and working 
when the new millennium dawns.
    The Coast Guard will leave no stone unturned to prepare its 
technology for the millennium, but will also be ready to 
continue responding to the call even if a piece of technology 
lets us down.
    We have directed our unit commanders and our Headquarters 
program managers to prepare contingency plans for all systems 
that are important to the functioning of their units, hence the 
term ``mission-critical systems'' for us. We recognize that 
even if all Coast Guard systems and equipment are prepared for 
the year 2000 rollover, there is a potential for failures 
across the country in public infrastructure, among our 
suppliers and business partners, and in the industry we 
regulate. To prepare properly for external disruptions that may 
impact the Coast Guard, we are evaluating the range of possible 
Y2K impacts upon the Coast Guard for all regions, and 
developing business continuity contingency plans to address all 
potential problems.
    Now I want to address the Coast Guard's interface with and 
support of the Customs Service and the Bureau of Alcohol, 
Tobacco, and Firearms, and the impact of Y2K in maintaining 
those relationships.
    The primary interaction between the Coast Guard and the 
Customs Service and Bureau of Alcohol, Tobacco, and Firearms is 
the sharing of law enforcement information. We have no direct 
data system contacts with either Customs or ATF. We are, 
however, users of the Treasury Enforcement Communications 
System. And any Y2K problem in that system would affect us. It 
is our understanding from Customs that it is Y2K compliant.
    The Coast Guard, through its Law Enforcement Information 
System, provides information on vessel sightings and boardings 
to the Joint Maritime Information Element, JMIE, a classified 
multi-agency database of maritime intelligence information from 
the Coast Guard, Navy, Customs Service, Drug Enforcement 
Administration, and FBI. The LEIS and JMIE databases reside at 
the Coast Guard Operations Systems Center in Martinsburg, West 
Virginia. They both have undergone Y2K testing and renovation, 
and will be compliant with the OMB-mandated schedule well 
before the year 2000.
    Therefore, law enforcement agencies accessing this JMIE 
system will received the same information as before with no 
anticipated interruption in service.
    Similarly, the Coast Guard has investigated to ensure it 
will be able to receive law enforcement information from other 
agencies. We have determined that the Coast Guard connection to 
the Anti-Drug Network will continue to function correctly. Also 
we receive information from the National Crime Information 
Center through LEIS. That connection has been tested by the 
Coast Guard and is also Y2K compliant.
    The Coast Guard participates directly with the Customs 
Service primarily in counterdrug operations. This includes 
Coast Guard aviation, cutter, and boat support, as well as in 
conducting joint dockside boardings. The primary Y2K concern 
for these operations is in communication capability. The Coast 
Guard communicates with Customs via UHF and VHF radios. We have 
obtained manufacturer verification that most of our radios are 
Y2K compliant. Those that are not will be replaced well before 
January 1, 2000.
    One special initiative between the Coast Guard and Customs, 
though still on a small scale, is still worthy of note. Based 
on a Memorandum of Understanding between our agencies, a small 
number of Coast Guard container inspectors in the port of 
Savannah began to access Customs. Automated Manifest System, 
tracking all incoming merchandise for tariff and legal reasons. 
Coast Guard access is for targeting of hazardous material 
containers for inspection. The arrangement has been very 
successful. And we plan to expand to four additional offices in 
the near future. The system is totally Y2K ready.
    The Coast Guard has very limited and only sporadic direct 
working relationships with ATF. We have no data interfaces or 
any common computer systems or applications.
    Thank you very much, Mr. Chairman.
    [The prepared statement follows:]

Statement of Rear Admiral George N. Naccara, Director, Information and 
Technology

    Good afternoon, Mr. Chairman and distinguished Members of 
the Committee. I am Rear Admiral George Naccara, the Coast 
Guard's Chief Information Officer. I have responsibility for 
the Coast Guard's Year 2000 (Y2K) project. I want to thank you 
for the opportunity to testify before you today.
    The Coast Guard is certainly aware of the potential for 
disruption posed by the so-called millennium bug, both in Coast 
Guard readiness as well as in cooperation with, and support of, 
other agencies. We are working diligently to ensure our own 
information technology systems are prepared for the millennium. 
Our motto is ``Semper Paratus''--Always Ready--and therefore, 
we must similarly ensure that our hardware with which we 
deliver our marine safety, environmental protection, search and 
rescue, and maritime law enforcement services to the public is 
also ready.
    On that score I am pleased to report that we are making 
excellent progress, and we expect our boats, ships, planes, and 
command and control systems will be ready and operating on 
January 1, 2000, and the other dates on which there may be Y2K 
events. In addition, our managers and technical staffs are 
repairing the administrative and support systems that underpin 
our operations, and we expect them to be repaired and working 
when the new millennium dawns.
    The Coast Guard will leave no stone unturned to prepare its 
technology for the millennium, but will also be ready to 
continue responding to the call even if a piece of technology 
lets us down. We have directed our unit commanders and 
headquarters program managers to prepare contingency plans for 
all systems that are important to the functioning of their 
units, hence the term ``mission critical'' system. However, we 
recognize that even if Coast Guard systems and equipment are 
prepared for the year 2000 rollover, there is the potential for 
failures across the country, in public infrastructure, among 
our suppliers and business partners, and in the industry we 
regulate. To prepare properly for external disruptions that may 
impact the Coast Guard, we are evaluating the range of possible 
Y2K impacts upon the Coast Guard for all regions and developing 
Business Continuity Contingency Plans to address potential 
problems.
    I want to address the Coast Guard's interface with, and 
support of, the Customs Service and the Bureau of Alcohol, 
Tobacco, and Firearms, and the impact of Y2K on maintaining 
those relationships.
    The primary interaction between the Coast Guard and the 
Customs Service and Bureau of Alcohol, Tobacco, and Firearms 
(ATF) is in the sharing of law enforcement information. We have 
no direct data system contacts with either Customs or ATF. We 
are, however, users of the Treasury Enforcement Communications 
Systems (TECS) and any TECS Y2K problem would affect us. It is 
our understanding that TECS is Y2K compliant.
    The Coast Guard, through its Law Enforcement Information 
System, version II (LEIS II), provides information on vessel 
sightings and boardings to the Joint Maritime Information 
Element (JMIE). JMIE is a classified multi-agency database of 
maritime intelligence information from the Coast Guard, Navy, 
Customs, Drug Enforcement Administration and Federal Bureau of 
Investigation. The LEIS II and JMIE databases reside at the 
Coast Guard Operations System Center in Martinsburg, WV. They 
both have undergone Y2K testing and renovation and will be Y2K 
compliant in accordance with the Office of Management and 
Budget-mandated schedule well before the year 2000. Therefore, 
law enforcement agencies accessing JMIE will receive the same 
information as before with no anticipated interruption in 
services.
    Similarly, the Coast Guard has investigated to ensure it 
will be able to receive law enforcement information from other 
agencies. We have determined that the Coast Guard connection to 
the Anti-Drug Network (ADNET) will continue to function 
correctly. Also, we receive information from the National Crime 
Information Center (NCIC) through LEIS II. That connection has 
been tested by the Coast Guard and is Y2K compliant.
    The Coast Guard participates directly with the Customs 
Service primarily in counterdrug operations. This includes 
Coast Guard aviation, cutter, and boat support, as well as in 
conducting joint dockside boardings. The primary Y2K concern 
for these operations is in communications capability. The Coast 
Guard communicates with Customs via UHF and VHF-FM radios. We 
have obtained manufacturer verification that most of our radios 
are already Y2K compliant. Those that are not compliant will be 
replaced by January 1, 2000. One special initiative between the 
Coast Guard and Customs, though still on a small scale, is also 
worthy of note. Based upon a Memorandum of Understanding 
between the Coast Guard and Customs, a small number of Coast 
Guard container inspectors at our Captain of the Port (COTP) 
office in Savannah began in 1992 to access Customs' Automated 
Manifest System (AMS), which tracks all incoming merchandise 
for tariff and legal reasons. Coast Guard access is for 
targeting of hazardous material containers for inspection. The 
arrangement has been very successful at the Savannah site, and 
a program to expand to four additional COTP offices has been 
funded and is now coming on-line. The system is Y2K ready. As a 
result, we do not anticipate any Y2K threat to Coast Guard and 
Customs joint operations.
    The Coast Guard has very limited and only sporadic direct 
working relations with ATF. We have no data interfaces or any 
common computer systems or applications.
    I will be happy to answer any questions you might have.

                                <F-dash>


    Chairman Archer. Thank you, Admiral.
    Mr. Clawson, if you will identify yourself for the record, 
you may proceed.

  STATEMENT OF JAMES B. CLAWSON, SECRETARIAT, JOINT INDUSTRY 
                             GROUP

    Mr. Clawson. Thank you, Mr. Chairman, Members of the 
Committee. I am Jim Clawson, I'm chief executive officer of JBC 
International and for purposes of this hearing, secretariat to 
the Joint Industry Group. The Joint Industry Group is a member-
driven collection of over 140 companies and associations and 
firms representing about $350 billion in international trade. 
We concern ourselves with the Customs issues worldwide.
    Our purpose in being here, and we appreciate this 
opportunity, is to talk about the Y2K compliance of the U.S. 
Customs Service. We've known about this programming glitch in 
the private sector with Customs for many years. In fact, in the 
late 1980's and early 1990's, our view was that how we were 
going to fix it was to pass the Customs Modernization Act, 
which provided for a totally new automated system that we 
thought would be in place by now. And it was our belief that 
all of those elements that we are looking at now with the Y2K 
would be taken care of.
    Boy we sure missed that action and misjudged that because 
here we are in 1999 without a new system, but we are here to 
tell you that customs by diverting resources that it was going 
to use in developing the new system has been able to look at 
all of the data lines, and we're here to say to this Committee 
and we are very pleased that the Customs Service has done a 
good job under very difficult conditions in renovating its 
legacy systems and getting the Y2K compliance and renovation 
done.
    My written testimony describes in more detail that 
renovation, but that's not all of the story. As we've heard 
here today a great deal of those systems are so interdependent 
with what the other folks are doing that there is still some 
concern with us. We are concerned about the private sector's 
compliance of their renovation of the Y2K programs as well as 
other agencies in the U.S. Government. The Customs Service 
performs multiple functions for many agencies as well as 
internationally.
    You heard this morning about some other countries that may 
not be Y2K compliant. I don't say this lightly. In my capacity 
with JBC International, we have done a survey of 100 other 
countries and their Customs compliance with the Y2K issues. 
U.S. Customs is a world leader. Let me say that it doesn't look 
good in the rest of these other countries. There are some real 
concerns about the kind of information that might be coming 
internationally, and the kinds of disruptions that that might 
cause to the U.S. Customs, even though it can deal with it 
properly.
    Also, we are concerned about the information with regard to 
transportation, telecommunications, the transportation 
companies, particularly in ocean freight. Many of them are 
foreign-owned, they are not operating under U.S. requirements--
there are just a whole bunch of these outstanding issues that 
are out there that we don't have control over.
    So that's of concern to the private sector in these 
mission-critical elements in the supply chain management and 
getting just-in-time inventories. And we have become so 
dependent today on that supply-chain for our economy to 
continue.
    Now for those issues, what can we do? Some of the countries 
can still do manual clearance. You have heard IRS say today 
that it cannot go back to manual processing. Our belief is that 
the U.S. Customs Service is not able to go back to a manual 
system either. You may have seen some newspaper articles about 
Customs trying to do some tests in one of the ports in case of 
any kind of contingency planning to go back to manual systems. 
The private sector was very unhappy about that. It didn't want 
to do it. It's a real problem for us in terms of what happens 
if a system fails. On this point, it isn't the Y2K that is a 
real problem for us, it is the antiquated legacy system that we 
have been trying to replace with ACE.
    What we are facing is that there has not been sufficient 
funding. This Committee was kind enough to authorize another 
$50 million in legislation that just passed, but we've got to 
get some money appropriated for them to do the work on getting 
this system upgraded and in place to perform the services that 
the private sector is paying for. In fact, there is a 
merchandise processing fee the private sector--this is not like 
taxpayers money--pays that raises almost $1 billion a year. 
This, for the privilege of having their goods cleared. We think 
that those moneys are there to keep these systems up to date. 
What we're looking for is the ability to, as payers of this 
user fee, is the ability to have the services provided and 
benefit from those services.
    We're comfortable that some of the work that is being done 
on Y2K is going to take place, but we're very uncomfortable 
about the fact that the system itself may collapse. And it may 
not even be in place by the end of the year to see if Y2K 
works.
    And with that, I would like to encourage this Committee in 
its other capacities to look at that part of the issue. We are 
happy to work with you in any way we can.
    I'm here to answer any questions you may have.
    [The prepared statement follows:]

Statement of James B. Clawson, Secretariat, Joint 
Industry Group

                              Introduction
    My name is James B. Clawson and among many other 
responsibilities I serve as the Secretariat to the Joint 
Industry Group (JIG). JIG is a member-driven coalition of over 
one hundred-forty Fortune 500 companies, brokers, importers, 
exporters, trade associations, and law firms actively involved 
in international trade. We both examine and reflect the 
concerns of the business community relative to current and 
proposed international trade-related policies, actions, 
legislation, and regulations and undertake to improve them 
through dialogue with the Executive Branch and Congress. JIG 
membership represents more than $350 billion in trade.
    The Year 2000 problem goes back to the early days of 
computer programming, when memory capacity was nowhere near 
what it is today. In an effort to efficiently use a limited 
amount of memory, programmers used two-digits to represent 
years instead of four-digits. As a result, computers using 
software so programmed cannot distinguish between the year 1900 
and 2000.
                          Year 2000 Background
    Although some economists and analysts are attempting to 
assess the possible impact of the Y2K problem as it is called, 
no one really knows how extensive the effects will be. 
Obviously, all computer hardware and software will have to be 
checked and re-programmed to deal with the Y2K problem. 
Compounding the problem, however, is the amount of non-Y2K 
compliant hardware and software embedded in anything from 
consumer electronics to medical devices.
    The U.S. is currently one of very few countries worldwide 
that is monitoring the progress of government agencies on a 
regular basis. We commend Congress, the Administration, and 
government agencies for taking this problem seriously.
                       Customs Year 2000 Progress
    JIG has enjoyed a cooperative relationship with the U.S. 
Customs Service for several years. Our coalition has closely 
followed their progress in achieving Y2K compliance for all of 
its mission critical systems. We appreciate the enormous effort 
and resources that the Customs Service has allocated to 
renovating all of its computer systems; particularly those 
involved in the processing of trade transactions. The trade 
community is dependent on the functionality of Customs 
automated systems and must be assured that the interaction will 
continue as normal at the dawning of the new millennium.
    Customs has performed several internal tests of their 
computer systems, including tests with other government 
agencies, software providers, and one financial institution. On 
January 22, 1999, the Customs Service opened testing to the 
private sector so that the interface between the trade 
community and Customs can be evaluated for compliance. Customs 
supplies test data, while industry participants are responsible 
for advancing their system clocks to test compliance.
    Although industry appreciated Customs' invitation, the 
private sector is hesitant to allocate the time and equipment 
to conduct the test because Customs is offering no incentive to 
participate. One way to induce industry participation is for 
Customs to provide a Year 2000 statement of compliance to 
software providers that sell products that directly interface 
with Customs. Once the software provider has been tested and 
evaluated as compliant with Customs systems, Customs can permit 
the company to use the compliance statement on marketing 
documents and company websites. Such a statement will provide 
assurances to those companies using the software that its 
systems, working with the Customs' system, will experience no 
glitches because of Year 2000 problems. Similar to the 
statement of compliance, Customs could offer the use of a mark 
or similar certification after software providers or other 
companies have successfully completed the testing.
    Because Customs has not provided a mechanism for 
guaranteeing that after the testing is complete that the 
participant's systems will continue to effectively interface 
with Customs in the Year 2000, companies are not willing to 
allocate the time or resources. An incentive program would not 
only benefit export-import software providers, but also their 
customers and companies using proprietary internal software to 
interface with Customs.
    After meeting with several Customs officials to discuss 
their progress, we are satisfied that the Customs Service has 
prepared its computer systems to continue operations 
uninterrupted after January 1, 2000. We question, though, the 
preparedness of the users of Customs automated systems--
companies, brokers, and other government agencies. Shutdowns 
caused by non-Y2K compliant systems will affect the entire 
import processing system and will lead to timely and costly 
delays in the clearance of goods at our nation's ports and 
border crossings.
    Clearance of imports by other government agencies through 
the U.S. Customs system is critical. Up to 40 percent of 
entries can require approval from the Food and Drug 
Administration. The Department of Agriculture inspection 
agencies work closely with U.S. Customs in the ports. The 
Bureau of Alcohol, Tobacco and Firearms, the Department of 
Transportation and many more must be consulted to approve 
imports and exports. From a review of these agencies' progress 
in becoming Y2K compliant, the fact that U.S. Customs has 
completed and tested its systems may be irrelevant to the 
private sector if these other agencies cannot clear the goods.
    We strongly urge the government to keep the pressure on all 
departments and agencies to complete renovation and test their 
mission critical systems. We also request that the government 
find ways to encourage the private sector to jointly conduct 
tests with the respective government agencies to ensure that 
their computer systems can handle the rollover to the year 
2000.
                       Customs Automated Systems
    Our perception of the government's Y2K readiness, 
particularly the Customs Service, may be irrelevant. Customs 
Assistant Commissioner for Information Technology, Woody Hall, 
stated it best in a February 18, 1999, Wall Street Journal 
article when he said, ``The joke around here is that a lot of 
good it's going to do you to be Y2K-compliant if the system 
crashes around you.'' The current system, the Automated 
Commercial System (ACS), is nearly 15 years old and is showing 
its age. After several brownouts in the past year, Customs is 
more determined than ever that a new system must be created. 
Although the new system, the Automated Commercial Environment 
(ACE) is already in development stages, ACS must be kept 
operational as new ACE applications are brought online. With 
only $8 million available in FY 1999, keeping ACS functional is 
an enormous obstacle for Customs. The effects of patchwork 
repairs on ACS that Customs has resorted to because of lack of 
funding are spilling over to industry as brownouts, slow-downs, 
and other reductions in ``user service.'' These problems will 
inevitably slow or even halt trade if ACS and its replacements 
are not properly funded.
    Failure to replace the aging components of ACS with 
comparable elements from ACE prior to ACS's eventual collapse 
will shut down the import process and thereby harm all U.S. 
importers and manufacturers, particularly those who rely on 
just-in-time delivery systems. Importers will be forced, if it 
is even available, to file import entry information through a 
time consuming paper process rather than through quick and 
efficient electronic means. The loss of revenue to the 
government will be staggering and the costs that consumers will 
eventually pay will rise.
    Customs has made significant efforts to develop a 
comprehensive ACE Business Plan, which has been revised as 
industry and government needs have changed. The system is 
intended to be modular, in that components of ACE can be 
adapted as new technology or new needs arise. Customs has 
stated that they intend to work with outside contractors to 
build the system because the private sector has the most 
innovative technologies and systems development expertise. 
Customs has made valiant efforts to include the trade community 
in ACE design through the Trade Support Network (TSN) 
conferences. Customs is sensitive to its customer requirements 
but more needs to be done by both the private sector and 
Customs to ensure the new systems will be open, interoperable, 
and capable of meeting the challenges of the new millenium.
    Unfortunately, ACE planning and implementation is stalled. 
The White House has shown absolutely no support for Customs 
automation. Industry is insulted by the Administration's 
proposal for a new ``user fee'' that importers will pay for the 
``privilege'' of using Customs automated processing systems. Of 
the monies proposed to be collected, the Administration has set 
aside only $163 million and $150 million of that cannot be 
spent on automation until 2001.
    This approach is unacceptable. First, the trade community 
is already paying for Customs automation through taxes, duties, 
and the merchandise-processing ``user'' fee imposed a number of 
years ago to pay for the commercial clearance of goods (which 
at the time was 90 percent automated). Since 1994, the 
merchandise-processing user fee accounts for an average of $800 
million annually. This fee should have been used to keep the 
automated system updated and current for its users.
    Secondly, at the proposed spending rate for the proposed 
new fee of $150 million per year, ACE (at a total cost of about 
$1.2 billion) will take approximately 8 years to develop. An 8-
year development cycle for any automated system is unheard of. 
By the time ACE is fully implemented, the technology will be 
obsolete. So, under this proposal the private sector traders 
who represent the bulk of this nation's economy will be paying 
over $1 billion in new ``user fees'' for something it has 
already paid for and that may be outdated when it arrives. We 
deserve better than this from our government.
    In addition to the lack of support from the Administration, 
the General Accounting Office (GAO) has consistently criticized 
Customs efforts. GAO disdainfully points out that Customs has 
not completed a sufficient ACE design plan from start to 
finish. Although many points in the most recent GAO reports are 
legitimate concerns shared by the private sector, some GAO 
comments do not consider the technology or development process 
involved in these unique Customs automated systems. We know of 
no other system in government where the private sector and 
government exchange millions of electronic communications 24 
hours a day filing multiple tax returns resulting in more than 
$23 billion in revenue to the U.S. Government.
    Realizing that it is impossible to anticipate advances in 
technology, Customs has developed a framework for the 
functionality that the system should perform. The technical 
aspects of the initial releases of ACE should be fairly well 
documented, but it is shortsighted to plan for the technical 
design of future modules now. It is also essential that GAO 
acknowledge that Customs personnel will not be ``building'' 
ACE. Customs' responsibilities are to work with the private 
sector to define the requirements and specifications for the 
system, leaving the technical design to outside contractors.
    Industry applauds Customs for developing a plan that 
includes a detailed description of the ACS to ACE migration 
strategy. The plan explains that portions of ACS must remain 
operational during ACE development. As components of ACS are 
redesigned into ACE modules, only those portions of ACS will be 
turned off. This method of implementation seeks to ensure 
minimal disruptions in trade during development and 
implementation. In order for the conversion to be successful, 
Customs must have the money to keep ACS operational during ACE 
development.
    Although the Year 2000 problem does not directly affect the 
International Trade Data System (ITDS) proposed by the Treasury 
Department, JIG would like to express our continued support of 
the overall concept. ITDS is a project that has demonstrated 
that hundreds of government agencies can coordinate their 
automation policies and systems to create a ``front-end'' 
interface that the government will use to distribute 
international trade data collected from industry. JIG is 
concerned, though, that too much emphasis is focused on ITDS 
development at the expense of ACE. As the ``functional'' part 
of the government's automated processing system, it is more 
important to develop ACE now rather than designing a data 
interface system. If no ``functional'' module operates, the 
development of the ``front-end'' interface is irrelevant.
                               Conclusion
    JIG requests the Ways and Means Committee to authorize the 
estimated $1.2 billion to Customs for ACE and ITDS development. 
This will keep the Customs' Y2K renovation elements 
operational. A 4-year ACE and ITDS development cycle is 
essential. During these times when we are discussing budget 
surpluses, we do not understand the reasoning that money is not 
available and a new tax is needed. Automation is an essential 
function of the Customs Service mission for processing trade-
related documentation. The existing budget should reflect this 
responsibility by making automation funding part of the $800 
million user fee revenue amount a baseline component for the 
Customs Service.
    While the Year 2000 is a critical issue, the JIG believes 
that Customs' progress in this area is insignificant if the 
automated systems that they have renovated are not operational. 
Without sufficient monetary resources, Customs and industry 
will be lucky if ACS is still functioning by January 1, 2000.
    On behalf of the JIG, I thank you for this opportunity to 
provide our comments.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Clawson.
    Mr. Schindel, if you will identify yourself you may 
proceed.

 STATEMENT OF DENNIS S. SCHINDEL, ASSISTANT INSPECTOR GENERAL 
  FOR AUDIT, OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT OF 
                            TREASURY

    Mr. Schindel. Mr. Chairman, Members of the Committee, my 
name is Dennis Schindel, I'm the Assistant Inspector General 
for Audit for the Treasury Inspector General.
    This morning I testified on the results of our oversight of 
the Department of Treasury's Y2K efforts, and more 
specifically, FMS. I would now like to briefly summarize the 
results of our work at ATF.
    I want to start off by mentioning that ATF was a bureau 
that we chose to pilot-test our Y2K audit approach. Not only 
was ATF very responsive to our findings and recommendations, 
but they were extremely open and cooperative with us from the 
very beginning of our audit work. This helped our learning 
process and enabled us to share what we learned from ATF with 
other bureaus.
    I also want to point out, that at the time we performed our 
work, ATF too was still learning and adjusting their approaches 
to the best way to manage the Y2K conversion effort.
    It's been 4 months since we issued our draft report to ATF, 
and even longer since we first brought our findings to their 
attention. ATF has taken corrective action on the issues we 
identified during our audit, and their management of the 
process and their progress is greatly improved.
    In our audit, we evaluated ATF's Y2K conversion effort in 
the areas of project management, system conversion and 
certification, and contingency plans for business continuity. 
As with FMS, our focus was on the broader issue of how well ATF 
was managing and controlling their Y2K conversion effort. We 
found that ATF had top management commitment, a good 
infrastructure, skilled resources, and reasonable guidance in 
place to address its Y2K conversion task.
    However, some aspects of managing the effort and 
coordinating among the various components within ATF needed to 
be strengthened. Also, while ATF was generally following GAO's 
Y2K guidance, improvements were needed in some key parts of the 
Y2K conversion process.
    For example, we identified the need for better coordination 
and communication between the Y2K project office and the 
software development staff to accommodate the respective needs 
of all the affected groups within ATF. Originally, we found 
that while the two groups were dependent on each other for Y2K 
certification, they had not coordinated testing, migration and 
certification dates with each other.
    As a result, the Y2K project office was unable to identify 
systems that were ready for certification since the two 
schedules had differences in key system dates. After we 
discussed this issue with ATF, they expedited the 
reconciliation of their testing schedules from these cross-
functional areas with Y2K responsibility.
    We also found that while ATF had identified its data 
exchange partners, they had not developed plans to coordinate 
the testing of their interfaces with these data exchange 
partners.
    ATF's Y2K project management office has now been assigned 
responsibility to ensure data exchange testing procedures are 
incorporated into the compliance testing process.
    In our report to ATF, we included nine specific 
recommendations designed to help ATF strengthen their Y2K 
conversion effort. We recently met with ATF to determine what 
progress they have made since our field work. Although they 
have made significant progress in all areas and have 
implemented most of our recommendations, ATF still has a good 
deal of work ahead of them. They have three mission-critical 
systems that are not expected to be implemented until May, July 
and August of this year. Testing still needs to be performed 
with critical data exchange partners, and business continuity 
plans must be prepared and tested for each core business 
function. ATF is aware of the tight timeframe for the remaining 
tasks, and they have a good infrastructure in place that should 
enable them to effectively address this increased risk.
    As I mentioned earlier in my testimony this morning, we 
plan to do additional work at ATF. We will first focus on the 
results of independent verification and validation, and then 
contingency planning. With three mission-critical systems that 
will not be implemented until after March 1999, it will be 
imperative that ATF have comprehensive contingency plans in 
place that subsequent testing in late 1999 identifies any 
serious Y2K non-compliance.
    This concludes my remarks, and I would be happy to answer 
any questions.
    Chairman Archer. Thank you, Mr. Schindel. Mr. Hite, if you 
will identify yourself for the record, you may proceed.

      STATEMENT OF RANDOLPH C. HITE, ASSOCIATE DIRECTOR, 
GOVERNMENTWIDE AND DEFENSE INFORMATION SYSTEMS, ACCOUNTING AND 
INFORMATION MANAGEMENT DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Hite. Thank you, Mr. Chairman. My name is Randy Hite, 
I'm an Associate Director in GAO's Accounting and Information 
Management Division. My statement today is based on our ongoing 
review of Customs' Y2k program management. That review is being 
done at the request of this Committee's Subcommittee on 
oversight and Subcommittee on trade. Very shortly we will issue 
our report on our review, detailing our findings. Today, I can 
sum those up in two simple words, cautious optimism.
    I'm optimistic because of the good progress that Customs 
has made to date. Mr. Hall described the status of the Y2K 
efforts. I won't repeat that. He did a fair job of describing 
that in an accurate manner. I'm also optimistic because Customs 
has implemented effective controls for managing its program. As 
you know, GAO issued a series of three documents describing a 
set of effective management controls for managing a Y2K 
program. We compared Customs' structures and processes against 
these guides and found that they were fully implementing all of 
the tenets that were specified in those guides. So for these 
reasons, Mr. Chairman, I'm optimistic.
    My optimism is somewhat tempered because Customs' work on 
Y2K is not yet done. And challenging work remains. Hence the 
reason for cautious in my two-word summary. For example, 
important steps remain to be completed, such as end-to-end 
testing, and finalizing testing of continuity of operations 
contingency plans.
    Now, given that Customs must interact with thousands of 
business partners, and in implementing its mission, it relies 
on a decentralized organization involving over 300 ports of 
entry, this is no trivial task. Also, to perform its missions, 
Customs depends on many external systems that are out of its 
control, such as public infrastructure systems, transportation, 
telecommunication, and power. Customs also depends on systems 
owned and operated by its business partners and other 
government agencies.
    For these collective reasons, I am cautiously optimistic.
    Before concluding my statement, I would also like to 
comment briefly on how Y2K is both an IT management problem and 
an IT management opportunity, and to acknowledge Customs' 
stated intention to learn from its Y2K experience and to apply 
these lessons learned to its management of IT in general. Over 
the last 5 years we have reported on a number of agencies in 
terms of IT management weaknesses, particularly those agencies 
that have very large modernization programs.
    We've made a series of recommendations for correcting these 
weaknesses, and I might add that Customs is one of the agencies 
where this has been the case. However, for its Y2K program, 
Customs chose to break from existing IT management practices, 
and instead, institute structured and disciplined processes for 
managing IT, modeled after GAO's year 2000 guides. The result 
is a program that's on target.
    In Y2K, Customs' leadership has stated its intention to 
implement the same kind of management rigor and discipline to 
all of its IT efforts. But I realize an intention to implement 
is a long way from having actually implemented. It's a positive 
first step. And I would submit that other Federal agencies 
would be well-served by following Customs lead and also taking 
this first step.
    Mr. Chairman, this concludes my statement. I'll be happy to 
answer any questions you may have.
    [The prepared statement follows:]

Statement of Randolph C. Hite, Associate Director, Governmentwide and 
Defense Information Systems, Accounting and Information Management 
Division, U.S. General Accounting Office

    Mr. Chairman and Members of the Committee: Thank you for 
inviting me to participate in today's hearing on the challenges 
faced by the Customs Service in responding to the century date 
problem. If this problem is not addressed in time, key 
automated systems affecting trillions of dollars in trade 
between the United States and other countries could 
malfunction, resulting in delayed trade processing, lost trade 
revenue, and increased illegal activities, such as narcotics 
smuggling, money laundering, and commercial fraud. Fortunately, 
Customs has made good progress to date addressing its Year 2000 
problem, thanks in large part to the effective Year 2000 
program management structures and processes that it has in 
place for doing so. Nevertheless, Customs faces certain Year 
2000 challenges, such as completing end-to-end testing, before 
it will be ready to cross into the new millenium. My testimony 
today will address these three areas--progress to date, program 
management effectiveness, and future challenges. Additionally, 
I will comment on how Customs can benefit from its Year 2000 
experience in strengthening its management of information 
technology.
    This testimony is based on our ongoing review of the 
effectiveness of Customs' Year 2000 management and reporting 
controls. We are performing this review at the request of this 
Committee's Oversight Subcommittee and its Trade Subcommittee. 
In short, we have reviewed Customs' Year 2000 management and 
reporting structures and processes, including those relating to 
testing, contingency planning, risk management, and quality 
assurance, and we have compared these to GAO's Year 2000 
Guidance \1\ to determine whether key internal controls are in 
place and functioning as intended. We have also traced the 
reported status of selected system components back to 
supporting systems documentation to verify the reported 
information's accuracy. We conducted our work in collaboration 
with the Treasury Inspector General and in accordance with 
generally accepted government auditing standards between July 
1998 and January 1999.
---------------------------------------------------------------------------
    \1\ Year 2000 Computing Crisis: An Assessment Guide (GAO/AIMD-
10.1.14, issued as an exposure draft in February 1997, issued final in 
September 1997); Year 2000 Computing Crisis: Business Continuity and 
Contingency Planning (GAO/AIMD-10.1.19, issued as an exposure draft in 
March 1998, issued final in August 1998); and Year 2000 Computing 
Crisis: A Testing Guide (GAO/AIMD-10.1.21, issued as an exposure draft 
in June 1998, issued final in November 1998).
---------------------------------------------------------------------------
            Customs' Relies Extensively On Automated Systems
    Addressing the Year 2000 problem in time is critical for 
the Customs Service because it relies extensively on 
information technology to help enforce trade laws and collect 
and account for duties, taxes, and fees on imports.\2\ As the 
following illustrates, Customs has five mission-critical 
systems that run over 20 million lines of application code and 
are used by thousands of users within Customs, other government 
agencies, and the trade community.
---------------------------------------------------------------------------
    \2\ During 1997, Customs collected $22.1 billion in revenue at more 
that 300 ports of entry.
---------------------------------------------------------------------------
    <bullet> The Automated Commercial System (ACS) tracks, 
controls, and processes all commercial goods imported into the 
United States. Over 97 percent of the data filed for imported 
cargo entries are sent through ACS and more than 15,000 trade 
and other government agency users have access to this system.
    <bullet> Customs' Treasury Enforcement Communications 
System (TECS) interfaces with the FBI's National Crime 
Information Center and a number of other law enforcement 
systems and is the major automation component of the 
Interagency Border Inspection System, which serves as a 
clearinghouse for law enforcement data. Some 27,000 users, 
including Customs; Immigration and Naturalization Service; 
Internal Revenue Service; Bureau of Alcohol, Tobacco, and 
Firearms; and the State Department rely on TECS.
    <bullet> The Seized Asset and Case Tracking System 
(SEACATS) processes and tracks activity associated with 
seizures for the initial law enforcement interest in the 
property to its final disposition. This system is used by more 
than 16,000 Customs employees, and it interfaces with the 
Justice Department and Internal Revenue Service systems.
    <bullet> Customs' Automated Export System (AES) collects 
export-related data from exporters and carriers and is used to 
help target export violators. More than 28,000 users nationwide 
rely on this system.
    <bullet> ADMIN is Customs' primary administrative system 
supporting financial and human resource functions. It is 
comprised of 40 separate systems that interface with each other 
and with ACS, AES, and TECS.
    In addition to fixing and testing its systems, Customs must 
assess and remediate a wide range of telecommunications 
equipment and non-information technology (non-IT) assets 
installed in over 900 facilities. This non-IT equipment 
includes check-writers; scanners; optical readers; security 
systems such as badge readers, x-ray systems, cameras, secured 
doors and safes; fire alarms; heating and air conditioning 
systems; planes; and automobiles.
  Customs is Making Good Progress in Addressing its Year 2000 Problem
    As of January 1999, Customs reported that it had met 
milestones recommended by the Office of Management and Budget 
(OMB) for renovating and validating most of its mission-
critical systems.\3\ Specifically, it reported that it had 
completed renovation, validation and systems acceptance testing 
\4\ of all five of its mission-critical systems. Moreover, it 
plans to complete end-to-end testing \5\ for these systems and 
associated telecommunications systems by March 1999.
---------------------------------------------------------------------------
    \3\ OMB requires that agencies complete renovation of their 
mission-critical systems by September 1998, validation by January 1999, 
and implementation by March 1999.
    \4\ The purpose of system acceptance testing is to verify that the 
complete system (i.e., the full complement of application software 
running on the target hardware and systems software infrastructure) 
satisfies specified requirements (functional, performance, and 
security) and is acceptable to end users.
    \5\ The purpose of end-to-end testing is to verify that a defined 
set of interrelated systems, which collectively support an 
organizational core business area or function, interoperate as intended 
in an operational environment, either actual or simulated.
---------------------------------------------------------------------------
    Customs has also renovated most of its telecommunications 
equipment. Specifically, as of January 1999, Customs reported 
that it had assessed all of its national data center-related 
telecommunications systems and renovated, validated, and 
implemented 92 percent of the inventory requiring Year 2000 
work. It had also assessed telecommunications equipment in its 
field offices and completed 68 percent of needed renovations. 
Additionally, Customs had completed about half of the work 
needed on headquarters and field office voice communications 
equipment, including telephone and voice mail systems.
    Customs reported that it has assessed about 82 percent of 
its mission-critical non-information technology products. It 
reported that 95 percent of the products assessed is compliant, 
4 percent requires renovation or replacement and one percent is 
to be retired. It expects to complete this work by May 1999.
    To help ensure that the information it reports on Year 2000 
progress is reliable, Customs has implemented reporting 
controls. For example, quality review teams review the 
information reported for (1) consistency (by comparing it to 
previously reported information), (2) completeness (by 
comparing it to reporting standards), and (3) accuracy (by 
validating it through observation, inquiry, or review of 
supporting documentation). Our review of quality review team 
results, as well as our independent review of the reliability 
of the information reported in selected system components, 
disclosed no discrepancies between what was being reported and 
what supporting system documentation showed actual progress to 
be.
        Effective Management Structure and Processes are Key to 
                            Customs' Success
    GAO's Year 2000 Guides provide a framework for effective 
Year 2000 program management. Collectively, they define a 
comprehensive set of program management controls for planning, 
directing, monitoring, and reporting on Year 2000 efforts.
    Customs' program management structures and processes are 
entirely consistent with GAO guidance, and Customs' good 
progress to date is largely attributable to this program 
management capability. Along these lines, Customs has done the 
following.
    <bullet> Established a Year 2000 Program Office and 
designated a Year 2000 Program Manager in May 1997 and charged 
the office with authority over and responsibility for 
agencywide Year 2000 efforts, including such functional areas 
as Year 2000 contracting, budgeting and planning, technical 
support to project teams, quality assurance, auditing and 
reporting.
    <bullet> Engaged its senior executives in the Year 2000 
effort by charging the agency's Executive Council \6\ with 
approving and overseeing the implementation of the Year 2000 
strategy and resolving such issues as institutional Year 2000 
priorities.
---------------------------------------------------------------------------
    \6\ The Council is co-chaired by the Chief Information Officer and 
the Chief Financial Officer and includes the Year 2000 project managers 
as members.
---------------------------------------------------------------------------
    <bullet> Developed a Year 2000 Strategic Plan and Year 2000 
Operational Program Management Plan in June 1998, which (1) 
identified organizational roles and responsibilities, (2) 
established schedules for completing each program phase and 
described the tasks to be completed under each phase, (3) 
established reporting requirements to track progress in the 
various phases, (4) defined performance measures, and (5) 
estimated and allocated resources for the tasks and system 
activities within these phases.
    <bullet> Issued policies, guidelines, and procedures for 
managing and implementing the Year 2000 program, including 
guidance on quality assurance, configuration management, and 
testing, as well as business continuity and contingency 
planning.
    To ensure that the plans, policies, and guidelines are 
being implemented, the Year 2000 program manager is (1) holding 
weekly status meetings with the Year 2000 Program Office staff 
and the project teams, (2) tracking, prioritizing, and managing 
the risks associated with the IT and non-IT system conversion 
efforts, (3) overseeing and managing budget-related issues, and 
(4) conducting internal audit reviews to monitor and assess the 
implementation of established Year 2000 procedures. The Program 
Office is also tracking progress against plans and identifying 
issues that may impact its strategy using a central database it 
developed.
    Structured and disciplined processes have also been 
implemented for the testing phase of Customs' Year 2000 effort. 
This is important since Customs' key mission-critical systems 
run hundreds of interdependent applications, and must interface 
with thousands of external systems. In particular, Customs 
designated a Year 2000 test manager for mission-critical IT 
systems and assigned this manager authority and responsibility 
for key testing activities, such as defining exit criteria, 
designing and planning the tests, and executing the tests. It 
also established in its Year 2000 Application Testing Strategy 
and Plan an agencywide definition of Year 2000 compliance; 
engaged an independent verification and validation (IV&V) agent 
to ensure that process standards have been followed and that 
software products perform as intended; provided for ensuring 
that vendor-supported IT and non-IT products have been tested 
and that they are Year 2000 compliant; and established a Year 
2000 test environment. These controls and processes have 
enabled Customs to meet milestones recommended by OMB for 
renovating and validating mission-critical systems and to allow 
time to conduct end-to-end tests.
    Finally, Customs has implemented sound management processes 
for developing business continuity and contingency plans that 
help Customs to mitigate the risks associated with unexpected 
internal and uncontrollable external failures. Specifically, 
Customs established a business continuity work group; developed 
a high-level business continuity planning strategy; developed a 
master schedule and milestones; implemented a risk management 
process and established a reporting system; and implemented 
quality assurance reviews. It then performed a business impact 
analysis to determine the effect that failures of mission-
critical information systems have on the viability and 
effectiveness of agency core business processes. By defining 
disruption scenarios and assessing business, legal, and 
regulatory risks for major business processes, this analysis 
provided Customs the information needed to develop contingency 
plans for continuity of operations. Customs is now in the 
processes of testing its contingency plans and it plans to 
complete contingency plan testing, including plans for non-IT 
systems, by June 1999.
       Important Challenges Still Face Customs in Months to Come
    Notwithstanding either Customs' good progress to date or 
the effectiveness of its program management controls, Customs 
still has very important and challenging tasks to complete to 
effectively reduce its chances of serious business disruptions. 
In particular, Customs still needs to conduct end-to-end 
testing of the systems that support important trade missions. 
These tests will be particularly challenging since Customs has 
hundreds of business partners and their respective systems. 
Additionally, Customs still needs to complete its contingency 
plans for ensuring continuity of its core business areas in the 
event of Year 2000-induced system failures. For Customs, this 
is especially challenging because it involves 42 distinct lines 
of business that cut across Customs' organization units, and it 
involves over 300 organizational units that are located 
throughout the United States, each with its own unique and 
localized Year 2000 readiness issues.
    Moreover, Customs, like most organizations, faces serious 
risks outside of its control. For example, Customs' depends on 
public infrastructure systems, such as those that provide 
power, water, transportation, and voice and data 
telecommunications. Given the number of Customs ports of entry 
throughout the United States, even localized disruptions in 
infrastructure-related services could seriously impact Customs 
business operations. As Customs works to develop, test and 
complete its contingency plans, it must ensure that these 
localized event scenarios are adequately addressed.
  Customs Recognizes That Management Improvements Made to Address the 
             Year 2000 Problem Can Provide Future Benefits
    For federal agencies, the lessons to be learned from the 
Year 2000 problem are significant. Longstanding organizational 
weaknesses in managing information technology contributed to 
both the size of the federal government's Year 2000 problem, 
and agencies' ensuing difficulties in addressing it. That is, 
agencies' unsuccessful attempts to modernize their information 
systems over the last 5 years have forced them to continue to 
maintain and rely on antiquated, poorly documented, non-
compliant systems. The result was large inventories of non-
compliant systems that the agencies had to quickly repair, 
replace, or retire in order to be century date ready. The 
Internal Revenue Service, with its well-chronicled history of 
modernization difficulties and its mammoth Year 2000 problem, 
vividly illustrates this point.
    Additionally, to address the Year 2000 problem, agencies 
chose to employ the same weak information technology management 
structures and processes that have contributed to their system 
modernization problems. Our reports and testimonies over the 
last 5 years have highlighted these weaknesses in major 
modernization programs.\7\ These weaknesses include the lack of 
CIO authority over agencies' IT resources, the absence of 
complete and enforced systems architectures, the lack of mature 
software development and acquisition processes, and the failure 
to make informed IT investment decisions. Because of these 
weaknesses, we have designated certain modernization efforts, 
such as the Federal Aviation Administration's air traffic 
control modernization and the Internal Revenue Service's tax 
systems modernization, as high-risk federal programs.\8\
---------------------------------------------------------------------------
    \7\ Tax System Modernization: Management and Technical Weaknesses 
Must Be Corrected If Modernization Is to Succeed (GAO/AIMD-95-156, July 
26, 1995); Tax Systems Modernization: Actions Underway but IRS Has Not 
Yet Corrected Management and Technical Weaknesses (GAO/AIMD-96-106, 
June 7, 1996); and Tax Systems Modernization: Blueprint Is a Good Start 
but Not Yet Sufficiently Complete to Build or Acquire Systems (GAO/
AIMD/GGD-98-54, February 24, 1998); Air Traffic Control: Immature 
Software Acquisition Processes Increase FAA System Acquisition Risks 
(GAO/AIMD-97-47, March 21, 1997); Air Traffic Control: Complete and 
Enforced Architecture Needed for FAA Systems Modernization (GAO/AIMD-
97-30, February 3, 1997); and Air Traffic Control: Improved Cost 
Information Needed to Make Billion Dollar Modernization Investment 
Decisions (GAO/AIMD-97-20, January 22, 1997).
    \8\ High-Risk Series: An Update (GAO/HR-99-1, January 1999); High-
Risk Series: Information Management and Technology (GAO/HR-97-9, 
February 1997); and High-Risk Series: An Overview (GAO/HR-95-1, 
February 1995).
---------------------------------------------------------------------------
    Customs did not adopt a ``business-as-usual'' approach to 
solving the Year 2000 problem. Using GAO's Year 2000 guidance, 
Customs defined and implemented effective management structures 
and processes, as this testimony has described. The result is a 
Year 2000 program that is on schedule and has plans and 
management controls in place for completing remaining tasks. As 
important, Customs' Commissioner has also committed to 
leveraging the agency's Year 2000 experience by extending the 
level of project management discipline and rigor being employed 
on Year 2000 to other information technology programs and 
projects. By doing so, Customs could greatly strengthen its 
information technology management capabilities.
    In conclusion Mr. Chairman, we are cautiously optimistic 
about Customs' Year 2000 program. We are optimistic because of 
Customs' progress to date and its effective program management 
controls. We are cautious because important tasks remain, and 
because Customs, like all organizations, depends on others in 
order to fulfill its mission responsibilities.
    This concludes my statement. I would be glad to respond to 
any questions that you or other Members of the Committee may 
have at this time.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Hite.
    Are there any questions for this panel? If not. Mr. Foley?
    Mr. Foley. Just a second, if I could, Mr. Chairman, thanks 
very much. Relative to Customs then, the question Mr. Clawson 
raised, I believe, is Customs reached out to the trade industry 
to make certain that its data to trading partners will be able 
to transact business through their related systems in the year 
2000?
    Mr. Hall. Yes, sir. We began testing last spring, when we 
made ourselves available to trading partners. We did some 
limited testing during the spring and summer. We just announced 
a 5-month window, beginning this month, where we will make time 
available to anyone who is ready and prepared to come test, 
end-to-end, their systems with ours. That testing has begun. At 
this point, while it's a relatively small number of 
organizations, something on the order of 25 or so, they 
represent the folks who provide software to about half of our 
trading partners.
    We will continue to do this testing through the spring and, 
of course, we will make ourselves available. Actually we are 
planning to support testing past the change of the millennium. 
We think this is a very helpful way to ensure that the many 
types of organizations that use our systems and provide 
information to it, have an opportunity to make sure that their 
applications work as well as ours.
    Mr. Foley. What have you done specifically to ensure the 
safety, if you will, of the information you currently have 
regarding drug interdiction, drug traffickers, others in the 
system that you have been monitoring? To protect that 
information in the event there's a computer problem.
    Mr. Hall. We have emergency backup facilities at the 
Newington Data Center itself in terms of generators and battery 
banks so that we could withstand a temporary loss of power. We 
do traditional tape backups of data so that we can rebuild 
databases if we were to have hardware failures. Does that get 
to the point?
    Mr. Foley. Just making certain we have something to go back 
to, if the computer resets itself and eliminates data. Just 
making certain that somewhere there's an ability to recapture 
that important information that you may have in process.
    Mr. Hall. Yes, sir. Those are the two major strategies. One 
is to make sure we can maintain power if there is an 
infrastructure failure, and the other is to back up the data 
bases.
    Mr. Foley. Thank you, Mr. Chairman.
    Chairman Archer. Before excusing you, the Chair has just 
two quick questions that apply to every one of you except Mr. 
Clawson, I believe. Is each of you confident that the entity 
that you represent will be able to perform its essential 
functions and services on January 1st of next year?
    I assume by a silence that each of you is saying yes, we 
are confident. And let the record show that.
    The second short question is, are there any additional 
resources that the Congress need to give you to complete your 
remediation problem? I don't mean now, updating the entire 
Customs situation Mr. Clawson talked about. [Laughter.]
    I'm talking about the Y2K problem. OK?
    Admiral Naccara.
    Admiral Naccara. Thank you. I think it would be beneficial 
if there were continuing opportunities for supplementals as the 
year progressed. We continue to find surprises in different 
systems.
    Chairman Archer. If there are immediate needs, we would 
like to be notified so that we can accommodate those in a 
responsible way.
    Thank you, gentlemen. Appreciate your input.
    Our next witness is Nancy-Ann DeParle, Administrator of 
HCFA. We're happy to have with us today, Ms. DeParle, and I see 
you brought with you Dr. Christoph, and welcome to you also. 
And if you'll officially identify yourself for the record, you 
may proceed?

STATEMENT OF NANCY-ANN MIN DEPARLE, ADMINISTRATOR, HEALTH CARE 
                    FINANCING ADMINISTRATION

    Ms. DeParle. Thank you, Mr. Chairman, and distinguished 
Members of the Committee. Thank you for inviting me here to 
discuss the progress of the Health Care Financing 
Administration in addressing the Year 2000 computer challenge. 
As you said, Mr. Chairman, I have with me Dr. Gary Christoph, 
who I brought in as HCFA's chief information officer last year 
and who has been leading our information technology efforts. 
And he is no stranger to this Committee because he spent a good 
deal of time here with your staff over the year.
    Mr. Chairman, HCFA still has a great deal of work to do, 
but we're making good progress and we'll be ready well before 
January 1, 2000. As you know, we're responsible for financing 
health care for Medicare beneficiaries. We can assure that our 
claims processing and payment systems work and that doctors and 
hospital bills will get paid. Continuity of care, however, 
depends on much more. Doctors, hospitals, and other providers 
must ensure that they are also ready. We are therefore engaging 
in an unprecedented outreach effort to help our partners meet 
their responsibility, and we appreciate the help of Members of 
this Committee in doing that.
    We have aggressively attacked our part of this problem. We 
must continue to re-test systems and refine contingency plans. 
However, we've come a long way in the year since I became 
administrator. To get to this point we've had to make some 
tough decisions, including delaying some provisions of the 
Balanced Budget Act. We reached a significant milestone in 
December when we reported that all 25 of our internal mission-
critical systems are now compliant. These are the systems that 
are under our direct control. At the same time, we also 
required the systems operated by the private insurance 
companies that we contract with to pay claims to be renovated 
and to complete three levels of testing by December 31, 1998. 
All 78 of the external mission-critical claims processing 
systems have been renovated now and 54 of them have been self-
certified as compliant.
    Let me stress that self-certification does not mean that 
our work is finished. It does mean that the software has been 
renovated and that it has been tested and that systems are able 
to process and play claims with future dates. We allowed 
contractors to self-certify based on just those things that 
they directly control. We required the contractors to tell us 
in detail about any qualifications, and we investigated those 
qualifications ourselves. For the 54 contractors whose 
certifications we accepted, we're confident that the remaining 
problems are minor and do not significantly compromise the 
claims processing function.
    We've established a war room to track progress on all 
fronts in our Baltimore headquarters. We have special teams on 
site all over the country monitoring contractors as they deal 
with their remaining work. And we're developing comprehensive 
business continuity and contingency plans in case any 
unforeseen problems arise.
    We've asked our independent verification and validation 
contractor to be tough in judging our progress. They tell me 
that they are confident that our Y2K efforts will lead to 
success by January 1, 2000. Their latest report says that 17 
contractor systems require only minimal effort to resolve 
remaining issues. Another 39 require moderate effort. And they 
agree with our assessment that about 54 of our 78 external 
contractor systems have adequately self-certified.
    The GAO and our independent verification and validation 
contractor have identified essential work that remains for all 
our systems to be millennium ready. We agree with GAO that one 
of the most critical tasks is testing our many data exchanges 
to ensure that all of our interdependent systems function 
properly together. We also must continue end to end testing 
from the point of claim submission to the point of sending a 
payment instruction to a bank and printing a notice to a 
beneficiary.
    Because testing is so important, we're going beyond current 
industry practice. Providers should be able to test whether a 
Y2K compliant claim can be accepted by our claims processing 
contractors. We're now instructing our contractors to begin 
testing with those providers throughout the country who want to 
submit future date claims. This will help build provider 
confidence. If they want to test their claims against our 
system, they can do so.
    In addition, we plan to freeze all of our systems this 
summer and then to re-test and re-certify this fall in a fully 
production-ready integrated environment. For that final wave of 
testing, everything must work properly with no if's, and's or 
but's. And we also must finish and refine our contingency plans 
which we are doing in accordance with the GAO's advice.
    Mr. Chairman, we have much more to do and we fully expect 
that there may be bumps in the road. But I want to assure you 
that we're committed to doing everything we need to do to get 
this job done. And I also want to say that all of this would 
have been much harder without Congress's support. And I want to 
thank you for that, as well as for GAO's diligent and 
continuous efforts with us.
    Dr. Christoph and I will be happy to answer your questions.
    [The prepared statement follows:]

Statement of Hon. Nancy-Ann Min DeParle, Administrator, Health Care 
Financing Administration

    Chairman Archer, Congressman Rangel, distinguished 
committee members, thank you for inviting me here today to 
discuss my highest priority--the Year 2000 computer challenge. 
I am happy to report today that, despite serious concerns about 
the Health Care Financing Administration's (HCFA) ability to 
meet this challenge, we are making remarkable progress. In 
fact, I am confident that HCFA's own Year 2000 systems issues 
will be resolved well before January 1, 2000.
    Our foremost concern has been and continues to be that our 
more than 70 million Medicare, Medicaid and Children's Health 
Insurance Program (CHIP) beneficiaries continue to receive the 
health care services they need. That is why we are not only 
addressing the Year 2000 issues in those systems over which we 
have responsibility, but are also engaging in an unprecedented 
outreach effort to raise awareness and provide information to 
those other parts of the health care system where we have 
little authority and control.
    HCFA is responsible for the financing of health care for 
our beneficiaries. We can assure that HCFA's claims processing 
and payment systems will work, that doctors and hospital bills 
will get paid. Continuity of care, however, depends on far more 
than payment systems. It depends upon doctors, hospitals and 
other service providers ensuring that their equipment will work 
and their offices will remain open. It depends upon 
pharmaceutical and medical supply chains, which rely heavily on 
information technology, continuing to operate normally. And all 
of this, of course, requires the continued functioning of basic 
utility and telecommunication services.
    We have aggressively attacked our part of the problem. 
While our job is not yet done, and we will continue to work 
hard for the next year on testing and retesting our systems, as 
well as developing our contingency plans, we have already 
accomplished a great deal.
    <bullet> All 25 of our internal mission-critical systems 
are now certified as Year 2000 compliant, three months ahead of 
the government-wide deadline of March 31, 1999.
    <bullet> All 78 of our external mission-critical claim 
processing systems that our claims processing contractors use 
to pay bills are renovated. Of these, 54 have been self-
certified as compliant. Our independent verification and 
validation (IV&V) expert contractor has rated 17 systems as 
highly compliant and will require only a minimal effort to 
resolve any remaining issues; another 39 systems will require a 
moderate level of effort. Our IV&V contractor has assured us 
that these systems will be compliant on time and that there is 
no evidence to suggest they will not. We will continue to have 
our own experts and staff on-site, monitoring and assisting 
contractors with remaining Year 2000 work, and we will 
recertify all mission-critical systems before October 1999.
    <bullet> And 27 of our 55 non-mission critical internal 
systems are certified as compliant.
    We readily acknowledge that we got a late start with our 
Year 2000 problem, and that this has caused considerable 
concern and criticism. We recognize the importance of our 
programs to our beneficiaries and have thus set very aggressive 
goals and put together a vigorous Year 2000 program, with 
extensive testing and independent review. We have asked our 
IV&V contractor to set rigorous performance measures and be 
hard in their judgment of our contractors' progress.
    For the remainder of 1999, we will continue to renovate, 
test, and retest our systems. We are ahead of schedule on our 
internal mission-critical systems, and we are well on our way 
to meeting the Federal government's March 31, 1999 deadline for 
our external systems. We will certainly be ready well before 
January 1, 2000.
    I must be clear, however, about what HCFA can and cannot 
do. HCFA pays bills. Providers provide service and send claims 
to our claims processing contractors once services are 
delivered. We are responsible for all our own systems, our 
claims processing contractors' systems, and data exchange 
interfaces between all of these systems and the systems of 
States, providers, banks, phone companies, and other partners. 
We do not have the authority, ability, or resources to step in 
and fix systems for others, such as States or providers. And 
that leads to a rather substantial concern for which we need 
the assistance of Congress and others to address.
                    Concern for States and Providers
    It is not enough for HCFA alone to be ready for the Year 
2000. Health care provider computers and systems must be Year 
2000 compliant in order for providers to be able to generate 
and submit bills to us. State computers and systems also must 
be Year 2000 compliant for Medicaid and CHIP to continue 
uninterrupted payment for beneficiary service. Many States and 
providers will meet the Year 2000 challenge on time. However, 
monitoring by us and the General Accounting Office (GAO) 
indicates that some States and providers could well fail. This 
is the first time any of us have had to deal with such a 
problem, and we at HCFA are eager to share the lessons we have 
learned along the way. We are providing assistance to the 
extent that we are able. But that likely will not be enough. 
This matter is of urgent concern, and literally grows in 
importance with each passing day.
    Our own progress in meeting the Year 2000 challenge is due 
in large part to the outstanding effort and commitment of staff 
throughout HCFA and at our Medicare contractors. We have been 
greatly aided by wise counsel from the GAO, and especially by 
the expert IV&V contractors we hired, based on the GAO's 
recommendations, to ensure that our Year 2000 work is done 
correctly. And, importantly, we could not have come so far so 
quickly without the timely support and funding that Congress 
has provided.
                        HCFA's Year 2000 Efforts
    There is no question that we have faced an uphill battle in 
achieving Year 2000 compliance. A number of key steps are 
getting us where we need to be. They include:
    <bullet> Building a ``War Room'' in our Baltimore 
headquarters dedicated solely to tracking Year 2000 efforts on 
a daily basis not only within our own agency, but also with our 
partners across the country. I can now find out what is 
happening on any of our essential Year 2000 projects at a 
moment's notice. That is something I couldn't do last year.
    <bullet> Establishing contractor oversight teams 
specifically responsible for closely monitoring and managing 
Year 2000 work for all contractors involved in processing 
Medicare claims. These teams include staff who are now on-site 
to oversee and aid contractors who most need assistance in 
meeting the March 31, 1999 deadline. They also provide timely 
information on contractors' status to the War Room.
    <bullet> Negotiating amendments to contracts with more than 
60 claims processing contractors. This established, for the 
first time, clear requirements that contractors must meet to 
make their information systems Year 2000 compliant.
    <bullet> Hiring AverStar, Inc., formerly Intermetrics, 
Inc., an IV&V contractor to provide assurance that our Year 
2000 work is done right. They have helped us refine our 
renovation processes, measure our progress, as well as audit 
our testing plans and processes.
    <bullet> Hiring Seta Corporation, another contractor 
providing independent testing of especially critical systems, 
to further ensure that the Year 2000 work on these systems has 
been done correctly. This independent testing goes beyond that 
described by GAO.
    <bullet> Helping States by hiring another IV&V contractor, 
TRW, to visit every state and validate their Year 2000 
progress. TRW is giving us direct information regarding the 
status of States' Year 2000 renovation efforts, particularly 
for critical Medicaid enrollment and claims processing systems. 
We also are sharing with the States whatever information and 
insights we can provide.
    <bullet> Helping providers learn what they must do to 
prepare for the new millennium through an unprecedented and 
broad provider outreach campaign. It includes mailings, 
publications, an Internet site, a speakers' bureau, a number of 
seminars and conferences, and a wide range of other efforts.
                   Scope of HCFA's Year 2000 Workload
    The Year 2000 especially affects the programs HCFA 
administers because of our extensive reliance on multiple 
computer systems. More than 150 different systems are used by 
HCFA in administering the Medicare program. About 100 of these 
systems are considered ``mission-critical.'' These systems are 
both internal and external and are responsible for establishing 
beneficiary eligibility and making payments to providers, 
plans, and States. Medicare is the most automated health care 
payer in the country. We process nearly one billion claims 
annually, most electronically.
    In fact, 97 percent of inpatient hospital and other 
Medicare Part A claims, and 81 percent of physician and other 
Medicare Part B claims are submitted electronically to the 
Medicare claims processing contractors. All claims undergo 
substantial electronic processing at the contractors and many 
claims are processed to payment with no manual intervention 
whatsoever. This high level of electronic billing has allowed 
us to achieve significant operating efficiency and cost 
savings. However, this reliance on automated systems also has 
made the Year 2000 computer fix a major challenge. Critical 
dates in computerized claims processing include the date a 
beneficiary became eligible, the date a patient was admitted or 
discharged from a hospital, the date a wheelchair rental began, 
or the date an enrollee entered a managed care plan.
    Renovating all these systems has been complicated. Each 
system used by our programs and our 60-plus claims processing 
contractors, as well as interfaces with State Medicaid 
programs, banking institutions and some 1.3 million providers 
has to be thoroughly reviewed and renovated by those 
responsible for each particular system. We are requiring that 
systems be tested individually, as well as with the exchanges 
they perform with other partners.
    To fix the Medicare systems alone, we have had to renovate 
some 49 million lines of internal and external systems code to 
find date-sensitive processes. We have had to repair all of our 
Medicare-specific software so it will work with new versions of 
vendor-supplied software. We have had to update the operating 
systems that drive the hardware we use with millennium 
compliant versions. We also have had to test and upgrade 
deficient operational hardware, including our 
telecommunications equipment and software. And we must assure 
that all data exchanges with thousands of our partners will 
function properly.
                          Providers' Progress
    Providers must ready their own systems for the Year 2000 in 
a timely manner if the health care system is to meet the 
millennium challenge completely and successfully. One of the 
first steps, and perhaps the easiest, is changing the formats 
of claims to allow for 8-digit date fields. Our electronic 
media claims monitoring indicates that over 98 percent of Part 
B claims submitters (either physicians/suppliers or their 
billing agents) are submitting the 8-digit date fields. Fifty-
eight percent of Part A submitters (hospitals and other 
institutions or their billing agents) that submit claims 
electronically are also using the 8-digit fields.
    It is essential that all providers address the Year 2000 
issue. Thus, we recently announced that we would require all 
submitters to start using the 8-digit date formats by April 5, 
1999. Claims received on or after that date without the new 
formats will not be accepted. That does not mean that providers 
need to be fully compliant by April 5, but it does mean that we 
want to be assured that they have begun working on their 
systems by, at least, having taken this first step.
    As mentioned earlier, we will be ready to process claims, 
but providers need to be able to submit correct claims. And, we 
are concerned that providers address other Year 2000 issues as 
well, not just their billing system issues. Providers must take 
appropriate Year 2000 remediation steps with other systems, 
such as clinical systems, and their biomedical devices to 
ensure continued high quality patient care.
                        Protecting Beneficiaries
    I must stress our concern must always be focused first and 
foremost on protecting the beneficiaries and their continued 
access to care. Providers who fail to fix their own systems, 
and thus are unable to bill us for services, are strictly 
prohibited from billing beneficiaries. Beneficiaries are 
legally protected from liability for bills that Medicare would 
ordinarily pay, even if the provider is not Year 2000 
compliant. To safeguard beneficiaries in the new millennium, we 
will provide them with a phone number to call to report any 
inappropriate billings they receive from providers or any 
difficulties they encounter in accessing care. Our 
beneficiaries are counting on us. Their health care needs will 
continue regardless of what day it is.
                           Provider Outreach
    Due to the critical need for providers to become Year 2000 
compliant, we have launched a broad outreach campaign. Last 
month, in an unprecedented step, we mailed a letter to all 1.3 
million providers serving our beneficiaries explaining the 
gravity of the Year 2000 problem and providing a checklist for 
what must be done to achieve compliance.
    Our provider outreach campaign features a special Year 2000 
Internet site, www.hcfa.gov/Y2K, which includes some of the 
basic steps that can be taken by a Medicare provider or 
supplier, such as:
    <bullet> Preparing an inventory of hardware and software 
programs and identifying everything that is mission-critical to 
their business operations.
    <bullet> Assessing the Year 2000 readiness of their 
inventory as well as options for upgrading or replacing 
systems, if necessary.
    <bullet> Updating or replacing systems important to 
business operations, if necessary.
    <bullet> Testing existing and newly purchased systems and 
software and their interfaces.
    <bullet> Developing business continuity plans for 
unexpected problems.
    The Internet site also includes links to other essential 
sites for providers, such as the Food and Drug Administration's 
Internet site on medical device compliance.
    We have developed a speakers' bureau with staff trained to 
make presentations and answer questions on Year 2000 issues all 
around the country. We are leading the Health Care Sector of 
the President's Council on Year 2000 Conversion, which includes 
working closely with provider trade associations and public 
sector health partners to raise awareness of the millennium 
issue and encourage all providers to become compliant. And our 
claims processing contractors are offering providers Year 2000 
compliant electronic billing software for free or at minimal 
cost.
    I was pleased that some provider associations have recently 
announced their intention to assess the Year 2000 readiness of 
their membership and to step up educational efforts on the 
critical nature of this problem. This is an essential 
undertaking. Quite simply, Year 2000 compliance cannot be a 
one-way street. Providers also must meet this challenge head 
on, or risk not being able to receive prompt payment from 
Medicare, Medicaid, or virtually any other insurer.
    We welcome Congress' help in making providers aware of the 
Year 2000 and energizing them to address their part of the 
problem. I invite you to help us identify opportunities to get 
the Year 2000 message across and encourage you to stress the 
importance of this issue when you meet with providers. As I 
mentioned previously, we have established a special Year 2000 
speakers' bureau with staff around the country prepared to 
speak and offer guidance. You may want to have them join you 
when you meet with providers, and let others know that they are 
available.
                            States' Progress
    Our concern for States is as great as our concern for 
providers. For both, we do not have the authority, ability, or 
resources to step in and fix their systems for them. Our ten 
regional offices are monitoring the status of each State's 
remediation effort. We also have an expert IV&V contractor, 
TRW, to assist us in conducting on-site visits in every State 
to provide advice and validate assessments so that we can 
maintain an accurate picture of each State's progress. We have 
already done on-site visits in 13 States and the District of 
Columbia and expect to visit the remaining States by the end of 
April. The preliminary reports confirm earlier work by the GAO 
which strongly suggests that some States may not be ready on 
time.
    We have asked all Medicaid and CHIP Directors to:
    <bullet> report the status of their Year 2000 compliance 
efforts;
    <bullet> document contingency plans for systems that may 
not be compliant;
    <bullet> and provide updates to HCFA's regional offices on 
States' progress.
    It is each State's responsibility to take the steps it 
believes are appropriate to meet the needs of its Medicaid and 
CHIP beneficiaries. Our primary role is to assess, as best we 
can, each State's progress and to provide guidance. While we do 
not have the authority, ability, or resources to fix State 
systems, we can and do want to help. Besides furnishing the 
services of TRW, we have developed technical assistance 
documents, and we have held regional meetings and workshops for 
States on how to develop contingency plans. We know that States 
and Congress share our goal of protecting all our beneficiaries 
throughout the millennium transition.
                          Contingency Planning
    Although we fully intend to have our own systems ready long 
before January 1, 2000, we know we must be prepared in case any 
unanticipated problems arise. We are undertaking an extensive 
effort to develop contingency plans for all our mission-
critical business processes. Our top priorities in developing 
these plans are to:
    <bullet> process claims so as to be able to pay providers 
promptly;
    <bullet> prevent payment errors and potential fraud and 
abuse;
    <bullet> ensure quality of care; and
    <bullet> enroll beneficiaries.
    Contingency planning is an Agency-wide effort with active 
participation of all of our most senior executives. We are 
closely following the GAO's advice on contingency planning 
which they outlined in their August 1998 guidance, Year 2000 
Business Continuity and Contingency Planning and in their 
September 1998 report, Medicare Computer Systems--Year 2000 
Challenges Put Benefits and Services in Jeopardy .
    We recently completed the second phase of the contingency 
planning process by reviewing 280 Medicare business processes, 
performing risk and impact analyses, and identifying the 
potential impact of mission-critical failures. We are now in 
the third phase wherein we will explicate and document our 
contingency plans and implementation modes, define events that 
will trigger use of the plans, as well as establish and train 
implementation teams should the need arise to execute the 
plans.
    We expect to complete this third phase of contingency 
planning in March 1999. By the end of June 1999, our draft 
contingency plans will be validated, reviewed, and finalized. 
We anticipate completing our agency-wide plan by July 1999, 
three months ahead of the date recently recommended by GAO.
                            Budgetary Needs
    The Year 2000 problem is not static. We are obligated to 
perform rigorous testing because of the extent of our reliance 
on information systems. Efforts to solve one element of the 
problem often uncover other problems. This makes it challenging 
to determine our budgetary requirements. As you know, we 
previously have had to request additional funding and redirect 
existing funding to meet these changing demands.
    In fiscal year 1998, we received $107.1 million in funding 
for millennium activities. This funding included a $15 million 
appropriation; an additional $30 million that was transferred 
from other agency projects; $20 million in redesignated funds 
originally appropriated for systems transitions; and $42.1 
million made available by the Department of Health and Human 
Services (HHS) through the Secretary's one percent transfer 
authority. Through very careful financial management and a keen 
recognition of the importance of the Year 2000 effort, we 
actually obligated approximately $148 million in fiscal year 
1998 on Year 2000 activities: $130 million on external systems 
and $18 million on internal systems.
    Thanks to your support in the fiscal year 1999 
appropriations process we are making significant progress 
toward obtaining the funding needed to support all of our Year 
2000 efforts. We received $82.5 million in our appropriation 
for this year. The Office of Management and Budget (OMB), with 
Congressional concurrence, transferred an additional $205.1 
million from the Year 2000 emergency fund. This funding 
provides a total of $287.6 million to support our Year 2000 
efforts in fiscal year 1999. We plan to use FY 1999 as well as 
FY 2000 funding to increase our contingency planning efforts by 
developing, testing and rehearsing contingency plans.
    The President's Budget request for FY 2000 includes an 
additional $150 million for our Year 2000 effort. In addition 
to funding our contingency planning efforts, a large portion of 
this funding will support outreach, continuing external systems 
remediation, and increases in billing and communications 
activities at our contractors. Increased public awareness of 
the Year 2000 and concern about potential problems, coupled 
with possible disruptions in claims processing, may increase 
the number and cost of paper and duplicate claims, the level of 
inquiries from beneficiaries and providers, as well as related 
printing and postage costs. This funding will help us and our 
contractors meet these anticipated challenges.
    It is important to note that because our systems are highly 
automated and the majority of our processes are completed 
electronically, we are performing far more rigorous Year 2000 
testing than many businesses. Many businesses are not testing 
their systems for future dates and they will not know with 
certainty if their systems will operate in the Year 2000. HCFA 
will. Our testing regimen is far more rigorous than the 
industry standard, with multiple layers of testing, including 
regression testing, testing in a simulated Year 2000 
environment, and testing our entire systems in an actual Year 
2000 environment.
    In addition to the extensive tests performed by those who 
actually maintain the system, we also are requiring independent 
testing of our most critical systems and additional oversight 
by an IV&V contractor. This coming year we expect to perform 
extensive validation and recertification of these critical 
systems to ensure that changes made during 1999 do not affect 
our Year 2000 renovations. Although this additional testing and 
validation significantly increases the time required for and 
the cost of certifying the Medicare systems, we know that we 
simply cannot afford to fail and are doing everything within 
our power to ensure that we do not.
    Our systems are not only complex in their own right, they 
also require extensive data exchanges with more than one 
million partners, such as providers, banks, and vendors. We 
must guarantee that all of our renovated systems work with all 
of these partners. And so we must conduct data exchange tests 
with the provider community to ensure that we can exchange the 
transactions required for electronic commerce.
                               Conclusion
    We have made remarkable progress in our Year 2000 
compliance effort and have taken critical steps to ensure that 
all of our systems will be ready for the new millennium. There 
is still a great deal of work to be done, but we now feel that 
we are making significant progress. We will continue in 1999 to 
work, test and retest our systems. But I must reiterate our 
concern with the progress of some States and providers in 
meeting their own Year 2000 challenges. We are committed to 
providing all the assistance we can, but in some cases that may 
not be enough. We all share a common goal of guaranteeing that 
our systems and programs function in the new millennium. I 
thank you for your attention to this essential issue, and I am 
happy to answer any questions you may have.

                                <F-dash>


    Chairman Archer. Well, Ms. DeParle, the Chair is imminently 
aware of the difficulty of the job that you have. The IRS is 
very, very tough and in a way bigger, but I don't think there's 
anything that is more difficult to manage than what you have to 
do. And we as the Congress want to cooperate with you in every 
way that we can.
    I'm going to ask you the same questions that I've asked the 
other witnesses. They're both very brief. Are you confident 
that when January the 1st rolls around that HCFA will be able 
to perform its essential functions and services?
    Ms. DeParle. Yes, sir, I am.
    Chairman Archer. All right. So you think you'll be able to 
handle the Y2K problem?
    Ms. DeParle. Yes, sir, I do.
    Chairman Archer. All right. And that reimbursements to 
providers will occur in a timely fashion?
    Ms. DeParle. Yes.
    Chairman Archer. And has the Congress given you adequate 
resources in order to remediate any Y2K problems?
    Ms. DeParle. Yes, you have. And I want to say again I 
appreciate the work that the Congress has done toward that end.
    Chairman Archer. OK. Thank you very much. Are there any 
other questions of Ms. DeParle? Yes, Mrs. Johnson?
    Mrs. Johnson of Connecticut. Thank you, Mr. Chairman. The 
GAO will testify that your progress has been overstated because 
you relied too much on self-certifications and that the 
independent contractor that you hired has found that most of 
the contractor self-certifications will need major to moderate 
level of effort to resolve. In other words, that the 
certifications were overstated and there's still work to be 
done, anywhere from major to moderate. You implied that work is 
proceeding. At what pace is it proceeding and when do you think 
you will start the end-to-end testing?
    Ms. DeParle. We're already doing end to end testing in some 
cases, and we'll be in the thick of it throughout the spring 
and we'll finish some time this summer.
    Mrs. Johnson of Connecticut. You'll finish end to end 
testing some time this summer?
    Ms. DeParle. Yes, but then we'll probably do another round 
of it because, as you know, one of the challenges that we face 
is that there are changes continually made to the way we pay 
claims and to systems that have to do with implementation, for 
example, of changes in the law. As I mentioned, and, as you 
know, we've had to delay some of those changes because they 
were too complicated and would have gotten in the way of the 
work.
    Mrs. Johnson of Connecticut. Right.
    Ms. DeParle. But, for example, the system that maintains 
the names and eligibility of Medicare beneficiaries is called 
the common working file. And we'll be updating that throughout 
the year. So it won't be until the fall that we freeze all of 
that work and do final end to end testing.
    Mrs. Johnson of Connecticut. Great. In discussing this with 
the Social Security Administration, when they did their first 
round of end-to-end testing, they discovered some problems. And 
that's why you do it, you find out. And the second round they 
found less. But where are you in that process?
    Ms. DeParle. I'm going to ask Dr. Christoph?
    Mrs. Johnson of Connecticut. How many problems did you find 
the first time through? How long did it take to correct those 
problems? And what was the situation with the second round of 
testing?
    Mr. Christoph. Well, actually we've done a complete round 
of testing with the majority of contractors, I would say about 
70 of them, as part of our certification process. We've gone 
through three levels of testing, the last round of which was 
integrated or end-to-end testing. And we've already gone 
through that round. All of the problems that they've found have 
been fixed or will be fixed by the end of March. So we've gone 
through one full cycle at this point. And then the second round 
will occur starting July 1 and we've allowed 4 months for this.
    Mrs. Johnson of Connecticut. And on your contingency plans, 
particularly in terms of payments, have you given any thought 
to the possibility of providing the equivalent of MIP payments 
to hospitals so that before the turn of the year they have a 
lump-sum payment which then they can rectify after the term of 
the year in case the system doesn't work. To large recipients 
of Medicare payments, inability to pay would be an absolute 
disaster. Is that kind of pre-payment plan, which we have used 
in Medicare over many years very satisfactorily, is that any 
part of your contingency planning and can hospitals through 
that mechanism rely, A, on payment and, B, on timely updates?
    Ms. DeParle. Well, first of all, as I've discussed with 
you, Mrs. Johnson, we want providers to all be ready. And that 
is a big part of our effort right now. And I appreciate the 
help that you've provided up in Connecticut, with a State which 
is already, in fact, ahead of most of them in terms of its 
providers being ready. We are looking at a number of different 
possible contingency scenarios. The one you described is one of 
them. But I want to stress that we think the most important 
thing is for all providers to try to get ready. We don't want 
to provide right now some sort of a fix that might incentivize 
some providers to think, ``Well, I don't have to get ready for 
this. I won't make the investment.'' But we are looking at all 
those kinds of contingencies and would be happy to discuss 
those with the Committee.
    Mrs. Johnson of Connecticut. Thank you. Thank you, 
Administrator DeParle.
    Chairman Archer. Mr. Houghton, do you have any questions?
    Mr. Houghton. No.
    Chairman Archer. Mr. Foley.
    Mr. Foley. In following up on Mrs. Johnson's questions, one 
thing came to mind because you're going to be integrating a new 
system clearly with a lot of providers trying to log on and 
communicate with your organization. Have you considered 
minimizing the changes to the system, the technical side, but 
to the codings and the reimbursements in the period with which 
you are then transitioning?
    Ms. DeParle. Not only have we considered it, but, as I 
mentioned, we had to make some tough decisions last year. We 
have been in the process of implementing the 300-plus 
provisions of the Balanced Budget Act and because of the 
scenario you described, which is that it is difficult to make 
these kind of changes and to make sure they're going to work at 
the same time you're changing coding and changing other things 
to implement new payment methodologies prescribed by law. The 
independent verification and validation contractor recommended 
to me that we stop implementing some of the provisions of the 
Balanced Budget Act. And so we had to do that in order to 
minimize the kinds of changes that you're talking about because 
you're exactly right, they can pose problems if you're trying 
to make renovations and testing a system.
    Mr. Foley. Because it seems one of the greatest complaints 
I get from providers is the fact that they're constantly being 
inundated with changes in the system. That's a fundamental 
problem to begin with. But then you lump in there compliance 
requirements for the Y2K, and so you've compounded what could 
be a disastrous consequence. And I think Mrs. Johnson mentioned 
and alluded to if the payments are then withheld, then the 
providers themselves can't meet their own obligations. And we 
see something spiraling terribly out of control.
    Ms. DeParle. Well, the good news actually that I have to 
report is that as of January, the majority of claims submitters 
now are submitting compliant eight-digit date claims, which 
means that they at least are capable of submitting the claims 
with the four digits for the year, which is what they need to 
do. When I last talked to the Committee, it didn't look as 
good. Right now, for part A claims submitters, such as 
hospitals, 58 percent of them are already submitting claims in 
the proper format. And for Part B claims submitters, such as 
doctors, it's more than 98 percent. So we regard that as good 
news of their progress. But you're exactly right that it's 
difficult for them to make all these other changes at the same 
time they're trying to get their systems ready.
    Mr. Foley. What do you see as the major risks remaining 
right now going into that final stage?
    Ms. DeParle. I think the one that I just alluded to, which 
is that some providers may not make the changes they need to 
make. And we are working, as you know, we've sent out a letter 
to all 1.3 million Medicare providers, which is I think 
unprecedented. We don't deal directly with the providers. But 
we did it this time, in January, because we wanted to make sure 
that they were aware of the problem and knew what they needed 
to do to fix it. We're also allowing them to do testing of 
their claims in a future date environment if they want to. But 
one thing that the Members of Congress can do is to help us to 
get the word out; and we've offered to send speakers to your 
districts or do whatever we can to make sure that providers get 
ready.
    Mr. Foley. Final follow-up. The question you mentioned 
about the delaying implementation of the requirements of the 
Balanced Budget Act, the good news is you're saying we're going 
to be compliant and probably ready to meet our expectations. 
The bad news is we'll probably overshoot the budget?
    Ms. DeParle. Well, actually it turns out that most of the 
provisions that we're delaying aren't provisions that had 
significant savings or if they were, they're being delayed by a 
few months. And then, of course, the Committee last year dealt 
with one of them, which I appreciate, which was the home health 
problem, which we would have lost savings if we had not been 
able to implement that. And the Committee dealt with that last 
year.
    Mr. Foley. Thank you, Mr. Chairman.
    Chairman Archer. Mr. Tanner.
    Mr. Tanner. Thank you very much, Mr. Chairman. I'm glad to 
see Ms. DeParle here. She is from Tennessee. And we've been 
friends for a long time. You alluded to the progress that has 
been made over the last 12 months. And could you expand on that 
because last year I know that there was some concern about 
where we might be now. And did I hear correctly 58 percent of 
the hospitals are now using----
    Ms. DeParle. Yes, that's right. Our most recently available 
statistics show that 58 percent of Part A claims submitters, 
such as hospitals, are submitting claims in the 8-digit date 
compliant format. Now that doesn't mean that all their billing 
systems have been fixed, but it means they know how to submit a 
Medicare compliant claim, which I think is a good sign of 
progress.
    Mr. Tanner. Your agency probably much more than any other 
Federal agency depends on data from States. How are we doing 
there with the interface that will have to take place on all of 
that data exchange?
    Ms. DeParle. Well, last I guess late summer or early fall, 
we were concerned about the data we were getting from States 
about their Y2K readiness. As most members know, and I know you 
know, the Federal Government pays for half of their costs for 
running their systems. And we would pay for them to have 
independent verification and validation folks to come in and 
look at their systems. But most of them weren't doing that. So 
we decided last fall to hire an IV & V contractor to go out to 
the States and look at them. And we've now completed I think 14 
site visits. Tennessee is not one of them yet. They're 
scheduled for a future month. By the end of April, we'll have 
been into every State and the District of Columbia.
    And we're looking at two things, one is what's called the 
MMIS, which is the Medicaid Management Information System. That 
is the way they pay claims in the States. The other is the 
eligibility system. And in general what we're finding is 
consistent with what the GAO found when they looked at self-
reported data in November, which is that most States' 
eligibility systems are in pretty good shape. There is a more 
mixed story on the side of the claims payment system. And there 
are a few States that appear to behind schedule. There are 
others that appear to be making good progress. And we are now 
engaging with those States to make sure that their Medicaid 
directors and their Governors and State officials are aware of 
the problem.
    Mr. Tanner. Is there anything we can do to help in that 
regard, that the Congress could do?
    Ms. DeParle. Well, at the appropriate time. We have sent 
out the information to each of the States and we've asked them 
to give us back any of their comments. At the appropriate time, 
I would like to share with you where the States are because I 
think members need to know that.
    Mr. Tanner. Yes and maybe we could help if necessary.
    Ms. DeParle. Thank you.
    Mr. Tanner. Thank you. Mr. Chairman, I yield back.
    Chairman Archer. Are there any other further questions? Ms. 
DeParle, thank you very much. Dr. Christoph, thank you for 
being with us. We appreciate your input.
    Ms. DeParle. Thank you, Mr. Chairman.
    Chairman Archer. Our next panel is Mr. Fred Brown, Mr. 
Donald Palmisano, I'm sorry, Dr. Donald Palmisano, Curtis Lord, 
Diane Archer, and Joel Willemssen.
    I've never met Ms. Archer but I wonder if we might be 
distantly related because my family originally settled at 
Fordham Manor when they came over from England in the New York 
area. And maybe we'll research that somewhere down the line.
    Mr. Brown, I would like for you to be our first witness if 
you will. And if you will identify yourself for the record, you 
may proceed?

STATEMENT OF FRED BROWN, VICE CHAIRMAN, BJC HEALTH SYSTEMS, ST. 
  LOUIS, MISSOURI, AND CHAIRMAN, BOARD OF TRUSTEES, AMERICAN 
                      HOSPITAL ASSOCIATION

    Mr. Brown. Thank you, Mr. Chairman.
    Chairman Archer. And I think you probably heard the general 
ground rules, try to keep your verbal testimony within 5 
minutes and your entire written statement will be printed in 
the record without objection. You may proceed.
    Mr. Brown. Realizing this is the last panel of a long day.
    I am Fred Brown, vice chairman of BJC Health System in St. 
Louis, a regional system serving eastern Missouri and southern 
Illinois; and chairman of the board of trustees of the American 
Hospital Association. I am also part of the Senior Advisors 
Group of the President's Council on the Year 2000 Conversion, 
representing the hospital field. And I'm here today on behalf 
of the AHA's nearly 5,000 hospitals, health systems, networks, 
and other providers of care.
    The AHA's goal is to help America's hospitals meet the year 
2000 challenge. Our focus has been and will continue to be 
patient care. And our efforts continue to evolve. We began by 
building awareness and we have attempted to help provide 
hospitals the tools they need to examine their operations and 
make changes when necessary.
    Last summer, the AHA conducted an informal survey of how 
prepared our members were for the turn of the century. The 
nearly 800 responses suggest that hospitals and health systems 
were diligently working to prepare for the year 2000. Seventy-
seven percent had developed a plan of evaluation and action. 
Eighty-nine percent had already inventoried existing equipment. 
Seventy-six percent had survey vendors and manufacturers to 
identify year 2000 compliant equipment. Eighty-three percent 
had begun making existent equipment, hardware, software, and 
data sources year 2000 compliant. And eighty-one percent 
projected that year 2000 solutions would be complete in 1999.
    What are the costs of these efforts expected to be? The 
bottom line is America's hospitals and health systems expect to 
spend somewhere around $8 billion to become Y2K compliant. And 
much of that $8 billion will be spent this year. And this 
presents an immense challenge because the spending comes on top 
of significantly declining Medicare reimbursement.
    Regardless of how much is accomplished before December 31, 
1999, meeting the Y2K challenge also requires being prepared 
for the unknown. And that gets me to the current phase of the 
AHA's Y2K efforts: contingency planning.
    Contingency planning means asking and answering all the 
``what if '' questions. These efforts need to be both internal, 
within hospital facilities, and external, within communities. 
This includes everyone that the hospital depends on, the 
medical equipment manufacturers, the power companies, and 
telecommunication companies. It also includes those who depend 
upon the hospital, like participants in the communities 
emergency services network.
    We followed up in early March by distributing to each of 
our AHA members how-to materials for hospital contingency 
planning that stress the need for hospitals to plan with their 
community partners how to handle the Y2K induced losses or 
disruptions. In addition, the AHA is working with the Federal 
Emergency Management Administration to coordinate emergency 
preparedness efforts at a national level with contingency 
planning taking place at individual hospitals and local 
communities.
    I applaud the efforts of the Health Care Financing 
Administration in their discussions about contingency planning. 
And as HCFA has indicated, they are confident that their 
payment mechanisms will not be affected by the millennium bug, 
but unforeseen problems could occur. It's imperative that 
there's communication between HCFA, HHS, and the hospital 
industry and providers to establish a fail-safe contingency 
plan. We're willing to continue to work and cooperate with HCFA 
to ensure that these concerns about the year 2000 are 
adequately addressed.
    Medicare beneficiaries healthcare needs will remain 
constant regardless of how well we prepare for the year 2000 
problems. If carrier and payment systems are affected by the 
millennium bug, hospitals' ability to continue providing high-
quality healthcare could be severely affected. A system of 
advance payments based on past payment levels is one way this 
could be prevented and will ensure that hospitals have the 
resources necessary to care for Medicare patients in the event 
of any Y2K disruption.
    We urge that this continually be monitored and there be 
appropriate legislation authorizing such a system and have HCFA 
make its contingency plans public.
    Mr. Chairman, American hospitals and health systems, their 
State associations, and the AHA are partners in the effort to 
prepare for the year 2000. We encourage Congress and our 
Federal agencies to work with us as well and we'll continue to 
cooperate with all the agencies to ensure a smooth and healthy 
transition into the new millennium.
    This concludes my remarks, and I will be glad to answer any 
questions.
    [The prepared statement follows:]

Statement of Fred Brown, Vice Chairman, BJC Health Systems, St. Louis, 
Missouri, and Chairman, Board of Trustees, American Hospital 
Association

    Mr. Chairman, I am Fred Brown, vice chairman of BJC Health 
Systems in St. Louis and chairman of the Board of Trustees of 
the American Hospital Association (AHA). I am here on behalf of 
the AHA's nearly 5,000 hospitals, health systems, networks, and 
other providers of care. I am also privileged to be a Senior 
Advisor to the President's Council on Year 2000 Conversion, 
representing the hospital field.
    The AHA and its members are committed to taking whatever 
steps are necessary to prevent potential Year 2000 problems 
from interrupting the smooth delivery of high-quality health 
care. We appreciate this opportunity to update you on our 
efforts, to outline the role that the AHA has taken in aiding 
the health care field, and to highlight some areas in which the 
government and its agencies can help as they play their 
critical roles in this historic effort.
                       Progress on Y2K Compliance
    The AHA last summer conducted an informal survey of how 
prepared our members were for the turn of the century. The 
nearly 800 responses suggest that hospitals and health systems 
are diligently working to prepare for the Year 2000, and are 
committed to the smooth delivery of patient care without 
interruptions. Respondents represented individual hospitals and 
multi-hospital systems in urban and rural areas. Some 
highlights:
    <bullet> 77% had developed a systematic plan of evaluation 
and action.
    <bullet> 89% had already inventoried existing equipment.
    <bullet> 76% had surveyed vendors/manufacturers to identify 
Year 2000-compliant equipment.
    <bullet> 83% had begun making existing equipment, hardware, 
software and data sources Year 2000 compliant.
    <bullet> 81% projected that their Year 2000 solutions would 
be complete in 1999.
    I'll use my organization, BJC Health System in St. Louis, 
to personify what these statistics mean. At BJC, Y2K has been 
the focus in the information systems department for more than 
18 months. The first priority of all Y2K projects is, of 
course, any equipment that is directly related to patient care. 
We feel comfortable with our progress so far. We will continue 
working diligently throughout 1999 to ensure that the Year 2000 
change occurs with minimal disruption in our facilities. Since 
the last half of 1997, our information services department's 
primary focus has been Y2K. Dozens of individuals have been 
solely dedicated to examining computer codes, programs and 
computer-assisted medical devices to ensure that they will work 
in the new millennium. Along with information services, BJC's 
material services department is playing a critical role in our 
Y2K compliance. Materials services is primarily working with 
vendors and their related equipment, and with clinical 
engineering, which oversees all patient-related equipment in 
BJC's hospitals and facilities.
                        The Costs of Compliance
    What are the costs of Y2K compliance expected to be? The 
AHA is releasing today a new survey that looks into that 
question. The survey was sent to 2,000 hospital and health 
system CEOs early last month. Five hundred and six surveys were 
returned, an excellent 25.3 percent response rate. The results, 
quite frankly, point to a huge financial investment by 
hospitals and health systems. The bottom line is that America's 
hospitals and health systems expect to spend somewhere around 
$8 billion to become Y2K compliant.
    Smaller hospitals, those with fewer than 100 beds, will 
spend close to $1 billion on Y2K fixes, or an average of 
$435,000 each. Hospitals with between 100 and 300 beds will 
spend $2.5 billion, an average of $1.2 million each. Hospitals 
with 300-500 beds will spend nearly $2 billion, or $3.4 million 
each. The largest amount of spending, $2.2 billion, will occur 
at hospitals that have more than 500 beds.
    Much of the $8 billion that hospitals expect to spend on 
Y2K compliance will be spent this year. This presents an 
immense challenge, because that spending comes on top of 
significantly declining Medicare reimbursement brought by the 
Balanced Budget Act (BBA) of 1997. The BBA reduced payments to 
hospitals by $44.1 billion over five years. Further reductions, 
like those proposed in the Administration's recent budget 
proposal, would make a terrible burden even more onerous.
                 The Role of AHA and Other Associations
    Hospitals and health systems face the same kinds of Y2K 
concerns as other critical sectors of our nation. However, 
hospitals are unique. They have a special place in America's 
social services safety net. Every community in America relies 
on its local hospital to be ready to provide high-quality 
health care services on demand, 24 hours a day. It is therefore 
very important that the public understand that hospitals have 
been very aggressive in their efforts to ensure the seamless 
delivery of health care services before, during, and after the 
turn of the century. And it is important for hospitals to have 
a contingency plan in place.

Protecting Public Confidence, Staying Abreast of Progress

    The AHA, in collaboration with our state, regional and 
metropolitan associations and other key strategic partners, is 
working hard to stress to our member hospitals the importance 
of managing the Y2K issue from a public confidence perspective. 
We are developing tools to counsel hospitals and health systems 
about how to talk with the public about Y2K and health care. A 
Y2K Communications Action Kit is being developed that will be 
distributed in early March to all our state associations, which 
they will then distribute to our members. Our members will be 
urged and encouraged to adapt the materials in the kits for use 
in their communities. The kit will include tools and samples of 
how to communicate to various audiences about the Y2K issue.
    We are continuing our efforts to make sure that hospitals 
and health systems have the latest information on what their 
colleagues and other organizations are doing to address the Y2K 
problem. And we are helping them learn about potential 
solutions.
    Our State Issues Forum, which tracks state-level 
legislative and advocacy activities, is hosting biweekly 
conference calls dedicated entirely to the Year 2000 issue. On 
these calls, state hospital association and AHA staff share 
information. A special AHA task force on the Year 2000 problem 
has been drawing up timelines for action to make sure our 
members get the latest information and know where to turn for 
help.
    Articles are appearing regularly in AHA News, our national 
newspaper, in Hospitals and Health Networks, our national 
magazine for hospital CEOs, in Trustee, our national magazine 
for volunteer hospital leadership, and in several other 
national publications that are published by various AHA 
membership societies. Several of these societies, such as the 
American Society for Healthcare Engineering and the American 
Society for Healthcare Risk Management, are deeply involved in 
helping their members attack the millennium bug in their 
hospitals.
    In addition, the AHA Web site has become an important 
clearinghouse of information on the Year 2000 issue, including 
links to other sites with information that can help our 
members.

Contingency Planning

    The AHA believes that the best approach for hospitals to 
manage potential disruptions on January 1, 2000, is to 
anticipate them. Specifically, it is incumbent upon hospitals 
to prepare now to respond to the potential loss or disruption 
of any essential hospital processes or services. These efforts 
need to be directed both internally across hospitals' 
facilities, and externally within communities. This would 
include working with such entities as utility companies, 
emergency medical services, and other health care providers.
    The AHA, along with state, regional and metropolitan 
hospital and health system associations, is working hard to 
make sure that America's hospitals and health systems are 
informed about, educated on, and assisted with Year 2000 
contingency planning. We recently distributed to every AHA 
member an executive briefing on hospital contingency planning. 
This briefing emphasizes the interdependent nature of health 
care, and stresses the need for hospitals to plan in advance, 
with their key partners, how they will handle potential Y2K-
induced losses or disruptions.
    This executive briefing will be followed up in early March 
by ``how-to'' materials for hospital contingency planning, 
including a business continuity planning guide and a set of 
alternate operating procedures that address the most mission-
critical processes of hospitals. The AHA also is working with 
the Odin Group's VitalSigns 2000 project, which draws on 
leadership from health care provider, payer, pharmaceutical, 
and supplier sectors to develop a pamphlet that will help 
consumers understand Y2K and health care.
    In addition, the AHA will be working with the Federal 
Emergency Management Administration to coordinate emergency 
preparedness efforts at a national level with contingency 
planning taking place at individual hospitals in local 
communities. At a meeting scheduled for March, we will bring 
together representatives of major health systems and health 
care manufacturing and supply companies to discuss how we can 
provide guidance to the health care field on issues related to 
Y2K preparedness and concerns about health care equipment and 
pharmaceutical supply and stockpiling.
                          The Role of the FDA
    Of course, if hospitals are to communicate realistically 
with their communities about Y2K readiness, they must receive 
realistic communications from manufacturers about the Y2K 
readiness of medical devices and equipment. While health care 
providers can inventory their thousands of devices and pieces 
of equipment, the information about whether these devices are 
Year 2000-compliant must come from the manufacturers. Several 
organizations, both public and private, have undertaken 
concerted efforts to collect this information. Key among them 
are the Veterans Administration, the Food and Drug 
Administration (FDA), and a consortium of state hospital 
associations and the AHA, through the Security Third Millennium 
product. The AHA has urged the FDA to play a lead role in 
getting manufacturers to report on the Y2K compliance of their 
products, and the FDA has responded. The Center for Devices and 
Radiological Health (CDRH), the arm of the FDA responsible for 
regulating the safety and effectiveness of medical devices, has 
taken a number of steps to ensure that manufacturers of medical 
devices address potential Year 2000 problems. We commend the 
center for its actions. And we commend the many manufacturers 
that have made available important information about their 
products' Y2K status.
    However, some of the information that has been reported has 
not been reported in a way that is helpful. Therefore, the FDA 
must require manufacturers to improve the quality of 
information that hospitals receive. This involves important 
issues such as good descriptions of how a product might be 
affected if it is not Y2K compliant. It also includes ensuring 
that manufacturers specifically report which of their devices 
and products are Y2K compliant, instead of just reporting about 
those products that may not yet be compliant.
    We also urge the FDA to take further steps in two specific 
areas. The first is to mandate that non-reporting manufacturers 
report on the Y2K readiness of their products. The second is 
for the FDA to adopt a rumor control function. There are a lot 
of rumors and anecdotal stories about the implications of the 
turn of the century being spread--on the Internet, for 
example--that need to be reined in. We urge the FDA to 
establish itself as the place where people go to get the truth.
                            The Role of HCFA
    On average, America's hospitals and health systems receive 
roughly half of their revenues from government programs like 
Medicare and Medicaid. If that much revenue were to be suddenly 
cut off, hospitals could not survive, and patient care could be 
jeopardized. Hospitals would not be able to pay vendors. They 
would not be able to purchase food, supplies, laundry services, 
maintain medical equipment--in short, they would not be able to 
do the job their communities expect of them. All this would 
occur even as hospitals and health systems faced the 
substantial costs of addressing their own Year 2000 system 
needs--costs that are not recognized in the calculation of 
current Medicare payment updates.
    We applaud the Health Care Financing Administration's 
(HCFA) announcement that the Fiscal Year 2000 PPS update will 
no longer have to be delayed while the agency prepares its 
computer systems for Y2K. We congratulate the agency's 
personnel for tackling the problem in such a way that it 
apparently will no longer require nearly $300 million in 
payment updates to be held back from the hospitals that need 
them. However, our congratulations are tempered by our concern 
that HCFA has not yet announced that it has an adequate 
contingency plan in place.
    Even if HCFA and its contractors express confidence that 
their payment mechanisms will not be affected by the millennium 
bug, unforeseen problems could crop up. Therefore, it is 
imperative that HCFA establish a fail-safe contingency plan in 
case HCFA or its contractors' payment mechanisms somehow fail 
at the turn of the century. We have offered to work with HCFA 
to ensure that these short-and long-term concerns about the 
Year 2000 are adequately addressed.
    Medicare beneficiaries' health care needs will remain 
constant, regardless of how well we are prepared for Year 2000 
problems. If carrier and fiscal intermediary payment systems 
are clogged up by the millennium bug, hospitals' ability to 
continue providing high-quality health care could be severely 
affected. A system of advance payments, based on past payment 
levels, is one way that this could be done. It would ensure 
that hospitals have the resources necessary to care for 
Medicare patients. We urge Congress to enact legislation to 
authorize such a system, and require that HCFA subject such 
contingency plans to public comment.
    HCFA also must make sure its contractors--including 
Medicare+Choice plans--take steps to ensure that their 
performance will not be interrupted by Year 2000 problems 
caused by the millennium bug. HCFA should make readily 
available its work plan, and progress reports, for bringing the 
contractors and Medicare+Choice plans into compliance and 
monitor their efforts. Letting providers know what changes may 
be required of them is also important. This would allow 
providers, contractors and plans to prepare simultaneously and 
ensure that their systems are compatible.
    It is important to note that Medicare is not the only payer 
for hospital services. Similar payment delays could occur if 
private health insurers and, in the case of Medicaid, 
individual states, have not addressed their own Year 2000 
problems. HCFA has the authority and leverage to prevent this 
from happening, and we urge the agency to exercise that 
authority.
                          The Role of Congress
    As I have described, health care providers and the 
associations that represent them are devoting significant time, 
resources and energy to preventing potential Year 2000 problems 
from affecting patient safety. It is essential that we all look 
for ways to help prepare America's health care system for the 
turn of the century, and Congress can play an important role. 
Your attention to this issue, through hearings such as this, 
reflects your understanding of the gravity of the situation.
    One major step toward Y2K compliance occurred when Congress 
passed its ``Good Samaritan'' legislation. By shielding from 
liability the sharing of information among businesses that 
provide it in good faith, this law encourages all parties--
providers, suppliers, manufacturers, and more--to work 
together.
    We ask you to help America's health care system avoid Year 
2000 problems by taking several other steps:
    <bullet> Congress should provide the FDA with any 
additional authority it needs to mandate reporting by 
manufacturers.
    <bullet> Congress should authorize advance payments under 
Medicare. These payments, based on past payment levels, should 
be implemented to ensure adequate cash flow for providers in 
case carrier and fiscal intermediary payment systems fail due 
to the date change. Congress also should ensure that HCFA has 
adequate funding to ensure Y2K compliance, including the 
testing needed to demonstrate that the claims processing and 
payment systems work for the government, providers, 
contractors, and beneficiaries alike.
    <bullet> There has been some talk of the need for a 
contingency fund to be created, from which states (in the case 
of Medicaid, for example) or hospitals could draw monies needed 
to continue operating in case of a Y2K disruption. We would be 
glad to be a part of any discussions concerning how such a fund 
should be set up.
    Mr. Chairman, the Year 2000 issue will affect every aspect 
of American life, but few, if any, are as important as health 
care. America's hospitals and health systems, their state 
associations, and the AHA are partners in the effort to prepare 
for the Year 2000. We encourage Congress and our federal 
agencies to work with us as well. Together, we can ensure a 
smooth--and healthy--transition into the new millennium.

    [Attachment is being retained in Committee files.]

                                <F-dash>


    Chairman Archer. Thank you, Mr. Brown.
    Dr. Palmisano, if you'll identify yourself for the record, 
you may proceed?

STATEMENT OF DONALD J. PALMISANO, M.D., J.D., MEMBER, BOARD OF 
 DIRECTORS, AND CHAIR, DEVELOPMENT COMMITTEE, NATIONAL PATIENT 
  SAFETY FOUNDATION, AND MEMBER, BOARD OF TRUSTEES, AMERICAN 
                      MEDICAL ASSOCIATION

    Dr. Palmisano. Thank you, Mr. Chairman. My name is Dr. 
Palmisano. I am a board member of the American Medical 
Association, and I want to thank you for inviting me to testify 
today.
    The year 2000 problem will affect virtually all aspects of 
the medical profession, most especially patient care. By nature 
of its work, the medical profession has to rely heavily on 
technology. Most all physicians use computers in their 
practices. They do so for scheduling, reimbursement, and 
increasingly for more clinical functions, such as logging 
patient histories. Patients and physicians also rely on medical 
equipment with embedded micro-chips.
    With this reliance comes the risk of malfunctions due to 
the Y2K bug. Imagine for a moment yourself as the patient. How 
would you feel if a device that was monitoring your heart 
failed to sound an alarm when your heart slowed to a dangerous 
rate or if a portable defibrillator failed to function at the 
moment you went into ventricular fibrillation. Obviously, these 
events would alarm you and your physician. The risk of device 
malfunctions is real and it has to be anticipated and 
eliminated.
    Although the year 2000 problem still poses significant 
risks for patient care and may adversely affect physicians' 
administrative responsibilities, the good news is that the 
medical profession is making significant progress. In its 
efforts to assist physicians to achieve compliance, the AMA has 
been focusing on three areas: education, communication, and 
cooperation.
    For about a year, the AMA has been educating physicians and 
medical students with two of its publications, AMA News and the 
Journal of the American Medical Association, JAMA. We have been 
raising physicians' level of awareness of the year 2000 problem 
with numerous articles on a variety of Y2K subjects from 
patient safety concerns to developments in Y2K legislation. The 
AMA has also launched a national campaign that focuses both on 
education and communication. As part of this campaign, the AMA 
has begun holding regional seminars to talk about best to work 
with vendors and how to obtain necessary information about 
devices that could affect patient care.
    We also have made available to literally hundreds of 
thousands of physicians a solutions manual entitled: ``The Year 
2000 Problem: Guidelines for Protecting Your Patients and 
Practice.'' And I have the manual here in my hand. And Members 
of the Committee have been given a copy of this particular 
manual. This booklet talks about Y2K compliance requirements, 
how to obtain information about medical devices, self-
assessment programs, contingency plans, and a lot more. It also 
identifies a host of other resources for physicians to obtain 
help in becoming Y2K compliant.
    To foster greater communication among physicians about the 
Y2K problem, the AMA has established a special section on its 
award-winning website: www.ama-assn.org. And we invite everyone 
to visit this site. We believe this will serve as an important 
interactive resource for physicians by providing regularly 
updated information about the millennium bug and by enabling 
physicians to assist each other in solving their Y2K problems.
    The AMA is also promoting cooperation through our 
involvement with the National Patient Safety Foundation. This 
Foundation already coordinates efforts within the healthcare 
system to try and prevent avoidable patient injuries. The AMA 
launched the Foundation in partnership with other healthcare 
organizations and safety experts. In addition, we helped form 
the National Patient Safety Partnership, which was convened by 
the Department of Veteran Affairs. It's a public-private 
partnership. And this has shown particular leadership on the 
Y2K problem, trying to increase the medical community's 
awareness of the issues.
    We might ask ourselves what more can be done? First, we 
cannot become complacent. Not until we have full Y2K compliance 
throughout the healthcare community, and for that matter 
throughout all industries, can we claim success. Physicians and 
other healthcare advocates continue to call on medical device 
manufacturers to disclose immediately whether their products 
will malfunction. Only they have that information. The 
physicians and patients do not have the expertise or resources 
to know what devices may or may not fail. We have to rely on 
the manufacturers, the Congress, and the administration to 
ensure that they promptly disclose this vital information.
    We are aware that last year, The Year 2000 Information and 
Readiness Disclosure Act was enacted into law. As Congress 
considers other methods of motivating vendors to disclose 
medical device information, the AMA wants to go on record as 
continuing to oppose any tradeoff of liability immunity for 
information disclosure.
    Finally, we need to reassure patients that medical devices 
will continue to work safely regardless of the year 2000. We do 
not want a lack of information to cause patients to panic. The 
patient has to be our number one concern in all of our Y2K 
efforts.
    Thank you very much, once again, for inviting me, Mr. 
Chairman and Members of the Committee, to testify on behalf of 
the AMA. Allow me to offer our services in working further with 
the Congress to effectively address this problem.
    Thanks.
    [The prepared statement follows:]

Statement of Donald J. Palmisano, M.D., J.D., Member, Board of 
Directors, and Chair, Development Committee, National Patient Safety 
Foundation; and Member, Board of Trustees American Medical Association

    Mr. Chairman and Members of the Committee, my name is 
Donald J. Palmisano, MD, JD. I am a member of the Board of 
Trustees of the American Medical Association (AMA), a Board of 
Directors member of the National Patient Safety Foundation 
(NPSF) and the Chair of the Development Committee for the same 
foundation. I also practice vascular and general surgery in New 
Orleans, Louisiana. On behalf of the three hundred thousand 
physician and medical student members of the AMA, I appreciate 
the chance to comment on the issue of year 2000 conversion 
efforts and the implications of the year 2000 problem for 
health care beneficiaries.
                              Introduction
    The year 2000 problem has arisen because many computer 
systems, software and embedded microchips cannot properly 
process date information. These devices and software can only 
read the last two digits of the ``year'' field of data; the 
first two digits are presumed to be ``19.'' Consequently, when 
data requires the entry of a date in the year 2000 or later, 
these systems, devices and software will be incapable of 
correctly processing the data.
    Currently, nearly all industries are in some manner 
dependent on information technology, and the medical industry 
is no exception. As technology advances and its contributions 
mount, our dependency and consequent vulnerability become more 
and more evident. The year 2000 problem is revealing to us that 
vulnerability.
    By the nature of its work, the medical industry relies 
tremendously on technology, on computer systems--both hardware 
and software, as well as medical devices that have embedded 
microchips. A survey conducted last year by the AMA found that 
almost 90% of the nation's physicians are using computers in 
their practices, and 40% are using them to log patient 
histories.\1\ These numbers appear to be growing as physicians 
seek to increase efficiency and effectiveness in their 
practices and when treating their patients.
---------------------------------------------------------------------------
    \1\ ``Doctors Fear Patients Will Suffer Ills of the Millennium Bug; 
Many Are Concerned That Y2K Problem Could Erroneously Mix Medical 
Data--Botching Prescriptions and Test Results,'' Los Angeles Times, 
Jan. 5, 1999, p. A5.
---------------------------------------------------------------------------
    Virtually every aspect of the medical profession depends in 
some way on these systems--for treating patients, handling 
administrative office functions, and conducting transactions. 
For some industries, software glitches or even system failures, 
can, at best, cause inconvenience, and at worst, cripple the 
business. In medicine, those same software or systems 
malfunctions can, much more seriously, cause patient injuries 
and deaths.
                              Patient Care
    Assessing the current level of risk attributable 
specifically to the year 2000 problem within the patient care 
setting remains problematic. We do know, however, that the risk 
is present and it is real. Consider for a minute what would 
occur if a monitor failed to sound an alarm when a patient's 
heart stopped beating. Or if a respirator delivered 
``unscheduled breaths'' to a respirator-dependent patient. Or 
even if a digital display were to attribute the name of one 
patient to medical data from another patient. Are these 
scenarios hypothetical, based on conjecture? No. Software 
problems have caused each one of these medical devices to 
malfunction with potentially fatal consequences.\2\ The 
potential danger is present.
---------------------------------------------------------------------------
    \2\ Anthes, Gary H., ``Killer Apps; People are Being Killed and 
Injured by Software and Embedded Systems,'' Computerworld, July 7, 
1997.
---------------------------------------------------------------------------
    The risk of patient injury is also real. Since 1986, the 
FDA has received more than 450 reports identifying software 
defects--not related to the year 2000--in medical devices. 
Consider one instance--when software error caused a radiation 
machine to deliver excessive doses to six cancer patients; for 
three of them the software error was fatal.\3\ We can 
anticipate that, left unresolved, medical device software 
malfunctions due to the millennium bug would be prevalent and 
could be serious.
---------------------------------------------------------------------------
    \3\ Id.
---------------------------------------------------------------------------
    Medical device manufacturers must immediately disclose to 
the public whether their products are Y2K compliant. Physicians 
and other health care providers do not have the expertise or 
resources to determine reliably whether the medical equipment 
they possess will function properly in the year 2000. Only the 
manufacturers have the necessary in-depth knowledge of the 
devices they have sold.
    Nevertheless, medical device manufacturers have not always 
been willing to assist end-users in determining whether their 
products are year 2000 compliant. Last year, the Acting 
Commissioner of the FDA, Dr. Michael A. Friedman, testified 
before the U.S. Senate Special Committee on the Year 2000 
Problem that the FDA estimated that only approximately 500 of 
the 2,700 manufacturers of potentially problematic equipment 
had even responded to inquiries for information. Even when 
vendors did respond, their responses frequently were not 
helpful. The Department of Veterans Affairs reported last year 
that of more than 1,600 medical device manufacturers it had 
previously contacted, 233 manufacturers did not even reply and 
another 187 vendors said they were not responsible for 
alterations because they had merged, were purchased by another 
company, or were no longer in business. One hundred two 
companies reported a total of 673 models that were not 
compliant but should be repaired or updated this year.\4\ Since 
July 1998, however, representatives of the manufacturers 
industry have met with the Department of Veterans Affairs, the 
FDA, the AMA and others to discuss obstacles to compliance and 
have promised to do more for the health care industry.
---------------------------------------------------------------------------
    \4\ Morrissey, John, and Weissenstein, Eric, ``What's Bugging 
Providers,'' Modern Healthcare, July 13, 1998, p. 14. Also, July 23, 
1998 Hearing Statement of Dr. Kenneth W. Kizer, Undersecretary for 
Health Department of Veterans Affairs, before the U.S. Senate Special 
Committee on the Year 2000 Technology Problem.
---------------------------------------------------------------------------
                             Administrative
    Many physicians and medical centers are also increasingly 
relying on information systems for conducting medical 
transactions, such as communicating referrals and 
electronically transmitting prescriptions, as well as 
maintaining medical records. Many physician and medical center 
networks have even begun creating large clinical data 
repositories and master person indices to maintain, consolidate 
and manipulate clinical information, to increase efficiency and 
ultimately to improve patient care. If these information 
systems malfunction, critical data may be lost, or worse--
unintentionally and incorrectly modified. Even an inability to 
access critical data when needed can seriously jeopardize 
patient safety.
    Other administrative aspects of the Y2K problem involve 
Medicare coding and billing transactions. In the middle of last 
year, HCFA issued instructions through its contractors 
informing physicians and other health care professionals that 
electronic and paper claims would have to meet Y2K compliance 
criteria by October 1, 1998. In September 1998, however, HCFA 
directed Medicare carriers and fiscal intermediaries not to 
reject or ``return as unprocessable'' any electronic media 
claims for non-Y2K compliance until further notice. That notice 
came last month. In January 1999, HCFA instructed both carriers 
and fiscal intermediaries to inform health care providers, 
including physicians, and suppliers that claims received on or 
after April 5, 1999, which are not Y2K compliant will be 
rejected and returned as unprocessable.
    We understand why HCFA is taking this action at this time. 
We genuinely hope, however, that HCFA, to the extent possible, 
will assist physicians and other health care professionals who 
have been unable to achieve Y2K compliance by April 5. We have 
been informed that HCFA has decided to grant physicians 
additional time, if necessary, for reasonable good faith 
exceptions, and we strongly support that decision. Physicians 
are genuinely trying to comply with HCFA's Y2K directives. In 
fact, HCFA has already represented that 95% of the electronic 
bills being submitted by physicians and other Medicare Part B 
providers already meet HCFA's Y2K filing criteria. HCFA must 
not withhold reimbursement to, in any sense, punish those 
relatively few health care professionals who have lacked the 
necessary resources to meet HCFA's Y2K criteria. Instead, 
physicians and HCFA need to continue to work together to make 
sure that their respective data processing systems are 
functioning properly for the orderly and timely processing of 
Medicare claims data.
    We also hope that HCFA's January 1999 instructions are not 
creating a double standard. According to the instructions, HCFA 
will reject non-Y2K compliant claims from physicians, other 
health care providers and suppliers. HCFA however has failed to 
state publicly whether Medicare contractors are under the same 
obligation to meet the April 5th deadline. Consequently, after 
April 5th non-compliant Medicare contractors will likely 
continue to receive reimbursement from HCFA while physicians, 
other health care providers, and suppliers that file claims not 
meeting HCFA's Y2K criteria will have their claims rejected. 
This inequity must be corrected.
    Medicare administrative issues are of critical importance 
to patients, physicians, and other health care professionals. 
In one scenario that took place in my home state of Louisiana, 
Arkansas Blue Cross & Blue Shield, the Medicare claims 
processor for Louisiana, implemented a new computer system--
intended to be Y2K compliant--to handle physicians' Medicare 
claims. Although physicians were warned in advance that the 
implementation might result in payment delays of a couple of 
weeks, implementation problems resulted in significantly longer 
delays. For many physicians, this became a real crisis. 
Physicians who were treating significant numbers of Medicare 
patients immediately felt significant financial pressure and 
had to scramble to cover payroll and purchase necessary 
supplies.\5\
---------------------------------------------------------------------------
    \5\ ``Year 2000 Bug Bites Doctors; Glitch Stymies Payments for 
Medicare Work,'' The Times-Picayune, June 6, 1998, page C1.
---------------------------------------------------------------------------
    We are encouraging physicians to address the myriad 
challenges the Y2K dilemma poses for their patients and their 
practices, which include claims submission requirements. The 
public remains concerned however that the federal government 
may not achieve Y2K compliance before critical deadlines. An 
Office of Management and Budget report issued on December 8, 
1998, disclosed that the Department of Health and Human 
Services is only 49% Y2K compliant.\6\ In a meeting last week, 
though, HCFA representatives stated that HCFA has made 
significant progress towards Y2K compliance, specifically on 
mission critical systems. In any case, we believe that HCFA 
should lead by example and have its systems in compliance as 
quickly as possible to allow for adequate parallel testing with 
physician claims submission software and other health care 
professionals. Such testing would also allow for further 
systems refinements, if necessary.
---------------------------------------------------------------------------
    \6\ ``Clinton Says Social Security is Y2K Ready,'' Los Angeles 
Times, December 29, 1998, p. A1. See ``Government Agencies Behind the 
Curve on Y2K Issue,'' Business Wire, January 28, 1999 (stating that 
Computer Week on November 26, 1998 reported only a 34% Y2K compliance 
level for the Department of Health and Human Services).
---------------------------------------------------------------------------
                Reimbursement and Implementation of BBA
    To shore up its operations, HCFA has stated that it will 
concentrate on fixing its internal computers and systems. As a 
result, it has decided not to implement some changes required 
under the Balanced Budget Act (BBA) of 1997, and it plans to 
postpone physicians' payment updates from January 1, 2000, to 
about April 1, 2000.
    In the AMA's view, the Y2K problem is and has been an 
identifiable and solvable problem. Society has known for many 
years that the date problem was coming and that individuals and 
institutions needed to take remedial steps to address the 
problem. There is no justification for creating a situation 
where physicians, hospitals and other providers now are being 
asked to pay for government's mistakes by accepting a delay in 
their year 2000 payment updates.
    HCFA has indicated to the AMA that the delay in making the 
payment updates is not being done to save money for the 
Medicare Trust Funds. In addition, the agency has said that the 
eventual payment updates will be conducted in such a way as to 
fairly reimburse physicians for the payment update they should 
have received. In other words, the updates will be adjusted so 
that total expenditures in the year 2000 on physician services 
are no different than if the updates had occurred on January 1.
    We are pleased that HCFA has indicated a willingness to 
work with us on this issue. But we have grave concerns about 
the agency's ability to devise a solution that is equitable and 
acceptable to all physicians.
    Also, as it turns out, the year 2000 is a critical year for 
physicians because several important BBA changes are scheduled 
to be made in the resource-based relative value scale (RBRVS) 
that Medicare uses to determine physician payments. This 
relative value scale is comprised of three components: work, 
practice expense, and malpractice expense. Two of the three--
practice expense and malpractice--are due to undergo 
Congressionally-mandated modifications in the year 2000.
    In general, the practice expense changes will have 
different effects on the various specialties. Malpractice 
changes, to some modest degree, would offset the practice 
expense redistributions. To now delay one or both of these 
changes will have different consequences for different medical 
specialties and could put HCFA at the eye of a storm that might 
have been avoided with proper preparation.
    To make matters worse, we also are concerned that delays in 
Medicare's reimbursement updates could have consequences far 
beyond the Medicare program. Many private insurers and state 
Medicaid agencies base their fee-for-service payment systems on 
Medicare's RBRVS. Delays in reimbursement updates caused by 
HCFA may very well lead other non-Federal payers to follow 
Medicare's lead, resulting in a much broader than expected 
impact on physicians.
                     Current Level of Preparedness
    Assessing the status of the year 2000 problem is difficult 
not only because the inventory of the information systems and 
equipment that will be affected is far from complete, but also 
because the consequences of noncompliance for each system 
remain unclear. Nevertheless, if the studies are correct, 
malfunctions in noncompliant systems will occur and equipment 
failures can surely be anticipated. The analyses and surveys 
that have been conducted present a rather bleak picture for the 
health care industry in general, and physicians' practices in 
particular.
    The Odin Group, a health care information technology 
research and advisory group, for instance, found from a survey 
of 250 health care managers that many health care companies by 
the second half of last year still had not developed Y2K 
contingency plans.\7\ The GartnerGroup has similarly concluded, 
based on its surveys and studies, that the year 2000 problem's 
``effect on health care will be particularly traumatic . . . 
[l]ives and health will be at increased risk. Medical devices 
may cease to function.'' \8\ In its report, it noted that most 
hospitals have a few thousand medical devices with 
microcontroller chips, and larger hospital networks and 
integrated delivery systems have tens of thousands of devices.
---------------------------------------------------------------------------
    \7\ ``Health Care Not Y2K-Ready--Survey Says Companies 
Underestimate Need For Planning; Big Players Join Forces,'' 
InformationWeek, January 11, 1999.
    \8\ GartnerGroup, Kenneth A. Kleinberg, ``Healthcare Worldwide Year 
2000 Status,'' July 1998 Conference Presentation, p. 2 (hereinafter, 
GartnerGroup).
---------------------------------------------------------------------------
    Based on early testing, the GartnerGroup also found that 
although only 0.5-2.5 percent of medical devices have a year 
2000 problem, approximately 5 percent of health care 
organizations will not locate all the noncompliant devices in 
time.\9\ It determined further that most of these organizations 
do not have the resources or the expertise to test these 
devices properly and will have to rely on the device 
manufacturers for assistance.\10\
---------------------------------------------------------------------------
    \9\ Id. at p. 8.
    \10\ Id.
---------------------------------------------------------------------------
    As a general assessment, the GartnerGroup concluded that 
based on a survey of 15,000 companies in 87 countries, the 
health care industry remains far behind other industries in its 
exposure to the year 2000 problem.\11\ Within the health care 
industry, the subgroups which are the furthest behind and 
therefore at the highest risk are ``medical practices'' and 
``in-home service providers.'' \12\ The GartnerGroup 
extrapolated that the costs associated with addressing the year 
2000 problem for each practice group will range up to $1.5 
million per group.\13\
---------------------------------------------------------------------------
    \11\ Id. at p. 10.
    \12\ Id. at p. 13.
    \13\ Id.
---------------------------------------------------------------------------
                   Remediation Efforts--AMA's Efforts
    We believe that through a united effort, the medical 
profession in concert with federal and state governments can 
dramatically reduce the potential for any adverse effects 
within the medical community resulting from the Y2K problem. 
For its part, the AMA has been devoting considerable resources 
to assist physicians and other health care providers in 
learning about and correcting the problem.
    For nearly a year, the AMA has been educating physicians 
through two of its publications, AMNews and the Journal of the 
American Medical Association (JAMA). AMNews, which is a 
national news magazine widely distributed to physicians and 
medical students, has regularly featured articles over the last 
twelve months discussing the Y2K problem, patient safety 
concerns, reimbursement issues, Y2K legislation, and other 
related concerns. JAMA, one of the world's leading medical 
journals, will feature an article written by the Administrator 
of HCFA, explaining the importance for physicians to become Y2K 
compliant. The AMA, through these publications, hopes to raise 
the level of consciousness among physicians of the potential 
risks associated with the year 2000 for their practices and 
patients, and identify avenues for resolving some of the 
anticipated problems.
    The AMA has also developed a national campaign entitled 
``Moving Medicine Into the New Millennium: Meeting the Year 
2000 Challenge,'' which incorporates a variety of educational 
seminars, assessment surveys, promotional information, and 
ongoing communication activities designed to help physicians 
understand and address the numerous complex issues related to 
the Y2K problem. The AMA is currently conducting a series of 
surveys to measure the medical profession's state of readiness, 
assess where problems exist, and identify what resources would 
best reduce any risk. The AMA already has begun mailing the 
surveys, and we anticipate receiving responses in the near 
future. The information we obtain from this survey will enable 
us to identify which segments of the medical profession are 
most in need of assistance, and through additional timely 
surveys, to appropriately tailor our efforts to the specific 
needs of physicians and their patients. The information will 
also allow us to more effectively assist our constituent 
organizations in responding to the precise needs of other 
physicians across the country.
    One of the many seminar series the AMA sponsors is the 
``Advanced Regional Response Seminars'' program. We are holding 
these seminars in various regions of the country and providing 
specific, case-study information along with practical 
recommendations for the participants. The seminars also provide 
tips and recommendations for dealing with vendors and explain 
various methods for obtaining beneficial resource information. 
Seminar participants receive a Y2K solutions manual, entitled 
``The Year 2000 Problem: Guidelines for Protecting Your 
Patients and Practice.'' This seventy-five page manual, which 
is also available to hundreds of thousands of physicians across 
the country, offers a host of different solutions to Y2K 
problems that physicians will likely face. It raises 
physicians' awareness of the problem, year 2000 operational 
implications for physicians' practices, and identifies numerous 
resources to address the issue.
    In addition, the AMA has opened a web site (URL: www.ama-
assn.org) to provide the physician community additional 
assistance to better address the Y2K problem. The site serves 
as a central communications clearinghouse, providing up-to-date 
information about the millennium bug, as well as a special 
interactive section that permits physicians to post questions 
and recommended solutions for their specific Y2K problems. The 
site also incorporates links to other sites that provide 
additional resource information on the year 2000 problem.
    On a related note, the AMA in early 1996 began forming the 
National Patient Safety Foundation or ``NPSF.'' Our goal was to 
build a proactive initiative to prevent avoidable injuries to 
patient in the health care system. In developing the NPSF, the 
AMA realized that physicians, acting alone, cannot always 
assure complete patient safety. In fact, the entire community 
of providers is accountable to our patients, and we all have a 
responsibility to work together to fashion a systems approach 
to identifying and managing risk. It was this realization that 
prompted the AMA to launch the NPSF as a separate organization, 
which in turn partnered with other health care organizations, 
health care leaders, research experts and consumer groups from 
throughout the health care sector.
    One of these partnerships is the National Patient Safety 
Partnership (NPSP), which is a voluntary public-private 
partnership dedicated to reducing preventable adverse medical 
events and convened by the Department of Veterans Affairs. 
Other NPSP members include the American Hospital Association, 
the Joint Commission on Accreditation of Healthcare 
Organizations, the American Nurses Association, the Association 
of American Medical Colleges, the Institute for Healthcare 
Improvement, and the National Patient Safety Foundation at the 
AMA. The NPSP has made a concerted effort to increase awareness 
of the year 2000 hazards that patients relying on certain 
medical devices could face at the turn of the century.
                            Recommendations
    As an initial step, we recommend that the Administration or 
Congress work closely with the AMA and other health care 
leaders to develop a uniform definition of ``compliant'' with 
regard to medical equipment. There needs to be clear and 
specific requirements that must be met before vendors are 
allowed to use the word ``compliant'' in association with their 
products. Because there is no current standard definition, it 
may mean different things to different vendors, leaving 
physicians with confusing, incorrect, or no data at all. 
Physicians should be able to spend their time caring for 
patients and not be required to spend their time trying to 
determine the year 2000 status of the numerous medical 
equipment vendors with whom they work.
    We further suggest that both the public and private sectors 
encourage and facilitate health care practitioners in becoming 
more familiar with year 2000 issues and taking action to 
mitigate their risks. Greater efforts must be made in educating 
health care consumers about the issues concerning the year 
2000, and how they can develop Y2K remediation plans, properly 
test their systems and devices, and accurately assess their 
exposure. We recognize and applaud the efforts of this 
Committee, the Congress, and the Administration in all of your 
efforts to draw attention to the Y2K problem and the medical 
community's concerns.
    We also recommend that communities and institutions learn 
from other communities and institutions that have successfully 
and at least partially solved the problem. Federal, state and 
local agencies as well as accrediting bodies that routinely 
address public health issues and disaster preparedness are 
likely leaders in this area. At the physician level, this means 
that public health physicians, including those in the military, 
organized medical staff, and medical directors, will need to be 
actively involved for a number of reasons. State medical 
societies can help take a leadership role in coordinating such 
assessments.
    We also must stress that medical device and software 
manufacturers need to publicly disclose year 2000 compliance 
information regarding products that are currently in use. Any 
delay in communicating this information may further jeopardize 
practitioners' efforts at ensuring compliance. A strategy needs 
to be developed to more effectively motivate all manufacturers 
to promptly provide compliance status reports. Additionally, 
all compliance information should be accurate, complete, 
sufficiently detailed and readily understandable to physicians. 
We suggest that the Congress and the federal government enlist 
the active participation of the FDA or other government 
agencies in mandating appropriate reporting procedures for 
vendors. We highly praise the Department of Veteran Affairs, 
the FDA, and others who maintain Y2K web sites on medical 
devices and offer other resources, which have already helped 
physicians to make initial assessments about their own 
equipment.
    We are aware that the ``Year 2000 Information and Readiness 
Disclosure Act'' was passed and enacted into law last year, and 
is intended to provide protection against liability for certain 
communications regarding Y2K compliance Although the AMA 
strongly believes that information must be freely shared 
between manufacturers and consumers, we continue to caution 
against providing liability caps to manufacturers in exchange 
for the Y2K information they may provide, for several reasons. 
First, as we have stated, generally vendors alone have the 
information about whether their products were manufactured to 
comply with year 2000 data. These manufacturers should disclose 
that information to their consumers without receiving an undue 
benefit from a liability cap.
    Second, manufacturers are not the only entities involved in 
providing medical device services, nor are they alone at risk 
if an untoward event occurs. When a product goes through the 
stream of commerce, several other parties may incur some 
responsibility for the proper functioning of that product, from 
equipment retailers to equipment maintenance companies. Each of 
these parties, including the end-user--the physician--will 
likely retain significant liability exposure if the device 
malfunctions because of a Y2K error. However, none of these 
parties will typically have had sufficient knowledge about the 
product to have prevented the Y2K error, except the device 
manufacturer. To limit the manufacturer's liability exposure 
under these circumstances flies in the face of sound public 
policy.
    We also have to build redundancies and contingencies into 
the remediation efforts as part of the risk management process. 
Much attention has been focused on the vulnerability of medical 
devices to the Y2K bug, but the problem does not end there. 
Patient injuries can be caused as well by a hospital elevator 
that stops functioning properly. Or the failure of a heating/
ventilation/air conditioning system. Or a power outage. The 
full panoply of systems that may break down as our perception 
of the scope of risk expands may not be as easily delineated as 
the potential problems with medical devices. Building in back-
up systems as a fail-safe for these unknown or more diffuse 
risks is, therefore, absolutely crucial.
    As a final point, we need to determine a strategy to notify 
patients in a responsible and professional way. If it is 
determined that certain medical devices may have a problem 
about which patients need to be notified, this needs to be 
anticipated and planned. Conversely, to the extent we can 
reassure patients that devices are compliant, this should be 
done. Registries for implantable devices or diagnosis-or 
procedure-coding databases may exist, for example, which could 
help identify patients who have received certain kinds of 
technologies that need to be upgraded and/or replaced or that 
are compliant. This information should be utilized as much as 
possible to help physicians identify patients and communicate 
with them.
    As we approach the year 2000 and determine those segments 
of the medical industry which we are confident will weather the 
Y2K problem well, we will all need to reassure the public. We 
need to recognize that a significant remaining concern is the 
possibility that the public will overreact to potential Y2K-
related problems. The pharmaceutical industry, for instance, is 
already anticipating extensive stockpiling of medications by 
individuals and health care facilities. In addition to 
continuing the remediation efforts, part of our challenge 
remains to reassure patients that medical treatment can be 
effectively and safely provided through the transition into the 
next millennium.
                               Conclusion
    We appreciate the Committee's interest in addressing the 
problems posed by the year 2000, and particularly, those 
problems that relate to physicians. Because of the broad scope 
of the millennium problem and physicians' reliance on 
information technology, we realize that the medical community 
has significant exposure. The Y2K problem will affect patient 
care, practice administration, and Medicare/Medicaid 
reimbursement. The AMA, along with the Congress and other 
organizations, seeks to better educate the health care 
community about Y2K issues, and assist health care 
practitioners in remedying, or at least reducing the impact of, 
the problem. The public and private sectors must cooperate in 
these endeavors, while encouraging the dissemination of 
compliance information.

                                <F-dash>


    Chairman Archer. Thank you, Doctor.
    Our next witness is Mr. Curtis Lord. And if you'll identify 
yourself for the record, you may proceed?

STATEMENT OF CURTIS LORD, CHIEF EXECUTIVE OFFICER, FIRST COAST 
  SERVICE OPTIONS, BLUE CROSS AND BLUE SHIELD ASSOCIATION OF 
  FLORIDA, ON BEHALF OF BLUE CROSS AND BLUE SHIELD ASSOCIATION

    Mr. Lord. Thank you, Mr. Chairman and Members of the 
Committee, for the opportunity to testify today. I'm Curtis 
Lord, chief executive officer, First Coast Service Options, a 
subsidiary of Blue Cross and Blue Shield of Florida. I'm here 
on behalf of the Blue Cross and Blue Shield Association.
    For more than 30 years, Blue Cross and Blue Shield plans 
have partnered with the government to handle the day to day 
work of paying Medicare claims accurately and timely. We are 
extremely proud of our role as Medicare contractors and the 
impressive performance record we've achieved.
    My testimony today focuses on three areas: our progress to 
assure that Y2K computer adjustments are made correctly and on 
time; why new contractor reforms are unwise; and the critical 
need for stable and adequate funding for all contractor 
operations.
    First, Y2K readiness is a top priority for Medicare 
contractors. I'm pleased to report we are making excellent 
progress toward ensuring that our mission-critical Medicare 
payment systems are millennium ready. HCFA has reported that as 
of December 31, 1998, all 78 contractor systems were fully 
renovated and 54 had self-certified with acceptable 
qualifications. According to HCFA, the remaining contractors 
are on target to self-certify by March 31, 1999.
    We are working closely with HCFA and our external vendors 
to make sure that all qualifications to our certifications are 
resolved during the first quarter of the year. Additionally, 
because Medicare systems are not static, we will continue 
testing during 1999 in order to re-certify their readiness by 
November the 1st.
    Let me now describe for you the efforts my company has made 
to become Y2K ready. We began preparing for Y2K readiness in 
1997 with the formation of a Y2K project team and the creation 
of a comprehensive Y2K readiness plan. In accordance with our 
plan, we inventoried software and hardware, reviewed our 
telecommunications environments, assessed and renovated codes, 
upgraded hardware to make it Y2K compliant and established a 
simulated production environment. We then ran test cases or 
test claims through the entire claims processing system to 
ensure that the system processes the claims with the same 
result both before and after the Y2K renovation. We tested over 
12,000 claims using eight key dates that span from late 
December 1999 through March 1, 2000. Based on the results of 
these tests, we were able to certify that the mission-critical 
systems we maintain are Y2K compliant as of December 31, 1998.
    This year we will continue all levels of testing and plan 
to test an additional 10,000 claims before re-certifying 
compliance to HCFA by November 1. This will include additional 
tests with providers who submit claims electronically to assure 
that they can submit bills to us and that we can receive them 
and provide remittance advice and payment.
    And, importantly, although we don't expect failure, we are 
developing and will test extensive contingency plans designed 
to help us prepare for potential problems and restore normal 
service in the most timely and cost-effective manner.
    Overall, we will involve hundreds of our staff and spend 
approximately $9.4 million ensuring our Medicare carrier and 
intermediary operations are Y2K ready.
    Although there is still much to be done, significant and 
steady progress has been made. We are confident that Medicare 
contractors will be ready to pay claims properly on and beyond 
January 1, 2000. Our objective is to ensure that beneficiaries 
and providers continue to receive the excellent customer 
service they expect and deserve.
    Second, HCFA is again proposing legislation to dramatically 
restructure the Medicare contracting process. This legislation 
would permit HCFA to fragment the functions of current 
contractors. Mr. Chairman, we do not believe this is a wise 
strategy for a number of reasons, not the least of which is 
that it could impede contractors' progress toward Y2K 
readiness. We believe the most effective manner to improve 
Medicare administration is to set appropriate performance 
standards for contractors, enforce them, and terminate the 
contracts of those not performing at the required levels.
    The last point I would like to make is that stable and 
adequate funding is absolutely critical to achieve excellence 
in performance. While the additive MIP funding provided by this 
Committee in 1996 is helping us strengthen our efforts to fight 
fraud and abuse, funding for the larger majority of contractor 
operations remains subject to the annual appropriations process 
and the tight budget limits that apply to those funds. We 
believe that finding a reliable and stable funding source for 
all Medicare contractor operations is imperative and would like 
to work with both HCFA and this Committee to assure that the 
contractors receive the administrative resources necessary to 
manage Medicare effectively.
    Thank you. I would be happy to answer any questions the 
Committee may have.
    [The prepared statement follows:]

Statement of Curtis Lord, Chief Executive Officer, First Coast Service 
Options, Blue Cross and Blue Shield Association, of Florida, on behalf 
of Blue Cross and Blue Shield Association

    Mr. Chairman and Members of the Committee, I am Curtis 
Lord, CEO of First Coast Service Options, a subsidiary of Blue 
Cross and Blue Shield of Florida. I am testifying on behalf of 
the Blue Cross and Blue Shield Association, the organization 
representing 52 independent Blue Cross and Blue Shield Plans 
throughout the nation who provide health coverage to over 70 
million people.
    I appreciate the opportunity to testify before you today to 
report on the excellent progress Blue Cross and Blue Shield 
Plans are making to assure Medicare systems will function 
properly in 2000.
    The Medicare program is administered through a successful 
partnership between the private industry and the Health Care 
Financing Administration (HCFA). Since 1965, Blue Cross and 
Blue Shield Plans have played a leading role in administering 
the program. They have contracted with the federal government 
to handle much of the day-to-day work of paying Medicare claims 
accurately and in a timely manner.
    Nationally, Blue Cross and Blue Shield Plans process over 
90 percent of Medicare Part A claims and about 67 percent of 
all Part B claims. At BCBS of Florida, we process about 5 
million Part A claims and 50 million Part B claims each year.
                Responsibilities of Medicare Contractors
    Medicare contractors have four major areas of 
responsibility:
    1. Paying claims: Medicare contractors process all the 
bills for the traditional Medicare fee-for-service program. In 
FY 2000, it is estimated that contractors will process over 900 
million claims, more than 3.5 million every working day.
    2. Providing Beneficiary and Provider Customer Services: 
Contractors are the main point of routine contact with the 
Medicare program for both beneficiaries and providers. 
Contractors educate beneficiaries and providers about Medicare 
and respond to about 40 million inquiries annually.
    3. Handling Appeals for Payment: Contractors handled more 
than 7 million hearings and appeals for reconsideration of 
initial payment determinations last year. In FY 2000, HCFA 
expects the cost of processing appeals and hearings to rise by 
ten percent.
    4. Fighting Medicare Fraud, Waste and Abuse: Contractors 
saved $8 billion in 1997--yielding $17 in Medicare savings for 
every $1 invested from activities to review claims--by assuring 
services are medically necessary and by detecting possible 
fraud and abuse.
    We are extremely proud of our role as Medicare contractors. 
Contractors are:
    <bullet> Cost-effective--operating on administrative 
budgets that represent only 1 percent of Medicare benefit 
payments.
    <bullet> Efficient--having a track record of quickly and 
accurately implementing major programmatic changes under 
extremely tight time frames; and
    <bullet> On the first line of defense against fraud and 
abuse--aggressively fighting Medicare fraud and abuse with 
additional funding provided by this Committee in 1996 for the 
Medicare Integrity Program (MIP). BCBSA had long urged Congress 
to appropriate increased funding for these efforts. We are now 
seeing the positive impact of enhanced contractor efforts. Just 
this month, the HHS Inspector General reported a 45 percent 
reduction in Medicare overpayments since 1996.
    My testimony today focuses on three areas:
    I. Our progress to assure that Year 2000 computer 
adjustments are made correctly and on time;
    II. Why new contractor reforms are unwise and could 
jeopardize our efforts to fight fraud and abuse; and
    III. The critical need for stable and adequate funding for 
all contractor operations.
          I. Progress on Efforts to Assure Year 2000 Readiness
    Year 2000 readiness is a top priority for Medicare 
contractors. Medicare contractors are making excellent progress 
to ensure Medicare payment systems are renovated and tested for 
millennium readiness. HCFA has reported that, as of December 
31, 1998, all 78 contractors' systems were fully renovated and 
54 had self-certified with acceptable qualifications. According 
to HCFA, the remaining contractors are on target to self-
certify by March 31, 1999. We are working closely with HCFA and 
with our external vendors to make sure that all qualifications 
are resolved.
    While Plans have made significant progress, much remains to 
be done in 1999. Contractors are reporting to HCFA weekly on 
the resolution of any self-certification qualifications. 
Additionally, because Medicare systems are not static, 
contractors will continue testing during 1999 in order to 
recertify their readiness by November 1, 1999. The objective is 
to ensure that all Medicare systems will operate successfully 
in future years without exception. Toward this end, all 
Medicare systems must be completely renovated, tested, and 
implemented.
    In addition to testing, contractors are focusing on 
contingency plans and the readiness preparation of the provider 
communities. Contingency plans, which will also be completed by 
March 31, 1999, are designed to ensure business continuance, 
minimize any disruptions, and expedite solutions of any Y2K 
associated problems that may arise. Based on HCFA guidance, 
contractors are developing contingency plans for a minimum of 
two possible situations: (1) a 150 to 200 percent increase in 
the submission of paper claims; and (2) a lack of access to the 
Medicare beneficiary eligibility database known as the common 
working file. To ensure their contingency plan's feasibility, 
contractors are developing their plans in conjunction with 
their Y2K testing to identify the areas that are most 
susceptible to Y2K errors. These contingency plans will be 
tested by June 30, 1999.
    Provider readiness is a major issue for HCFA and for 
contractors. Last December, HCFA made available to all Medicare 
providers support materials intended to assist them in becoming 
Y2K ready. In addition, HCFA sent a letter to providers on 
January 12, 1999, advising them that they needed to become Y2K 
compliant. The letter included a sample Provider Y2K Readiness 
Checklist as well as the website addresses where information 
was available.
    HCFA has asked contractors to work with providers to help 
them become Y2K compliant. Contractors have conducted numerous 
outreach efforts, including holding seminars and briefings on 
Y2K readiness, and mailing bulletins and newsletters to 
providers stressing the importance of becoming Y2K ready. To 
help providers become compliant, contractors supply Y2K 
compliant billing software to providers at their request free 
of charge. Contractors also are conducting systems tests with 
providers to ensure readiness.
    Let me describe for you the efforts my company has made to 
become ready. We began planning for Y2K renovation in 1997 with 
the goal of paying or denying Medicare claims correctly on and 
after January 1, 2000. By December 31, 1998, we had inventoried 
software and hardware, reviewed the LAN and WAN environments, 
assessed millions of lines of code, renovated code, retired 
modules, upgraded hardware to make it Y2K compliant, tested 
each module, and established a simulated production 
environment.
    We then ran test cases--test claims--through the entire 
claims processing system to ensure that the system processes 
the claims, with the same result, both before and after the Y2K 
renovation. This is a full simulation of production. We want to 
be sure that all steps in the process are capable of supporting 
business after 2000. We tested over 12,000 claims using 8 
different dates that spanned late December 1999 to early 
January 2000, and February 28 through March 1, 2000. Based on 
the results of these tests, we were able to certify Y2K 
compliance to HCFA as of December 31, 1998.
    This year, we will continue all levels of testing, and plan 
to test an additional 10,000 claims and recertify compliance to 
HCFA by November 1. It is critically important that all changes 
from HCFA be completely tested. We will test with providers who 
submit bills electronically to assure that they can submit 
claims to us, and that we can receive them and provide 
remittance advice. And, importantly, although we don't expect 
failure, we are developing and testing contingency plans for 
all mission critical applications and business partners.
    We have 25 people devoted full-time to the Y2K project. 
Dozens of additional people supported Y2K testing in 1998 on a 
part-time basis. These numbers will increase to hundreds of 
people as recertification testing and contingency planning 
testing and rehearsals reach intense levels in mid-1999.

BCBSA Efforts with HCFA to Ensure Y2K Readiness

    BCBSA and Medicare contractors have been working closely 
with HCFA on readiness issues. Last year, BCBSA worked with 
HCFA to find an agreeable contract amendment related to Year 
2000 compliance. Although there was some disagreement over the 
language of the contract amendment that HCFA originally sent us 
to sign, I would like to clarify that at no time did 
contractors refuse to become Y2K ready. BCBSA had several 
concerns with the amendment because it would have required 
contractors to assume liability for compliance of all vendors 
(e.g., financial institutions, facilities managers who control 
elevator programming, etc.) and face civil monetary penalties. 
HCFA acknowledged that it had drafted the amendment too broadly 
and agreed to work with contractors to rewrite the amendment.
    In addition, BCBSA worked with HCFA to develop a formal 
process to assure regular communication on Y2K issues. In 
response to a BCBSA recommendation, HCFA established a steering 
committee chaired by HCFA's chief information officer and vice-
chaired by BCBSA. I serve on this committee. The operation of 
the steering committee has facilitated very constructive and 
useful dialogue between contractors and HCFA about Year 2000 
compliance.
    The committee has met with the HCFA Administrator and meets 
monthly with many of the agency's key directors and other top 
management staff. HCFA credits its progress in meeting the Y2K 
challenge in large part due to the outstanding effort and 
commitment of HCFA staff and the contractors. We look forward 
to continuing these cooperative efforts with HCFA.
    In reviewing the issues related to Year 2000 readiness, the 
committee should be aware of three additional issues that have 
made Year 2000 readiness activities challenging:
    <bullet> Significant Change in Direction: Originally, many 
of the system changes that were necessary for readiness would 
have been accomplished by the conversion of all Medicare 
contractors to the Medicare Transaction System (MTS). As you 
know, the MTS initiative was terminated in 1997. As a result, 
contractors have been required to make significant changes 
that, in the absence of the MTS initiative, they would have 
been working on for a long time.
    <bullet> Transition to New Standard Systems: Instead of 
converting to the MTS system, HCFA had directed contractors to 
transition to a single Part A and a single Part B system. In 
some cases, this conversion to different systems would have 
diluted experienced contractor and HCFA staff from focusing on 
critical millennium readiness activities. As a result, HCFA 
approved a request by several contractors to delay transition 
requirements so they could focus on Year 2000 issues.
    <bullet> Numerous and Broad Programmatic Demands: HCFA 
already has said that it will not be able to implement all of 
the BBA requirements because of the need to concentrate on Year 
2000 efforts. We continue to recommend to HCFA that as many 
non-Year 2000 system changes as possible should be removed from 
contractor workloads so that experienced technical resources 
can be devoted to assuring Year 2000 readiness.
    This is even more critical now as we work on the testing 
and retesting phase of our readiness efforts. Every time a 
change in a system is introduced (e.g., a change in the Part A 
deductible, updated physician or hospital payment rates, etc.), 
each contractor must retest their entire system to make sure 
the new changes are compatible with Y2K.
                 II. Contractor Reform is Not Necessary
    HCFA's FY 2000 budget once again includes a legislative 
proposal to dramatically restructure the Medicare contracting 
process. This effort to make broad changes in contract 
authority is not a new initiative. For several years, HCFA has 
been seeking contractor reform legislation to give the agency 
broad authority to fragment the functions of current 
contractors. While we have not yet seen the details of this 
current proposal, our understanding is that it is similar to 
previous legislation.
    We believe that contractor reform provisions are unwise and 
unnecessary for the following reasons:
    1. It could jeopardize services to beneficiaries and 
providers: HCFA's proposal would eliminate the requirement that 
Medicare contractors have experience working with the Medicare 
program and would not even require that entities be familiar 
with health claims processing. Allowing HCFA to contract with 
organizations unfamiliar with Medicare's intricate payment 
methodologies could reduce payment accuracy, delay payments to 
providers, and reduce the quality of service providers and 
beneficiaries expect.
    2. It could undermine HCFA's efforts to administer its 
other initiatives effectively: Potentially, HCFA would have to 
manage many new contractors for claims processing services with 
entities unfamiliar with Medicare. These new contracts would 
require strict management by HCFA at a time when HCFA has many 
other new responsibilities, including BBA and HIPAA. With these 
other large workloads, we believe the agency does not have the 
resources, staff, or expertise to implement this type of new 
procurement activity.
    3. It is based on an untested Medicare Integrity Program: 
HCFA has just begun to implement the new contracting provisions 
for the Medicare Integrity Program (MIP). As of yet, no 
contracts have been awarded. Moreover, HCFA's strategy to split 
the MIP functions from the Program Management (PM) functions in 
Medicare is not yet tested. Due to the historical and 
functional integration of claims processing, customer service, 
and fraud and abuse activities, separating PM and MIP functions 
could jeopardize future fraud and abuse detection. PM and MIP 
are not autonomous services, and require constant coordination 
and communication in a rapidly changing Medicare program. 
Further authority for HCFA to significantly revise contracting 
relationships is premature.
    I would also call your attention to the HHS Inspector 
General's recommendations in the CFO report. The IG is 
specifically concerned that instability of Medicare contractors 
could reduce the ability to fight Medicare fraud and abuse. 
Given the recent improvements in fighting fraud and the 
significant programmatic challenges ahead, it simply does not 
make sense to pursue an unnecessary restructuring of the 
program.
    4. It would place Medicare contractors under legislative 
constraints that exceed other government contractors: For 
example, the legislation eliminates the requirement that HCFA 
pay termination costs to contractors that leave the Medicare 
program. This provision would make Medicare contracts different 
than any other type of government contract, including defense 
contracts. The Federal Acquisition Regulations (FAR) require 
that the government pay contractors reasonable termination 
costs. There is no basis to treat Medicare contractors 
differently.
    5. HCFA's proposals could impede contractors' progress to 
become Y2K ready: At this point, HCFA's proposal would not 
improve the Year 2000 problem and, in fact, could make it much 
worse. Contractors unfamiliar with the Medicare program would 
have the added burden of having to learn its extremely complex 
rules and regulations while simultaneously working to achieve 
millennium readiness. Moreover, the testing requirements for 
contractor certification are extremely complex given the number 
of links contractors have with external systems (e.g., HCFA, 
banks, providers, etc.). It is highly unlikely that HCFA would 
be able to identify a new contractor that could meet the 
certification requirements.
    Finally, contractor reform is unnecessary to ensure the 
quality of Medicare contractors. HCFA currently has the 
authority to replace or terminate contractors for poor 
performance.
    HCFA has claimed this proposal would increase the cost 
effectiveness of contractor operations. However, this 
legislation has no positive effect on the budget. It does not 
reduce expenditures for Medicare contractors. More importantly, 
inexperienced contractors may be more apt to make improper 
payments, which could further threaten the solvency of the 
trust funds.
    Success in Medicare claims administration requires that 
HCFA and the contractors work together toward their mutual goal 
of accurate and timely claims payment. This partnership should 
extend to planning the future of Medicare contract 
administration. We believe the most effective manner to proceed 
in strengthening Medicare administration is to raise 
performance standards, aggressively enforce them, and terminate 
the contracts of those not performing at the required level.
              III. Stable and Adequate Funding is Critical
    As Medicare's first line of defense against fraud and 
abuse, Medicare contractors require adequate funding in order 
to meet the demands of the program and to effectively combat 
fraud and abuse.
    The President's FY 2000 budget proposes $1.27 billion for 
Medicare contractors, virtually the same funding level as 1999. 
Given the following, this budget represents a cut to contractor 
funding compared to FY 1999:
    1. User Fees: Of the $1.27 billion proposed for 
contractors, $93 million is dependent on proposed new user fees 
from providers, which have previously been rejected by this 
Committee. Failure to authorize the user fee could mean a $93 
million cut for contractors.
    2. Y2K: The President's budget does request $150 million in 
addition to the $1.27 billion for HCFA millennium readiness. It 
is unclear, at this point, whether or how much of these 
proposed funds would be made available for Medicare 
contractors' Y2K needs.
    3. BBA and HIPAA: Additional funds will be needed to cover 
a significantly greater workload next year, including:
    <bullet> Implementing BBA provisions, including new 
prospective payment systems for inpatient rehabilitation 
facilities and outpatient hospital care.
    <bullet> Implementing HIPAA administrative simplification 
provisions, including the national payer identifier initiative 
and the development of transaction and security standards for 
electronic processing of claims.
    Adequate funding also is critical to maintain anti-fraud 
efforts and to prevent further service reductions to 
beneficiaries and providers. An independent study commissioned 
by BCBSA last year indicates that contractor funding will be 
significantly strained by the increased anti-fraud and abuse 
detection efforts under the newly enacted MIP. The report shows 
that every 10 percent increase in MIP funding will result in a 
$13 million increase in contractor costs due to increased 
appeals, inquiries, and hearings.
    Additionally, a letter published in a recent Health Affairs 
journal, signed by 14 health policy experts, stressed the need 
for more Medicare administrative funding. Specifically, the 
letter stated that ``HCFA's ability to provide assistance to 
beneficiaries, monitor the quality of provider services, and 
protect against fraud and abuse has been increasingly 
compromised by the failure to provide the agency with adequate 
administrative resources.''
    We believe that finding a reliable and stable funding 
source for Medicare contractors is critical. In the President's 
budget, HCFA indicated a willingness to explore alternative 
funding options for Medicare administrative activities. We 
support HCFA's efforts and would like to work with HCFA and 
Congress to move toward a stable and reliable funding source.
                               Conclusion
    Let me reiterate that Medicare contractors are working 
diligently to become millennium ready. This is a monumental 
task, and we will face a number of challenges as we complete 
it. Medicare contractors are committed to meeting these 
challenges just as they have done in the past.
    Congress should reject HCFA's request to legislate far-
reaching changes to the Medicare contractor program. Contractor 
reform raises fundamental issues and implications for the 
Medicare program. In fact, contractor reform would introduce 
change, confusion, and diversion of resources at a time when 
experience and focus is important. Alternatively, HCFA should 
tell contractors exactly what standards they want contractors 
to meet. Let contractors meet these standards; otherwise, HCFA 
can terminate our contracts.
    Finally, given the importance of Medicare to its 
beneficiaries, providers, and the nations' economy, it is 
critical that the administrative resources necessary to manage 
the program effectively be provided.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Lord.
    Ms. Archer, if you'll identify yourself for the record, you 
may proceed?

STATEMENT OF DIANE ARCHER, EXECUTIVE DIRECTOR, MEDICARE RIGHTS 
                   CENTER, NEW YORK, NEW YORK

    Ms. Diane Archer. My name is Diane Archer. I'm the 
executive director of the Medicare Rights Center, a national 
not-for-profit organization based in New York. The Medicare 
Rights Center helps seniors and people with disabilities on 
Medicare through telephone counseling, public education, and 
public policy work. I thank you for this opportunity to testify 
today.
    We recognize that the U.S. Government and corporate America 
are taking Y2K issues seriously, and we hope their efforts will 
result in a smooth transition to the year 2000 for everyone on 
Medicare. But we do have concerns that people on Medicare could 
face serious healthcare access problems.
    First, at the Federal level, our foremost concern is 
healthcare access for the 6.6 million seniors and people with 
disabilities in Medicare HMOs. HCFA is working hard to ensure 
that its own systems are Y2K compliant. But HCFA cannot 
guarantee that Medicare HMOs will be Y2K compliant. As you 
know, unlike original Medicare, most HMOs require prior 
authorization for specialty care. Unless the Medicare HMOs are 
Y2K compliant, we could see a significant increase in the 
number of people on Medicare who because of system failures 
can't get authorization for the care they need with potentially 
devastating consequences.
    Consider this potential scenario: it is February 2000 and a 
Medicare HMO enrollee goes to the hospital with stomach pains. 
The doctor calls the HMO requesting approval to perform a 
Medicare-covered procedure to alleviate the pain. The HMO 
doesn't have the systems in place to find the patient's name on 
its database or can't use the computer to determine whether the 
service is covered and therefore doesn't give authorization. As 
a result, the woman does not get the care she needs.
    We are concerned about how HCFA protects people in Medicare 
HMOs when they can't get care because of Y2K system failures 
and how it holds these HMOs accountable. What tools does HCFA 
have at its disposal to ensure that HMOs provide people on 
Medicare with the care they need?
    HCFA has taken a strong first step in requiring all of its 
contractors to submit Y2K compliance forms. But, as you know, 
these statements are not admissible in a court of law.
    We also wonder what advice we should be giving our clients 
about joining a Medicare HMO or other Medicare private health 
plan in November 1999 to begin on January 1, 2000. Should we 
advise people to secure an affidavit of Y2K compliance from 
their HMOs that's legally admissible in a court of law or 
should we recommend that they withdraw from their Medicare HMOs 
for the 3 month period between December 1999 and February 2000 
if they wish to avoid the risk of not getting the care they 
need because of HMO system failures? If not, we wonder how 
seniors and people with disabilities can protect themselves?
    We recommend that HCFA set up a special hotline for people 
to call if they're denied access to care because of Y2K 
problems. We also urge that some mention of Y2K access to care 
issues be included in the Medicare and You handbook.
    But the Y2K issue brings to the surface the Federal 
Government's limited ability to ensure that people on Medicare 
get the healthcare they need from the private health plans that 
contract with HCFA.
    At the State level, we're concerned that system failures 
caused by inadequate preparation for Y2K on the part of local 
Medicaid and Social Security offices will slow down or 
undermine the application process for programs that pay 
Medicare premiums and co-insurance for people with low-incomes. 
HCFA should institute a system to ensure that the Social 
Security Administration does not wrongly drop these people from 
Medicare because of Y2K system failures at State Medicaid 
offices.
    Finally, at the individual level, it's critical that those 
people on Medicare who rely on prescription drugs and computer 
chip driven medical equipment keep getting the medicine and 
equipment they need without interruption when the year 2000 
begins. We recommend that HCFA should sponsor a series of 
public service announcements telling people on Medicare, their 
friends and family members that they should speak with their 
doctors and pharmacies to ensure availability of their 
prescription during the transition to the year 2000. And that 
if they use a medical device, they should check with their 
doctor or supplier in advance to make sure that the equipment 
is Y2K compliant.
    It's our job as professionals who work closely with seniors 
and people with disabilities on Medicare to educate our clients 
on how to get the care they need when they need it. We hope 
that Congress and HCFA will do whatever possible to make sure 
that people on Medicare keep getting the care they need in the 
new millennium.
    Thank you. I'll be happy to answer questions.
    [The prepared statement follows:]

Statement of Diane Archer, Executive Director, Medicare Rights Center, 
New York, New York

    My name is Diane Archer. I am the Executive Director of the 
Medicare Rights Center, a national not-for-profit organization 
based in New York City. MRC helps seniors and people with 
disabilities on Medicare through telephone counseling, public 
education, and public policy work. MRC, under a contract with 
the New York State Office for the Aging, with funding from the 
Health Care Financing Administration, operates a telephone 
hotline. Each year, we field approximately 50,000 hotline calls 
from people with Medicare questions and problems and provide 
direct assistance on a variety of Medicare issues to more than 
7,000 individual callers. I thank the Committee on Ways and 
Means for this opportunity to testify on how the transition to 
the year 2000 may affect people on Medicare.
    We recognize that the United States government and 
corporate America are taking Y2K issues seriously, and we hope 
their efforts will result in a smooth transition to the year 
2000 for everyone on Medicare. Otherwise, people on Medicare 
could face serious health care access problems. Today, I am 
going to talk about some access to care problems that could 
arise.
    First, at the federal level, our foremost concern is health 
care access for the more than 6 million seniors and people with 
disabilities in Medicare HMOs. We applaud HCFA's efforts to 
ensure that its own systems are Y2K-compliant. But HCFA cannot 
guarantee that Medicare HMOs will be Y2K-compliant. As you 
know, most HMOs require prior authorization for specialty care. 
Unless the Medicare HMOs are Y2K-compliant, we could see a 
significant increase in the number of people on Medicare who, 
because of system failures, can't get authorization for the 
care they need, with potentially devastating consequences.
    Consider this potential scenario: it is February 2000 and a 
Medicare HMO enrollee goes to the hospital with stomach pains. 
The doctor calls the HMO requesting approval to perform a 
Medicare-covered procedure to alleviate her pain. The HMO does 
not have the systems in place to find the patient's name on its 
database or can't use the computer to determine whether the 
service is covered and therefore does not give authorization. 
As a result, the woman does not get the care she needs.
    We wonder what advice we should be giving our clients about 
joining a Medicare HMO or other Medicare private health plan in 
November 1999 to begin enrollment on January 1, 2000. Should we 
advise people to secure an affidavit of Y2K-compliance from 
their HMOs that is legally admissible in a court of law? Or, 
should we recommend that they withdraw from their Medicare HMOs 
for the three-month period between December 1999 and February 
2000 if they wish to avoid the risk of not getting the care 
they need because of HMO system failures? If not, we wonder how 
seniors and people with disabilities can protect themselves. We 
strongly recommend that HCFA set up a special hotline for 
people to call if they are denied access to care because of Y2K 
problems. We also urge that some mention of Y2K access to care 
issues be included in the Medicare & You handbook.
    We are concerned about how HCFA protects people in Medicare 
HMOs when they cannot get care because of Y2K system failures, 
and how it holds these HMOs accountable. What tools does HCFA 
have at its disposal to ensure that HMOs provide people on 
Medicare with the care they need?
    HCFA has taken a strong first step in requiring all of its 
contractors to submit Y2K compliance forms. But, as you know, 
these statements are not admissible in a court of law. And in 
the past HCFA has lacked the staff and resources to properly 
oversee its contracting agents.\1\ The Y2K issue brings to the 
surface the federal government's limited ability to ensure that 
people on Medicare get the health care they need from the 
private health plans that contract with HCFA.
---------------------------------------------------------------------------
    \1\ An Office of Inspector General report finds that HCFA has 
neither the staff nor resources to oversee Medicare HMOs. Department of 
Health and Human Services, Office of Inspector General, April 1998, 
Report Numbers: OEI-01-96-00190 and OEI-01-96-00191.
---------------------------------------------------------------------------
    Second, at the state level, we are concerned that system 
failures caused by inadequate preparation for Y2K on the part 
of local Medicaid and Social Security offices will slow down or 
undermine the application process for QMB, SLMB, QI-1 and QI-2. 
These programs help many low-income people on Medicare pay for 
their health care coverage. The application process is already 
slow and difficult in many states, and system failures could 
prevent even more people from getting these benefits and the 
care and coverage they need and are due. HCFA should institute 
a system to ensure that the Social Security Administration does 
not drop dually-eligible people from Medicare because of Y2K 
system failures at state Medicaid offices.
    Finally, at the individual level, it is critical that those 
seniors and people with disabilities on Medicare who rely on 
prescription drugs and computer-chip driven medical equipment 
keep getting the medicine and equipment they need without 
interruption when the year 2000 begins. Although overseeing 
this continuity of care is outside of HCFA's legal 
jurisdiction, HCFA has an important role in educating people on 
Medicare on what they need to do to ensure that the transition 
to Y2K goes smoothly for them. We believe that HCFA should 
sponsor a series of public service announcements telling people 
on Medicare, their friends, and family members that: one--they 
need to check with their doctors and pharmacy to ensure 
availability of their prescriptions during the transition to 
the year 2000, and two--if they use a medical device, then they 
should check with their doctor or supplier in advance to make 
sure that the equipment is Y2K-compliant.
    People on Medicare have already lived through many changes 
and hardships. Most do not own a computer. They are probably 
not overly concerned with the ability of computer systems to 
transition smoothly into the year 2000. We do not want to 
instill fear in people on Medicare. It is our job, as 
professionals who work closely with seniors and people with 
disabilities on Medicare, to educate our clients on how to get 
the care they need when they need it. We are telling our 
clients to ask their doctors, pharmacists, and medical 
suppliers if they are Y2K-compliant. We hope that Congress and 
HCFA will do whatever possible to make sure that people on 
Medicare keep getting the care they need in the new millenium. 
Thank you.

                                <F-dash>


    Chairman Archer. Our next and last witness of the day is 
Joel Willemssen. Welcome back again. And if you'll officially 
identify yourself for the record, you may proceed?

   STATEMENT OF JOEL C. WILLEMSSEN, DIRECTOR, CIVIL AGENCIES 
              INFORMATION SYSTEMS, ACCOUNTING AND 
INFORMATION MANAGEMENT DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Willemssen. Yes, sir, Mr. Chairman. Joel Willemssen 
with the General Accounting Office. Thank you. And as 
requested, I'll briefly summarize our statement on Medicare Y2K 
and then very briefly on the overall readiness of the 
healthcare sector.
    Regarding Medicare Y2K, we originally reported our concerns 
with this nearly 2 years ago. At that time, the level of HCFA 
management attention focused on Y2K was minimal. Instead much 
of the agency's systems focus was on a failed effort, known as 
the Medicare Transaction System, which was intended to replace 
existing part A and part B core computing systems. As we've 
previously testified, this effort was terminated after about 
$80 million had been spent and not one line of software had 
been delivered. It's important to keep that history in mind as 
we look at the huge challenge HCFA is now up against.
    We reported last fall that with its late start on Y2K, HCFA 
faced the prospect of having too much to do in too little time. 
Many of the basic Y2K management practices that should have 
been in place were not. Our conclusions and recommendations to 
the administrator reflected our concern about the high level of 
risks facing HCFA. HCFA has been very responsive to our 
recommendations. And the administrator is to be commended for 
making Y2K the agency's top priority and directing a number of 
actions to more effectively manage this project.
    Among these many actions has been an important commitment 
to develop business continuity and contingency plans to help 
ensure that no matter what beneficiaries will receive care and 
providers will be paid.
    Despite that progress, we still have serious concerns with 
HCFA and Medicare Y2K. First, HCFA's reported external systems 
progress on Y2K has been highly overstated. HCFA and HHS 
recently reported that 54 of 78 contractor systems were 
compliant as of December 31. In fact, none of these 54 should 
have been reported as compliant. All of them had important 
exceptions, some of them very significant. Such qualifications 
included a major system failing to recognize 00 as a year as 
well as 2000 as a leap year.
    According to HCFA officials, they reported these systems as 
compliant because the qualifications were minor problems that 
should not take much time to address. This is at variance with 
HCFA's independent verification and validation contractors' 
interpretation. The contractor found the qualifications to be 
critical, most requiring a major to moderate level of effort to 
resolve.
    Among the other issues that HCFA needs to address: One, 
HCFA still needs an integrated schedule that identifies a 
critical path of all the key tasks it needs to complete. Two, 
it lacks a risk management process. Three, HCFA still has 
thousands of data exchanges that must be renovated and tested. 
Four, and maybe most importantly, HCFA faces a huge amount of 
testing in 1999. First, changes to resolve the existing 
qualifications will need to be retested. Second, testing must 
still take place with full production level software. Third, 
there are other changes that will be going into effect, from 
mandated changes that will also have to be re-tested.
    And all of this testing will ultimately determine whether 
HCFA's mission-critical systems are, indeed, going to be year 
2000 compliant. But given the magnitude of the challenge ahead, 
it's absolutely critical that the administrator sustain her 
commitment to complete and test business continuity and 
contingency plans so that even if system failures occur, HCFA 
will be positioned with back-up plans.
    Beyond Medicare, and just very briefly looking at the 
broader healthcare sector, there is reason for concern about 
Y2K readiness, not because of what we know, but because of what 
we don't know. The extent of information available on the 
readiness of the healthcare sector is generally very limited. 
In recent months there has been some good progress made, 
especially in the biomedical equipment area. But more will need 
to be done in the limited time remaining.
    That concludes the summary of my statement. I would be 
pleased to address any questions you might have.
    [The prepared statement follows:]

Statement of Joel C. Willemssen, Director, Civil Agencies Information 
Systems, Accounting and Information Management Division, U.S. General 
Accounting Office

    Mr. Chairman and Members of the Committee: We appreciate 
the opportunity to join in today's hearing and share 
information on the readiness of automated systems that support 
the nation's delivery of health benefits and services to 
function reliably without interruption through the turn of the 
century. This includes the ability of Medicare to provide 
accurate benefits and services to millions of Americans and the 
overall readiness of the health care sector, including such key 
elements as biomedical equipment used in the delivery of health 
services. Successful Year 2000--or Y2K--conversion is critical 
to these efforts.
    In a report issued last year, we concluded that the 
progress made by the Department of Health and Human Services' 
(HHS) Health Care Financing Administration (HCFA)--and its 
contractors--in making its computers that process Medicare 
claims Year 2000 compliant was severely behind schedule in 
areas including repair, testing, and implementation.\1\ 
Further, we made numerous recommendations to improve key HCFA 
management practices which we found to be lacking or 
inadequate. This morning I would like to briefly discuss our 
findings from that report and our suggestions for strengthening 
HCFA's Y2K activities, describe actions taken on those 
recommendations, and provide our perspective on where HCFA 
stands today.
---------------------------------------------------------------------------
    \1\ Medicare Computer Systems: Year 2000 Challenges Put Benefits 
and Services in Jeopardy (GAO/AIMD-98-284, September 28, 1998).
---------------------------------------------------------------------------
    Beyond Medicare, the level of information on a national 
level concerning Year 2000 compliance throughout the health 
care sector--including providers, insurers, manufacturers, and 
suppliers--is limited. As we reported last fall, this was true 
of biomedical equipment routinely used in the delivery of 
health care.\2\ Such equipment includes medical devices such as 
cardiac defibrillators and monitoring systems that can record, 
process, analyze, display, and/or transmit data. Today, I would 
like to share information in this area with you as well.
---------------------------------------------------------------------------
    \2\ See Year 2000 Computing Crisis: Compliance Status of Many 
Biomedical Equipment Items Still Unknown (GAO/AIMD-98-240, September 
18, 1998).
---------------------------------------------------------------------------
    HCFA's Ability to Process Medicare Claims into the Next Century
    As the nation's largest health care insurer, Medicare 
expects to process over a billion claims and pay $288 billion 
in benefits annually by 2000. The consequences, then, of its 
systems' not being Year 2000 compliant could be enormous. We 
originally highlighted this concern in May 1997, making several 
recommendations for improvement.\3\ In our report of last 
September we warned that although HCFA had made improvements in 
its Year 2000 management, serious challenges remained to be 
resolved in a short period of time. Specifically, we reported 
that less than a third of Medicare's mission-critical systems 
had been fully renovated, and none had been validated or 
implemented. Further, in terms of the agency's key management 
practices necessary to adequately direct and monitor its Year 
2000 project, HCFA had not:
---------------------------------------------------------------------------
    \3\ Medicare Transaction System: Success Depends Upon Correcting 
Critical Managerial and Technical Weaknesses (GAO/AIMD-97-78, May 16, 
1997).
---------------------------------------------------------------------------
    <bullet> developed an overall schedule and critical path to 
identify and rank Y2K tasks to help ensure that they could be 
completed in a timely manner;
    <bullet> implemented risk management processes necessary to 
highlight potential technical and managerial weaknesses that 
could impair project success;
    <bullet> planned for or scheduled end-to-end testing to 
ensure that program-wide renovations would work as planned; or
    <bullet> effectively managed its electronic data exchanges, 
thereby increasing the risk that Y2K errors would be 
transferred through data exchanges from one organization's 
computer systems to those of another.
    The Office of Management and Budget (OMB) also had 
concerns. In its December 8, 1998, summary of Year 2000 
progress reports of all agencies for the reporting quarter 
ending November 13, 1998, it concluded that while HCFA had made 
significant progress in renovating its internal and external 
systems, the agency remained a serious concern due to the 
remediation schedule of its external systems. OMB further 
stated that Medicare contractors would have to make an 
intensive, sustained effort to complete validation and 
implementation of their mission-critical systems by the 
governmentwide goal of March 31, 1999. OMB designated HHS as a 
tier 1 agency on its three-tiered rating scale since it had 
made insufficient progress in addressing the Year 2000 problem.
    Our conclusions and recommendations to the HCFA 
Administrator reflected our concerns about the high level of 
risk and large number of tasks still facing HCFA. We reported 
that it was more critical than ever that HCFA have sound 
business continuity and contingency plans in place that can be 
implemented should systems failures occur. Our specific 
recommendations included that HCFA:
    <bullet> rank its remaining Year 2000 work on the basis of 
an integrated project schedule and ensure that all critical 
tasks are prioritized and completed in time to prevent 
unnecessary delays,
    <bullet> develop a risk management process,
    <bullet> define the scope of an end-to-end test of the 
claims process and develop plans and a schedule for conducting 
such a test,
    <bullet> ensure that all external and internal systems' 
data exchanges have been identified and agreements signed among 
exchange partners, and
    <bullet> accelerate the development of business continuity 
and contingency plans.
                  HCFA's Actions To Achieve Compliance
    HCFA has been responsive to our recommendations, and its top 
management is actively engaged in its Year 2000 program. HCFA's 
Administrator has made Year 2000 compliance the agency's top priority 
and has directed a number of actions to more effectively manage this 
project. For example, HCFA has established a ``war room'' for real-time 
monitoring of Year 2000 renovation, testing, and implementation 
activities. In addition, the agency established seven contractor 
oversight teams to monitor progress. HCFA also strengthened its 
outreach efforts: on January 12, 1999, the Administrator sent 
individual letters to each of the 1.25 million Medicare providers in 
the United States, alerting them to take prompt Year 2000 action on 
their information and billing systems. Three days later the 
Administrator sent a letter to Congress, with assurances that HCFA is 
making progress and stressing that physicians, hospitals, and other 
providers must also meet the Y2K challenge. HCFA also offered to 
provide speakers in local congressional districts.
    To more effectively identify and manage risks, HCFA is relying on 
multiple sources of information, including test reports, reports from 
its independent validation and verification (IV&V) contractors, and 
weekly status reports from its recently established contractor 
oversight teams. In addition, HCFA has stationed staff at critical 
contractor sites to assess the data being reported to them and to 
identify problems.
    HCFA is also more effectively managing its electronic data 
exchanges. HCFA now reports having a complete data exchange inventory 
of nearly 8,000 internal exchanges and over 255,000 external data 
exchanges. HCFA also issued instructions to its contractors (carriers 
and fiscal intermediaries) to inform providers and suppliers that they 
must submit Medicare claims in Year 2000-compliant data exchange format 
by April 5 of this year. The status of each of these data exchanges is 
being tracked by HCFA staff.
    HCFA has also more clearly defined its testing procedures. It 
published additional testing guidance in November 1998 that provided a 
policy for external systems that requires multiple levels of testing 
for each system, including:
    <bullet> Unit level testing: testing of the individual software 
component using test cases that exercise all component functionality. 
For the standard claims processing system, this includes full 
functional testing of claims processing policy and program integrity 
edits.
    <bullet> Simulated future date testing: testing of the individual 
software component using tools to simulate that the date has been 
rolled forward.
    <bullet> Compliance testing: testing in a fully Year 2000-compliant 
environment with real future dates to verify that the system is Year 
2000 compliant.
    HCFA also plans to perform end-to-end testing with its Year 2000-
compliant test sites. These end-to-end tests are to include all 
internal systems and contractor systems; however, they will not include 
testing with banks and providers. Finally, HCFA has begun to use a Year 
2000 analysis tool to measure testing thoroughness, and its IV&V 
contractor is assessing test adequacy on the external systems (e.g., 
test coverage and documentation).
    The final area in which HCFA has demonstrated progress is 
developing business continuity and contingency plans to ensure that, no 
matter what, beneficiaries will receive care and providers will be 
paid. HCFA has established cross-organizational workgroups to develop 
contingency plans for the following core business functions: health 
plan and provider payment, eligibility and enrollment issues, program 
integrity, managed care, quality of care, litigation, and 
telecommunications. HCFA's draft plans document its business impact 
analysis; the contingency plans are expected to be completed by March 
31 of this year, and testing of the plans by June 30.
           Reported Status of HCFA's Mission-Critical Systems
    HCFA operates and maintains 25 internal mission-critical 
systems; it also relies on 78 external mission-critical systems 
operated by contractors throughout the country to process 
Medicare claims. These external systems include six standard 
processing systems and the ``Common Working File.'' Each 
contractor relies on one of these standard systems to process 
its claims, and adds its own front-end and back-end processing 
systems. The Common Working File is a set of databases located 
at nine sites that works with internal and external systems to 
authorize claims payments and determine beneficiary 
eligibility.
    HCFA's reporting of its readiness for next January sounds 
quite positive as stated in the most recent HHS Y2K quarterly 
progress report to OMB. According to this report, dated 
February 10, as of December 31, 1998, all 25 of HCFA's internal 
mission-critical systems were reported to be compliant, as were 
54 of the 78 external systems. Figure 1 shows HCFA's reported 
status, compared with what it reported on September 30, 1998.

Figure 1: Reported Status of HCFA's Mission-Critical Systems
[GRAPHIC] [TIFF OMITTED] T6850.004

    Source: HCFA quarterly reports to HHS
                 Reported Progress Is Highly Overstated
    HCFA's reported progress on its external mission-critical 
systems is considerably overstated. In fact, none of the 54 
systems reported compliant by HCFA was Year 2000 ready as of 
December 31, 1998. All 54 external systems that were reported 
as compliant have important associated qualifications 
(exceptions), some of them very significant. Such 
qualifications included a major standard system that failed to 
recognize ``00'' as a valid year, as well as 2000 as a leap 
year; it also included systems that were not fully future date 
tested.
    According to HCFA officials, they reported these systems as 
compliant because these qualifications were ``minor problems'' 
that should not take much time to address. This is at variance 
with the IV&V contractor's interpretation. More specifically, 
the IV&V contractor found that the qualifications reported by 
all systems contractors were critical, most requiring a major 
to moderate level of effort to resolve.
    A specific example of a system reported as compliant with 
qualifications is the Florida standard system, used by 29 
contractors. This system had one qualification that consisted 
of 22 test failures. The IV&V contractor characterized this 
failure experience as significant. HCFA reports that these 
failures were corrected with a January 29, 1999, software 
release. However, in a February 16, 1999, IV&V status report, 
Blue Cross of California--a user of the Florida standard 
system--found that date test problems remained. In another 
example, the EDS MCS standard system that is used by 10 
contractors had 25 qualifications; these included 9 problems 
that were not future date tested. HCFA now reports that future 
date testing of the January software release of the EDS MCS 
system is 92 percent complete.
    As these examples illustrate, these systems are not yet 
Year 2000 compliant, and the 39 contractors that use these two 
standard systems likewise cannot be considered compliant. 
Further, according to the IV&V contractor, two critical 
qualifications associated with each of the standard systems 
affect all external contractor systems: (1) HCFA-supplied 
systems that contractors use in claims processing were 
delivered too late to them for required testing to be 
performed; and (2) the claims processing data centers' 
hardware, software, and telecommunications were not completely 
compliant.
    The IV&V contractor acknowledges that Medicare claims 
processing systems have made progress toward Year 2000 
compliance over the past year, yet the various qualifications 
inevitably mean that some renovation and a significant amount 
of retesting still needs to be accomplished before these 
systems can be considered compliant. To HCFA's credit, it 
issued a memorandum in early January requesting Medicare 
carriers and fiscal intermediaries to resolve these 
qualifications by March 31, the federal target date for Year 
2000 compliance. The notice stated that Medicare systems with 
unresolved Y2K problems affecting claims processing functions 
must be corrected, tested, and installed in production. As part 
of our ongoing work for the Senate Special Committee on Aging, 
we will be monitoring the resolution of these qualifications 
closely.
              Other Critical Risks/Challenges That Remain
    The February 16, 1999, report of HCFA's IV&V contractor 
stated that an integrated schedule that tracks all major 
internal system activities needs to be established. It added 
that system-specific information--including time, test 
scheduling, and resource considerations--needs to be more fully 
developed in order to achieve a robust, trackable schedule. We 
agree. In fact, this is consistent with our previous 
recommendation that remaining Y2K work be ranked on the basis 
of a schedule that includes milestones for renovation and 
testing of all systems, and that it include time for end-to-end 
testing and development and testing of business continuity and 
contingency plans.\4\ Such a schedule is even more important 
for the external systems because of their greater number, 
complexity, and interdependencies. HCFA still lacks an 
integrated schedule that identifies a critical path. Without 
this, it will be difficult for HCFA management to identify 
important dependencies in this complex environment and to 
prioritize its remaining work in the time that remains.
---------------------------------------------------------------------------
    \4\ GAO/AIMD-98-284, September 28, 1998.
---------------------------------------------------------------------------
    HCFA also lacks a formal risk management process--something 
to identify all risks and their interdependencies, assess their 
impact, establish time frames for mitigation and criteria for 
successful mitigation, and ensure that the criteria are 
followed. The one system that was intended to serve as its 
comprehensive risk management system does not contain current 
information, according to the IV&V contractor.
    HCFA's systems--both internal and external--exchange data, 
both among themselves and with the CWF, other federal agencies, 
banks, and providers. Accordingly, it is important that HCFA 
ensure that Y2K-related errors will not be introduced into the 
Medicare program through these data exchanges. As of February 
10, 1999, HCFA reported that over 6,000 of its 7,968 internal 
data exchanges were still not compliant, and that over 37,000 
of its nearly 255,000 external data exchanges were not 
compliant.\5\ To ensure that HCFA's internal and external 
systems are capable of exchanging data between themselves as 
well as with other federal agencies, banks, and providers, it 
is essential that HCFA take steps to resolve the remaining 
noncompliance of these data exchanges.
---------------------------------------------------------------------------
    \5\ On February 23, 1999, the HCFA Administrator stated that she 
wanted us to note that the February 10, 1999, HHS quarterly report to 
OMB had a typographical error, and that the total number of internal 
data exchanges is 3,418 and that 309 of these are still not compliant.
---------------------------------------------------------------------------
    In yet another critical area, HCFA faces a significant 
amount of testing in 1999, since changes will continue to be 
made to its mission-critical systems to make them compliant. 
First, changes to resolve the existing qualifications will need 
to be retested. Second, testing must still take place with full 
production-level software. For example, the final software 
release of the Common Working File before 2000 is scheduled for 
late June; testing will therefore be needed after that. Third, 
legislatively mandated changes to software that will occur 
through June will need to be retested as well. HCFA plans to 
conduct these final tests of its systems between July 1 and 
November 1, 1999, then recertify all mission-critical systems 
as compliant without qualification or exception. These final 
tests will ultimately determine whether HCFA's mission-critical 
systems are indeed Year 2000 compliant. The late 1999 time 
frames associated with this testing represent a high degree of 
risk.
    In addition to such individual systems testing, HCFA must 
also test its systems end-to-end to verify that defined sets of 
interrelated systems, which collectively support an 
organizational core business function, will work as intended. 
As mentioned, HCFA plans to perform this end-to-end testing 
with its Year 2000 test sites. These tests are to include all 
internal systems and contractor systems, but will not include 
testing with banks and providers. HCFA has instructed its 
contractors that it is their responsibility to test with 
providers and financial institutions. Even excluding banks and 
providers, end-to-end testing of HCFA's internal and external 
systems is a massive undertaking that will need to be 
effectively planned and carried out. HCFA has not yet, however, 
developed a detailed end-to-end test plan that explains how 
these tests will be conducted or that provides a detailed 
schedule for conducting them.
    A final aspect of testing concerns the independent testing 
contractor. The IV&V contractor's recent assessment of the 
independent testing contractor concluded that its strategy as 
currently stated ``is high risk for providing effective 
independent testing'' because of the limited number of internal 
systems to actually be independently tested: 8. This number was 
previously 22. Further, this testing will not be completed 
until August. The limited number of systems tested and the late 
completion date are not reassuring.
    Given the magnitude of HCFA's Year 2000 problem and the 
many challenges that continue to face it, the development of 
contingency plans to ensure continuity of critical operations 
and business processes is absolutely critical. Therefore, HCFA 
must sustain its efforts to complete and test its agencywide 
business continuity and contingency plans by June 30. Another 
challenge for HCFA is monitoring the progress of the 62 
separate business continuity and contingency plans that will be 
submitted by its contractors. We will continue to monitor 
progress in this area.
    Other issues that further complicate HCFA's Year 2000 
challenge are the known and unknown contractor transitions that 
are to take place before January 1, 2000, and the unknown 
status of the managed care organizations serving Medicare 
beneficiaries. As reported in HHS' quarterly submission to OMB, 
HCFA is concerned about the possibility of Medicare 
contractors, fiscal intermediaries, and carriers leaving the 
program and notifying HCFA after June 1999. If this were to 
occur, the workload would have to be transferred to another 
contractor whose Year 2000 compliance status may not be known. 
According to both contractor and HCFA officials, it requires 6-
12 months to transfer the claims processing workload from one 
contractor to another. At present, HCFA must transition the 
work of three carriers that are leaving the program.
    HCFA is requiring the 386 managed care organizations 
currently serving 6.6 million Medicare beneficiaries to certify 
their systems as Year 2000 compliant by this April 15. These 
certifications may be qualified, just as with the fee-for-
service contractors. If this were to occur, a formal 
recertification would have to be performed later this year. 
Until this initial certification is performed, it will remain 
unknown whether the managed care organizations' systems are 
year 2000 compliant.
    To summarize HCFA's situation, the agency and its 
contractors have made progress in addressing issues that we 
have raised. However, their reported progress vastly overstates 
the facts. Some renovation and a significant amount of testing 
must still be performed this year. Until HCFA completes its 
planned recertification between July and November 1999, the 
final status of the agency's Year 2000 compliance will be 
unknown. Given the considerable amount of remaining work that 
HCFA faces, it is crucial that development and testing of 
HCFA's business continuity and contingency plans move forward 
rapidly if we are to avoid the interruption of Medicare claims 
processing next year.

Y2K Readiness of the Health Care Sector: Information is Limited

    At this point, I would like to broaden our discussion to 
the Year 2000-readiness status of the health care sector, 
including biomedical equipment used in the delivery of health 
care. While it is undeniably important that Medicare systems be 
compliant so that the claims of health care providers and 
beneficiaries can be paid, it is also critical that the 
services and products associated with health care delivery 
itself be Year 2000 compliant. However, the level of 
information currently available on such compliance is not 
reassuring.
    Virtually everything in today's hospital is automated--from 
the scheduling of procedures such as surgery, to the ordering 
of medication such as insulin for a diabetic patient, to the 
use of portable devices as diverse as heart defibrillators and 
thermometers. It therefore becomes increasingly important for 
health care providers such as doctors and hospitals to assess 
their health information systems, facility systems (such as 
heating, ventilation, and air conditioning), and biomedical 
equipment to ensure their continued operation at the turn of 
the century. Similarly, pharmaceutical manufacturers and 
suppliers that rely heavily on computer systems for the 
manufacturing and distribution of drugs must assess their 
processes for compliance. Given the large degree of 
interdependence among components of the health sector--
providers, suppliers, insurance carriers, and patients/
consumers--the availability and sharing of Y2K readiness 
information is vital to safe, efficient, and effective health 
care delivery.
    Readiness information is limited throughout the health care 
sector. Specifically, the amount of data available to consumers 
on the Y2K readiness of health care providers, private 
insurers, and pharmaceutical manufacturers and suppliers is 
scant. This past June, for example, the American Hospital 
Association sent a Y2K readiness survey to about 4,700 
hospitals. However, only about 17 percent of its members 
responded.
    In May 1998, the President's Council on Year 2000 
Conversion established a Health Care Working Group \6\ chaired 
by HCFA to conduct outreach activities of the health care 
sector. In response to an October 1998 request from the Chair 
of the President's Council to gauge the Year 2000 readiness of 
the health sector, several professional health care 
associations surveyed their membership, requesting information 
on the status of work completed in the Y2K assessment, 
renovation, validation, and implementation phases. For example, 
the Association of State and Territorial Health Officials and 
the Centers for Disease Control and Prevention (CDC) sent a 
Year 2000 readiness-assessment survey to 57 state and 
territorial health officials. According to CDC, officials of 27 
states responded as of February 19, 1999, and the results are 
still under review. Similarly, the Generic Pharmaceutical 
Industry Association sent a survey to its members last 
December; it plans to discuss the results at a March 8, 1999, 
meeting of the Year 2000 Pharmaceuticals Acquisition and 
Distribution Committee (comprised of federal and pharmaceutical 
representatives). Finally, HHS' Office of the Inspector General 
sent a Y2K readiness survey last December to a sample of 
Medicare providers; it is not known at this time when the 
results will be available. The working group plans to gather 
Y2K readiness information from this sector throughout 1999, 
especially among smaller health care organizations.
---------------------------------------------------------------------------
    \6\ Members include federal health care agencies and professional 
health care associations such as the American Ambulance Association, 
American Hospital Association, American Medical Association, Health 
Industry Manufacturers Association, Joint Commission on the 
Accreditation of Health Care Organizations, National Association of 
Community Health Centers, and National Association of Rural Health 
Clinics.
---------------------------------------------------------------------------
    Until such survey results are known to consumers, the Y2K 
readiness of key components of the health sector will remain in 
doubt. Because of the potential impact of the Year 2000 problem 
on patient care, it is critical that such readiness information 
be obtained and publicized. In this way consumers will have 
access to data that can offer some assurance that the 
information systems, equipment, and products used in the 
delivery of health care services will operate as expected when 
needed after the turn of the century. Conversely, the lack of 
such information can contribute to consumer doubt, 
misinformation, or even panic. It can also foster unnecessary 
stockpiling of drugs and the attendant drain on pharmaceutical 
product inventories.
   Some Biomedical Equipment Status Information Available through FDA
    The question of whether medical devices such as magnetic 
resonance imaging (MRI) systems, x-ray machines, pacemakers, 
and cardiac monitoring equipment can be counted on to work 
reliably on and after January 1, 2000, is critical to our 
nation's health care. To the extent that biomedical equipment 
uses embedded computer chips, it is vulnerable to the Y2K 
problem.\7\ Such vulnerability carries with it possible safety 
risks. This could range from the more benign--such as incorrect 
formatting of a printout--to the most serious--such as 
incorrect operation of equipment with the potential to decrease 
patient safety. The degree of risk depends on the role the 
equipment plays in the patient's care.
---------------------------------------------------------------------------
    \7\ Biomedical equipment refers both to medical devices regulated 
by HHS' Food and Drug Administration (FDA), and scientific and research 
instruments, which are not subject to FDA regulation.
---------------------------------------------------------------------------
    As we reported last September,\8\ FDA--which provides 
information from biomedical equipment manufacturers to the 
public through an Internet World Wide Website--had a 
disappointing response rate from biomedical equipment 
manufacturers to its request for compliance information. The 
FDA biomedical equipment database also lacked detailed 
information on the make and model of compliant equipment. 
Further, FDA did not require manufacturers to submit test 
results certifying compliance. Therefore, the adequacy of 
manufacturers' corrections of noncompliant equipment could not 
be assured.
---------------------------------------------------------------------------
    \8\ GAO/AIMD-98-240, September 18, 1998.
---------------------------------------------------------------------------
    To address these issues, we made recommendations to the 
Secretaries of HHS and Veterans Affairs (VA)--a key stakeholder 
in determining the potential effects of the century change on 
biomedical equipment--to determine what actions, if any, should 
be taken regarding manufacturers that have not provided 
compliance information. We also recommended that the 
departments (1) work jointly to develop a single data 
clearinghouse to provide compliance information to all users of 
biomedical equipment, and (2) take prudent steps to review test 
results for critical care/life support biomedical equipment, 
especially equipment once determined to be noncompliant but now 
deemed compliant--and make those results publicly available 
through FDA's central data clearinghouse.
    HHS and VA agreed with our recommendation to develop a 
single data clearinghouse. FDA, in conjunction with VA, has 
established a biomedical equipment clearinghouse; it is 
publicly accessible through the Internet site and contains 
information on biomedical equipment compliance submitted to FDA 
by manufacturers, as well as information gathered by VA and the 
Department of Defense as part of their Year 2000 compliance 
projects. FDA also plans to include detailed information on the 
make and model of equipment reported as compliant.
    In its February 10, 1999, quarterly submission to OMB, HHS 
reported that as of January 12, 1999, about three quarters 
(1,438) of 1,932 biomedical equipment manufacturers identified 
by FDA had submitted data to the clearinghouse. As shown in 
figure 2, about 40 percent of the manufacturers have products 
that do not employ a date, while about 17 percent reported 
equipment having date-related problems.

Figure 2: Biomedical Compliance Status Information Reported To 
FDA by Manufacturers as of January 12, 1999
[GRAPHIC] [TIFF OMITTED] T6850.005

    Last September we reported that most manufacturers citing 
noncompliant products listed incorrect display of date and/or 
time as the Y2K problem.\9\ According to VA, these cases may 
not present a risk to patient safety because health care 
providers, such as physicians and nurses, can work around the 
problem. Of more serious concern are situations in which 
devices depend on date calculations, which can be incorrect. 
One manufacturer cited an example of a product used for 
planning delivery of radiation treatment using a radioactive 
isotope as the source. An error in calculating the strength of 
the radiation source on the day of treatment could result in a 
dose that is too high or too low, which could have an adverse 
effect on the patient.\10\
---------------------------------------------------------------------------
    \9\ GAO/AIMD-98-240, September 18, 1998.
    \10\ Year 2000 Computing Crisis: Leadership Needed to Collect and 
Disseminate Critical Biomedical Equipment Information (GAO/T-AIMD-98-
310, September 24, 1998).
---------------------------------------------------------------------------
    HHS reports that FDA will continue to explore ways of 
obtaining compliance information from manufacturers who have 
not yet replied. In response to our recommendation that FDA and 
VA review test results of manufacturers' compliance 
certifications, VA--deferring to HHS--stated that it did not 
have the legislative or regulatory authority to do this. HHS, 
for its part, said that it lacked the available resources to 
undertake such a review and, further, that insufficient time 
remained to complete such reviews before 2000. We believe that 
if HHS lacks sufficient resources to review manufacturers' test 
results, it may want to solicit the help of federal health care 
providers and professional associations. Finally, HHS stated 
that submission of appropriate certifications of compliance is 
sufficient to ensure that the certifying manufacturers are in 
compliance. We disagree. Through independent reviews of 
manufacturers' test results, users of medical devices are 
provided with a greater level of confidence that the devices 
are indeed Year 2000 compliant.
    In summary, there is great need for much more information 
available on the Y2K readiness of the health care sector. Until 
this information is obtained and publicized, consumers will 
remain in doubt as to the Y2K readiness of key health care 
components. In addition, while compliance status information is 
available for some biomedical equipment through the FDA 
clearinghouse, FDA has not reviewed test results supporting 
manufacturers' certifications to provide the American public 
with a higher level of confidence that biomedical equipment 
will work as intended.

           *         *         *         *         *

    Mr. Chairman, this completes my statement. I would be 
pleased to respond to any questions that you or other members 
of this Committee may have at this time.

                                <F-dash>


    Chairman Archer. Thank you, Mr. Willemssen. Does any member 
wish to inquire of this panel?
    Mr. Tanner.
    Mr. Tanner. Thank you, Mr. Chairman. I just have one 
question for Mr. Brown. I understand HCFA set a target date of 
April the 5th for Medicare providers to submit claims that are 
Y2K compliant. Will the hospitals be able to meet that target 
date do you think?
    Mr. Brown. I think the hospitals are working toward that 
date, Mr. Tanner. And to take our own organization as an 
example, in St. Louis, our first effort and first focus was 
really on our total systems. The claims administration piece of 
that is only part of the total of our operating and patient 
accounting systems. We're working now doing vendor testing to 
be in compliance. Will we be done by April 5? Possibly not 
completely, but we anticipate totally by June 15.
    I think the hospitals are working toward this, and I think 
the fact that the administrator had pointed out, that 58 
percent are in compliance today, that's significant. And I 
think we have to put it in the perspective of hospitals' number 
one focus: their total operating systems and how that 
translates into the patient care issues and patient safety 
issues.
    Mr. Tanner. I understand HCFA has provided some software at 
no cost for this purpose. Is there anything further that could 
be done, not that the April 5th deadline is such an important 
date, but just so there is no problem?
    Mr. Brown. The biggest issue to date in terms of the 
hospitals, in terms of the provider sector, is that that piece 
of software is only one piece of the total system. And so we 
have to be able to accommodate that within our total operating 
systems. And so, again, in some situations it has been very 
helpful. In other situations, it is not; simply because of the 
systems that the individual institutions have.
    And there's around six major vendors across the country 
that really supply most of the patient accounting systems. So 
this is really only one piece of that and the hospitals have to 
really interface that in with the total.
    I think the key thing that was pointed out is the 
communication. The issue is, once the contingency plans are 
established, those need to be communicated earlier, rather than 
later, in terms of HCFA's contingency plans. At the same time, 
as hospitals and physicians develop their contingency plans in 
their individual communities, we need to communicate that so 
that we are able to understand what the potential impact is. 
Because when you think about it, over 50 percent of the 
reimbursement comes from governmental programs, primarily the 
Medicare and Medicaid Programs. So that could have a 
significant impact on the cash-flow of hospitals. And we need 
to understand what the contingencies are for these systems.
    Mr. Tanner. Thank you, Mr. Chairman. I yield back.
    Chairman Archer. Thank you. Are there further questions? If 
not, thank you very much. We appreciate your input.
    And that concludes the hearing on Y2K. The Committee will 
stand adjourned until 4:30, at which time we will reconvene to 
markup.
    [Whereupon, at 4:03 p.m., the hearing adjourned.]
    [Submissions for the record follow:]

Statement of Jacquelyn L. Williams-Bridgers, Inspector General of the 
Department of State, Arms Control and Disarmament Agency, and United 
States Information Agency

    Mr. Chairman and Members of the Committee: I am pleased to 
have been invited to provide a statement for the record for the 
Committee's hearing on the Year 2000 (Y2K) computer problem. On 
January 1, 2000, many computer systems worldwide may 
malfunction or produce inaccurate information simply because 
the date has changed. Unless preventive measures are 
successful, these failures will have a costly, widespread 
impact on government and private-sector organizations across 
the globe.
    Embassies, consulates, U.S. businesses, and millions of 
Americans living abroad rely on their respective host 
countries' infrastructures to provide essential, day-to-day 
services such as power, water, telecommunications, and 
emergency services. In many areas, particularly in the 
developing world, these services could be disrupted if critical 
infrastructure components and control systems are not made Y2K 
compliant. Failure to resolve the Y2K problem or to implement 
adequate contingency plans could create havoc in the foreign 
affairs community, including disrupted messaging systems, 
hindered embassy operations such as visa and passport 
processing, and failed administrative functions such as payroll 
and personnel processing.
    My office has been actively engaged with the Department of 
State (the Department) and our embassies overseas to assist 
them in meeting the millennium challenge. Of particular 
interest to your Committee, my of lice is also assessing the 
Y2K readiness of host countries where the United States 
maintains a diplomatic presence. Our work to date assessing 
host country readiness has revealed some key themes:
    <bullet> Modern, industrialized countries are generally 
ahead of the developing world; however, some of those locations 
are at risk of having Y2K-related failures because they were 
late in establishing Y2K programs at the national level, and 
they are heavily reliant on computer technology in key sectors.
    <bullet> Developing countries are struggling to find the 
financial and technical resources needed to resolve their Y2K 
problems; still, the relatively low level of computerization in 
key sectors (utilities, telecommunications, and transportation, 
may reduce the risk of prolonged infrastructure failures.
    <bullet> Former Eastern bloc countries were late in getting 
started and are generally unable to provide detailed 
information on their Y2K remediation programs, and
    <bullet> Problems related to Y2K readiness in the health 
care sector were apparent in nearly every location we visited.
    This statement will address OIG's oversight of Y2K 
remediation efforts by countries that host our embassies and 
consulates and by the U.S. Department of State and the United 
States Information Agency (USIA).
                    OIG Year 2000 Oversight Efforts
International Y2K Efforts: Host Country Preparedness

    OIG has been active in international Y2K issues through our 
efforts to engage host country representatives and to establish 
venues for information sharing and cooperation, and to collect 
information on the Y2K readiness of host countries where the 
U.S. Government maintains a presence. Since September 1998, OIG 
has conducted an aggressive effort to collect and analyze 
information on host country Y2K efforts in 25 cities in 20 
countries. In addition to consulting with embassy personnel, 
OIG met with host country Y2K program managers; representatives 
from key infrastructure sectors, such as utilities, 
telecommunications, and transportation; and with private sector 
officials to discuss their respective Y2K programs and to share 
information. A summary of OIG international Y2K site visits is 
provided in 
Table 1.
    The information we collected about host country readiness 
provides general insight into a host country's efforts to 
reduce the impact that Y2K-related failures might have. 
However, I caution that this information represents the 
situation at a particular point in time. For example, the 
situation as represented by the information we collected in 
Mexico 5 months ago may have changed significantly since then.

       Table 1.--Summary of OIG International Y2K Site Assessments
------------------------------------------------------------------------
         Countries/Cities Visited                  Date of Visit
------------------------------------------------------------------------
Mexico (Mexico City & Monterrey), Chile    September 1998
 (Santiago), Panama (Panama City).
South Africa (Pretoria & Capetown), Gabon  October 1998
 (Libreville), Cameroon (Yaounde),
 Ethiopia (Addis Ababa).
Hong Kong, Thailand (Bangkok), Singapore,  October/November 1998
 Philippines (Manila).
India (Mumbai & New Delhi)...............  December 1998
United Kingdom (London), Russia (Moscow),  January 1999
 Ukraine (Kiev), Poland (Warsaw), France
 (Paris), Italy (Rome), Greece (Athens),
 Germany (Frankfurt, Bonn, & Berlin).
------------------------------------------------------------------------

    OIG has provided information summaries on each of these 
countries to appropriate officials in the Department, the 
President's Year 2000 Conversion Council, the United States 
Information Agency (USIA), congressional committees, and other 
foreign affairs organizations. Generally, the information we 
have collected about specific countries is considered 
sensitive. Disclosure of such information is limited to other 
governments, international organizations, and entities which 
the Department determines may benefit in connection with their 
own Y2K activities.
    Our work has helped to raise awareness of Y2K issues and to 
increase cooperation and coordination between the U.S. and its 
foreign partners on mutually beneficial Y2K matters. For 
example, the United States Embassy in Paris used our visit to 
develop a number of bilateral Y2K initiatives, including 
sharing information on health care and developing policy 
initiatives for assisting African countries with their Y2K 
efforts. In addition, our work has helped engender support for 
establishing a policy framework to address Y2K issues in the 
developing world.
    OIG is also engaged in other international Y2K efforts. In 
accordance with a Memorandum of Understanding signed by the 
Secretary of State and Chile's Minister of Foreign Affairs, OIG 
has begun a cooperative effort to work with the Chilean 
Government on a number of internal audit issues. In September 
1998, OIG auditors met with Chilean Government representatives 
to exchange ideas on addressing and enhancing Y2K-related audit 
methodologies.
    Also, in coordination with the Organization of American 
States (OAS) and USIA, OIG has initiated a series of USIA 
Worldnet Interactives with Latin America and Canada to provide 
expert guidance on timely contingency planning and Y2K 
compliance in the sectors of health, energy, and financial 
institutions. In coordination with OAS and USIA, these 
interactive programs have been broadcast live throughout this 
hemisphere and worldwide via the Internet. The programs have 
explored problems, strategies and solutions in the areas of 
timely contingency planning, energy, and financial 
institutional readiness.

Results of OIG International Assessments

    Based on our work in the countries cited above and on our 
assessment of other information provided by the Department, 
four themes have emerged relating to the potential impact the 
Y2K problem may have in the global arena. Our assessment of the 
timeliness of host country efforts to solve Y2K problems is 
being conducted in accordance with a phased methodology, 
similar to that recommended in the General Accounting Office's 
(GAO) Year 2000 assessment guide. The phases include awareness 
of the problem at the highest levels, assessment of the impact 
of the Y2K problem, renovation or replacement of noncompliant 
systems, validation of renovated or replaced systems, and 
finally, implementation of the revised system. According to 
this methodology, the renovation phase should have been 
completed by mid-1998 to allow sufficient time for validation 
and implementation. Further, testing will account for 45-50 
percent of the time needed to correct a Y2K problem.
    Our work has resulted in the following findings:
    Inconsistent Progress in Industrialized Countries. Modern, 
industrialized countries, while generally ahead of the 
developing world in terms of identifying and acknowledging the 
Y2K problem, were not consistently focused or effective in 
their efforts. Governments in several European countries, for 
example, had started Y2K programs in mid-1998, and some of 
those programs were making only minimal progress in getting 
their systems renovated. The risk of Y2K-related failures is, 
in some respects, higher in these countries because of their 
high reliance on modern computers.
    Lack of Financial and Technical Resources in Developing 
Countries. Developing countries were struggling to make headway 
in solving their Y2K problems. These countries were generally 
in the assessment phase toward the end of 1998, as they 
endeavored to develop effective remediation plans and to 
address the difficult task of finding adequate financial and 
technical resources to resolve Y2K issues or to develop 
contingency plans. The governments of some developing countries 
did not regard Y2K as a priority and thus had not established 
committees or task forces to address Y2K on a national basis. 
In these locations, the risk of failure in such key sectors as 
utilities and telecommunications will depend on the extent to 
which they rely on computers and embedded devices. Although 
these countries are generally experienced in dealing with 
short-term power and telecommunications outages, the question 
remains as to how well they can handle long-term disruptions in 
numerous sectors that may concurrently occur because of Y2K-
related failures.
    Difficulty in Assessing East European Progress. Three 
countries that were part of the former ``Eastern bloc'' were 
also late in getting started on Y2K remediation and generally 
were still in the assessment phase at the end of 1998. However, 
we found it difficult to obtain detailed information about the 
Y2K programs in these countries, thus hindering our ability to 
develop an overall evaluation of the progress being made. The 
apparent widespread use of pirated software, and the lack of 
information on when and where computer equipment and software 
were obtained in the first place, further confused the 
situation. Again, similar to what we found in the developing 
world, the prevalence of analogue technology (or none at all) 
will reduce the risk of major problems in telecommunications, 
utilities, and transportation.
    Overall Lack of Y2K Readiness in the Health Care Sector. 
Problems related to Y2K readiness in the health care sector 
were apparent in nearly every location visited. The failure of 
an information system or a medical device in a clinic or a 
hospital can put lives at risk. For example, it is conceivable 
that a computer might cut off important life support systems 
after the date change because it assumes the maintenance 
interval has been exceeded by one hundred years. In most of the 
countries we visited, efforts to assess the impact of Y2K on 
hospital systems and medical devices did not get under way 
until mid-1998, leaving very little time to remediate or 
replace noncompliant software and devices.
    The State Department has also recognized that the potential 
for Y2K vulnerability is not restricted to its domestic 
operations and has implemented measures to assess the Y2K 
readiness of all countries where the United States has a 
diplomatic presence. In November 1998, the Department sent a 
cable to embassies instructing them to complete a Y2K survey of 
their respective host country's Y2K efforts. With the survey 
instrument, the posts were expected to collect information on a 
wide array of subjects, including the effectiveness of the 
country's Y2K program, vulnerability to short-term economic and 
social turmoil, reliance on technology in key infrastructure 
sectors, and the status of Y2K correctional activities.
    As of February 1, 1999, the Department had received 
responses from posts in 132 countries. The Department has 
tasked a group of analysts to evaluate the data contained in 
these surveys, as well as information from other sources, such 
as USIA, the World Bank, and this office as well. Based on 
these analyses, the Department will determine whether travel 
warnings should be issued concerning particular countries, or 
drawdown or evacuation plans should be developed for areas 
where the Y2K problem may pose a risk to Americans living 
abroad. Toward that end, on January 29, 1999, the Department 
issued a worldwide public announcement on the Y2K problem to 
inform U.S. citizens of the potential for problems throughout 
the world because of the millennium ``bug.'' The notice cited 
specific areas of concern, including transportation systems, 
financial institutions, and medical care, as activities that 
may be disrupted by Y2K-related failures. Further, this 
announcement goes on to warn that all U.S. citizens planning to 
be abroad in late 1999 or early 2000 should be aware of the 
potential for problems and stay informed about Y2K preparedness 
in the location where they will be traveling.
OIG Work Within the Department of State and USIA

    OIG is also playing a significant role in assisting the 
Department and USIA to meet the millennium challenge facing 
their respective information technology infrastructures, 
including computer software, hardware, and embedded devices. 
The Department has recognized that it is vulnerable to the Y2K 
problem, and over the past two years has taken steps to 
remediate its systems and infrastructure to prevent disruptions 
to its critical business processes.
    The Department has established a Program Management Office 
(PMO), which is responsible for the overall management of the 
Y2K program within the Department. The PMO's responsibilities 
include tracking and reporting on the progress being made by 
the bureaus in remediating systems, providing technical advice 
and assistance, issuing contingency planning guidance, and 
certifying systems for Y2K compliancy. As of February 8, 1999, 
the Department reported that 61 percent of its mission-critical 
systems had been implemented, and it expects 90 percent to have 
been implemented by March 31, 1999.
    OIG's first series of reviews focused on assessing internal 
aspects of the Department's program to ensure its systems and 
devices are Y2K compliant, and we highlighted a number of key 
Y2K issues. These included the need for more thorough data 
collection and accurate status reporting to the Office of 
Management and Budget, better tracking of applications, greater 
focus on the computer networks that support Department 
operations, more specific attention to the vulnerabilities of 
the Department's overseas computer networks, and more timely 
issuance of critical Y2K guidance.
    In addition, my office has assisted in establishing a 
process through which the Department can certify the Y2K 
readiness of its mission-critical systems. The purpose of this 
process, which we understand is one of the most rigorous in the 
Federal Government, is to provide the Department's senior 
management with assurance that every feasible step has been 
taken to prevent Y2K-related failures on January 1, 2000. We 
assisted in writing detailed guidelines that each bureau must 
use in developing application certification packages for 
submission to PMO. In addition, through an agreement with the 
Under Secretary of State for Management, OIG is reviewing the 
adequacy of all certification packages for mission-critical 
systems before they are provided to the Y2K certification 
panel. Thus far, we have evaluated and provided our comments to 
the Department on seven application certification packages, and 
two of those have been officially certified.

           *         *         *         *         *

    In conclusion Mr. Chairman, our assessments in 25 foreign 
locations over the past 5 months have provided a mixed picture 
of international Y2K readiness. In some places we found 
convincing evidence that effective programs were in place in 
both the public and private sectors. In other places, however, 
the picture was either grim with no program in place and little 
progress being made, or inconclusive because the information 
provided did not contain sufficient detail to develop a 
reliable assessment.
    Faced with a relentless and unforgiving deadline, countries 
have to make difficult decisions concerning the use of scarce 
resources to fix a problem that has not yet occurred. As such, 
over the coming months, the State Department and other U.S. 
Government agencies will need to revisit the information and 
the issues presented here in order to gain a better 
understanding of the potential global impact of Y2K. Only a 
concerted and consistent effort to collect and analyze the best 
information available will allow the U.S. Government and its 
overseas partners to adequately predict and prepare for those 
Y2K-related failures that occur after December 31, 1999, and to 
take the actions needed to protect global U.S. interests.

                                <F-dash>


Statement of Thomas D. Roslewicz, Deputy Inspector General for Audit 
Services, U.S. Department of Health and Human Services

                              Introduction
    Mr. Chairman and Members of the Committee, I am Thomas D. 
Roslewicz, Deputy Inspector General for Audit Services of the 
Office of Inspector General (OIG), Department of Health and 
Human Services (HHS). I am pleased to submit this statement for 
inclusion in the permanent record of today's hearing on the 
readiness of HHS' computer systems for the Year 2000 (hereafter 
Y2K). Consistent with the focus of the hearing, this statement 
principally discusses the remediation efforts of the Health 
Care Financing Administration (HCFA) and the Administration of 
Children and Families (ACF).
    The OIG has taken an active role in monitoring the progress 
being made by HCFA and other HHS agencies to remediate their 
mission critical systems. We have an on-going presence, both at 
HCFA and ACF central offices, to oversee the progress on their 
internal systems. We also have focused our monitoring efforts 
on the Medicare contractors, where we have participated in over 
200 site visits with HCFA staff and HCFA's Independent 
Verification and Validation (IV&V) contractor. We have issued 
two reports to the HHS Chief Information Officer (CIO) and a 
number of alerts to the HCFA CIO pointing out HCFA's 
accomplishments as well as issues that were a concern to the 
OIG. Previous OIG testimony before the House Appropriations 
Subcommittee on Labor, HHS and Education outlined some of the 
more significant actions taken by HHS as well as some of our 
concerns. The following updates those actions and summarizes 
the results of our current reviews.
    But first I'd like to point out the benefit of the Y2K 
effort. The Y2K remediation, while monumental, also created an 
opportunity for HHS to collectively assess--and improve--the 
efficiency of its critical core business processes. 
Longstanding hardware and software problems are being 
corrected, configuration management is being improved, and the 
need for consistent dialogue between program managers and 
Information Technology (IT) staff is now recognized. We believe 
the result will be an increasingly better delivery of services 
by HHS to its constituents.
                                Summary
    The HHS continues to place Y2K remediation as its highest 
IT priority, with a particular focus on the systems that 
process billions of dollars each year for the Medicare program. 
Bi-weekly meetings continue with the Deputy Secretary, the HHS 
CIO, and Agency heads and CIOs. IV&V certification for 
compliance is required for all HHS agencies and independent 
testing is also required for HCFA's major systems (i.e., seven 
standard or ``shared'' systems, two of its Common Working File 
[CWF] host sites and eight of its most critical internal 
systems). This independent testing is to be done by a 
contractor other than the IV&V contractor.
    The HHS permitted agencies to reassess their initial 
inventory of mission critical systems, thus allowing them to 
focus resources on their core business processes. This resulted 
in a substantial reduction in the number of Department-wide 
mission critical systems from 490 to 290. For HCFA and the ACF, 
this reassessment did not result in any change in their total 
number of mission critical systems. It did, however, change the 
composition of the HCFA internal systems designated as mission 
critical.
    HHS maintained December 31, 1998 as its deadline for all 
mission critical systems to be Y2K compliant, thus allowing a 
full year for recertification and post-implementation testing. 
Unlike ACF, which reported that it met the December 31 due date 
and generally completed its IV&V certifications, HCFA stated 
that it never planned IV&V certification for either its 
internal or external systems. Instead the IV&V contractor was 
to participate in the remediation process and to ``witness'' 
the certification testing being done by the internal system 
owners and the Medicare contractors. In the case of the 
internal systems, the IV&V contractor was to issue a ``witness 
report'' on that phase of remediation.
    To meet the December 31 due date, HCFA accepted self-
certification of compliance from internal system owners and 
self-certifications with ``except-for'' statements from its 
Medicare contractors. The OIG's review of these exception 
statements found that some appear to be significant. For 
example, an exception reported for the Fiscal Intermediary 
Standard System (FISS), a system used by about 30 Medicare 
contractors, is the inability of one of the system's modules to 
recognize leap years as well as its continuing use of the two 
position year instead of the four position year and century. 
While apparently significant, these exceptions, given the size 
of the FISS (over 2,000 individual modules), must be evaluated 
to determine their true impact. In general, we believe that 
exceptions such as these may have a domino affect on system 
users, as they might be unable to certify their internal sub-
systems before receiving a certified version of the shared 
systems.
    According to HCFA, these exceptions will be resolved before 
the Office of Management and Budget's (OMB) deadline of March 
31, 1999. The HCFA also points out that all but one of its 
external systems, that being the Arkansas Part A Standard 
System (APASS) used by seven Part A contractors, are currently 
in production. The HCFA believes that this extended production 
period allows ample time for remediation of the exceptions 
reported as well as of any unforeseen problems surfaced. The 
HCFA expects to certify by the March 31 due date and to 
recertify systems during the summer of 1999 with all systems 
recertified by November 1, 1999.
    With regard to APASS, the Arkansas Blue Cross and Blue 
Shield, the system maintainer, could not both renovate and test 
the quality of code changes and still meet the December 31 due 
date. This became apparent when a significant number of users 
began requesting software corrections that hampered the 
contractor's ability to timely complete its code renovations. 
The contractor subsequently requested, and HCFA approved, an 
alternate remediation plan calling for date relief. On January 
27, 1999, Arkansas Blue Cross and Blue Shield distributed a Y2K 
compliant production version of software to all its users. 
These users are now testing APASS integration with their 
internal systems to determine compliancy by March 31, 1999. 
Arkansas's certification statement is pending the results of 
user testing. According to HCFA, all users have indicated that 
they would complete certification by March 31, 1999.
    Issues such as those mentioned above were due, in part, to 
an underestimation of the complexity and magnitude of the Year 
2000 problem. It was initially viewed as an IT problem that 
could be resolved by the IT specialists when, in fact, it was 
both an IT and business operation problem requiring attention 
from all levels of management. This underestimation was 
evidenced by the milestone schedules prepared by the HHS 
agencies, especially with regard to HCFA. The early schedules 
had all phases of the Year 2000 model compressed into the last 
2 months of the calendar year with no recognition of system 
interdependencies (i.e., ``end-end testing''). Consequently, it 
was impossible for management to get a true ``snap shot'' of 
its remediation progress. In the case of HCFA, this resulted in 
costly delays in making key management decisions for system 
conversions and transitions, contingency planning, developing 
test plans, and requesting legislative relief. To remedy the 
situation, HCFA centralized its Y2K remediation effort by 
creating residence teams at key contractor sites. These teams 
report directly to HCFA headquarters. We believe this action 
further strengthens the HCFA's ability to immediately identify 
an on-going or developing problem at a Medicare contractor and, 
equally important, immediately strategize a solution to the 
identified problem.
    As agencies approach OMB's March 31, 1999 deadline, the 
focus of system owners must now shift to end-to-end testing to 
ensure that all critical core business processes are Y2K 
compliant and functioning correctly. Testing of Medicare claims 
processing systems must include testing between contractors, 
testing of the interface with provider systems as well as 
testing the interface with the HHS' payment system with the 
U.S. Treasury. Results of recent monitoring visits to Medicare 
contractors have demonstrated the importance of testing. For 
example:
    <bullet> A November 1998 visit to the Computer Sciences 
Corporation (CSC), the system maintainer for the CWF, 
determined that neither CSC nor the previous system maintainer 
had planned to future date test the third release of the 1998 
changes to CWF. Our concern was that unless the changes made to 
the CWF in the third release were future date tested prior to 
January 1, 2000, the possibility existed that any changes which 
were not Y2K compliant would not be detected until it was too 
late. In the same alert, we reported a traceability matrix was 
needed to ensure sufficient test coverage. This matrix is a 
general control to ensure that all necessary tests are 
conducted against pass/fail criteria and are quality reviewed. 
The HCFA believes that changes made to the CWF in the third 
release were future date tested during the testing of the 
fourth release. We intend to follow-up on these issues.
    <bullet> A December visit to Blue Cross/Blue Shield of 
Oklahoma (BCBSOK) identified weaknesses in the contractor's 
testing plan. Although 96 percent of the claims processed by 
BCBSOK are received electronically, only on-line claims that 
are entered directly into the FISS are being tested. As a 
result of our discussions with BCBSOK officials, the contractor 
agreed to create a batch of electronic claims for additional 
testing through the entire claims process.
    <bullet> A December visit to Blue Cross/Blue Shield of 
North Carolina, a Fiscal Intermediary (FI) that uses the APASS, 
determined that the contractor needed: (i) a formal Y2K test 
plan, written test procedures, and documented test case 
scenarios for its APASS testing; (ii) a quality assurance plan 
to ensure the quality of its Y2K testing; (iii) a configuration 
management plan specific to Medicare, i.e., a plan of 
procedures to be followed when Medicare applications are 
designed, developed, and modified, and (iv) a formal 
contingency plan. We will follow-up on resolution of these 
findings during our next site visit.
    The Committee can be assured that we will continue our work 
in this most important area. The HCFA has accomplished a lot, 
but much more needs to be done. Their present remediation 
strategy is aggressive, high-risk, leaving little room for 
error. We will be monitoring efforts of both the HCFA central 
office and the Medicare contractors, with a focus on compliance 
testing, including end-to-end testing. We will continue our 
practice of reporting our concerns to the appropriate HHS 
officials so that timely action can be taken to facilitate the 
remediation process. We appreciate this opportunity to discuss 
HHS' systems' readiness for the Year 2000.

                                <F-dash>


Statement of White House Conference on Small Business

         The Impact of Year 2000 Transition on Small Businesses
    The undersigned are the elected Regional Chairs of Taxation 
representing the 2000 delegates to the White House Conference 
on Small Business. We were delegated the responsibility of 
advancing implementation of the conference's recommendations 
with regard to the tax issues and reporting progress back to 
the delegates. As the Ways and Means Committee prepares to 
consider the impact that the year 2000 conversion might have on 
the nation, the delegates to the White House Conference on 
Small Business want to remind you to consider the importance of 
the small business community to our economy. Please take into 
account the cost for them of updating computer software, 
computer hardware and other equipment because these issues are 
important for the growth and progress of small businesses in 
America.
                               Simplicity
    The single largest concern of the White House Conference on 
Small Business was dealing with the overall complexity of 
government and the complexity of the tax code in particular. 
Allocating and reporting income taxes and payroll taxes is the 
one common experience of every business and may be the only 
interaction that most businesses have with the federal 
government. Simplifying the tax process would, therefore, 
improve the situation for every small business. Studies have 
shown that it costs small businesses more to comply with the 
tax code, and considerably more in comparison to each dollar of 
sales, than it costs large businesses. Small businesses have 
fewer sales over which to spread the cost.
    This is true for the cost allocation of the expenses 
related to the year 2000 conversion. Small businesses do have 
some tools, Sec. 179 expensing, for example, which could help 
them, but the committee should make an extra allowance to help 
them meet what could be a dramatic one-time expenditure.

           Regular Expensing--Internal Revenue Code Sec. 179

    The expensing limit of IRC Sec. 179 will be gradually 
increased to $25,000 (by the year 2003) from its current level 
as provided for in the Small Business Job Protection Act passed 
by Congress in 1996. The small business community appreciated 
the attention Congress gave to this issue, but would urge 
greater increases and quicker implementation. Expensing is 
perhaps one of the most useful tax simplifiers for small 
business; however its use still remains limited. In addition, 
Congress did not correspondingly raise the $200,000 limit on 
purchases. These days, one piece of machinery (even for a very 
small business) can exceed this limit, effectively eliminating 
many small businesses from any benefits.

                   Software Expensing & The Year 2000

    First, we, the Regional Chairs for Taxation of the White 
House Conference on Small Business, would like to point out 
that the allocation of costs for software is already a cloudy 
area with or without the year 2000 problem. We feel a way 
Congress could make a tremendous contribution is to permanently 
allow expensing in the year a business purchases software 
obtained for business purposes. It is practically impossible to 
declare with certainty what the useful life of software is 
within a business. With the pace of technology, useful life 
gets shorter and shorter as better products that exploit 
hardware advances seem to hit the market continuously.
    This basic problem is multiplied by the year 2000 
conversion that many small businesses do not fully understand. 
The cost to them to upgrade their computer software and 
hardware might be considerable. But software and hardware may 
only scratch the surface of the problem. Identifying and 
correcting buried chips in everyday equipment may really 
explode the costs. Think of computerized heating, cooling, and 
security systems. Consider all the cell phones, business 
telephone systems, dispatcher systems, beepers, fax machines 
and Xerox machines. A small business needs to also look at 
their automobiles, trucks and other heavy equipment. The list 
goes on and on.
    We believe it serves public policy to provide incentives to 
help small businesses assess their exposure to the problem and 
purchase new software as soon as possible. This will insure the 
continuity and free flow of business in 2000. The full cost to 
small business to assess the threat and then to test and 
replace equipment as necessary should be deductible in the year 
of expense. The Process should be kept as simple as possible 
and would not involve a major revenue outlay since these costs 
are already recoverable through expensing, or depreciation--
capitalization.
    In 1996, the Gartner Group estimated that the year 2000 
problem would cost $600 billion to fix. Later estimates by 
Lloyds of London have been as high as $1 trillion. Economist Ed 
Yardeni has estimated that there is a 35% chance of a global 
recession because some businesses will be unable to deal with 
their year 2000 problems. And, unlike most projects, the final 
due date can not be changed with the year 2000 problem--the 
year 2000 will arrive whether we are ready or not.
    The Federal Reserve is currently predicting that 1% to 7% 
of U.S. businesses will fail because of the year 2000 problem. 
The Board is encouraging all businesses to address the problem 
as early as possible. The Small Business Administration and the 
Department of Commerce are encouraging all small businesses to 
make plans to assess the situation now so that actions can be 
taken in a timely manner. Many of the affected businesses will 
need new items of software and hardware, and we would urge that 
the materials immediately be deemed able to be expensed.
                                Summary
    In general, the White House Conference has urged Congress to 
investigate the simplest ways to help small businesses solve their 
problems. We would like to see legislation to increase Sec. 179 
expensing and permit small businesses to write off in the year of 
purchase any expense related to year 2000 conversion but without regard 
for those expenses to the limits of the current Sec. 179. If, for 
budget purposes, the bill must be limited, we suggest limits along the 
lines of those in HR 179 offered by Representative Thurman, that 
generously push up the expensing amount.
    As always, the White House Conference Tax Chairs would like to 
recommend that any changes that are considered by the Committee be 
analyzed for their impact on small businesses and that representatives 
of the small business community be included in future hearings on the 
subject.
    We would like to work with you, your colleagues, and your staff to 
help you better understand the importance of these proposals to small 
businesses and the U.S. economy. Thank you for your time and attention 
to this matter.

                                <F-dash>

                 The White House Conference Tax Chairs
    Region 1: Debbi Jo Horton, Providence, Rhode Island
    Region 2: Joy Turner, Piscataway, New Jersey
    Region 3: Jill Gansler, Baltimore, Maryland
    Region 4: Jack Oppenheimer, Orlando, Florida
    Region 5: Paul Hense, Grand Rapids, Michigan
    Region 7: Edith Quick, St. Louis, Missouri
    Region 8: Jim Turner, Salt Lake City, Utah
    Region 9: Sandra Abalos, Phoenix, Arizona
    Region 10: Eric Blackledge, Corvallis, Oregon

                                <greek-d>

</pre></body></html>
